<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Commerce, Justice, Science, and Related 
Agencies for inclusion in the record. The submitted materials 
relate to the fiscal year 2007 budget request for programs 
within the subcommittee's jurisdiction.]

 Prepared Statement of the National Association of Marine Laboratories

    Mr. Chairman and members of the subcommittee, on behalf of the 
National Association of Marine Laboratories I am pleased to submit this 
statement in strong support of the President's American Competitiveness 
Initiative, as well as the research and education programs under the 
subcommittee's jurisdiction that are vitally important for a vibrant 
oceans, coastal, and Great Lakes research and education enterprise. My 
name is Tony Michaels and I am the director of the Wrigley Institute 
for Environmental Studies at the University of Southern California. I 
am submitting this statement as the President of National Association 
of Marine Laboratories (NAML).
    NAML is a nonprofit organization of over 120 member institutions 
employing more than 10,000 scientists, engineers, and professionals and 
representing ocean, coastal and Great Lakes laboratories stretching 
from Maine to the Gulf of Mexico to the west coast, from Guam to 
Bermuda and from Alaska to Puerto Rico. NAML labs support the conduct 
of high quality ocean, coastal and Great Lakes research and education 
in the natural and social sciences and the effective use of that 
science for decision-making on the important issues that face our 
country. Through national and regional networks, NAML labs--
  --Promote and support basic and applied research of the highest 
        quality from the unique perspective of coastal laboratories;
  --Assist local, regional and State entities with information related 
        to the use and conservation of marine and coastal resources 
        using ecosystem-based management approaches;
  --Recognize, encourage and support the unique and significant role 
        that coastal laboratories play in workforce development, 
        enhancing science/ocean literacy, and in conducting education, 
        outreach, and public service programs for K-gray audiences; and
  --Facilitate the exchange of information and relevant expertise 
        between NAML member institutions, government agencies, and the 
        private sector.
                  american competitiveness initiative
    NAML strongly supports the President's fiscal year 2007 American 
Competitiveness Initiative (ACI) for research and education along with 
the accompanying Presidential budget request which includes a doubling 
of the Federal commitment to basic research programs in the physical 
sciences over the next 10 years. NAML expressly supports the 
President's fiscal year 2007 request of $6.02 billion for the NSF.
    While not officially part of the President's ACI, NAML also urges 
the subcommittee to recognize and support the vital research programs 
of the National Oceanic and Atmospheric Administration (NOAA) and calls 
on the subcommittee to fund NOAA at a level of $4.5 billion which would 
enable NOAA to carry out its multiple missions on behalf of the 
American people.
                ocean, coastal and great lakes research
    NAML strongly supports enhanced support for cutting edge ocean, 
coastal, and Great Lakes research in the natural and social sciences, 
education, outreach, and related infrastructure. The marine sciences 
have much to offer the Nation as it seeks to strengthen its ability to 
innovate and compete in today's global economy. They are inherently 
interdisciplinary, push the envelope in terms of technology 
development, test the boundaries of our data collection and analysis 
systems, and offer an effective training ground for future scientists 
and engineers. As the Nation seeks to augment its investment in the 
physical sciences to increase its international competitiveness, NAML 
calls on policy makers to recognize the integrated nature of the marine 
sciences and to support an enhanced investment in these as well as 
other science and engineering disciplines as part of any long term 
economic competitiveness policy.
    NAML supports increased federal funding for the National Science 
Foundation (NSF) consistent with the President's budget for fiscal year 
2007. Basic research and the transfer and use of the knowledge 
developed through research are vital for the long term economic 
competitiveness and national security of this Nation. It is 
increasingly important for the Nation to maintain--and enhance--its 
scientific edge in a global community with emerging new capacities for 
scientific research. NSF provides vital support for basic research and 
education which enhances public understanding of the Nation's oceans, 
coastal areas, and the Great Lakes. NSF also provides important support 
for basic laboratory facilities, instrumentation, support systems, 
computing and related cyberinfrastructure, and ship access. The final 
report of the U.S. Commission on Ocean Policy makes several 
recommendations on the need to develop and enhance ocean, coastal and 
Great Lakes research infrastructure. That infrastructure includes 
research vessels, ocean observing systems, and the shore-based 
instrumentation and equipment needed to collect and analyze the data 
and observations made by research vessels and the observing systems. 
For that reason, NAML strongly supports the NSF proposal to initiate 
support for the development of the Ocean Observatories Initiative in 
the fiscal year 2007 budget request. NAML also urges the Congress to 
provide $5 million for the expansion of the NSF's Field Stations and 
Marine Laboratories program. This modest program provides researchers 
with access to state of the art instrumentation for research and 
education and necessary cyberinfrastructure and data management systems 
that complement the Ocean Observatories Initiative.
    NOAA is one of the premier science agencies in the Federal 
Government, providing decision makers with important data, products and 
services that promote and enhance the Nation's economy, security, 
environment, and quality of life. It was NOAA--and its underlying 
science enterprise--that enabled the delivery of accurate and timely 
information regarding the impending landfall of Hurricane Katrina in 
2005, a forecast that saved tens of thousands of lives.
    The $4.5 billion recommended for NOAA would fully fund the 
President's fiscal year 2007 budget request, restore funding for core 
programs, and address all the areas of concern and priority that have 
traditionally been supported by Congress. It would allow enhancements 
in the development of an integrated ocean and atmospheric observing 
system; increased research and education activities and expanded ocean 
conservation and management programs; and provide critical improvements 
in infrastructure (satellites, ships, high performance computers, 
facilities), and data management.
    In August 2004, a congressionally requested study of NOAA's 
research programs, entitled, Review of the Organization and Management 
of Research in NOAA concluded that extramural research is critical to 
accomplishing NOAA's mission. The access to such enhanced research 
capacities provides NOAA with world class expertise not found in NOAA 
laboratories; connectivity with planning and conduct of global science; 
means to leverage external funding sources; facilitation of multi-
institution cooperation; access to vast and unique research facilities; 
and access to graduate and undergraduate students. Academic scientists 
also benefit from working with NOAA, in part, by learning to make their 
research more directly relevant to management and policy. It is an 
important two-way interaction and exchange of information and value.
    NAML strongly supports a robust NOAA extramural research activity 
and calls on the subcommittee to support the National Sea Grant 
program, the National Undersea Research program, the Ocean Exploration 
Initiative, as well as research related to aquaculture, invasive 
species, harmful algal blooms and the various joint and cooperative 
institutes at levels envisioned in last year's Senate version of the 
Commerce-Justice-State appropriations bill. These partnership programs 
are not only consistent with the findings of the August 2004 review of 
NOAA research, but are also consistent with the NOAA strategic plan and 
enable NOAA to carry out its mission at the State and local level.
         ocean, coastal and great lakes education and outreach
    A strong national ocean policy can only be sustained through the 
development of high-quality coastal, ocean, and Great Lakes education 
programs that support learning at all age levels and by all 
disciplines. Through such efforts, NAML can highlight the relevance and 
utility of coastal, ocean and Great Lakes resources and demonstrate and 
increase the value of incorporating science-based decisions in a public 
policy process designed to protect and enhance these resources. For 
that reason, NAML strongly supports the NSF Centers for Ocean Science 
Education Excellence program (COSEE), NSF education and human resources 
generally, and NOAA's Office of Education. Such programs provide a rich 
environment within which partnerships flourish. A greater understanding 
of the oceans and coastal ecosystems will instill a sense of 
stewardship for these important environments. These programs also yield 
a more diverse workforce that includes a significant participation by 
underrepresented groups. Preparing these cultural bridges would allow 
us to capitalize upon diverse national strengths, ensuring the flow of 
intellectual talent into ocean, coastal, and Great Lakes-related 
fields.
               ocean commission and interagency response
    NAML strongly supports implementation of the recommendations from 
the U.S. Commission on Ocean Policy and the initial efforts of the 
administration's Interagency Committee on Ocean Policy to develop a 
response to the commission's recommendations. The commission's analysis 
of policies governing oceans, coasts, and Great Lakes has resulted in a 
collection of bold and broad-reaching recommendations for reform. 
Implementation of these recommendations by the Federal Government will 
enable the United States to maintain and strengthen its role as a world 
leader in protecting and sustaining the planet's oceans, coasts, and 
Great Lakes. NAML is particularly supportive of the commission's 
recommendation to re-align NOAA's functions to support ecosystem-based 
management approaches. In addition, we fully endorse the commission's 
recommendations to double the federal investment in ocean, coastal, and 
Great Lakes research as well as its recommendation to promote a strong 
federal investment in ocean, coastal, and Great Lakes education, 
outreach, and stewardship. The commission's recommendations are 
important first steps in addressing the Nation's ocean, coastal, and 
Great Lakes needs.
    NAML is supportive of the initial steps taken by the administration 
in response to the commission's report--including the creation of 
Committee on Ocean Policy established in December 2004 by Executive 
Order. NAML is committed to working with the interagency Joint 
Subcommittee on Ocean Science and Technology and to commenting on the 
forthcoming Ocean Research Priorities Plan and Implementation Strategy.
      integrated ocean, coastal and great lakes observing systems
    Integrated observations offer critical information on coastal 
processes necessary for addressing issues, such as the health of humans 
and marine life, weather and climate nowcasts and forecasts, homeland 
security, and resource management. Coastal and marine laboratories have 
been addressing this need. However, funding for existing subsystems is 
difficult to sustain, and significant additional funding is required to 
implement the national integrated system. Although efforts have been 
made in the past to coordinate federal agencies involved in ocean and 
coastal research and national and international programs regarding 
coastal, ocean, and Great Lakes observing systems, further investment 
and strengthened cooperation at all levels is still needed to ensure 
that these systems are sustained and that they incorporate the long-
term monitoring efforts of the Nation's coastal and marine 
laboratories. NAML enthusiastically supports the development of a 
sustained integrated ocean observing system to be managed by NOAA.
                               conclusion
    NAML recognizes the extraordinary fiscal constraints and difficult 
choices the subcommittee must make. Nevertheless, the research and 
education programs under the subcommittee's jurisdiction are vital 
investments in the future of this Nation and deserve the maximum 
support possible. Thank you for the opportunity to submit these 
recommendations.
                                 ______
                                 

    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology

    The Federation of American Societies for Experimental Biology 
(FASEB) is a coalition of 22 independent scientific societies who 
together represent more than 84,000 biomedical research scientists. The 
mission of FASEB is to enhance the ability of biomedical and life 
scientists to improve, through their research, the health, well-being 
and productivity of all people. As your committee begins deliberations 
on appropriations for agencies under its jurisdiction, FASEB would like 
to offer its views on funding for the National Science Foundation 
(NSF). FASEB recommends an appropriation of $6.4 billion for the 
National Science Foundation in fiscal year 2007. This appropriation 
should be the start of a long-term, steadily increasing national 
investment in the agency, which was the goal of the NSF Doubling Act of 
2002.
    For more than 50 years, NSF has served as our Nation's premier 
sponsor of fundamental research and science education. NSF invests in 
talent, ideas, and tools that cross all boundaries of scientific 
inquiry to produce new discoveries and technologies. These innovations 
save lives, enhance our economic productivity, protect our country, and 
increase our knowledge and understanding of the world.
    As other countries make research and development (R&D) spending a 
top priority, U.S. investment in basic research achieves heightened 
importance for maintaining America's global competitiveness. According 
to the recent National Academies' report, Rising Above The Gathering 
Storm: Energizing and Employing America For A Brighter Future, the U.S. 
risks falling behind other nations in its number of highly trained 
scientists and engineers. In China, 57 percent of undergraduates 
receive their degrees in science and engineering, compared to just 33 
percent in the United States.\1\ A large fraction of the U.S. students 
lack the fundamental knowledge necessary to succeed in these fields. 
Less than one-third of U.S. 4th grade and 8th grade students performed 
at or above a level of ``proficient'' in mathematics; proficiency was 
considered the ability to exhibit competence with challenging subject 
matter.\2\ In 2001, the Hart-Rudman Commission on American National 
Security--a bipartisan panel set up to address the national security 
challenges of the new century--stated, ``second only to a weapon of 
mass destruction detonating in an American city, we can think of 
nothing more dangerous than a failure to manage properly science, 
technology, and education for the common good over the next quarter 
century.'' \3\
---------------------------------------------------------------------------
    \1\ Data are from National Science Board. 2006 Science and 
Engineering Indicators (NSB 06-02). Arlington, VA: National Science 
Foundation, http://www.nsf.gov/statistics/seind06/c2/c2s4.htm. accessed 
March 8, 2006.
    \2\ National Center for Education Statistics, Trends in 
International Mathematics and Science Study, 2003. http://nces.edu.gov/
timss accessed November 16, 2005.
    \3\ U.S. Commission on National Security for the 21st Century. 
Recommendations of Hart-Rudman National Security Report: R&D. FYI: The 
AIP Bulletin of Science Policy News. FYI # 22: February 28, 2001. 
www.aip.org/fyi/2001/022.html. accessed November 16, 2005.
---------------------------------------------------------------------------
    NSF receives less than 5 percent of the federal R&D budget but 
takes a leading role in promoting progress in science and technology. 
Each year, NSF awards grants to more than 200,000 scientists, teachers, 
and student researchers for cutting-edge projects in science, 
engineering, and mathematics at thousands of educational institutions 
across the country. NSF educational programs develop the talent needed 
to maintain our science and technology (S&T) leadership.
    Through its core programs, NSF subsidizes the highest quality, 
fundamental research in all major S&T fields. This broad approach makes 
the agency unique among federal sponsors of research, enabling NSF to 
play a critical role in fostering interdisciplinary collaboration, 
stimulating the flow of ideas across scientific boundaries. The ability 
of scientists to share insights and perspectives across disciplines has 
produced impressive breakthroughs and solutions for perplexing 
problems. For example, NSF-funded research at the intersection of 
material science and medicine has developed a modified form of collagen 
that could be used to block the formation of scar tissue, control the 
growth of tiny blood vessels in tissues destined for transplant, and 
even lead to better infection-fighting bandages.
    Research funded by the National Science Foundation is providing 
knowledge and information on a host of America's most vexing problems. 
With breakthroughs in public safety and natural disaster mitigation, 
alternative energy sources, and medicine, NSF support is leading the 
way toward new discoveries that have significant economic and societal 
benefits. Recent advances by NSF-funded scientists include:
    The recent natural disasters are a stark reminder that much is 
needed in the way of understanding how these unique phenomena happen 
and what can be done to anticipate and respond to such occurrences. 
Research funded by NSF is exploring ways to reduce the impacts of 
catastrophic events.
  --Epidemic containment.--An NSF-supported computer network 
        contributed to the containment of the SARS outbreak last year 
        by connecting quarantined doctors in Taiwan to a world-wide 
        network of medical researchers. This network has a potential 
        application in the event of a pandemic flu outbreak.
  --New Orleans levee work.--NSF-funded engineers discovered that the 
        flooding of New Orleans following Hurricane Katrina was caused 
        not by water flowing over the top of the levees, but was the 
        result of faulty soil composition supporting the levee walls.
  --Hurricane and fire forecasting.--Computer models, created via NSF 
        funding, have been used to predict the path and intensity of 
        both hurricanes and fires, providing valuable information to 
        reduce the loss of lives and property.
  --Unmanned aircraft search and rescue.--Unmanned aircraft, developed 
        through NSF support, were used to search for survivors 
        immediately following Hurricane Katrina.
    As our population grows and our dependence on oil and natural gas 
increases, research into alternative fuels will help conserve energy, 
reduce the need for petroleum, and provide environmentally sustainable 
solutions to our energy needs. NSF research is working towards making 
alternative fuel technology a reality.
  --Ocean-powered buoys.--NSF has supported development of 
        electromagnetic buoys that efficiently collect the power of 
        ocean waves.
  --Extended-life batteries.--Researchers have developed a porous 
        silicone chip that can be used in low-energy batteries to power 
        remote sensors for decades.
  --Hydrogen leak sensor.--With the current emphasis on hydrogen fuel 
        cells as an energy source, these miniature sensors will be 
        crucial to prevent leaks of this combustible gas.
    NSF is ideally positioned to sponsor new research efforts that 
combine the best researchers from biology, chemistry, computer science, 
economics, engineering, environmental sciences, geology, mathematics, 
and physics to help alleviate human suffering and increase the health 
of all Americans.
  --New antibiotics.--By investigating exotic plant species in Central 
        America, investigators have identified what could be the next 
        generation of antibiotics, helping to slow the growing presence 
        of antibiotic-resistant infections.
  --Heart valve testing.--As a way to test the effectiveness of 
        replacement heart valves, researchers supported by NSF have 
        determined that curdled milk best mimics the characteristics of 
        blood as it passes through the valve.
  --Freeze-tolerant tissue.--NSF awards are being used to explore the 
        unique properties of animals such as frogs and fish, which 
        survive freezing temperatures, in an effort to preserve tissues 
        for transplantation over extended periods of time.
    Nanotechnology is an innovation in which objects are designed and 
built at the level of individual atoms or molecules. This new field is 
revolutionizing everything from computers to health care and NSF is 
leading the charge.
  --Nanopowders.--Chemically manufactured nanopowders have been 
        designed to absorb toxic chemicals, including nerve gas and 
        acid spills, with rapid action to prevent hazardous situations.
  --Bio-Nanotube.--Small chemical sensors have the potential to rapidly 
        monitor the bodily functions of patients, such as blood sugar 
        levels in diabetics or hormone levels after drug treatment, 
        without invasive procedures. They can also be used to deliver 
        drugs or genes to specific cellular targets.
  --Nanowires.--Miniature-scale wires are able to traverse the blood 
        vessels of the brain to monitor and stimulate specific brain 
        regions, with potential use in Parkinson's and trauma patients.
    One of the most important roles that NSF plays in support of the 
Nation's S&T infrastructure is its major contribution to science 
education. NSF helps create the next generation of scientists and 
engineers through its active support of primary and secondary school 
science curriculum development and graduate and postdoctoral student 
training in all scientific disciplines. NSF funding is necessary to 
ensure an adequately prepared workforce for addressing the challenges 
of the 21st century. Through NSF, our Nation supports each stage in the 
science education pipeline to encourage and retain the best and 
brightest talents in S&T.
  --Science mentoring for young women.--Researchers have determined 
        that pairing high school girls interested in science with 
        elementary school girls encourages both groups to pursue a 
        science education.
  --Engaging young scientists.--Through NSF-funded training grants in 
        science and math, researchers in North Carolina have developed 
        new activity-based curriculums to encourage young students to 
        pursue science and math careers.
    NSF supports nearly 50 percent of the non-medical basic research at 
U.S. colleges and universities. It funds research in new frontiers of 
scientific inquiry and contributes to creating a highly skilled, 
competitive science and engineering workforce. In addition, NSF 
programs have been cited by the Office of Management and Budget and the 
Government Accountability Office for their creativity, efficiency and 
innovativeness. Despite this record of accomplishment, NSF funding has 
lagged, resulting in a steady reduction in the percentage of quality 
applications that receive funding, a failure to increase the size of 
NSF awards to support the increased costs of research, and the loss of 
training support for the next generation of scientists and engineers. 
Congress recognized this agency's critical importance when it 
authorized the doubling of the NSF's budget by 2007.\4\ To date, 
however, Congress and the administration have failed to fulfill the 
vision of this legislation.
---------------------------------------------------------------------------
    \4\ National Science Foundation Act of 2002. P.L. No. 107-368. 
December 19, 2002.
---------------------------------------------------------------------------
    If we are going to continue leading the world in innovation and 
prepare for the future, NSF is crucial to this goal. As NSF Director 
Dr. Arden Bement, Jr., has said, ``America's sustained economic 
prosperity is based on technological innovation made possible, in large 
part, by fundamental science and engineering research. Innovation and 
technology are the engines of the American economy, and advances in 
science and engineering provide the fuel.'' \5\ Without a greater 
commitment to NSF, our country faces the grave possibility of losing 
its global dominance in science and technology.
---------------------------------------------------------------------------
    \5\ Dr. Arden Bement Jr. Testimony before the United States Senate 
Appropriations Subcommittee on VA-HUD and Independent Agencies. 
February 17, 2005, available online at: http://
appropriations.senate.gov/hearmarkups/record.cfm?id=232167, accessed on 
November 1, 2005.
---------------------------------------------------------------------------
    President Bush recognized the importance of research funded by the 
National Science Foundation when he unveiled his American 
Competitiveness Initiative last month. The President has said 
``Groundbreaking ideas generated by innovative minds have paid enormous 
dividends--improving the lives and livelihoods of generations of 
Americans. With more research in both the public and private sectors, 
we will improve our quality of life--and ensure that America will lead 
the world in opportunity and innovation for decades to come.'' We urge 
you appropriate $6.4 billion for the National Science Foundation in 
fiscal year 2007.
                                 ______
                                 

            Prepared Statement of the Sea Grant Association

           sea grant fiscal year 2007 appropriations request
    Mr. Chairman and members of the subcommittee. I am Jonathan Kramer, 
President of the Sea Grant Association and Director of the Maryland Sea 
Grant program. The Sea Grant Association (SGA) is a non-profit 
organization dedicated to furthering the Sea Grant program concept. The 
SGA's regular members are the academic institutions that participate in 
the National Sea Grant College program. SGA provides the mechanism for 
these institutions to coordinate their activities, to set program 
priorities at both the regional and national level, and to provide a 
unified voice for these institutions on issues of importance to the 
oceans and coasts. The SGA advocates for greater understanding, use, 
and conservation of marine, coastal and Great Lakes resources.
    The SGA joins with many other NOAA stakeholders to urge the 
subcommittee to recognize and support the vital research and outreach 
programs of the National Oceanic and Atmospheric Administration (NOAA). 
SGA requests the subcommittee to fund NOAA at a level of $4.5 billion 
in fiscal year 2007 which would enable the agency to carry out its 
mission: To understand and predict changes in the Earth's environment 
and conserve and manage coastal and marine resources to meet our 
Nation's economic, social, and environmental needs.
    As part of the overall fiscal year 2007 NOAA appropriation, the SGA 
requests the subcommittee to appropriate $72 million for the National 
Sea Grant College program. This amount is well within the $100.5 
million level authorized in Public Law 107-299, National Sea Grant 
College Program Act Amendments of 2002 for fiscal year 2007. Further, 
this recommended amount is the same as the amount provided in last 
year's Senate passed Commerce-Justice-State appropriations bill. 
Appropriating this request would reverse the significant reduction 
taken by the program in fiscal year 2006 and more importantly, would 
allow the Sea Grant program to provide the research support, 
information, education, and outreach needed to assist NOAA in carrying 
out its mission throughout the United States.
             sea grant--science serving the nation's coasts
    Sea Grant is an investment in America's economic future. Attempts 
to balance our booming coastal economy with its associated impacts on 
the coastal and marine environment have raised the stakes for effective 
government action. America's coastal and ocean resources encompass an 
immense area with more than 95,000 miles of coastline and more than 3.4 
million square miles of ocean within the U.S. territorial sea. Over 
half the Nation's 280 million people live in coastal counties that 
comprise less than one-fifth of the total land area of the United 
States. The economy of these coastal counties is critical to the 
economic well being of the entire Nation, providing a wide array of 
goods and services that account for at least 50 percent of the gross 
national product of the United States. By 2010, U.S. foreign trade in 
goods is expected to double to $5 trillion, with ocean-going cargo 
increasing by 30 percent. Coastal tourism and recreation account for 85 
percent of all U.S. tourism revenues. The oceans, in one way or 
another, account for one out of every six jobs. Tax revenues in coastal 
areas are among the fastest growing revenue sources for State and local 
governments. In fact, the collective economic impact of the coastal 
economy far exceeds U.S. agriculture, and yet federal investments in 
Sea Grant colleges and universities are much smaller than investments 
in the Land Grant college and university system funded by the U.S. 
Department of Agriculture for agriculture and land-based natural 
resource activities, the program on which Sea Grant was modeled.
    Research supported by Sea Grant is based on competition, undergoes 
rigorous peer-review, and is geared to address the many marine and 
coastal challenges and opportunities that face our citizens. The 
federal investment in Sea Grant enables a nationally coordinated 
network embedded in the best research universities to apply 
unparalleled intellectual capital to address these problems and 
opportunities. Cost-effectiveness is enhanced by access to university 
management infrastructure.
    Sea Grant serves the Nation in many ways. Sea Grant's unmatched 
access to local constituencies through its extension and outreach 
programs ensures that federal investment is targeted at relevant issues 
for the benefit of NOAA and other Federal agencies, State and local 
governments, coastal environmental managers, local fishermen, other 
marine resource users, and the general public. This contact also 
provides an important conduit for recommendations back to Sea Grant and 
NOAA for needed research and improved policies and services. Sea 
Grant's non-regulatory and science-based focus has established the 
program as an honest broker among a wide range of constituencies. In 
addition, marine education programs supported by federal funds reach 
from kindergarten to marine-related business people to elder hostels. 
The matched federal investment also fills the enormous demand for 
expertise to tackle rapid growth, change, and pressure on coastal 
resources.
    Sea Grant is a national program addressing national needs. It is a 
partnership of and depends on partnerships among government, academia, 
business, industry, scientists, and private citizens to help Americans 
understand and wisely use our precious coastal waters and Great Lakes 
for enjoyment and long-term economic growth. This network unites 30 
State Sea Grant programs, over 300 universities, and millions of 
people. Sea Grant is an agent for scientific discovery, technology 
transfer, economic growth, resource conservation, and public education. 
Study after study has shown that Sea Grant returns to the taxpayers 
many times its annual budget in goods and services. It is government as 
our citizens want it--visible, tangible, relevant, efficient, and 
effective.
              sea grant--initiatives for fiscal year 2007
    When adequately funded, Sea Grant can serve as the gateway to 
relevant and reliable scientific information used to address local, 
regional and Statewide resource management issues. Funding Sea Grant at 
the requested level will enable it to strategically invest in research 
and outreach programs targeted at important practical problems facing 
the Nation and address those problems with science-based solutions. Two 
initiatives for fiscal year 2007 demonstrate this objective.
    Building Resilient Coastal Communities.--Coastal areas of the 
United States comprise only 10 percent of our Nation's land mass, yet 
they are home to more than 54 percent of Americans. As witnessed by the 
aftermath of Hurricanes Katrina, Rita, and Wilma, coastal communities 
and the natural resources and infrastructure on which they depend are 
at increasing risk from hurricanes, tsunamis, coastal storms, shoreline 
change, and sea level rise. Sea Grant research and outreach provide 
coastal communities with the best available science-based information 
for sustainable community decision-making, coupled with the knowledge, 
experience and tools needed to bring diverse coastal interests 
together. The knowledge, programs and approaches developed by Sea Grant 
in one State or region can be applied broadly throughout the national 
network. The Sea Grant network will expand its efforts to improve 
coastal community leadership and planning capacities to jointly address 
economic, environmental and social issues. Our aim is to encourage and 
equip coastal communities to utilize long-term, integrated approaches 
to developing sustainable communities. This initiative would engage the 
research, education and outreach capabilities of Sea Grant's 
universities and partners to enhance mitigation, preparedness, 
planning, education, response, and recovery in coastal communities 
throughout the Nation.
    Ensuring Safe and Sustainable Seafood for Americans.--The U.S. 
seafood industry faces many challenges and opportunities as it enters 
the 21st century. These include an increasingly competitive global 
marketplace, complex trade policies, stricter safety regulations, 
rising energy costs, food security concerns and an increasingly limited 
seafood supply. Change also brings new opportunities to expand markets, 
form strategic alliances and encourage innovations to lower production 
costs, create new products, add value to existing ones, increase safety 
and reduce waste. In this new seafood era, science and education are 
cornerstones for maintaining the vitality of the Nation's $27 billion 
seafood industry ($55 billion including consumer expenditures) and its 
250,000-member workforce. To remain competitive, the industry must 
control the costs of catching, transporting, processing, storing, and 
distributing seafood. The U.S. seafood industry recognizes the benefits 
of innovation, but it is comprised of mostly small and medium-sized, 
independent enterprises that simply cannot afford research and 
development programs. Through its unique capabilities in research and 
technology transfer, the national Sea Grant network is poised to help 
the industry increase quality and safety, add value, lower costs and 
expand seafood supplies and markets.
                  sea grant--selected accomplishments
    Aquaculture.--Sea Grant research and extension results have created 
the growth and development of fish farming in the United States. As a 
result, the growing of hybrid striped bass in ponds has expanded in 
just 10 years from a small demonstration project to an industry that 
produces 10 million pounds of fish valued at $25 million annually. Sea 
Grant also developed a sterile oyster that can be grown year-round and 
that now comprises one-third of the $86 million U.S. oyster market.
    Coastal Hazards.--Based on Sea Grant recommendations, in 1986 the 
State of North Carolina implemented revisions in the State's hurricane 
resistant building code which increased the required minimum depth of 
foundation pilings for erosion prone coastal buildings. In 1996, 
Hurricane Fran was the first test of those standards. As a result, on 
Topsail Island, 200 of the 205 newer oceanfront houses built to the 
``Sea Grant'' standards survived the hurricane with minimal foundation 
damage. In comparison, over 500 older oceanfront houses were destroyed 
in the same area.
    Coastal Communities and Economies.--Much of the 32-mile river front 
along the Detroit River is bulkheaded and in disrepair thus requiring 
major revitalization investment. ``Soft'' engineering offered 
developers cost, maintenance and environmental advantages over 
traditional hard structures and promoting these advantages was 
necessary to meet river front renewal goals. Sea Grant has been 
extensively involved in this effort and chairs the Steering Committee 
for the Greater Detroit American Rivers Heritage initiative. As a 
result, Sea Grant sponsored conferences and workshops and published 
best management practice manuals which led General Motors to utilize 
less expensive ``soft'' engineering techniques in the development of 
its multi-million dollar, 32 mile long urban river promenade in the 
heart of Detroit, thus providing substantial savings to the project 
while simultaneously helping the environment.
    Fisheries.--Sea Grant research has shown that visually modifying 
salmon gillnets and adjusting fishing schedules can reduce 
entanglements of seabirds. As a result, these findings, coupled with an 
observer program coordinated by Sea Grant, prevented the closure of the 
Puget Sound sockeye salmon fishery, saving hundreds of jobs and 
millions of dollars in the region's economy.
    Ocean/Coastal Technology and Marine Biotechnology.--Sea Grant 
organized the first systematic research effort in the United States to 
develop new drugs from marine organisms. As a result, Sea Grant 
researchers have discovered and described more than 1,000 compounds 
that may be vitally important as new anticancer, anti-inflammatory, and 
antibiotic agents.
    Seafood Science and Safety.--To aid the seafood industry in meeting 
educational and training needs called for by new FDA regulations, Sea 
Grant spearheaded the formation of the ``Seafood HACCP Alliance,'' an 
intergovernmental agency partnership with industry and academia. As a 
result, the Alliance's programs reached over 5,000 U.S. processing 
plants, and 6,000 importers and international suppliers with training 
on new seafood handling and processing techniques. In addition, it has 
been estimated that the program has prevented 20,000 to 60,000 seafood-
related illnesses a year, thereby saving as much as $115 million 
annually.
    The SGA recognizes the subcommittee is facing an extremely 
constrained funding environment and must make difficult choices among 
many competing priorities. We urge you to consider Sea Grant has an 
investment in the future health and well being of our coastal 
communities and to support the program in line with this request.
    Thank you for the opportunity to present these views.

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                        Fiscal Year Funds
          Actual Start Date                 Received            Amount           Match                Award No.                   Grantor                      Project Sub-Subtype
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
01/01/03............................  2003................        $706,474        $282,308  NA03OAR4170020...............  ....................  Ballast Water Demonstration
01/01/03............................  2004................         344,006  ..............  NA96RG0501...................  ....................  CERP
02/01/03............................  2003................          38,000  ..............  NA03OAR4170022...............  NOAA................  Knauss
02/01/03............................  2003................          38,000  ..............  NA03OAR4170024...............  NOAA................  Knauss
02/01/03............................  2003................       2,621,762       1,469,954  NA16RG2207...................  NOAA................  OMNIBUS
06/01/03............................  2003................          31,667           6,333  NA17RG1375...................  NOAA................  NMFS FELLOWSHIP
                                                           --------------------------------
    Total...........................  ....................       3,779,909  ..............  .............................  ....................  ...............................................
                                                           ================================
10/01/03............................  2004................          70,774  ..............  NSF-Seagrant-1...............  USM/NSF.............  Vertically Integrated Partnership K-12
02/01/04............................  2005................          38,000  ..............  NA04OAR4170008...............  NOAA................  Knauss
02/01/04............................  2005................          38,000  ..............  NA04OAR4170009...............  NOAA................  Knauss
02/01/04............................  2004................          38,000  ..............  NA04OAR4170010...............  NOAA................  Knauss
02/01/04............................  2004................       2,616,108       1,439,890  NA16RG2207...................  NOAA................  OMNIBUS
05/01/04............................  2003................          94,130          31,748  NA03NMF4570228...............  NOAA................  Chesapeake Research Fellowship
09/01/04............................  2005................         378,300  ..............  NA04OAR4170152...............  NOAA................  Ballast Water Demonstration
                                                           --------------------------------
    Total...........................  ....................       3,273,312  ..............  .............................  ....................  ...............................................
                                                           ================================
10/01/04............................  2005................          74,313  ..............  NSF-Seagrant-1...............  USM/NSF.............  Vertically Integrated Partnership K-12
02/01/05............................  2005................          40,000          20,000  NA05OAR4171035...............  NOAA................  Knauss
02/01/05............................  2006................       1,412,265         892,902  NA05OAR4171042...............  NOAA................  OMNIBUS
03/25/05............................  2003................          10,000  ..............  NA16RG2207...................  NOAA................  OMNIBUS
05/01/05............................  2005................         108,000          28,252  NA03NMF4570228...............  NOAA................  Chesapeake Research Fellowship
06/01/05............................  2006................          15,678           7,839  NA05OAR4171042...............  NOAA................  Fisheries
06/01/05............................  2006................         107,472          56,468  NA05OAR4171071...............  NOAA................  AISR
06/01/05............................  2006................         146,247          73,123  NA05OAR4171107...............  NOAA................  AISR
                                                           --------------------------------
    Total...........................  ....................       1,929,653  ..............  .............................  ....................  ...............................................
                                                           ================================
02/01/06............................  2006................       1,407,800         942,098  NA05OAR4171042...............  NOAA................  OMNIBUS
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2007 appropriation for the 
National Science Foundation (NSF). The ASM is the largest single life 
science organization with more than 43,000 members. The ASM mission is 
to enhance the science of microbiology, to gain a better understanding 
of life processes, and to promote the application of this knowledge for 
improved health and for economic and environmental well-being.
    The NSF plays a critical role in ensuring the health of the 
Nation's research and education system, the principal source of new 
ideas and human resources in science and engineering. The NSF is the 
funding source for approximately 20 percent of all federally supported 
basic research conducted by U.S. colleges and universities. The NSF's 
broad support to U.S. academic institutions provides not only a key 
source of funds for basic discoveries across disciplinary fields, but 
also prepares students for the science and engineering workforce. The 
NSF is the primary federal agency charged with promoting science and 
engineering education at all levels and in all settings, from pre-
kindergarten through career development. This educational effort helps 
to ensure that the United States has world-class scientists, 
mathematicians, and engineers.
    The ASM strongly supports the administration's request of $6.02 
billion in fiscal year 2007 for the NSF, an increase of 7.9 percent 
over fiscal year 2006. The NSF is one of the three key agencies in the 
President's American Competitiveness Initiative (ACI), which plans to 
double investment over a 10-year period in key federal agencies that 
support basic research programs emphasizing physical sciences and 
engineering. The NSF funding request of $6.02 billion is expected to 
support about 500 more research grants in 2007 and an estimated 6,400 
additional scientists, students, and postdoctoral fellows.
    The ASM would like to provide the following comments and 
recommendations on specific programs of interest and concern within the 
NSF budget.
                    biological sciences directorate
    The NSF Directorate for Biological Sciences (BIO) provides critical 
support for a broad array of biological sciences, particularly in areas 
such as environmental biology and plant sciences. BIO provides 66 
percent of all federal support for non-medical biological research at 
academic institutions. Research programs range from the study of the 
structure and dynamics of biological molecules, such as proteins and 
nucleic acids, through cells, organs, and intact organisms to studies 
of populations and ecosystems. It encompasses processes that are 
internal to particular organisms as well as those that are external, 
and includes temporal frameworks ranging from immediate measurements 
through life spans of mere minutes for some microorganisms to the full 
scope of evolutionary time.
    Basic research in the biosciences is key to understanding the 
living world from molecules to organisms to ecosystems, providing 
discoveries applicable to meeting health, environmental, agricultural, 
and energy needs. The fiscal year 2007 budget request for the BIO 
directorate is $607.9 million, an increase of $31.6 million, or 5.4 
percent, over the fiscal year 2006 level. This increase will allow BIO 
to award about 95 more research grants in fiscal year 2007 with an 
estimated funding rate of approximately 18 percent.
   bio molecular and cellular biosciences: microbial biology research
    The Molecular and Cellular Biosciences (MCB) Division within the 
Biological Sciences Directorate of the NSF includes research activities 
in microbiology that were transferred to the Emerging Frontiers 
subactivity for a new emphasis in Microbial Biology in fiscal year 
2006. The Microbial Observatories/Microbial Interactions and Processes 
program (MO/MIP) has been returned to MCB for fiscal year 2007. The ASM 
has received unsolicited comments about the transfer of the MO/MIP and 
its budgetary consequences from more than 100 individuals representing 
more than 40 institutions. The ASM would like to express its strong 
support for the MO/MIP program, and recommends Congress fund the 
program at $10 million, to allow for important research initiatives.
    The MO/MIP was recently housed in Emerging Frontiers in recognition 
of the need for a distinct emphasis on microbial biology research that 
cannot be supported adequately in other programs. Transfer of the MO/
MIP from Emerging Frontiers to the Division of Molecular and Cellular 
Biosciences (MCB) raises questions about the NSF's intentions regarding 
the future of this program.
    The ASM is concerned about the MO/MIP, since the pace of astounding 
discoveries in microbial biology has been increasing through 
applications of genomics and metagenomics. The MO/MIP program has been 
exemplary in achieving its goals. It supports research, training and 
outreach that are helping to define the future of microbiology and 
interdisciplinary efforts involving microbes. The MO/MIP is thriving 
and deserves expanded support and long-term commitments from NSF. Such 
commitments should be reflected in the 7.9 percent increase in the 
NSF's budget request to Congress, which includes a 5.4 percent increase 
for the Biological Sciences Directorate.
                    bio emerging frontiers programs
    The budget request for the Emerging Frontiers (EF) subactivity for 
fiscal year 2007 is for $99.16 million, an increase of about 23 percent 
over fiscal year 2006. This increase is partly the result of the 
transfer of support for all BIO centers for centralization at the EF, 
including the two current centers, and two new centers expected to 
start in fiscal year 2007. With the proposed transfer of the MO/MIP 
program to the MCB, just two microbial related programs are left within 
the EF, the Microbial Genome Sequencing Program and Ecology of 
Infectious Diseases.
    The Microbial Genome Sequencing program is to be conducted jointly 
with a competitive grants program in the U.S. Department of 
Agriculture, while the Ecology of Infectious Diseases is an interagency 
partnership with the National Institutes of Health (NIH) to support the 
development of predictive models and discovery of principles for 
relationships between environmental factors and transmission of 
infectious agents. Potential benefits include the development of 
disease transmission models, understanding the unintended health 
effects of environmental change, and improved prediction of disease 
outbreaks, including the emergence or reemergence of disease agents. 
Examples of environmental factors include habitat transformation, 
biological invasion, biodiversity loss, and contamination. The ASM is 
concerned that these programs are being transferred out of an EF 
priority area and have level funding proposed for fiscal year 2007.
                 bio division of environmental biology
    The Division of Environmental Biology (DEB) priorities for fiscal 
year 2007 are represented by four clusters focused on studies to 
accelerate the rate of discovery of new species, address the 
genealogical relationships of plants, animals, fungi, and microbes; 
illuminate the spatial and temporal dynamics of species interactions; 
discover the principles or rules by which species are assembled into 
functional communities and change through time; and determine the flux 
of energy and materials through ecosystems. The core research within 
the DEB will increase by $6.32 million due to the transfer of 
responsibility for funding the National Center for Ecological Analysis 
and Synthesis to Emerging Frontiers.
    The DEB also supports the Long-Term Ecological Research (LTER) 
program, a network of 26 comprehensive research sites located in areas 
that broadly represent the global range of natural, agricultural, and 
urban ecosystems. Support for the LTER program is requested to increase 
by $1.12 million in fiscal year 2007, for a total of $19.6 million.
    The ASM supports the fiscal year 2007 budget request for the DEB of 
$109.6 million, an increase of 2.7 percent over fiscal year 2006.
                 bio national nanotechnology initiative
    The National Nanotechnology Initiative (NNI) encompasses the 
systematic organization, manipulation, and control of matter at the 
atomic, molecular, and supramolecular levels. With the capacity to 
manipulate matter at the nanometer scale (one-billionth of a meter), 
science, engineering, and technology are realizing revolutionary 
advances in areas, such as, individualized pharmaceuticals, new drug 
delivery systems, more resilient materials and fabrics, catalysts for 
industry, and computer chips. The NSF has been a pioneer among federal 
agencies in fostering the development of nanoscale science. The ASM 
supports the administration's fiscal year 2007 request of $52.55 
million for the NNI within BIO, a 7.2 percent increase over fiscal year 
2006.
                national ecological observatory network
    The fiscal year 2007 budget request for the National Ecological 
Observatory Network (NEON) throughout NSF is $24 million, an increase 
of $18 million over fiscal year 2006. NEON has the potential to 
transform ecological research. The NEON program calls for developing a 
continental-scale research instrument consisting of geographically 
distributed infrastructure that will be networked via state-of-the-art 
communications to obtain a predictive understanding of the Nation's 
environment. A very large number of scientists, students, resource 
managers, and decision makers could make use of NEON data, both 
directly and indirectly, through the network capabilities and the 
internet. The ASM supports the administration's fiscal year 2007 
request of $24 million for NEON.
    The $24 million includes: $6 million within the Biological 
Infrastructure division of BIO to continue implementation planning; $6 
million within the Emerging Frontiers division for sensor array 
research and development; and $12 million within the Major Research 
Equipment and Facilities Construction (MRE&FC) account at the NSF to 
assemble and evaluate the NEON fundamental technology unit (BioMesoNet, 
sensor micronets, and enabling cyberinfrastructure) that will be 
deployed.
                        geosciences directorate
    The fiscal year 2007 request proposes restructuring the Geosciences 
Directorate (GEO) to include a new subactivity, Innovative and 
Collaborative Education and Research (ICER), which will support 
multidisciplinary research and education activities that were 
previously done through the Atmospheric Sciences (ATM), Earth Sciences 
(EAR), and Ocean Sciences (OCE). The new ICER subactivity priorities 
include Ecology of Infectious Diseases, in partnership with the BIO 
directorate and the NIH. Additionally, the EAR and the OCE support 
other important microbiological research related to the Earth's diverse 
ecological systems and climate change. The ASM urges Congress to 
support the administrations' request of $744.9 million for GEO in 
fiscal year 2007, a 6 percent increase over fiscal year 2006.
                        engineering directorate
    The fiscal year 2007 request proposes restructuring the Engineering 
Directorate. The ASM has traditionally supported research conducted 
through the Bioengineering and Environmental Systems (BES) division. 
The proposed restructuring would combine the BES division with the 
Chemical and Transport Systems (CTS) division to become the Chemical, 
Bioengineering, Environmental and Transport Systems (CBET) division. In 
fiscal year 2006, BES was funded at $52 million and CTS at $70.8 
million, for a total of $122.8 million. The fiscal year 2007 request 
proposes increasing funding for CBET to $124.44.
    The CBET will play a vital role in supporting research, innovation, 
and education in the rapidly evolving fields of bioengineering and 
environmental engineering. Including research on microbial fuel cells, 
liquid biofuels, and biohydrogen, as well as exploratory research in 
nanobiotechnology. The ASM recommends Congress support the increased 
funding for the CBET to foster technological innovations that will 
advance the global competitiveness of our industries and the health of 
our environment.
                               conclusion
    The NSF plays a key role in supporting basic science in the United 
States. Knowledge gained from the NSF studies directly benefits 
industry and contributes to the economy and U.S. international 
competitiveness. There is a growing synergy among the biological, 
physical and social sciences, and U.S. investment in science and 
technology should support all science.
    The NSF is in a singular position among all the federal research 
and development agencies to support fundamental research in a wide 
range of important areas, including microbiology and molecular biology. 
The ASM urges Congress to support the administration's request of $6.02 
billion for the NSF in fiscal year 2007. The ASM believes the NSF 
should continue to emphasize fundamental, investigator-initiated 
research, research training, and science education as its highest 
priorities.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the subcommittee as it considers its 
appropriation for the NSF for fiscal year 2007.
                                 ______
                                 

       Prepared Statement of the Coalition of EPSCoR/IDeA States

    Mr. Chairman: My name is Royce Engstrom. I am a Provost and Vice 
President for Academic Affairs at the University of South Dakota and a 
member of the South Dakota EPSCoR Statewide Committee, the governing 
body that oversees EPSCoR activities in South Dakota. I submit this 
testimony on behalf of the 25 States,\1\ the U.S. Virgin Islands, and 
the Commonwealth of Puerto Rico that participate in the federal EPSCoR 
program and the Coalition of EPSCoR/IDeA States. I have the honor of 
serving as the chair of the Board of the Coalition of EPSCoR/IDeA 
States.
---------------------------------------------------------------------------
    \1\ Alabama, Alaska, Arkansas, Delaware, Hawaii, Idaho, Kansas, 
Kentucky, Louisiana, Maine, Mississippi, Montana, Nebraska, Nevada, New 
Hampshire, New Mexico, North Dakota, Oklahoma, Rhode Island, South 
Carolina, South Dakota, Tennessee, Vermont, West Virginia, and Wyoming.
---------------------------------------------------------------------------
    As most of you know, the Experimental Program to Stimulate 
Competitive Research (EPSCoR) was established at the National Science 
Foundation (NSF) in 1979 to assist those States that historically had 
not fully participated in the federal research and development (R&D) 
enterprise. Historically, these States were less competitive than 
others throughout the Nation for a variety of reasons--some tended to 
be rural and geographically isolated; others tended to be among the 
States with large numbers of students who were under-represented 
minorities or disadvantaged economically; and some were States that 
traditionally invested more heavily in an agriculture and natural 
resource research base than technological endeavors. For these reasons, 
EPSCoR States did not benefit from the large federal institutional 
development investments made to universities and colleges as part of a 
national effort to broaden and strengthen the U.S. public university 
system and its R&D capability. Consequently, today, all the 
institutions in these States--half of the States--receive less than 10 
percent of all NSF and all federal R&D funding. Otherwise, we are 
ignoring a large reservoir of talent and expertise that are necessary 
for our country to remain competitive in the world.
    Helping these 25 States grow to be more competitive has become more 
important in recent years in order to overcome the concentration of 
federal R&D funding in a few States and institutions, and to create a 
broader research community throughout the Nation. Today, all States 
should be full participants in federal R&D efforts and federal R&D 
support should be available to qualified students and researchers 
wherever they are.
    The EPSCoR program started at NSF with five States. It grew to its 
current number of 25 States and two territories as more States, the 
Congress, and the research field came to realize the need to raise the 
science and technology (S&T) research capabilities to new levels, and 
as new States realized the value of a program that emphasized research 
infrastructure and capacity building.
    The EPSCoR program remained a very small program for the first half 
of its life. Its budget, federal-wide, was only $8 million in 1990 for 
all the States. It has only been since the mid-1990's that we have seen 
real increases in funding and the extension of the program to agencies 
outside of the NSF. For those of us in the EPSCoR States, these have 
been welcome advances but we also understand that they have been 
extremely modest in comparison to the overall increases in total 
federal R&D funding and to increases currently being contemplated for 
NSF and DOE's Office of Science. We also know that, as in other States, 
much of the recent increase has been focused on the life sciences, as 
opposed to the physical sciences and engineering. This is true, despite 
the fact that many EPSCoR institutions have strong engineering 
programs. During the 1990's, EPSCoR grew rapidly, expanding from 5 
States to 25 States and 2 territories as Congress recognized that 
EPSCoR funding was successfully building S&T research infrastructure in 
higher education institutions in a fashion that contributed to the 
wealth creation process in the initial group of EPSCoR jurisdictions. 
Congress also expanded the program into six new agencies; the 
Departments of: Agriculture, Defense, Energy, the National Institutes 
of Health (NIH), the Environmental Protection Agency (EPA), and the 
National Aeronautics and Space Administration (NASA). These seven 
Federal departments and agencies now have EPSCoR-like programs that 
focus on building academic research infrastructure that will ultimately 
contribute to the economies of EPSCoR jurisdictions in the 21st century 
in similar ways to how agriculture, mining, and forestry contributed to 
the economies in the 19th and early 20th centuries.
    Let me provide an example of how the federal agencies are able to 
accomplish the mission of building research infrastructure and 
improving the competitiveness of our university researchers. At the 
National Science Foundation, the ``center piece'' of the EPSCoR effort 
is the Research Infrastructure Improvement (RII) awards. The awards 
establish a Federal-State partnership, which is most clearly seen in 
the composition of the State Steering Committees, or EPSCoR State 
committees. Typically, senior university officials, representatives of 
State government (both legislative and executive branches), and local 
business officials come together and develop a S&T plan for their State 
that focuses on a few selected areas where researchers can become 
competitive for funding in federal, non-profit, or industrial 
competitions. The focus areas are selected because of inherent 
scientific quality, able faculty, and because of the likelihood of 
potential benefit to the States' citizenry. As a result, EPSCoR States 
have entered into high-tech computing, bio-medical research, and 
nanotechnology. The State EPSCoR ``team'' then submits a RII proposal 
to NSF for funding support in these areas.
    The RII's are not an end unto themselves. Every researcher who is 
supported under the NSF RII's is expected to apply to one of the 
regular S&T programs at NSF or one of the other federal R&D funding 
agencies before the RII award is completed. The track record of these 
researchers over time has been remarkable. Recently, NSF released 
statistics showing that since 1998 (which was the first year that NSF 
issued RII awards) EPSCoR States accounted for 9 of the 10 U.S. States 
with the greatest increase in science and engineering funding. This 
success has occurred in areas where EPSCoR institutions had not 
previously been competitive. For example, for the first time, EPSCoR 
institutions have used RII funding as a base to successfully compete 
for large-scale awards like the Engineering Research Centers and 
Materials Research Science and Engineering, Integrative Graduate 
Education and Research Traineeship Program.
    At NIH and other agencies with EPSCoR-like programs, EPSCoR 
researchers are building on research infrastructure grants to compete 
for funding that not only advances academic science and technology, but 
serves the mission of these agencies in the areas of defense, 
environment, health, and agriculture. EPSCoR researchers are becoming 
increasingly adept at spinning off academic research into small 
companies. EPSCoR States are becoming more competitive for Small 
Business Innovative Research (SBIR) awards. SBIR awards have great 
potential to produce not just companies but high paying jobs for our 
States' youth.
    Many EPSCoR institutions are now actively engaged in issues related 
to homeland security. For example, some of our institutions are 
carrying out research that improves the safety of food products as they 
move from the field to grocery store. Other institutions are engaged in 
defense issues that relate to improving communication for troops in the 
field during combat. Still others are addressing issues related to 
transportation. All of these examples are intended to demonstrate that 
the initial federal investment in building the research capabilities of 
our universities through EPSCoR and EPSCoR-like programs has had a 
profound impact beyond our campuses.
    I will now provide some specific cases, which emphasize the 
importance of this program to South Dakota and other EPSCoR States. The 
South Dakota EPSCoR REACH Committee manages the development and 
implementation of Statewide science, engineering and mathematics 
research, education, and related programs. It enhances the research and 
intellectual capacity of South Dakota universities and colleges by 
building and coordinating strategic investments in human capital and 
physical infrastructures necessary for South Dakota to develop the 
capacity to make the State more competitive in research and economic 
development, nationally and internationally.
    South Dakota has benefited tremendously from the EPSCoR program. 
For example, using EPSCoR as a catalyst, we have developed four major 
research centers that form the core of Governor Mike Rounds ``2010 
Initiative.'' The centers are in the areas of nanotechnology, light-
activated materials, biomedical signal transduction, and vaccinology. 
The progress made by investigators in these areas, supported in 
significant ways by EPSCoR, has resulted in an additional $20 million 
investment on the part of the State. In addition, in the last 2 years, 
we have initiated seven new Ph.D. programs to help educate future 
scientists for South Dakota. The clear recognition of the connection 
between research and economic development has been made in South 
Dakota, and the sustained support by EPSCoR has been absolutely key to 
that connection.
    EPSCoR-funded science and technology dividends to South Dakota 
reflect an understanding that investments in infrastructure are needed 
for South Dakota to compete in a knowledge-based economy. Without State 
support, South Dakota EPSCoR would not be able to participate in most 
federal EPSCoR initiatives. Several of the federal programs have 
required a ``State match''.
    The South Dakota EPSCoR program has many unique features to enhance 
cooperation between our universities. In addition to supporting 
individual research projects, the program funds faculty and student 
exchange programs, provides interdisciplinary planning grants for 
cooperative scientific ventures among our universities; and offers 
undergraduate summer research fellowships.
    We are delighted to stress that EPSCoR has had a positive influence 
on State economic development well beyond what was initially conceived 
for the program. As a focal point for technological and scientific 
improvement across the State, EPSCoR identified areas of priority for 
funding and helped to draft South Dakota's strategic plan for 
scientific and technological development. In addition to the growth in 
basic research, we have seen a substantial increase in SBIR activity, 
to the point that the State has established two new offices: a system-
wide Vice President for Research, and a State Commercialization 
Director, whose job it is to help transfer ideas from the universities 
to the private sector.
    Within each States' EPSCoR program, efforts continue to identify: 
(1) high potential research areas in which to concentrate limited State 
resources and (2) barriers that must be removed to attain nationally 
competitive science and engineering research and education programs. A 
critical need for EPSCoR States is to overcome a lack of critical mass 
(i.e. too few faculty in a given area of research) by collaborating 
inside the State and with outside partners.
    NSF EPSCoR is helping us ensure, through its Research 
Infrastructure Improvement (RII) awards and co-funding, that our States 
have an opportunity to develop these new fields. This is vitally 
important to the economy of each of our States and especially to our 
young people who live therein. Despite increased mobility, the vast 
majority of students still attend college within 100 miles of home. 
EPSCoR helps to guarantee that students and residents of all States 
have the access to high-quality education, front-line research, and the 
quality of life and jobs that comes with an active and competitive R&D 
base.
    Again, the cornerstone of the NSF EPSCoR program are the Research 
Infrastructure Improvement awards (RIIs). These awards focus on South 
Dakota's competitive academic science and technology base. The RIIs 
strengthen South Dakota's ability to compete favorably for mainstream 
program funds at the NSF, other agencies and for private sector 
dollars.
    Consequently, we urge the subcommittee to continue support for 
EPSCoR by appropriating $125 million in fiscal year 2007 funding for 
the NSF EPSCoR core program in the NSF Education and Human Resources 
Directorate. This funding will: (1) allow the NSF EPSCoR program to 
implement its expanded core RII program to continue building our 
infrastructure and expertise in areas of scientific importance to the 
States and Nation; and (2) increase co-funding and assistance to our 
States so that the number of scientists and engineers in the EPSCoR 
States and universities that receive competitive federal R&D support 
continues to grow.
    For the NASA EPSCoR program, we are requesting $15 million. There 
are currently two components to the NASA EPSCoR program: core grants 
and research cluster awards. A core-funding award is made to each 
eligible State to develop a program, secure collaborations with NASA 
centers and programs and cover related administrative expenses. The 
remaining funds have been granted to the eligible States to support 
specific, competitively selected research clusters. The intent is for 
these clusters to develop an infrastructure in key NASA related 
research areas within the State, which will then be competitive for 
other NASA funding. NASA is currently planning its next round of awards 
and will be allowing all 27 NSF ESPCoR jurisdictions (as opposed to 23 
currently eligible NASA EPSCoR States) to submit. We know that NASA had 
more meritorious proposals than it could fund during the last 
competition and we believe that there are even more qualified proposals 
to be submitted pursuant to the next solicitation, even without the 
addition of new States.
    On behalf of the Coalition of EPSCoR/IDeA States, please know that 
the relatively modest NSF investment in EPSCoR plays a unique role in 
developing a truly nationwide science and technology capability. A 
strong EPSCoR is a sound investment for our Nation's future.
 disclosure of amount and source of federal grants (fiscal year 2003, 
   fiscal year 2004 and fiscal year 2005) of dr. royce c. engstrom, 
                       university of south dakota
    Dr. Engstrom has participated in the following federally-funded 
projects during the fiscal years 2003-2005:
    REU Site: Excavation and Reconstruction of a Northern Plains Bison 
Kill Site, National Science Foundation, 2002-2005, $155,778. This 
project was an interdisciplinary undergraduate research project 
focusing on anthropology. (Co-Principal Investigator)
    Statewide Partnership to Support Technology Innovation and 
Entrepreneurship in South Dakota, National Science Foundation, 2002-
2005, $598,247. (Co-Principal Investigator)
    EPSCoR Centers Development Initiative (CDI), National Science 
Foundation, 2001-2004, $1,713,836. This project was aimed at providing 
technical assistance to EPSCoR States in their efforts at building 
nationally competitive research centers.
    South Dakota EPSCoR Rushmore Initiative for Excellence in Research, 
National Science Foundation EPSCoR, 2001-2004, $2,293,628 (USD 
portion). This project was the Research Infrastructure Initiative for 
South Dakota's EPSCoR program. (Co-Project Director)
    REU Site: Tracing the Lewis and Clark Expedition, National Science 
Foundation, 2001-2004, $173,605. This was an interdisciplinary 
undergraduate research program at the University of South Dakota. (Co-
Principal Investigator)
                                 ______
                                 

        Prepared Statement of the National Space Grant Alliance

                              introduction
    Mr. Chairman and distinguished members of the subcommittee, thank 
you for allowing me to provide testimony on behalf of the National 
Space Grant Alliance (NSGA) as you consider funding priorities relevant 
to the fiscal year 2007 Commerce, Justice and Science Related Agencies 
appropriations bill. I am Mary Sandy, Virginia Space Grant Director.
    Today, I speak to you in support of NASA's National Space Grant 
College and Fellowship Program (Space Grant). In an effort to bring 
national coherence to our efforts, the Space Grant Directors formed the 
National Space Grant Alliance (NSGA). NSGA is a non-profit national 
organization that is working to: (a) galvanize support and enthusiasm 
for aerospace research and education; (b) ensure that Space Grant has 
an appropriate level of financial and programmatic support; and (c) 
align Space Grant's education, research, and workforce development 
activities with NASA's mission to ``inspire the next generation of 
explorers--as only NASA can.'' Comprised of 52 Space Grant consortia 
including 867 affiliates--located in every State of the country, the 
District of Columbia, and the Commonwealth of Puerto Rico--the NSGA 
requests that you approve the President's fiscal year 2007 request of 
$28.76 million for Space Grant with the following language: The 
committee has included the budget request of $28,760,000 for the 
National Space Grant College and Fellowship program. The amount 
provided will fund 35 States at $615,250 each and 17 States at 
$425,000. We believe that funding the Space Grant program at $28.76 
million and including the requested language will allow the Space Grant 
program to move forward and will encourage the rapid allocation of 
funds to the individual Space Grant consortia so that they can 
efficiently plan and implement their State programs.
                               background
    Congress established the National Space Grant College and 
Fellowship program under Title II of the NASA Authorization Act of 
1988. Through a national network of colleges, universities, and 
affiliates, Space Grant supports and enhances science and engineering 
education, research and outreach programs through three major 
components: (1) Education and Workforce Development; (2) Public 
Understanding and Participation in NASA-related Science and Technology 
Programs; and (3) Research Enhancement Programs.
  --Education and Workforce Development.--Space Grant programs 
        substantially contribute to creating a diverse, scientifically 
        literate and prepared workforce. Its programs encourage and 
        help prepare students to enter science, mathematics and 
        engineering careers, by offering ``hands-on'' learning with 
        aerospace technology. Space Grant has been particularly 
        successful in recruiting and training students from 
        underrepresented groups and women.
  --Public Understanding and Participation in Aerospace-Related Science 
        and Technology Programs.--Space Grant consortia provide a wide 
        array of public outreach programs that reach citizens of all 
        ages: Space Grant supports more than 400 public outreach 
        programs reaching over 3 million people each year.
  --Research Enhancement Programs.--The development of a strong 
        research base and infrastructure is critical to securing U.S. 
        world leadership in science and technology. In addition to 
        improving the quality of education, Space Grant is dedicated to 
        strengthening research capability, and integrating this 
        research with education and human resource development.
                space grant and its value to the nation
    The 52 university-based Space Grant consortia:
  --Support over 1,915 undergraduate and 632 graduate students in 
        practical education and research experiences in aerospace 
        science and engineering, and related fields. In fiscal year 
        2003, we awarded $9.5 million in scholarships and fellowships 
        to students--22 percent of whom are minority, and 44 percent 
        are women.
  --Infuse NASA space exploration and technology goals, knowledge, and 
        materials into the education experiences of over 1.3 million K-
        12 students and teachers.
  --Reach over 3.5 million people annually through public outreach and 
        awareness campaigns emphasizing the importance of aerospace 
        science, the excitement of space exploration and discovery and 
        its contribution to the Nation's scientific knowledge base and 
        our economy.
    To give you a better picture of Space Grant, I'd like to tell you a 
little about the Virginia Space Grant Consortium, where I am the 
director, and cite a few of our accomplishments.
                    virginia space grant consortium
    The Virginia Space Grant Consortium (VSGC) is a coalition of five 
Virginia colleges and universities, two NASA centers, State education 
agencies, Virginia's Center for Innovative Technology, and other 
institutions and informal science centers, representing diverse 
aerospace education and research interests. The Consortium acts as an 
umbrella organization, coordinating and developing quality aerospace-
related, high technology, educational applications and research efforts 
throughout the Commonwealth as well as regionally and nationally for 
some efforts. We are committed to promoting and achieving excellence in 
education and research in science, mathematics, technology and 
engineering at all levels in Virginia. The Consortium also seeks to 
encourage student and faculty diversity in these fields and to foster 
scientifically and technologically literate citizens. The Consortium 
received its Space Grant designation in 1989. It is a mature 
organization that is well established in the State with strong programs 
in all of the Space Grant program areas.
    The VSGC is a highly leveraged program. In recent years, each Space 
Grant dollar has been leveraged by about $6 in cash and in-kind 
contributions from other sources. Programs and interactions with NASA 
centers have grown to include all NASA centers. State networks have 
vastly expanded.
    In the program's recent 5-year evaluation period, VSGC Higher 
Education programs impacted 1,494 individuals, primarily undergraduate 
students, but graduate students and faculty as well. Implementation of 
two industry internship programs involved 52 undergraduate students and 
more than 36 industries and garnered strong State and industry funding. 
The VSGC-managed NASA Undergraduate Student Research program placed 622 
students in summer or fall internships at all NASA centers, Los Alamos 
National Laboratory and National Renewable Energy Lab.
    In the Research and Technology Applications arena, VSGC has 
generated sufficient funding to develop and maintain a full-time 
Research Programs Manager. Research missions, applications and 
infrastructure programs have grown exponentially from $28,871 in 1998 
to $429,766 in 2002. The additional funding secured from grants and 
contracts for new projects with members and partners permitted a total 
of 41 programs involving 3,359 participants in this time frame. 
Participation of NASA Langley Research Center and NASA's Goddard/
Wallops Flight Facility Consortium members has opened doors to new 
collaborative ventures that are mutually beneficial. The VSGC is one of 
14 Space Grant programs which have developed a partnership with 
Cooperative Extension and established a geospatial extension 
specialist. The Virginia Space Grant Geospatial Extension program is 
serving as a hub for terrific synergy among Cooperative Extension, 
universities, community colleges, Sea Grant, State natural resource 
agencies and other partners. Virginia Tech, VSGC, Cooperative Extension 
and Virginia Access-Mid-Atlantic Geographic Information Consortium, a 
NASA-Stennis funded partnership, are contributing resources to extend 
the reach of this program in ways that are already making a difference 
in the Commonwealth for Extension Agent training, workforce development 
programs with community colleges, networking and sharing of 
information, data tools, and other resources.
    Pre-college programs engaging over 75,000 educators over the past 7 
years. All are carefully aligned with State standards of learning in 
math, science and technology. The Virginia Department of Education is a 
VSGC member and key partner that has helped us to reach out to all 
Virginia school divisions with our professional development programs, 
including OVERspace, our professional development program for teachers 
in how to use GPS and GIS as teaching and learning tools, and our Space 
Science workshops and materials dissemination for teachers of learning 
disabled as well as blind and low vision students. We are particularly 
pleased with the six-series Journey Into Cyberspace distance-learning 
program for middle school career exploration produced in partnership 
with Old Dominion University and NASA. Nearly 3,000 students nationwide 
participated in six grade-related challenges in the 2005 competition in 
the NASA Student Involvement program which we co-managed on behalf of 
the National Space Grant Foundation prior to NASA's ending the program 
and which engages every state Space Grant program.
    Public and informal educational programming, often undertaken with 
museum members, included StarDate sponsorships at six Virginia radio 
stations throughout the Commonwealth, co-sponsorship of a Native 
American Sky Legends planetarium program for national distribution, and 
a range of museum programming. Over the latest 5-year evaluation 
period, 47 programs in this arena reached 373,829 participants.
    Impact/Results: The VSGC's extensive networks into member 
institutions at all levels, as well as extended State, Federal, 
industry and non-profit networks, are crucial to the Consortium's 
success. The Consortium's openness to collaborative partnerships 
together with its willingness to serve as the facilitating element and 
often to provide the administrative component has helped to engineer 
projects for success. The flexibility offered by our organizational and 
fiscal structure helps us to create and take advantage of opportunities 
that arise. Success in securing grants, contracts and other external 
funding, together with strong leveraging of financial, human and 
material resources is also an element in the successful accomplishment 
of our goals.
        fiscal year 2007 request for space grant--$28.76 million
    Clearly, we are very busy in our Space Grant consortia and very 
proud of what we are able to do but we know that there is much more 
that we can do that is very important to science education in this 
country and to maintaining the pipeline of highly qualified scientists 
and engineers for our high technology industries to ensure U.S. global 
competitiveness.
    How $28.76 million will be utilized:
  --Strengthen the national network structure by raising the level of 
        annual funding at 35 States to $615,250 and 17 States to 
        $425,000.
  --Maintain existing network of S&Es--located in 50 States, Puerto 
        Rico and the Virgin Islands and comprised of 800 universities, 
        colleges, and private industries.
  --Continue and strengthen the undergraduate and graduate STEM 
        education programs for talented American youth to pursue 
        careers in NASA related disciplines by:
  --Attract and retain students in STEM disciplines through a 
        progression of educational opportunities for students, 
        teachers, and faculty.
  --Build the NASA and aerospace industry workforce in order to meet 
        NASA's strategic goals.
  --Build strategic partnerships and linkages between STEM formal and 
        informal education providers.
    Results of increased funding in fiscal year 2006:
  --Dramatic increase and linkage of undergraduate and graduate 
        students to NASA research and exploration initiatives at NASA 
        field centers.
  --Increased research experiences for undergraduates by maintaining 
        and expanding the Student Satellite Initiative and young 
        faculty research development.
  --Sustained K-12 programs and links to new Code N Initiatives by 
        providing training workshops and after-school programs to 
        assist faculty and teachers and to attract and motivate 
        students into relevant career tracks.
    Taken together, these activities help to promote workforce 
development and help support NASA and Congress' goal to address the 
national ``brain drain'' in the aerospace science and engineering 
workforce. NASA, through its National Space Grant consortia/network and 
affiliate programs, can effectively encourage and improve the 
possibility for students to pursue careers in aerospace science and 
technology fields.
                                summary
    In summary, Space Grant has achieved what most other science 
agencies have not.
  --Created a national network that fosters strong partnerships among 
        university faculty, colleges of education, K-12 and business 
        communities in the States.
  --Mobilized and immersed Science and Technology faculty in education 
        initiatives.
  --Highly utilized and highly leveraged NASA resources to inspire and 
        motivate the next generation of explorers.
    Space Grant is delivering a remarkable number of high quality 
educational experiences for a very small NASA investment. Space Grant 
is a sound investment in America's future and should be expanded.
                                 ______
                                 

 Prepared Statement of Assemblyman Sam Blakeslee, Assemblymember, 33rd 
                    District, California Legislature

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $1.5 million from NOAA's Coastal and Estuarine Land 
Conservation Program for Piedras Blancas in California.
    Nestled among lush rolling hills shadowed by ancient volcanic 
peaks, San Luis Obispo County offers residents and visitors a welcome 
respite from crowded urban areas. The northwestern part of the county 
is often referred to as the ``Southern Gateway to Big Sur,'' and it is 
here that the famous Hearst Ranch is located adjacent to Los Padres 
National Forest. Covering 128 square miles, including 18 miles of 
coastline, the ranch was originally known as Rancho Piedra Blanca, 
named for an offshore white rock outcropping. In 1865, Senator George 
Hearst purchased the property, and in 1919 his son, William Randolph 
Hearst, started construction of Hearst Castle. The ranch offers 
outstanding scenic vistas, including 19 beaches, and contains numerous 
creeks flowing into the Pacific Ocean. It is home to a wide variety of 
wildlife--including eagles, hawks, deer, coyote and steelhead trout--
and plant life including grasslands, chaparral, oak woodlands and 
California poppies.
    The Hearst Ranch Conservation Project, completed in early 2005, 
protects the entire historic ranch through voluntary conservation 
agreements and included the donation of 1,500 acres of land on the west 
side of Highway 1 to the State of California. Although this 
conservation agreement protects the scenic and rural character of this 
18-mile stretch of coast, there remains one privately held parcel along 
the coast west of Highway 1, known as Piedras Blancas.
    Located 1 mile north of the Piedras Blancas Lighthouse, this 20-
acre parcel is available for acquisition in fiscal year 2007. Formerly 
the site of a 14-unit motel, coffee shop, gas station, and private 
residence, the property will be restored in large part to its natural 
state and made ready for State park acquisition. Funds from the Coastal 
and Estuarine Land Conservation program (CELCP) will be used to 
purchase 18 acres of the land for the coastal resources, and funding 
will be secured from other sources to potentially develop an 
interpretive center and low-cost accommodations, such as a hostel or 
campground, on the remaining 2 acres.
    Public acquisition of the Piedras Blancas parcel offers a unique 
opportunity to enhance the Hearst Ranch Conservation Project by 
providing: (1) a permanent safe place for visitors to pull off the 
highway, park in the existing lot and access the coastal bluffs and 
beaches of the Hearst Coast; (2) the possibility of developing visitor 
serving facilities such as an interpretive center for the Hearst Coast 
and elephant seal, cafe, public restrooms and low-cost overnight 
accommodations due to its rare recreational zoning; and (3) these 
urgently needed public access and visitor serving benefits in an area 
of high demand due to its location just 7 miles north of the popular 
Hearst Castle, which receives over 1 million visitors per year. 
Additionally, the site offers the potential to develop guided hiking 
tours to the nearby Piedras Blancas Lighthouse and elephant seal 
rookery, as well as a second staging area for vehicular tours to the 
lighthouse.
    The southern beach of the property is also home to dozens of 
elephant seals during the winter each year. The steep bluffs 
overlooking the beach offer a safe viewing area for visitors watching 
the elephant seals. Arroyo del Corral Creek drains into the ocean at 
this beach attracting birds and other wildlife to the freshwater 
resources.
    While the shoreline along Hearst Ranch is mostly under State 
protection, much of it is still inaccessible. It may take as long as 5 
years by State Parks to implement a public access plan for these 
coastal areas. In the meantime, Piedras Blancas will be a critically 
needed safe access point for the public to access trails along the 
bluffs and down to the beaches. Safe and easy public access and the 
potential for visitor facilities make Piedras Blancas a key acquisition 
for the California Department of Parks and Recreation. This project is 
the missing half-mile of coast for the California Coastal Trail on a 
13-mile stretch of land that was recently made public as part of the 
Hearst Project. Piedras Blancas will provide a welcome respite to the 
hikers and bicyclists on the California Coastal Trail as well as to 
visitors who come by car on Highway 1.
    Without permanent public protection, there is high risk that the 
property could be sold and developed privately as an exclusive resort 
given its hotel zoning, making the bluffs and beaches off-limits to the 
public and forever leaving a missing link in the Coastal Trail. The 
northern portion of the property is under natural heavy erosion 
pressure accelerated by piecemeal shoreline armoring of Highway 1 just 
north of the property. There is the further risk that a future buyer 
would seek to build a seawall on site to protect structures from 
erosion. A seawall would negatively impact the property's coastal 
habitat in a designated area of the Monterey Bay National Marine 
Sanctuary.
    In fiscal year 2006, Congress appropriated $500,000 towards this 
conservation effort. A fiscal year 2007 appropriation of $1.5 million 
from the Coastal and Estuarine Land Conservation program is the final 
funding needed for the California Department of Parks and Recreation to 
acquire and conserve this unique and vital property on the Pacific 
Coast. The California Coastal Conservancy has already pledged matching 
funds and ranked Piedras Blancas as the top CELCP priority in the 
State.
    Thank you, Mr. Chairman, for your consideration of the 
appropriations request for this critical project in my district.
                                 ______
                                 

  Prepared Statement of the American Institute of Biological Sciences

    The American Institute of Biological Sciences encourages Congress 
to support the President's fiscal year 2007 budget request of $6.02 
billion for the National Science Foundation.
    The administration's request reflects the recognition of the 
important role that fundamental, peer-reviewed scientific research 
plays in driving innovation, creating new economic opportunities, and 
addressing important societal challenges. The National Science 
Foundation Biological Sciences Directorate (BIO) is particularly 
important to basic biological research, the fields of study concerned 
with understanding how the natural world works. These research 
disciplines include botany, zoology, microbiology, ecology, basic 
molecular and cellular biology, systematics and taxonomy. Indeed, 
according to National Science Foundation data, more than 65 percent of 
fundamental biological research is funded by the foundation. 
Additionally, the National Science Foundation provides essential 
support for the development of research infrastructure (for example, 
natural science collections, cyber-infrastructure, field and marine 
stations, and the National Ecological Observatory Network) that is 
required to advance our understanding of biological and ecological 
systems.
    We strongly support the President's fiscal year 2007 budget 
request, which would provide the BIO directorate with roughly $607.8 
million (a 5.4 percent increase). This funding would support important 
new research efforts in the areas of Molecular and Cellular Biosciences 
($111.2 million), Integrative Organismal Biology ($100.7 million), 
Environmental Biology ($109.6 million), Biological Infrastructure 
($85.9 million), and Plant Genome Research ($101.2 million). The budget 
also reflects the need for synthesizing biological information from 
different fields. Thus, $99.2 million is allocated for the cross 
discipline Emerging Frontiers program area.
    The President's request includes $24 million in funding for the 
National Ecological Observatory Network (NEON). Of the requested 
funding for NEON, $12 million would come from the Major Research 
Equipment and Facilities Construction account and $12 million would 
come from the BIO directorate. NEON will be the first national 
ecological measurement and observation system designed both to answer 
regional to continental scale scientific questions and to have the 
interdisciplinary participation necessary to achieve credible 
ecological forecasting and prediction. NEON is expected to transform 
the way we conduct science by enabling the integration of research and 
education from natural to human systems, and from genomes to the 
biosphere. Social scientists and educators have worked with ecologists 
and physical scientists to plan and design NEON. These research 
communities will all be able to participate in research only possible 
because of the construction of NEON.
    The National Science Foundation plays an important role in science 
education, in both formal and informal environments. Whether through 
programs such as Research Experience for Undergraduates, GK-12 
fellowships, or fellowships for graduate students and post-doctoral 
researchers, the National Science Foundation provides the resources 
needed to educate, recruit, and retain our next generation of 
scientists. National Science Foundation programs provide the support 
that makes it possible for practicing research scientists and college 
faculty to mentor and train budding researchers. National Science 
Foundation science education initiatives are unique and stimulate 
innovation in teaching and learning about science. The lessons learned 
and models developed through this research inform Department of 
Education and local school system programs.
    Informal science, technology, engineering, and mathematics programs 
supported by the Education and Human Resources Directorate also warrant 
increased funding. Economic growth in the 21st century demands a 
scientifically aware and technically skilled workforce. Moreover, we 
live in a time when people are increasingly called upon to make 
informed decisions about technology and public policy grounded in 
science. To make informed decisions, citizens must continue to learn 
about science throughout their lives. Informal science education 
programs, whether through a local natural history museum, marine 
laboratory or other venue, play a central role in educating the public 
about science. We encourage you to do all you can to support National 
Science Foundation formal and informal science education initiatives.
    Thank you for your past efforts on behalf of the National Science 
Foundation and for your thoughtful consideration of this request. If 
you require additional information, please contact Robert Gropp at 202-
628-1500.
                                 ______
                                 

                      Prepared Statement of Oceana

    Dear Chairman Shelby, ranking member Mikulski, and other 
subcommittee members: On behalf of the more than 250,000 supporters of 
Oceana, an international, non-profit conservation organization devoted 
to protecting ocean waters and wildlife, I submit the following 
testimony on the fiscal year 2007 budget for the National Oceanic and 
Atmospheric Administration (NOAA) within the Department of Commerce. 
Oceana urges the subcommittee to provide $4.5 billion for NOAA in the 
fiscal year 2007 Commerce, Justice, Science, and Related Agencies 
appropriations bill. More specifically, we urge the subcommittee to 
fund the following critical ocean research and conservation programs at 
these recommended levels:
  --$52.0 million for fishery observer programs;
  --$5.0 million for the reducing bycatch initiative;
  --$12.3 million for the national undersea research program (NURP);
  --$82.0 million for marine mammal research and management;
  --$20.0 million for sea turtle research and management; and
  --$8.0 million for National Environmental Policy Act (NEPA) 
        activities in fishery management.
    NOAA is the Federal agency with primary responsibility for managing 
our Nation's coasts and oceans. It has a critical role in promoting 
sustainable coastal communities and a healthy economy. An investment of 
$4.5 billion averages out to $15 per person annually--a bargain for the 
fishery management, coral reef protection, undersea research, weather 
forecasting, nautical mapping, coastal zone management, and ocean 
education NOAA provides to the Nation.
    We are greatly concerned about the impact of the administration's 
request for a $227 million cut (-5.8 percent) to NOAA below existing 
funding levels. The National Marine Fisheries Service is targeted for 
an $18 million cut (-2.6 percent) and the National Ocean Service is 
targeted for a $99 million cut (-20.1 percent). These steep reductions 
do not match the recommendations of the Presidentially-appointed United 
States Commission on Ocean Policy's 2004 final report or the 
independent Pew Oceans Commission's 2003 report. The commissions 
emphasized the importance of taking immediate action to conserve ocean 
and coastal waters, wildlife, and habitats and called for substantial 
increases in our Nation's investments for ocean research, conservation, 
and management. We hope you will follow the commissions' advice and 
strengthen our Nation's commitment to sustainable oceans and coasts. As 
a significant first step, we urge you to increase funding for the 
important NOAA programs and activities described below.
    Fishery Observer Programs--$52.0 million.--Oceana recommends that 
the fiscal year 2007 budget provide $52.0 million for more effective 
national and regional observer programs. The information gathered by 
observers helps track how many fish, marine mammals, sea turtles, sea 
birds, and other ocean wildlife are caught directly and as bycatch, 
thereby improving management of our fish populations. According to 
NMFS, observers are currently deployed to collect fishery dependent 
data in less than 40 of the Nation's 300 fisheries. Existing coverage 
levels for many of the fisheries with observers are inadequate. In its 
final report, the U.S. Commission on Ocean Policy concluded that 
``accurate, reliable science is critical to the successful management 
of fisheries'' and endorsed the use of observers as key to bycatch 
reduction efforts.
    In recent weeks, the National Marine Fisheries Service announced 
crippling cuts to the Northeast Fishery Observer program. The number of 
observers will be reduced from 120 to 25. The number of observer ``days 
at sea'' will be slashed from 10,000 in 2005 to approximately 5,000 in 
2006. Secretary of Commerce Carlos Gutierrez proposed an emergency rule 
on March 3 to further restrict New England's groundfish fishery due to 
last year's stock assessments showing several overfished groundfish 
populations are continuing to decline. It is obvious more science is 
needed to monitor New England's fisheries and help spur recovery of 
fisheries and coastal communities; therefore more observers are 
required, not less.
    Specifically, Oceana recommends $9.0 million for the national 
observer program; $20.0 million for the Northeast observer program; 
$7.5 million for the Atlantic Coast observer program; $5.0 million to 
establish a Gulf of Mexico/South Atlantic reef fish observer program 
and monitor the shark fisheries. We recommend funding other regional 
fishery observer programs at the administration's request.
    Bycatch Reduction--$5.0 million.--One of the primary issues 
threatening the future of our fisheries is the catch and subsequent 
death or injury of unwanted fish and ocean life. Prominent fishery 
scientists recently completed a thorough examination of fish data and 
concluded that more than 1 million metric tons of fish and invertebrate 
bycatch are caught by U.S. commercial fishermen; this bycatch is 28 
percent of the total catch. In past years, Congress has provided 
additional resources to help address bycatch by researching technical 
solutions, improving outreach, and promoting international improvements 
in fishing practices. We strongly encourage the subcommittee fund this 
initiative at $5.0 million to accelerate bycatch reduction efforts.
    National Undersea Research Program--$12.3 million.--NOAA's Undersea 
Research program serves the Nation by providing marine scientists with 
the tools, such as submersibles, remotely operated or autonomous 
underwater vehicles, mixed gas diving gear, underwater laboratories and 
observatories, to conduct important research that can help other ocean 
managers and users. The program helps locate and map areas of deep sea 
corals that are important for many fish and wildlife populations. 
Funding in fiscal year 2006 was cut more than 40 percent, halting 
important marine research. We support the fiscal year 2005 enacted 
level in help restore the program's vital work.
    Marine Mammal Protection--$82.0 million.--Oceana recommends 
sustaining the level of funding provided to support marine mammal 
research and management activities in the fiscal year 2005 budget 
($82.0 million). These funds will help the National Marine Fisheries 
Service more fully assess and adopt measures to recover depleted and 
strategic marine mammal species, such as Northern right whales, 
bottlenose dolphins, pilot whales, and common dolphins. It will also 
help the agency improve the knowledge of marine mammal populations; 
currently, the status of more than 200 protected and at-risk marine 
species is unknown. Activities that will be supported by these funds 
include funding top priority studies identified by the take reduction 
teams; designing and implementing take reduction plans for certain 
depleted marine mammal populations; conducting research on population 
trends; working on recovery plans; and conducting critical research on 
marine mammal health and responding to marine mammal die-offs.
    Sea Turtle Conservation--$20.0 million.--Oceana urges the 
subcommittee to sustain work currently underway on sea turtle research 
and conservation by providing $20.0 million to NMFS programs dedicated 
to protecting sea turtles. All sea turtles found in U.S. waters are 
officially protected as endangered or threatened. Additional funding 
will enhance research, recovery, and protection activities for 
imperiled sea turtle species, including the agency's Atlantic sea 
turtle bycatch reduction strategy that will examine needed gear 
modifications for the conservation and recovery of sea turtles.
    National Environmental Policy Act (NEPA) Implementation--$8.0 
million.--Oceana supports the administration's request of $8.0 million 
to enhance NMFS work in satisfying NEPA requirements. These funds will 
support NEPA specialists within the agency and in the eight regional 
fishery management councils and will help build the analytical 
capability needed to move toward ecosystem-based approaches to 
management.
    I request that this testimony be submitted for the official record. 
Also, I wish to be considered for any hearing of outside witnesses the 
committee may call. Thank you for your consideration of these 
recommendations.
                                 ______
                                 

   Prepared Statement of the Animal Protection Institute; Blue Ocean 
Institute; Endangered Species Coalition; Environmental Defense; Friends 
    of the Earth; HEART (Help Endangered Animals--Ridley Turtles); 
  HerpDigest; The Humane Society of the U.S.; International Fund for 
  Animal Welfare; International Wildlife Coalition; Inwater Research 
  Group, Inc.; The Leatherback Trust; Local Ocean Trust/Watamu Turtle 
   Watch; Marine Conservation Biology Institute; Marine Conservation 
Society; Marine Research Foundation; National Environmental Trust; The 
National Marine Life Center; Natural Resources Defense Council; Oceana; 
 Osa Sea Turtle Conservation Project; The Pegasus Foundation; PRETOMA; 
   Pro Peninsula; Proyecto Tortugas Marinas; Seaflow; Sea Sense; Sea 
 Turtles at Risk; Sea Turtle Restoration Project--Texas; Sierra Club; 
   South Carolina Aquarium; Whale and Dolphin Conservation Society; 
  WIDECAST: Wider Caribbean Sea Turtle Conservation Network; The Wild 
     Animal Rescue Foundation of Thailand; and Wildlife Rescue and 
                    Conservation Association (ARCAS)

    On behalf of the millions of supporters we represent, we urge you 
to provide $4.5 billion for the National Oceanic and Atmospheric 
Administration (NOAA) in the fiscal year 2007 Science, State, Justice 
and Commerce appropriations bill. Specifically, we encourage the 
subcommittee to provide $52.0 million for Fishery Observer programs; 
$30.0 million for Fish Stock Assessments; $82.0 million for Marine 
Mammal Research and Protection; $20.0 million for Sea Turtle 
Conservation: $60.0 million for the National Marine Sanctuary Program; 
$46.2 million for Coral Conservation; $3.3 million for the Marine 
Protected Area Center; and $12.3 million for the National Undersea 
Research Program. We ask that this letter be included in the official 
committee record for the fiscal year 2007 appropriations bill.
    NOAA is the Federal agency with primary responsibility for managing 
our Nation's coasts and oceans. It has a critical role in promoting 
sustainable coastal communities and a healthy economy. An investment of 
$4.5 billion averages out to $15 per person annually--a bargain for the 
fishery management, coral reef protection, undersea research, weather 
forecasting, nautical mapping, coastal zone management, and ocean 
education NOAA provides to the Nation.
    In recent years, the presidentially-appointed U.S. Commission on 
Ocean Policy and the independent Pew Oceans Commission identified major 
challenges to ensure a future with healthy and abundant oceans. Both 
commissions called for significant and immediate increased investments 
in ocean, coastal and Great Lakes research, management, and 
conservation in order to ensure these vital ecosystems recover and can 
fully contribute to our Nation's economy and well-being. Now, it is 
time for Congress to demonstrate its commitment to NOAA programs and 
provide sufficient funding to fully confront the challenges ahead.
    Last month, a number of national groups produced a report, Green 
Budget: Fiscal Year 2007 National Funding Priorities for the 
Environment. The full report, which included several NOAA programs in 
addition to the ones highlighted in this letter, can be found at 
www.saveourenvironment.org. We call upon your leadership to increase 
funding for these following priority research and conservation 
activities and programs at the recommended levels.
                   national marine fisheries service
    Fishery Research--Fishery Observer Program--$52.0 million. Fish 
Stock Assessments--$30.0 million.--The information gathered by 
observers helps track how many fish, marine mammals, sea turtles, sea 
birds and other ocean wildlife are caught directly and as bycatch, 
thereby providing data to improve management of our fish populations. 
In its final report, the U.S. Commission on Ocean Policy concluded that 
``accurate, reliable science is critical to successful management of 
fisheries'' and endorsed the use of observers as key to bycatch 
reduction efforts. According to the National Marine Fisheries Service, 
observers are currently deployed to collect fishery data in 
approximately 40 of the Nation's 300 fisheries.
    In addition to the need for more data about what is caught, fishery 
managers would benefit from more complete information about the fish 
populations they oversee. Almost two-thirds of the Nation's fish 
populations lack basic information to determine their status; there are 
56 ``major'' stocks where the information about their status is 
classified as ``unknown.'' Additional resources would allow the 
National Marine Fisheries Service to hire additional biologists to 
produce annual stock assessments, fund necessary charter days at sea to 
collect data, and significantly reduce the number of fish stocks with 
unknown status.
    Protected Species Research and Conservation--Marine Mammal Research 
and Protection--$82.0 million. Sea Turtle Conservation--$20.0 
million.--The National Marine Fisheries Service needs resources to more 
fully assess and adopt measures to recover depleted marine mammal 
species, such as North Atlantic right whales (whose population is 
estimated to be less than 300), bottlenose dolphins, pilot whales, and 
common dolphins. In addition, the status of more than 200 protected and 
at-risk marine species is unknown. Increased funds will help NOAA 
complete top priority studies identified by the take reduction teams; 
consult with other agencies and ocean users on activities that may 
affect endangered marine mammals; design and implement take reduction 
plans for certain depleted marine mammal populations; conduct research 
on population trends; and respond to marine mammal die offs.
    All sea turtles in U.S. waters are officially listed as endangered 
or threatened species by the Endangered Species Act. Increased 
investments will help fund sea turtle research, recovery, and 
protection activities for imperiled sea turtles, including NMFS' 
Atlantic sea turtle bycatch reduction strategy that examines needed 
fishing gear modifications for enhanced conservation.
                         national ocean service
    National Marine Sanctuary Program--$60.0 million.--The National 
Marine Sanctuary program manages 13 sanctuaries that encompass more 
than 18,000 square miles of our Nation's most diverse marine 
ecosystems. A 14th sanctuary for the Northwestern Hawaiian Islands is 
now in the process of designation. The program helps protects resources 
such as the coral reefs and mangrove forests off the Florida Keys, the 
tide pools and kelp forests along the Olympic Coast, and habitat for 
endangered humpback and northern right whales. The proposed 
Northwestern Hawaiian Islands sanctuary, expected to be designated in 
2007, will require new financial commitments. Meanwhile, Congress has 
indicated its desire to see better resource inventories and management 
of existing sanctuaries before it will approve any further 
designations. This requirement can only be solved by enhanced 
appropriations.
    Coral Conservation--$46.2 million ($31.2 million for tropical 
corals and $15.0 million for deep sea corals).--Tropical reefs are 
often called the rainforests of the ocean because of the amount of rich 
biodiversity that these living reefs provide. Sensitive to human and 
environmental factors, these slow-growing reef systems need to be 
conserved for the health of our oceans. Corals reef systems are also 
found on the deep sea floor. These corals provide shelter for marine 
animals, protection from predators, nurseries for young fish, feeding 
areas, and spawning areas. Tropical and cold-water corals are subject 
to many threats, including damaging fishing practices, land-based 
pollution, and vessel strikes. Additional resources to improve coral 
management are needed to halt further coral destruction.
    Marine Protected Area Center--$3.3 million.--The National Marine 
Protected Area Center was created to develop the framework for a 
national system of marine protected areas (MPAs), support cooperative 
efforts, and provide technical and scientific support to improve MPA 
stewardship and effectiveness. Cuts in previous budgets have 
significantly reduced the center's work. This spring, the national MPA 
System Framework document should be published. Increased investments 
are needed to ensure that regional coordinators in Massachusetts and 
California and additional scientific and outreach staff are retained to 
continue the substantial collaborative work necessary to properly shape 
a proposed national system of MPAs.
                                research
    National Undersea Research Program--$12.3 million.--NOAA's Undersea 
Research program serves the Nation by providing marine scientists with 
the tools, such as submersibles, remotely operated or autonomous 
underwater vehicles, mixed gas diving gear, underwater laboratories and 
observatories, to conduct important research that can help other ocean 
managers and users. Funding in fiscal year 2006 was cut more than 40 
percent, halting important marine research. We support the fiscal year 
2005 enacted level in order to ensure that vital undersea research 
continues.
    Finally, we urge you to reject adding anti-environmental riders in 
this and other bills. If you have any questions, please contact Ted 
Morton, Oceana's Federal Policy Director at 202-833-3900. Thank you for 
considering our views.
                                 ______
                                 

   Prepared Statement of the University Corporation for Atmospheric 
                                Research

    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the university community involved in weather and climate 
research and related education, training and support activities, I 
submit this written testimony for the record of the Senate Committee on 
Appropriations, Subcommittee on Commerce, Justice and Science. UCAR is 
a 69-university member consortium that manages and operates the 
National Center for Atmospheric Research (NCAR) and additional programs 
that support and extend the country's scientific research and education 
capabilities. UCAR is supported principally by the National Science 
Foundation (NSF) and by other Federal agencies including the National 
Aeronautics and Space Administration (NASA), and the National Oceanic 
and Atmospheric Administration (NOAA).
    The atmospheric sciences community strongly supports the 
President's American Competitiveness Initiative (ACI), an investment 
that we believe will pay great dividends for this country if it is 
sustained as planned over the next 10 years. In the President's budget 
request for fiscal year 2007, NSF is one of the critical agencies in 
line for ACI increases intended to double the physical sciences 
research budget by 2016. This is a necessary first step in any 
initiative that seeks to strengthen this Nation's economic 
competitiveness. However, the strength of the country's R&D investment 
is a result of multiple agencies playing multiple, complementary and 
interlocking roles. We believe that the science missions of NASA and 
NOAA, in addition to NSF, are critical to the health and well-being of 
this country. We look forward to the ACI developing rapidly to shore up 
and strengthen the physical sciences supported by all three of the 
major science mission agencies within your jurisdiction.
National Science Foundation (NSF)
    NSF plays a unique role among all Federal agencies. In achieving 
its goal to develop new knowledge to meet societal needs and improve 
quality of life, NSF strengthens the ability of the country to create 
new ideas; develop new technologies; create a diverse, knowledgeable 
workforce; and set new standards that challenge any boundaries of 
invention and intellect. These are all key components of our capacity 
to compete globally in the 21st Century and are fundamental drivers of 
wealth-producing growth and job creation. The NSF budget request states 
that the ACI investment in NSF--a commitment to double the NSF research 
budget over 10 years--is being made ``in order to sustain a robust, 
competitive, and productive America.'' The UCAR community takes great 
pride in this national priority and supports to the fullest extent 
possible the ACI focus on NSF. I urge the committee to support the 
President's overall request of $6.02 billion for the National Science 
Foundation and, within NSF, the request of $4.66 billion for Research 
and Related Activities (R&RA), the heart of NSF's scientific 
enterprise. In addition, I urge the committee to support the 
administration's goal of doubling the research budget of NSF over the 
course of a decade, finally realizing the promise of the National 
Science Foundation Authorization Act of 2002.
    Geosciences Directorate (GEO).--Within R&RA, GEO is the principal 
source of federal funding for university-based basic research in the 
geosciences, providing about 68 percent of the total federal support in 
these areas. The fiscal year 2007 increase for GEO includes aggressive 
investment in cyberinfrastructure, without which discoveries in the 
geosciences simply will not be able to advance at a competitive rate; 
and additional investment in the interagency Climate Change Science 
program in activities focused on understanding past climate 
variability, the advancement of knowledge about the carbon and nitrogen 
cycles, and the continued development of computational models of Earth 
system processes. I urge the committee to support the President's 
request of $744.85 million for the Geosciences Directorate and, within 
GEO, to provide the President's request of $226.85 million for the 
Atmospheric Sciences Division which provides resources for the 
atmospheric sciences community that are critical to the physical safety 
of our citizens, our economic health, and global issues of national 
security relevance such as severe weather, climate change, the security 
of our communications infrastructure, and the environmental health of 
the planet.
    Office of Cyberinfrastructure.--Given the requirements of modern 
research, leading-edge progress that results in societal benefits 
cannot be realized without the acquisition, development and operation 
of state-of-the-art cyberinfrastructure services including ever-
improving supercomputers, high-capacity mass-storage systems, and an 
ever-expanding suite of software tools. NSF promises to accomplish much 
in this area with the creation of the Office of Cyberinsfrastructure. I 
urge the committee to support the President's fiscal year 2007 request 
of $182.42 million for the Office of Cyberinfrastructure which includes 
$50.0 million for the all-important achievement of petascale 
performance for application to important science and engineering 
problems.
    Education and Human Resources (EHR) Directorate.--Key to the 
success of the administration's ACI efforts is the improvement of math 
and science education in this country. It is therefore disappointing to 
see the EHR funding request for fiscal year 2007 decline in certain 
areas and not keep pace with inflation overall. We believe that the 
strengthening of science education, so critical to the Nation's future, 
must be intimately connected with the best scientific practices and 
results being produced via the NSF scientific directorates. While we 
realize that the EHR request strengthens collaborations that aid in 
addressing workforce needs, we hope that other areas of the budget do 
not indicate a shrinking NSF influence in the classroom. Of some 
encouragement is the recognition in the request of the value of digital 
libraries to teachers and students. Within the Division of 
Undergraduate Education (DUE), the National Science Digital Library 
(NSDL) receives a small increase. The value of this program continues 
to rise as its capacity to bring first-rate education tools into the 
classroom is broadened and enhanced. I urge the committee to provide as 
healthy an increase as possible for the Education and Human Resources 
Directorate so that it may play its rightful, critical role in 
achieving ACI goals.
National Aeronautics and Space Administration (NASA)
    NASA's Science Mission Directorate (SMD) plays a unique and central 
role in our Nation's ability to attract students into science and 
engineering fields, and to understand the universe, our own planet's 
environmental complexities and its relationship to the Sun, and major 
factors contributing to climate change. Despite this essential role, 
NASA's fiscal year 2007 Federal budget request would curtail long-term 
growth in the science portfolio, defer or eliminate many of the 
Nation's most successful and promising missions, and fund only a 
relatively small number of scientific missions (albeit promising ones) 
in the next 5 to 10 years. While the manned program is incredibly 
important, it cannot come at the complete expense of this critical 
investment.
    Within SMD, NASA plays a unique and central role in the study of 
the complexities of the Earth system and the equally complex 
relationship of the Sun to Earth through the Earth-Sun System. NASA's 
investment in Earth Science Research and Analysis (R&A) and the 
missions and tools associated with this research makes possible the 
study of Earth from space providing data that simply are not available 
from any other Federal agencies. These observations, used in research 
and in the construction of computer models to predict weather, climate, 
and natural hazards, provide a critical basis from which our 
understanding of our planet evolves and on which informed policy 
decisions, both long term and emergency response, can be made. Given 
the tremendous importance of this underlying activity, the R&A analysis 
programs should continue to receive robust funding levels at least 
commensurate with fiscal year 2006 levels.
    In addition to investments in Earth-Sun System, NASA must preserve 
the essential PI-led programs that serve as a primary conduit through 
which the Nation's best scientists can engage NASA in cutting-edge 
problems. NASA should support the Explorer, Discovery, and New Frontier 
programs and fully commit to missions unless there are technical or 
cost related issues. When NASA promotes premature termination of those 
missions for non-technical or cost reasons, it is in danger of sending 
the message to the community that it is an unreliable partner and that 
this is not a field that future scientists and engineers should pursue. 
Moreover, balanced, highly skilled teams of talent are lost, as are 
discoveries on the immediate horizon.
    While the exploration initiative and International Space Station 
are of great human interest and of scientific value, we are far from 
unlocking all the mysteries of our own planet. NASA programs that are 
in progress and others that are yet to be implemented will enable us to 
protect space vehicles, astronauts, and satellites from the devastating 
radiation of solar storms; mitigate some of the property damage and 
prevent some of the deaths caused by severe weather; and help us to 
mitigate, understand, and cope with the inevitable effects of natural 
and human-induced climate change. These programs are critical to the 
health of our economy, to the health of the Earth, and to our national 
security. As the administration's new vision for U.S. space exploration 
unfolds, I urge the committee to protect the vibrant NASA science 
accounts and missions, current and planned, that make possible the 
study of our own planet and the environment that sustains life on 
Earth.
National Oceanic and Atmospheric Administration (NOAA)
    NOAA's importance to the Nation was made glaringly evident to the 
world as Hurricane Katrina bore down on the Gulf Coast last fall. 
Without the R&D and operations behind the accurate forecasts and 
warnings that moved tens of thousands of people out of the region, the 
number of deaths caused directly by the storm would have been 
catastrophic. This is just one example of the manner in which NOAA 
data, research, and services contribute to the Nation's security, 
economy, environment, and quality of life, yet NOAA hurricane forecast 
R&D is also just one example of areas severely under funded in the 
request for fiscal year 2007. NOAA provides a critical link for this 
Nation between research results, research applications, technology 
development, and operations, yet NOAA's overall budget request is 5.8 
percent below the fiscal year 2006 Enacted Budget. For NOAA to address 
all areas of concern and priority that have been identified by 
Congress, and to restore core funding that has decreased in recent 
years, I urge the committee to fund NOAA at $4.5 billion for fiscal 
year 2007 and to do so while maintaining vital, enhanced support for 
other portion's of the subcommittee's research and development 
portfolio.
    National Weather Service (NWS).--The fiscal year 2007 NWS request 
eases some of the extremely difficult pay raise pressures that were 
squeezing NWS operations to the breaking point. In recent years, NWS 
has assumed responsibility for several programs such as the Space 
Environment Center (SEC), the U.S. Weather Research Program (USWRP), 
and the Wind Profilers. None has fared particularly well. SEC, the 
Nation's official source of space weather alerts and solar radiation 
warnings, was cut in fiscal year 2006 from just over $7 million to less 
than $4 million. USWRP has not been able to adequately keep up with our 
international obligation to fund THORPEX, and has not yet implemented 
planned national activities for this international research program 
designed to accelerate improvements in the accuracy of 1-to-14 day 
weather forecasts with deliverables such as improving disaster 
mitigation/response and increasing economic efficiency. The staff of 
the NOAA Profiler Network, 35 Doppler Radar sites that provide vital 
vertical wind profile data, has been cut back to the point that 
reliability and urgently required upgrades are severely compromised. 
The fiscal year 2007 NWS request will allow these and other critical 
programs such as AWIPS and Local Warnings and Forecasts to barely meet 
minimum requirements. I urge the committee to do everything possible to 
fund the President's entire request of $881.86 million for the National 
Weather Service, a line office that provides the most critical of 
activities for policy makers, stakeholders, and citizens.
    Office of Oceanic and Atmospheric Research (OAR).--OAR conducts 
research and technology development that are the underpinnings for NOAA 
operations. If the requested amount is appropriated, OAR would receive 
a small increase to its base funding for fiscal year 2007, some of 
which will keep the Nation on track with its contribution to the 
international commitment of completing the ocean climate observing 
system by 2010. This is a high priority component within this country's 
obligation to the construction of the international Global Earth 
Observation System of Systems (GEOSS). In addition, the increase will 
support drought impact research through the National Integrated Drought 
Information System (NIDIS) and develop new data sets that will enhance 
operational climate prediction. Also within OAR, the Hurricane Research 
Division (HRD) works to improve the Nation's hurricane forecasts for 
both path and intensity. This is an activity the importance of which is 
obvious, post-Katrina, yet HRD funding, modest to begin with, is cut by 
over $1.0 million in the fiscal year 2007 request. I urge the committee 
to support the foundational research, technology development, and 
international commitments represented by the fiscal year 2007 request 
of $348.6 million for the Office of Oceanic and Atmospheric Research 
and to shore up funding for obviously critical research areas such as 
hurricane forecasts.
    National Environmental Satellite, Data and Information Service 
(NESDIS).-- NESDIS is responsible for managing all aspects of the 
remotely gathered environmental data that form the basis for 
environmental research meeting the needs of policy makers and users. 
The fiscal year 2007 request provides a badly needed increase to cover 
basic operations and to provide additional funding for data archiving, 
and access and assessment activities at the NOAA National Data Centers 
which serve over 50,000 users annually. I urge the committee to support 
the President's fiscal year 2007 request of $1,033.8 million for 
NESDIS.
    On behalf of the UCAR community, I want to thank the committee for 
your stewardship of the Nation's scientific enterprise and your 
understanding that the future strength of the Nation depends on the 
investments we make in science and technology today.
                                 ______
                                 

           Prepared Statement of the Town of Brunswick, Maine

    On behalf on the Town of Brunswick, I appreciate the opportunity to 
present this testimony in support of an appropriation of $1.45 million 
from NOAA's Coastal and Estuarine Land Conservation Program for the 
Maquoit Bay project in southern Maine.
    Located in coastal Cumberland County, Brunswick is the sixth 
largest community in the State and the largest in the mid-coast region. 
The popularity of our downtown, the presence of Bowdoin College, and 
excellent public educational and recreational opportunities all 
contribute to the attractiveness of Brunswick. Over the past 15 years 
our town has experienced rapid residential growth resulting in the 
construction of approximately 1,200 new homes. This growth underscores 
the need to conserve key, ecologically significant, properties while 
the opportunity still exists. Successful completion of the Maquoit Bay 
project will forever preserve our community's traditional ties to Casco 
Bay by maintaining public access and forever reminding our citizens of 
their place in the watershed.
    While the Casco Bay watershed represents only 3 percent of Maine's 
total landmass, it holds nearly 25 percent of the State's population. 
The bay supports many industries such as shipping, commercial fishing, 
and shellfishing, as well as tourism and other recreational activities 
all of which are critical to the economic vitality of Maine. The Casco 
Bay Plan, developed to prevent further degradation of the bay and 
restore its health, focuses on five key issues of importance to the 
health of the bay: stormwater management, clam flats and swimming 
areas, habitat protection, toxic pollution, and stewardship.
    Maquoit Bay, which is at the northwestern end of Casco Bay, is a 
shallow 5-square-mile embayment and includes the best commercial 
clamming flats in southern Maine. The Town of Brunswick, in which the 
entire bay is located, has adopted a Coastal Protection District zoning 
ordinance to limit development within the Maquoit watershed in an 
attempt to slow deterioration of the bay. The U.S. Fish and Wildlife 
Service has identified the northern end of Maquoit Bay as the most 
important habitat area in Casco Bay for all species studied, including 
the eider, brant, Canada goose, eelgrass, common loon, horseshoe crab, 
and the black duck.
    Available for immediate protection is the 170-acre Maquoit Bay 
property, which constitutes fully one-quarter of the northern end of 
the bay and is one of the last undeveloped sites on Brunswick's entire 
coastline. Very little of the town's 66 miles of coastline is open to 
public access, and the town has made improving water access one of its 
top priorities. This property has almost a mile of salt water frontage 
on the bay and if protected will nearly double the town's current 
public access to the water.
    The property available for conservation this year comprises a 
substantial portion of a larger 222-acre forest block, identified as a 
priority for conservation by the Rural Brunswick Smart Growth Plan. 
There are also three freshwater streams on the tract and a unique rocky 
promontory that provides spectacular views of Casco Bay and its islands 
and great swimming access to the warm shallow bay. With nearly a mile 
of trails for walking and cross-country skiing, and canoe and kayak 
access to Maquoit Bay and Casco Bay, this property has great 
recreational value to the townspeople as well as other Maine residents 
and visitors seeking access to coastal waters.
    Conservation of this relatively large unfragmented forested habitat 
on Maquoit Bay will help achieve the goals of the larger Casco Bay 
protection effort, enhance existing conserved properties up the 
watershed, and assist Brunswick in providing additional public access 
to the waterfront for its residents and many visitors.
    The landowners are offering the property for conservation but only 
for a very limited time. In fiscal year 2006, Congress appropriated 
$550,000 towards this project, which is strongly supported by the 
Brunswick Town Council and has been endorsed by the Maine Coastal 
Program, a division of the State Planning Office. An appropriation of 
$1.45 million from NOAA's Coastal and Estuarine Land Conservation 
Program (CELCP) in fiscal year 2007 is needed to complete this critical 
coastal protection effort in the Casco Bay watershed. These federal 
funds will be matched by a State grant, land value donation and the 
value of other conserved lands within the Maquoit Bay watershed.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony and for your consideration of this important request.
                                 ______
                                 

            Prepared Statement of the St. Simons Land Trust

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $3 million from NOAA's Coastal and Estuarine Land 
Conservation Program for a conservation easement on Little St. Simons 
Island in Brunswick, Georgia.
    The St. Simons Land Trust is a non-profit organization dedicated to 
protecting St. Simons natural and scenic character so that residents, 
visitors, and generations to come can share and enjoy this precious 
jewel of nature. The trust has worked to protect lands since its 
formation in 2000 by working with caring landowners, county government, 
and our dedicated membership of over 2,000 families.
    The 100 miles of Georgia coastline from Savannah to St. Marys is a 
diverse ecosystem of estuaries, salt marshes, wetlands, barrier 
islands, and beaches. The Georgia coast is also home to a number of 
historic forts and sites from colonial, antebellum, and Civil War 
periods. In recognition of the ecological and historical significance 
of the State's coast, Congress, Georgia, and private organizations have 
created a number of parks, monuments, wildlife refuges, historic sites, 
and reserves that conserve these special coastal resources.
    Of the dozen or so larger barrier islands along the Georgia coast, 
Little St. Simons Island is one of the last that remains substantially 
undeveloped and unprotected. This year there is an opportunity to 
acquire a conservation easement on the entirety of Little St. Simons 
Island in Glynn County. The island consists of 12,500 acres of land 
along 7 miles of Atlantic Ocean beachfront. Of the total acreage, 
approximately 2,500 acres are high ground; the rest is tidal salt 
marsh. Little St. Simons Island is about 10 miles northeast of the town 
of Brunswick.
    Little St. Simons Island contains a variety of pristine ecosystems 
that provide habitat for migratory birds unique to the Atlantic 
coastline. Little St. Simons Island and parts of three other islands in 
the area were designated the Altamaha River Delta Reserve under the 
Western Hemisphere Shorebird Reserve Network, an international 
voluntary conservation system. This barrier island was also recognized 
by the American Bird Conservancy as one of the top 500 important bird 
areas in the United States. The marshlands provide habitat for 
waterfowl, migratory birds, and American alligators. The island is also 
a habitat for several endangered and threatened species, including the 
loggerhead sea turtle, the piping plover, and the wood stork.
    Little St. Simons Island contains significant historical and 
cultural resources. Of the several historic structures still remaining 
on the island, one of the most important is an eighteenth-century house 
built by Samuel Augspourger, a surveyor and engineer to General James 
Oglethorpe, the founder of the Georgia colony. Augspourger also 
supervised the design and construction of Fort Frederica on St. Simons 
Island, which has been preserved as a national monument since 1936. 
Little St. Simons is thought to have potentially rich archaeological 
and cultural resources relating to Native Americans and European 
settlers.
    Under the proposed conservation easement, the island will remain 
privately owned. The easement will be held by the City of Brunswick and 
will be monitored by the St. Simons Land Trust. Public access to the 
island will be available through overnight and day-trip guest programs, 
with ecological study programs for university scholars and naturalists. 
The owners intend to establish an education and research foundation to 
be endowed by a portion of the proceeds from the sale of the easement. 
In addition to researchers, school groups will be able to visit the 
island on a limited basis.
    Unless the island is permanently protected, Little St. Simons 
Islands' pristine natural resources will be at risk, as the island is 
currently zoned for development. As nearby communities and developed 
barrier islands grow, the conservation of Little St. Simons Island will 
not only preserve open space and beachfront, but will also reduce the 
potential damage and costs from storms and hurricanes.
    The community in Brunswick and St. Simons Island supports the 
conservation easement. The state of Georgia has submitted this project 
to NOAA as its top CELCP priority for fiscal year 2007. The $3 million 
appropriation from the Coastal and Estuarine Land Conservation program 
will be matched by $27.75 million in other public and privately raised 
funds.
    Acquisition of this conservation easement is critical to protecting 
thousands of acres of marshlands and one of the last stretches of 
undeveloped and unspoiled beachfront on Georgia's Atlantic coastline.
    Thank you, Mr. Chairman for the opportunity to present this 
testimony in support of the $3 million CELCP appropriation for Little 
St. Simons Island, and for your consideration of the request.
                                 ______
                                 

         Prepared Statement of the Protectors of Pine Oak Woods

    Protectors of Pine Oak Woods, a conservation organization 
representing 2,300 environmentally conscious Staten Islanders, 
appreciates this opportunity to testify in support of appropriating $3 
million from NOAA's Coastal and Estuarine Land Conservation program for 
the preservation of Long Pond/Butler Woods in New York.
    The southern coast of Staten Island, facing the open waters of the 
Atlantic Ocean and Sandy Hook in New Jersey southeast over the Raritan 
Bay, is an important natural and recreational resource for the 
residents of the metropolitan New York City Area. To conserve this 
shoreland, hundreds of acres have been protected as Federal, State, and 
local government parks such as Gateway National Recreational Area in 
New York and New Jersey, Mount Loretto Unique Area, Wolfe's Pond Park, 
and Conference House Park. These parks lie on the northern shore of 
Raritan Bay, a significant estuary between New York and New Jersey.
    New York/New Jersey's Raritan Bay, with Staten Island to the north 
and Middlesex and Monmouth counties to the south, is the largest 
component of the Hudson River-Raritan Estuary system. It is part of the 
New York-New Jersey Harbor Estuary program, one of 28 federally 
recognized estuaries of national importance. Raritan Bay was 
historically one of the richest fisheries in the Nation prior to over-
fishing and a reduction of water quality due to silt and other 
pollution which have impacted fish stocks in recent decades. The 
harbor, where commerce, industry, and nature confront one another, has, 
considering its overlying urban/industrial matrix, large amounts of 
upland and wetland open space and an unexpectedly high degree of 
biological diversity. The wetlands, marshes, flats, and costal and 
riparian corridors in both New York and New Jersey serve as prime 
habitats for fish, terrapin, amphibians, and shorebirds, while 
migratory birds use these same areas for habitat and stopovers to 
replenish the energies needed to continue their journeys. In this part 
of Raritan Bay land conservation has been used as a primary tool for 
wildlife protection and to improve water control and quality; it is the 
site of extensive habitat and storm water management Bluebelts 
established by The New York City Department of Environmental 
Protection.
    Two parcels totaling 80 acres near the Princes Bay section of 
Staten Island are available for acquisition in fiscal year 2007. These 
are collectively referred to as Long Pond/Butler Woods. The largest 
parcel, known as the North Mount Loretto Woods, comprises 75 acres of 
forest and wetlands lying between Hylan Boulevard and the Pleasant 
Plains Station of the Staten Island Railway. This property contains 
wetlands that provide flood protection, stormwater control, wildlife 
habitat, and open space for residents. More than half of the property 
contains wetlands within the Mill Creek watershed and provides 
watershed protection. The smaller parcel, known as the Camp St. Edward 
property, is a 5-acre triangular property on the shore of Raritan Bay. 
Currently undeveloped, it extends south of Hylan Boulevard along 800 
feet of shoreland, and is adjacent to the only natural red clay bluffs 
in the New York City area.
    Both of these properties have been identified as high priority 
conservation projects in the New York State Open Space Conservation 
Plan of 2005, a plan which includes the New York-New Jersey Harbor 
Estuary program and the State plans for the Coastal and Estuarine Land 
Conservation program. Together the properties offer opportunities to 
conserve important recreation and open space for residents and other 
users. Enhancing their value are several existing conserved properties 
that surround the parcels, including the Mill Creek Bluebelt site 
immediately to the north of the North Mount Loretto Woods parcel; Long 
Pond Park Natural Area which contains forest, swamp, and freshwater 
ponds; Lemon Creek on the bay itself; Bloesser's Pond; Arden Heights 
Woods; and the Mount Loretto Unique area, an adjacent 145-acre tract of 
grasslands and bluff fronting the bay that was conserved in 1998.
    In order to conserve the Long Pond/Butler Woods parcels, an 
appropriation of $3 million from the Coastal and Estuarine Land 
Conservation program is needed in fiscal year 2007. A federal 
contribution would be matched by $11.5 million in non-federal funds, 
very nearly a one-to-four ratio. Once conserved, the properties would 
be managed by the New York State Department of Environmental 
Conservation. Both properties are highly vulnerable for development 
given their location in the metropolitan area, and other parcels in the 
immediate area are have been purchased and developed for residential 
use within the past year. Conservation of these two properties will 
ensure the protection of important coastal wetlands and the 
availability of open space, recreational opportunity, and public access 
to the shore of Raritan Bay. Therefore protectors of Pine Oak Woods 
urges the inclusion of funding for this project in the fiscal year 2007 
Commerce, Justice, and Science appropriations bill. We thank the 
subcommittee for this opportunity to present testimony, and for 
consideration of this important request.
                                 ______
                                 

      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other State and locally owned utilities in 49 of the 50 States (all 
but Hawaii). Collectively, public power utilities deliver electricity 
to one of every seven electric consumers (approximately 43 million 
people), serving some of the Nation's largest cities. However, the vast 
majority of APPA's members serve communities with populations of 10,000 
people or less.
    The Department of Justice's (DOJ) Antitrust Division and the 
Federal Trade Commission (FTC) play critical roles in monitoring and 
enforcing antitrust laws affecting the electric utility industry. With 
the repeal of the Public Utility Holding Company Act (PUHCA) included 
in the Energy Policy Act of 2005, the electric utility industry is 
experiencing an increase in mergers that, if approved, could result in 
increased market power in certain regions. This development coupled 
with the volatility and uncertainty continuing to occur in wholesale 
electricity markets, make the oversight provided by DOJ and the FTC 
more critical than ever.
    APPA supports adequate funding for staffing antitrust enforcement 
and oversight at the FTC and DOJ. Specifically, we support the 
administration's request of $223 million for fiscal year 2007 for the 
FTC. We are heartened that the downward trend in funding for the DOJ's 
Antitrust Division over several years has been reversed, and are 
pleased with the administration's request of $147.7 million for fiscal 
year 2007.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2007 funding priorities within the Commerce, Justice 
and Science subcommittee's jurisdiction.
                                 ______
                                 

     Prepared Statement of the California State Coastal Conservancy

                                summary
    The following testimony is in support of the California State 
Coastal Conservancy's fiscal year 2007 Science, Justice, Commerce, and 
Related Agencies appropriations request. The Conservancy respectfully 
requests needed funding for the following critical projects: $5.5 
million for the acquisition of Piedras Blancas, the Santa Clara River 
Parkway and the Jenner Headlands under the National Oceanic and 
Atmospheric Administration's (NOAA) Coastal and Estuarine Land 
Conservation Program.
                         conservancy background
    The California Coastal Conservancy, established in 1976, is a State 
agency that uses entrepreneurial techniques to purchase, protect, 
restore, and enhance coastal resources, and to provide access to the 
shore. We work in partnership with local governments, other public 
agencies, nonprofit organizations, and private landowners.
    To date, the Conservancy has undertaken more than 950 projects 
along the 1,100 mile California coastline and around San Francisco Bay. 
Through such projects, the Conservancy protects and improves coastal 
wetlands, streams, and watersheds; works with local communities to 
revitalize urban waterfronts; assists local communities in solving 
complex land-use problems and protects agricultural lands and supports 
coastal agriculture to list a few of our activities.
    Since its establishment in 1976, the Coastal Conservancy has helped 
build more than 300 access ways and trails, thus opening more than 80 
miles of coastal and bay lands for public use; assisted in the 
completion of over 100 urban waterfront projects; joined in partnership 
endeavors with more than 100 local land trusts and other nonprofit 
groups, making local community involvement an integral part of the 
Coastal Conservancy's work and completed projects in every coastal 
county and all nine San Francisco Bay Area counties. In addition, we 
currently have over 300 active projects that are benefiting the 
citizens of California.
Fiscal Year 2007 Coastal and Estuarine Land Conservation Projects
    The Coastal and Estuarine Land Conservation program is the only 
federal program directly supporting public land acquisitions necessary 
to implement the State's federally-mandated Coastal Management program. 
California has coastal land acquisition needs for public recreation and 
habitat conservation much greater than available State and local funds, 
and the public strongly supports preservation of coastal resource 
lands. The CELCP is strongly supported by nonprofit conservation 
organizations and by the Coastal States Organization.
    In fiscal year 2007, we are seeking $1,500,000 for the acquisition 
of the Piedras Blancas property. The Piedras Blancas project will 
purchase 18 acres of coastal property in San Luis Obispo County. It is 
nestled within the Hearst Ranch, which covers 128 square miles and 
includes 18 miles of coastline. In early 2005, the State of California 
protected 82,000 acres of the Hearst Ranch through a conservation 
easement and fee title acquisition. This conservation endeavor 
transferred fee title of 13 miles of rugged, undeveloped coastline to 
California State Parks. The Piedras Blancas property is the last 
remaining privately held parcel west of Highway 1 within the 18-mile 
stretch of Hearst Ranch. This project will allow the California 
Department of Parks and Recreation to complete acquisition of this 
missing half mile of coast and will offer immediate safe public access 
to the coastal bluffs, trails, and beaches that exist on the property.
    We also respectfully request $1,000,000 in funding for the 
acquisition of land to complete the Santa Clara River Estuary Project. 
The project will protect disappearing riparian and wetland habitats 
through acquisitions of fee title and/or conservation easement in and 
around the river's estuary. This project complements a 5-year ongoing 
effort by the California State Coastal Conservancy (SCC) and The Nature 
Conservancy (TNC) to create the Santa Clara River Parkway by acquiring 
and protecting properties along the river. To date, the Coastal 
Conservancy and The Nature Conservancy have acquired 14 riverside 
properties totaling more than 2,300 acres. The project will also expand 
McGrath Beach State Park and the Santa Clara River Estuary Natural 
Preserve.
    The $1 million requested from the Coastal and Estuarine Land 
Conservation Program (CELCP) will be matched by the McGrath State Beach 
Trustee Council (Trustee Council), the SCC, and TNC. The Trustee 
Council will contribute up to $500,000 from a $1,315,000 State trust 
account resulting from mitigation of the 1993 Berry Petroleum Company 
oil spill in the vicinity of McGrath Lake. The trustees are the 
California Department of Fish and Game (CDFG), California Department of 
Parks and Recreation (State Parks), and U.S. Fish and Wildlife Service 
(USFWS). SCC will contribute at least $500,000 toward land protection 
in the project area. Needs in excess of the projected $2 million will 
be met by SCC and The Nature Conservancy.
    This project is part of a larger ecological conservation project 
that includes the entire Santa Clara River, its estuary, and beach and 
marsh habitat along the Ventura County coastline. A number of local, 
State, and federal agencies as well as non-profit organizations and 
local citizens' groups are cooperating to make this work successful.
    Finally, we respectfully request the inclusion of $3,000,000 in 
funding for the acquisition of the Jenner Headlands. Acquisition of the 
Jenner Headlands represents the most significant opportunity along the 
Sonoma Coast to protect an important area with unique and diverse 
conservation, recreation, ecological and aesthetic values. This 5,630-
acre property is threatened by conversion to rural residential 
development, placing its extraordinary resources in peril. This 
acquisition is a critical link in completing a 30-mile long 
conservation corridor from Bodega Head to Fort Ross.
    Much of the property is designated as Significant Natural Area by 
the California Department of Fish and Game (CDFG), and contains 
numerous and diverse habitat types, including riparian corridors 
suitable for Coho rearing. Jenner Gulch, Russian Gulch, Austin Creek 
and Sheephouse Creek, whose watersheds are within this property, are 
anadromous fish streams, the latter being one of three locations of 
CDFG's Coho salmon re-introduction program. Jenner Gulch is also the 
water source for the 170 residents of Jenner. The complex mosaic of 
habitats that exist in this site provides a vast, contiguous region for 
resident and nonresident fish and wildlife species. In addition to the 
abundant common animal species, identified species of special concern 
located on the property include northern spotted owl, red tree vole, 
bank swallow, steelhead, and Coho salmon.
    This property also offers exceptional new recreational 
opportunities as well as opportunities to improve existing access to 
the shore. As part of Sonoma Coast State Beach, California Department 
of Parks and Recreation (CDPR) owns the land adjacent to Jenner 
Headlands and west of Highway 1 from Russian Gulch almost to Jenner. 
Access to this narrow coastal terrace with bluffs surrounding unnamed 
coves is limited. Many of the trails are hazardous and the existing use 
is eroding the bluffs. The acquisition of Jenner Headlands will provide 
a safer and more scenic coastal trail route along the approximate 2.5 
miles between Russian Gulch and Jenner.
    The property owners are currently processing certificates of 
compliance, which, when approved, will allow them to fragment the 
property into 44 separate parcels without any further local subdivision 
approval requirements. The intense demand for home sites on the 
California coast practically guarantees that this property will be 
developed unless it is acquired for the benefit of the public.
                                 ______
                                 

  Prepared Statement of the Association of Small Business Development 
                                Centers

    The Association of Small Business Development Centers (ASBDC) urges 
the subcommittee on Commerce, Justice, Science and Related Agencies to 
provide an appropriation of $110 million for the Small Business 
Administration's Small Business Development Center (SBDC) grant program 
in the fiscal year 2007 appropriations bill. A fiscal year 2007 Federal 
funding level of $110 million for the nationwide SBDC network will 
restore Federal funding lost to most State and regional SBDC networks 
across the Nation as a result of inflation in recent years.
    A Federal funding level of $110 million for the nationwide SBDC 
network is the level of funding provided for in the bi-partisan Snowe-
Kerry-Vitter-Landrieu-Talent amendment that passed the Senate on 
September 15, 2005, by a vote of 96-0, during consideration of the 
fiscal year 2006 S-S-J-C appropriations bill. This is also the funding 
level provided for in the bi-partisan Snowe-Kerry-Vitter-Coleman-Nelson 
(of Florida)-Landrieu-Lieberman-Levin amendment to the fiscal year 2007 
Budget Resolution adopted by the Senate on March 16 of this year; and 
it is the funding level requested by every member of the Senate 
Committee on Small Business and Entrepreneurship in a letter to the 
chairman and ranking member of the C-J-S Appropriations subcommittee on 
April 7.
    The table below shows how much each State and regional SBDC network 
has lost in the value of its annual Federal SBDC funding in recent 
years as a result of inflation. Without an increase in Federal funding 
for the nationwide SBDC network, Federal SBDC funding for the average 
Statess SBDC network will be approximately $250,000 (19 percent) less 
in fiscal year 2007 than it was in the year of the last Federal funding 
increase, in inflation-adjusted dollars. For many State and regional 
SBDC networks, the loss of Federal funding due to inflation will be 
even more severe. For example, SBDC networks in small-population 
States, which have not had an increase in their Federal SBDC funding 
since 1998, will receive approximately 25 percent less Federal funding 
in fiscal year 2007 than in fiscal year 1998, after adjusting for 
inflation. And now the proposed SBA Budget calls for cutting Federal 
funding for the nationwide SBDC network even further--by $743,00 (from 
$87,863,000 in fiscal year 2006 to $87,120,000 in fiscal year 2007).
    The immediate result of declining real Federal funding for the 
Nation's SBDC network has been a decline in the number of hours that 
SBDC business counselors can spend with small businesses and aspiring 
entrepreneurs. Between 2003 and 2005 (the most recent year for which 
statistics are available), the number of hours that SBDC business 
counselors could spend with small businesses and aspiring entrepreneurs 
declined by 224,844 (from 1,566,243 in fiscal year 2003 to 1,341,399 in 
fiscal year 2005). The tragedy is that, as fewer small business owners 
and aspiring entrepreneurs have access to SBDC business counselors, and 
as SBDC business counselors spend less time with their small business 
clients, the impact of the SBDCs will be diminished. Fewer businesses 
will be created and saved, and fewer jobs will be created and saved.
    The nationwide SBDC network has a proven record of helping 
America's small businesses grow and create jobs. In 2004, for example, 
nationwide SBDC in-depth clients (those who received five or more hours 
of business counseling) created 74,253 new full time jobs; saved an 
additional 80,907 jobs; generated $6.1 billion in new sales; and saved 
an additional $5.8 billion in sales.
    In addition, the Federal SBDC appropriation of $88 million in 
fiscal year 2004 resulted in SBDC in-depth clients generating an 
estimated $233,674,930 in new Federal revenue as a result of increased 
economic activity--a return of $2.66 in new Federal tax revenues for 
every Federal dollar spent on the SBDC program. Simply put, Federal 
SBDC funding actually generates more revenues than it costs the 
taxpayer. And every dollar appropriated by the Federal government for 
the SBDC national program--to assist small businesses to survive, grow 
and create jobs--leverages at least one additional, non-Federal dollar 
in small business assistance. That is so because, to secure a Federal 
dollar, SBDCs must raise a non-Federal matching dollar.
    If we are to generate jobs for our Nation's young people coming out 
of colleges and universities and high schools, we must stimulate job 
growth. The cost per job created by SBDC in-depth counseling clients, 
including Federal dollars and non-Federal dollars, is $2,439 per job. 
Few federal jobs programs can approximate that cost-per-job created. 
Most State economic development agencies consider $10,000 per job to be 
a successful program.
    It makes no sense to cut funding for a program that teaches small 
business owners and aspiring entrepreneurs to become more competitive, 
effectively manage their small businesses, start new businesses, 
increase sales and create new jobs--especially when the SBDCs help 
generate more Federal revenue through economic growth than it costs the 
federal taxpayer to fund the SBDCs. As the United States Chamber of 
Commerce states, in its letter to the Appropriations Committee 
expressing the Chamber's support for an appropriation of $110 million 
for the SBDC grant program, ``It is vital to have a well-funded SBDC 
infrastructure in place to provide a cost-effective way to help these 
small business owners develop the skills they need to manage cash flow, 
restore markets, bolster revenue streams and increase sales--while 
creating new jobs and additional State and federal revenues.''
    Based on survey data analyzed by Professor James Chrisman of 
Mississippi State University, the ASBDC estimates that, with an 
appropriation of $110 million the nationwide SBDC network could help 
in-depth SBDC clients to:
  --Create 92,752 new jobs;
  --Save an additional 101,064 jobs;
  --Make $7.6 billion in new sales;
  --Save an additional $7.2 billion in sales;
  --Obtain $3.2 billion in financing to grow their businesses; and
  --Generate $291,891,163 in additional Federal revenues as a result of 
        economic growth.
    Again, a federal funding level of $110 million for the nationwide 
SBDC network in fiscal year 2007 will restore federal funding lost to 
most State and regional SBDC networks across the Nation as a result of 
inflation in recent years. The ASBDC urges the subcommittee to provide 
this much needed funding and help ensure that America's small 
businesses and aspiring entrepreneurs, and the SBDCs that serve them, 
have the resources they need.
    Below is a spreadsheet showing how much each State and regional 
SBDC network has lost in the value of its Federal SBDC funding in 
recent years as a result of inflation.

                                      HOW INFLATION HAS ERODED SBDC FUNDING
----------------------------------------------------------------------------------------------------------------
                                                                      Federal                       Percent of
                                                                      Funding         Federal         Federal
                                   Year of Last       Federal     Dollars During   Dollars Lost    Dollars Lost
                                   Federal SBDC   Funding During   Year of Last    to Inflation    to Inflation
             State                   Funding       Year of Last    Increase (in    (between Year   (between Year
                                     Increase        Increase       inflation-        of Last         of Last
                                                                     adjusted,     Increase and    Increase and
                                                                       2007)           2007)           2007)
----------------------------------------------------------------------------------------------------------------
Alabama........................  2001...........      $1,276,425      $1,488,822        $212,397              17
Alaska.........................  1998...........         500,000         626,150         126,150              25
America Samoa..................  2001...........         200,000         233,280          33,280              17
Arizona........................  2002...........       1,433,189       1,626,096         192,907              13
Arkansas.......................  2000...........         784,618         946,328         161,710              21
California.....................  2004...........       9,461,506      10,329,126         867,620               9
Colorado.......................  2002...........       1,201,512       1,363,236         161,724              13
Connecticut....................  2000...........       1,045,447       1,260,914         215,467              21
Delaware.......................  1998...........         500,000         626,150         126,150              25
District of Columbia...........  1998...........         500,000         626,150         126,150              25
Florida........................  2002...........       4,464,511       5,065,434         600,923              13
Georgia........................  2002...........       2,286,800       2,594,603         307,803              13
Guam...........................  1998...........         500,000         626,150         126,150              25
Hawaii.........................  1998...........         500,000         626,150         126,150              25
Idaho..........................  1998...........         500,000         626,150         126,150              25
Illinois.......................  2001...........       3,602,452       4,201,900         599,448              17
Indiana........................  2001...........       1,747,976       2,038,839         290,863              17
Iowa...........................  2000...........         903,302       1,089,473         186,171              21
Kansas.........................  2000...........         819,243         988,089         168,846              21
Kentucky.......................  2001...........       1,162,071       1,355,440         193,369              17
Louisiana......................  2001...........       1,331,402       1,552,947         221,545              17
Maine..........................  1998...........         500,000         626,150         126,150              25
Maryland.......................  2001...........       1,507,645       1,758,517         250,872              17
Massachusetts..................  2001...........       1,894,060       2,209,232         315,172              17
Michigan.......................  2001...........       2,930,782       3,418,464         487,682              17
Minnesota......................  2001...........       1,378,212       1,607,546         229,334              17
Mississippi....................  2000...........         847,168       1,021,769         174,601              21
Missouri.......................  2001...........       1,614,145       1,882,739         268,594              17
Montana........................  1998...........         500,000         626,150         126,150              25
Nebraska.......................  2000...........         567,629         684,617         116,988              21
Nevada.........................  1998...........         500,000         626,150         126,150              25
New Hampshire..................  1998...........         500,000         626,150         126,150              25
New Jersey.....................  2001...........       2,434,412       2,839,498         405,086              17
New Mexico.....................  2000...........         550,034         663,396         113,362              21
New York.......................  2001...........       5,668,984       6,612,303         943,319              17
North Carolina.................  2002...........       2,248,492       2,551,139         302,647              13
North Dakota...................  1999...........         500,000         616,300         116,300              23
Ohio...........................  2001...........       3,420,240       3,989,368         569,128              17
Oklahoma.......................  2000...........       1,006,907       1,214,431         207,524              21
Oregon.........................  2002...........         955,732       1,084,374         128,642              13
Pennsylvania...................  2001...........       3,746,336       4,369,726         623,390              17
Puerto Rico....................  2002...........       1,063,895       1,207,095         143,200              13
Rhode Island...................  1998...........         500,000         626,150         126,150              25
South Carolina.................  2002...........       1,120,714       1,271,562         150,848              13
South Dakota...................  1998...........         500,000         626,150         126,150              25
Tennessee......................  2002...........       1,589,242       1,803,154         213,912              13
Texas..........................  2001-02........       5,898,568       6,711,872         813,304              14
Utah...........................  2002...........         623,812         707,777          83,965              13
Vermont........................  1998...........         500,000         626,150         126,150              25
Virgin Islands.................  1998...........         500,000         626,150         126,150              25
Virginia.......................  2002...........       1,977,309       2,243,455         266,146              13
Washington.....................  2003...........       1,656,015       1,849,438         193,423              12
West Virginia..................  2000...........         628,228         757,706         129,478              21
Wisconsin......................  2001...........       1,541,574       1,798,092         256,518              17
Wyoming........................  1998...........         500,000         626,150         126,150              25
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

        Prepared Statement of the American Physiological Society

    The American Physiological Society (APS) thanks the Subcommittee 
for its sustained financial support of scientific research at the 
National Science Foundation (NSF) and the National Aeronautics and 
Space Administration (NASA). Scientific research plays an important 
role in technological innovation and economic development and therefore 
is vitally important to the future of our Nation. The APS applauds the 
proposed budget increase for NSF, and recommends implementation of the 
plan to provide the agency with $6.02 billion in fiscal year 2007 and 
double its budget in the coming years. In contrast, while the proposed 
overall budget increase for NASA is 3.2 percent, the Human Systems 
Research and Technology (HSR&T) theme would be cut by 56 percent. The 
APS recommends the restoration of funds to basic life sciences and 
countermeasures research at NASA to ensure the safety of humans both on 
the International Space Station and in any future space endeavors.
    The APS is a professional society dedicated to fostering research 
and education as well as the dissemination of scientific knowledge 
concerning how the organs and systems of the body work. The Society was 
founded in 1887 and now has more than 11,000 members who do research 
and teach at public and private research institutions across the 
country, including colleges, universities, medical and veterinary 
schools.
    The APS recognizes both the enormous financial challenges facing 
our Nation and the significant opportunities for scientific progress. 
In this testimony, the APS offers its recommendations for fiscal year 
2007 funding for the NSF and NASA.
                                  nsf
    The basic science initiatives funded by the NSF are driven by the 
most fundamental principles of scientific inquiry. Although at times 
NSF-funded research may seem to be exploring questions that lack 
immediate practical application, we have learned again and again that 
the relevance of the knowledge gained becomes apparent over time. The 
NSF provides support for approximately 20 percent of federally funded 
basic science and is the major source of support for non-medical 
biology research, including integrative, comparative, and evolutionary 
biology, as well as interdisciplinary biological research. The majority 
of the funding NSF provides is awarded through competitive, merit-based 
peer review, which ensures that the best possible projects are 
supported. NSF has an excellent record of accomplishment in terms of 
funding research endeavors that have produced results with far-reaching 
potential.
    One example of innovative NSF-funded research that crosses 
scientific disciplines is the effort by scientists in the Department of 
Mathematics at Duke University to develop mathematical models of kidney 
function. The kidney rids the body of waste and regulates fluid volume 
and balance. By developing mathematically based computer models of 
kidney function at the cellular level, researchers hope to gain a 
better understanding of this complex organ and the causes of kidney 
disease.\1\ This type of cutting-edge, interdisciplinary research 
program is essential for the progress of science, which is becoming 
increasingly interdisciplinary as new technologies emerge.
---------------------------------------------------------------------------
    \1\ A.T. Layton, H.E. Layton, Am J Physiol Renal Physiol 289, 
F1346-66 (Dec, 2005).
---------------------------------------------------------------------------
    In another example of NSF-funded research, scientists studying 
land-dwelling wood frogs at Miami University in Ohio have made some 
important discoveries about how they survive harsh winter weather. 
According to their studies, the frogs alter the amount of sugar and 
other molecules in their bodies in response to cold temperatures, 
ultimately allowing them to freeze solid in the winter and then thaw 
again in spring.\2\ Because frogs share many biological similarities 
with humans and other mammals, the researchers hope that studying the 
precise series of physiological events in the frog will allow them to 
achieve better and longer-term preservation of human organs for 
transplantation. If human organs could be stored for longer periods, 
more organs might be available for transplantation and better 
immunological matches could be achieved. This has the potential to 
result in longer and healthier lives for transplant patients. In 
addition, because the frogs undergo cardiac arrest when they freeze, a 
better understanding of their natural cold tolerance may also shed 
light on medical problems in humans resulting from hypothermia and 
oxygen deprivation.\3\
---------------------------------------------------------------------------
    \2\ J.P. Costanzo, R.E. Lee, Jr., J Exp Biol 208, 4079-89 (Nov, 
2005).
    \3\ J. P. Costanzo, R.E. Lee, Jr., A.L. DeVries, T. Wang, J.R. 
Layne, Jr., Faseb J 9, 351-8 (Mar, 1995).
---------------------------------------------------------------------------
    In addition to such innovative research, NSF also supports 
outstanding science and math education programs, which was one of the 
themes in the President's State of the Union address. NSF programs 
enhance education at every level from elementary school through 
graduate school and therefore should have merited funding increases for 
fiscal year 2007. Nevertheless, education programs at the NSF have 
suffered from recent budget cuts, and fiscal year 2007 budget proposal 
similarly fails to give them the priority they deserve. The President's 
budget recommends shifting funding for some NSF educational programs to 
the Department of Education. We believe that the NSF is uniquely 
qualified to foster excellence in science and math education and urge 
that funding for these programs remain at the NSF.
    The APS urges Congress to support the important work being carried 
out at NSF by funding the agency at its requested level of $6.02 
billion. In addition, the APS recommends restoration of funding for 
education programs at NSF.
                                  nasa
    The Human Systems Research and Technology (HSR&T) Theme within NASA 
was created to focus on the health and safety of humans involved in 
space exploration. During prolonged space flight, the physiological 
changes that occur due to microgravity, increased exposure to 
radiation, confined living quarters, and alterations in eating and 
sleeping patterns can lead to health problems and reduced ability to 
perform tasks. Given NASA's current focus on manned space exploration, 
it is critical that resources be devoted now to research into the 
health effects of prolonged space flight. NASA is the only agency whose 
mission includes addressing the biomedical challenges of manned space 
exploration. Moreover, this research has already produced findings with 
potential application to medical problems that occur in other 
connections. A few examples of outstanding NASA funded science are 
described below.
    A common problem associated with prolonged exposure to reduced 
gravity is muscle atrophy, including in the muscles of the legs. In an 
environment with normal gravity, muscle mass is maintained because 
walking provides both exercise and nerve stimulation in the leg 
muscles. The kind of muscle atrophy observed in humans following 
spaceflight can be simulated in laboratory rats, which has permitted 
researchers opportunities to study ways to counteract its negative 
effects. Last year several NASA-funded researchers published a study 
using showing that by artificially stimulating the bottom of the foot 
using an inflatable boot they could markedly reduce the atrophy that 
would otherwise occur in the leg muscles.\4\ If these results can be 
confirmed in humans, this type of countermeasure may be useful not only 
in conditions of reduced gravity, but also in patients who are bed-
ridden for prolonged periods.
---------------------------------------------------------------------------
    \4\ A. Kyparos, D.L. Feeback, C.S. Layne, D.A. Martinez, M.S. 
Clarke, J Appl Physiol 99, 739-46 (Aug, 2005).
---------------------------------------------------------------------------
    Muscles that have atrophied also show resistance to insulin, a 
molecule that affects how sugar is absorbed by the body's tissues. 
NASA-funded researchers at the University of North Carolina, Chapel 
Hill, used the same kind of animal model to study insulin resistance in 
conditions that simulate microgravity. They were able to identify 
events that occur at the molecular level that lead to insulin 
resistance, as well as ways the body compensates to allow the muscles 
to utilize sugar in a way that does not require insulin.\5\ These 
studies may have significant implications for keeping astronauts 
healthy during and after spaceflight. At the same time, they may 
contribute to our understanding of biological pathways that are 
important in diabetes, which is a growing health problem in the United 
States.
---------------------------------------------------------------------------
    \5\ T.L. Hilder et al., J Appl Physiol 99, 2181-8 (Dec, 2005).
---------------------------------------------------------------------------
    The APS is concerned about the proposed 56 percent decrease in the 
allocation for fiscal year 2007, which is inconsistent with NASA's 
increased focus on manned space exploration. The APS joins the 
Federation of American Societies for Experimental Biology (FASEB) in 
urging both a restoration of the cut and an increase in support for 
peer-reviewed research into the health risks of long-term space flight 
and development of appropriate countermeasures.
    Investment in the basic sciences is critical to our Nation's 
technological and economic future. The APS strongly supports federal 
funding for biological and biomedical research at the NSF and NASA, as 
it does for funding at the National Institutes of Health, another 
agency whose budget is in need of congressional attention to counter 
the real decline in its ability to fund medical research. The APS urges 
you to make every effort to provide these agencies with increased 
funding for fiscal year 2007.
                                 ______
                                 

       Prepared Statement of ASME Aerospace Division's Task Force

            introduction to asme and the aerospace division
    ASME is a nonprofit, worldwide engineering society serving a 
membership of 120,000. It conducts one of the world's largest technical 
publishing operations, holds more than 30 technical conferences and 200 
professional development courses each year, and sets many industrial 
and manufacturing standards. The work of the society is performed by 
its member-elected board of governors through five councils, 44 boards, 
and hundreds of committees operating in 13 regions throughout the 
world.
    The ASME Aerospace Division has approximately 15,000 members from 
industry, academia and government. ASME members are involved in all 
aspects of aeronautical and aerospace engineering at all levels of 
responsibility. They have a long-standing interest and expertise in the 
Nation's federally funded aerospace research and development activities 
at the National Aeronautics and Space Administration (NASA) and NASA's 
efforts to create a pipeline of young engineers interested in aerospace 
and aeronautics. In this statement, the ASME Aerospace Division's Task 
Force (herein referred to as ``the Task Force'') will address programs 
that are critical to the long-term health of the Nation's aerospace 
enterprise and its global economic competitiveness.
           overview of nasa's fiscal year 2007 budget request
    The Task Force applauds the administration for its firm commitment 
to space exploration. Space exploration is one of the United States' 
greatest achievements and maintaining this mission is critical to U.S. 
leadership in space. However, at a time when America faces 
unprecedented challenges to its economic leadership, NASA must continue 
to play a lead role in funding engineering-related research, 
particularly for aeronautics programs.
    While we are pleased with the administration's support for the 
space program and NASA's efforts to revitalize its mission, we remain 
concerned about proposed reductions in funding for the aeronautics 
research and technology (R&T) programs contained within NASA's 
Aeronautics Research Mission Directorate. This is the portion of the 
NASA budget that has an immediate and practical benefit to the Nation, 
and yet the administration proposes to reduce those programs by $160 
million to $724 million in fiscal year 2007, reducing the budget by 
almost half over the past decade.
    Strong investment in fundamental engineering research in 
aeronautics will ensure that the United States will retain its long-
term leadership in this field. Therefore, the Task Force recommends 
that the aeronautics portion of the NASA budget be increased to $2 
billion over the next 8 years, with a long-term target of attaining a 
level of 10 percent of the total NASA budget. Achieving this target 
would re-establish aeronautics funding, as a percentage of the NASA 
budget, at its pre-1990 level and put U.S. R&D funding at levels 
commensurate with its competitors abroad.
                  aeronautics research and technology
    Several interrelated critical challenges confront the U.S. 
aeronautics enterprise--a sharp decrease in the number of new 
commercial and military aircraft programs, a decline in the quality of 
the research infrastructure, and erosion in the technologically 
literate workforce needed to ensure pre-eminence in an increasingly 
competitive marketplace. Low investment by NASA in aeronautics research 
contributes to all these problems.
    Infrastructure.--There is a need to refocus on the infrastructure 
required to develop a new generation of advanced flight vehicles. In an 
era of budget cuts and fewer defense contracts, the Nation has embarked 
on a path where key wind tunnel and other ground test facilities are 
being retired. Our Task Force recommends a team of experts from 
industry, government and academia be chartered to identify the 
infrastructure requirements for a robust national aeronautical R&D 
program aimed at developing a new generation of advanced aeronautical 
vehicles. R&D adequate to sustain or build this infrastructure should 
be identified. The Nation should guard against a loss of technical 
expertise in the critical field of wind tunnel testing, a very real 
possibility in the current climate of attrition.
    Workforce.--Aeronautics faces the same pressures being felt by the 
space industries: fewer research dollars over time has resulted in 
fewer companies with skilled workers capable of designing and building 
complex aeronautical systems. An investment in aeronautics is a matter 
of strategic importance, as it creates highly skilled manufacturing 
jobs and helps create a foundation for a strong national defense.
    Aerospace companies have an aging workforce, with an estimated 26-
27 percent reaching retirement age by 2008. Aerospace suffers from a 
lack of available young workers with advanced technology degrees who 
can step in to replace retiring, experienced workers. The aerospace 
industry looks to NASA to create a demand for long-term R&D to 
encourage students to go to graduate school and on to companies who are 
doing aeronautical research. There is a clear correlation between 
research dollars and the number of graduate students in a particular 
field--the students follow the money. Therefore, as the funding for 
aeronautics has decreased by more than half over the last decade, so 
have the number of graduate student decreased.
    Aeronautical Technologies Critical to U.S. Leadership.--Contrary to 
perception, aeronautics is not a mature industry. Exciting new 
opportunities exist for major advances in many areas of aeronautical 
technology, including automated flight vehicles, ``fail-safe'' 
avionics, new platforms/configurations, efficient propulsion, ``quiet'' 
aircraft, enhanced safety, and ``zero'' emissions aircraft. The Task 
Force identified numerous technologies that are critical to the long-
term health of the Nation's civil and military aviation and aeronautics 
technology enterprise including:
  --Quieter, more environmentally friendly aircraft engines are not 
        only possible, but highly desirable over the near- and longer-
        term. More distant, but intriguing, are the possibilities for 
        engines using alternative fuels, including hydrogen. A vigorous 
        pursuit of these technologies is likely to pay rich dividends 
        to the United States air transportation system, the national 
        economy, and in our efforts to reduce the use of fossil fuels.
  --Flight demonstrations (jointly funded by DOD and NASA) should be 
        sustained at an annual budget level sufficient to determine the 
        integrated performance of promising and dramatic new emerging 
        technology opportunities.
  --Research into avionics systems and their applications should be 
        aggressively pursued because their use is pervasive and is 
        often critical to the success of advanced aircraft 
        developments.
  --Research and development into Uninhabited Air Vehicles (UAVs) 
        should be given sustained support addressing issues of 
        reliability, maintainability and cost, so that the full 
        potential of these promising aircraft can be realized.
  --Research on new and more effective prediction methodologies are 
        sorely needed to meet the challenge of addressing the increased 
        complexity of design decisions. Computational Fluid Dynamics 
        (CFD) methods, for example, have evolved to the point of 
        achieving good correlation with test results, but are so 
        computer-time intensive as to be currently impractical for the 
        multiplicity of calculations needed for design of optimum 
        configurations.
  --Methodologies that facilitate the development of cost-effective, 
        extraordinarily reliable software and systems for safety 
        critical operations should receive the strongest possible 
        support.
  --Materials development and design to transition high trust 
        propulsion technology to aerospace systems to boost trust-to-
        weight ratio of propulsion systems. This will require 
        development of hybrid materials systems, durable coatings, and 
        microvascular active thermal management.
  --Composite-Structures research is a critical enabling technology for 
        advanced aeronautical development, and should be vigorously 
        supported. New advances in manufacturing techniques for large-
        scale composite structures are required to promote the 
        development of a new generation of aeronautical vehicles. 
        Nanotechnology research is also needed to develop high strength 
        and environmentally durable materials that perform well in 
        hostile atmospheric and space environments.
  --Significant new aerodynamics research is required in support of 
        innovative and promising applications ranging from micro UAVs, 
        to Vertical Takeoff and Landing (VTOL) regional transports to 
        Single Stage to Orbit (SSTO) launch vehicles and hypersonic 
        missiles.
  --Essential simulation, ground, and flight-testing capabilities must 
        be preserved and new, more productive capabilities should be 
        developed--including physical infrastructure and personnel--so 
        that new generations of advanced aircraft can be designed 
        safely to be competitive in the world market.
  --There is a continuing need for R&D into flight mechanics and 
        control for new, innovative configurations including un-piloted 
        aircraft. Research to minimize if not entirely eliminate the 
        impact of pilot and operator errors on flight safety should be 
        a primary focus.
    We urge you to read our more detailed report on ``Persistent and 
Critical Issues in the Nation's Aviation and Aeronautics Enterprise,'' 
prioritizing technologies critical to the long-term health of the 
Nation's civil and military aviation and aeronautics technology 
enterprise which is located on our website at http://www.asme.org/gric/
ps/2003/ASMEPolicyPaper.pdf.
                               conclusion
    In conclusion, we applaud the proposed fiscal year 2007 NASA budget 
for its efforts to revitalize U.S. space exploration. There is a strong 
rationale, however, for Congress to consider real increases in the NASA 
Aeronautics budget. The President has challenged us to make the 
investments in the physical sciences necessary to maintain our high 
standard of living and unprecedented economic prowess. Aeronautics is a 
vital industry that produces tangible economic and security benefits 
for the Nation. As other nations seek to expand their efforts in 
aeronautics and space exploration, Congress should also consider funds 
for NASA R&D measures that will help the U.S. economy remain 
competitive and innovative.
                                 ______
                                 

    Prepared Statement of the National Aquarium, Baltimore, Maryland

    Mr. Chairman, and members of the subcommittee, thank you for the 
opportunity to submit testimony in support of federal appropriations 
for the National Oceanic and Atmospheric Administration (NOAA).
    As a stakeholder and partner of NOAA, the National Aquarium in 
Baltimore strongly encourages you to provide the agency with an 
appropriation of $4.5 billion in fiscal year 2007. NOAA's protection of 
our oceans and coastal communities is crucial to the U.S. economy. 
Coastal communities, our national fisheries, and the services provided 
by shorelines and wetlands depend on the science and management offered 
by NOAA.
    Funding from NOAA supports many of the conservation and education 
activities conducted by the National Aquarium in Baltimore, its 
affiliates, and other nonprofit and educational organizations on the 
Chesapeake Bay. In partnership with NOAA, the National Aquarium in 
Baltimore has helped citizens and communities restore tidal wetlands on 
Chesapeake Bay's Barren Island, Blackwater National Wildlife Refuge, 
Eastern Neck National Wildlife Refuge, and Fort McHenry in Baltimore. 
This partnership leverages support from other Federal and State 
agencies and private foundations, enabling community-based restoration 
activities that publicly demonstrate habitat enhancement and beneficial 
use of dredged material for restoring tidal wetlands. NOAA investments 
have leveraged more than $1.6 million over the past 5 years for 
restoration of Chesapeake Bay tidal wetlands.
    NOAA helps support the conservation of marine life through the 
Aquarium's Marine Animal Rescue Program (MARP), which rescues and 
rehabilitates seals, sea turtles, dolphins and porpoises, and even the 
occasional whale, that become stranded on Atlantic Coast shorelines. 
Many animals are released back into the wild after rehabilitation. 
Those that cannot be released are cared for, studied, and placed in 
educational facilities throughout the United States. MARP could not 
conduct rescue and rehabilitation without help from NOAA's Prescott 
Marine Mammal Assistance Grants. NOAA-funded conservation education 
messages presented by MARP reach tens of thousands of visitors to Ocean 
City, Baltimore, and the surrounding region. NOAA investments have 
leveraged more than $500,000 for MARP activities over the past 5 years.
    The Bay Wide Education and Training (BWET) grants from NOAA support 
the National Aquarium in Baltimore's school-based Wetland Nursery 
Program for middle and high school students in Maryland and Washington, 
DC. This program builds demonstration wetland plant nurseries at urban 
schools. Students grow wetland grasses and monitor water quality, 
growth, and other scientific parameters. A new component of the program 
integrates native fish aquaculture into the wetland nursery system. At 
the end of the growing season, students plant grasses and release fish 
in restored tidal wetlands on Chesapeake Bay. Additional teacher 
training programs enable local educators to utilize curricular 
materials on the Chesapeake Bay watershed in their classrooms 
throughout the school year. NOAA investments have leveraged more than 
$300,000 for these and other environmental education programs at the 
Aquarium over the past 5 years.
    NOAA is also significantly supporting the restoration of the 
historic National Aquarium in Washington, DC, which is located in the 
basement of the Commerce Building. The DC aquarium is an affiliate of 
the National Aquarium in Baltimore. The two aquariums share resources, 
providing top quality animal care, exhibit expertise, and materials. 
Recent funding from NOAA has allowed the DC aquarium to upgrade water 
quality and life support systems; improve worker safety and visitor 
access; and refurbish exhibits. A NOAA-supported educational assessment 
is under way and will help enhance conservation education activities 
for schoolchildren in Washington, DC and the surrounding region. 
Visitors to the DC aquarium come from around the world and learn about 
our National Marine Sanctuaries through educational displays and the 
new exhibits. In just 2 years, NOAA investments have leveraged more 
than $100,000 in in-kind support for the National Aquarium in 
Washington, DC.
    The National Aquariums in Baltimore and Washington, DC are 
appreciative of NOAA support over past years. We encourage the 
subcommittee to continue significant funding for NOAA in future years, 
as we work together to protect our oceans, shorelines, fisheries, 
coastal communities and their economies.
                                 ______
                                 

 Prepared Statement of the United States Tennis Association Tennis and 
                          Education Foundation

    Mr. Chairman and members of the subcommittee, on behalf of the 
Foundation of the United States Tennis Association (USTA), we extend 
our sincere appreciation to the committee for the past consideration 
and support extended to our national youth development initiative, 
``Aces for Kids''--community based, nonprofit after-school and out-of-
school programs that encourage healthy lifestyles, tennis, and life 
skills in a safe, nurturing environment for at-risk children between 
the ages of 5-18, particularly those in lower income communities. The 
specific problems addressed by this grant are: school truancy and 
performance, gang activity, underage drinking and drug abuse. A U.S. 
Department of Justice report, Juvenile Justice Bulletin, concluded that 
after-school recreation programs are a promising approach to preventing 
delinquency and crime.
    ``America's Promise'' and the ``No Child Left Behind'' Act state 
that nearly 8 in 10 middle/high school youth who participate in 
supportive after-school programs are high achieving students. Children 
who regularly attend high-quality after-school programs have:
  --Better grades and conduct in school,
  --More academic and personal growth opportunities,
  --Better peer relations and emotional adjustment,
  --A stronger sense of responsibility to themselves and the community, 
        and
  --Lower incidences of drug-use, violence and teen pregnancy.
    Research cites that the problems to be addressed by ``Aces for 
Kids'' are consistent across the country. Specifically that: (1) the 
majority of children have both parents or their only parent/caregiver 
in the workforce; (2) the majority of children under the age of 16 are 
left alone at home each week; (3) many children, especially those from 
low-income households, lose ground in reading skills if they are not 
engaged in organized learning over the summer months; (4) school-age 
children who are unsupervised during out-of-school hours are more 
likely to receive poor grades and drop out of school than those who are 
involved in supervised, constructive activities; and, (5) most juvenile 
crime takes place between the hours of 2 p.m. and 8 p.m., and that 
children are also at much greater risk of being the victims of crime 
during these hours.
    The USTA/USTA Tennis & Education Foundation recognized the 
importance of ``Aces for Kids'' prior to receiving government support 
and began funding programs that followed the ``Aces'' model in 2004. 
These organizations include: Arthur Ashe Youth Tennis & Education, 
Community Education & Tennis Association, and National Kidney 
Foundation-Delaware Valley, all located in Philadelphia, Pennsylvania; 
Abundant Waters, City Parks Foundation, New York Junior Tennis League, 
and Harlem Junior Tennis Program, all located in New York City; Boys & 
Girls Clubs of San Francisco, San Francisco, California; East Palo Alto 
Tennis & Tutoring, Stanford, California; Youth Tennis Advantage, 
Oakland, California; Net Results Junior Tennis, Denver, Colorado; 
Recreation Wish List Committee and Joy of Sports, both in Washington, 
DC; Love to Serve and Tennis Opportunity Program, both in Chicago; 
Baltimore Tennis Patrons, Baltimore, Maryland; Tenacity, Inc., Boston, 
Massachusetts; Fort Snelling Tennis & Education and Inner City Tennis, 
both in Minneapolis, Minnesota; First Serve-New Mexico, Santa Fe, New 
Mexico; NJTL of Charleston, Charlestown, South Carolina; Coldstream 
Junior Tennis Academy, Columbia, South Carolina; Public Tennis, Inc., 
Hilton Head, South Carolina; Wilson Tennis Foundation-NJTL, Wilson, 
South Carolina; and several dozen other programs across the country.
    In October, 2005 (due date of January 13, 2006), the USTA/USTA 
Tennis & Education Foundation issued a first-round of requests for 
proposals. In Round I of ``Aces for Kids,'' 10 programs were selected 
in a competitive application and review process based upon criteria 
that rely on meeting the physical, social and emotional needs of 
children:

------------------------------------------------------------------------
                                                                Funded
   Aces for Kids program/location       Purpose of grant        amount
------------------------------------------------------------------------
Apple Ridge Farm, Roanoke, Virginia  To sponsor 50               $15,000
                                      underserved students
                                      from low income
                                      families who are
                                      living in government
                                      housing at their 9-
                                      week Summer Academic
                                      Camp.
MACH Academy, Aiken, South Carolina  To increase outreach        $15,000
 and Martinez, Georgia.               efforts to provide
                                      academic, nutrition,
                                      technology, and
                                      tennis/fitness
                                      activities 2 days per
                                      week after school, 4
                                      hours per day, and 5
                                      days per week--4
                                      hours per day during
                                      a 2 week summer camp
                                      session and target
                                      children ages 5-18
                                      from families that
                                      have limited parental
                                      involvement and are
                                      of a transient nature.
Middlesex County Grandparents        For ``Success Pathways      $25,000
 Raising Grandchildren Coalition,     Summer Camp-Tennis
 Rahway, New Jersey.                  Program'' which is
                                      designed to assist
                                      disabled and
                                      extremely low to low-
                                      income working
                                      grandparents and
                                      kinship caregivers in
                                      resolving their
                                      dilemma of finding
                                      affordable and
                                      nurturing summer
                                      child care.
National Junior Tennis League of     For the start-up of         $25,000
 Trenton, Pennington, New Jersey.     the ``Mobile
                                      Information
                                      Technology
                                      Educational Support
                                      Program,'' which will
                                      enhance and expand
                                      the academic, tennis,
                                      and nutritional
                                      education components
                                      by adding a traveling
                                      computer literacy
                                      program that will
                                      reach 1,000 children
                                      by Summer, 2006.
Prince George's Tennis & Education   To continue the work        $25,000
 Foundation, Upper Marlboro,          and achievements of
 Maryland.                            its five core
                                      programs which target
                                      approximately 400+ at-
                                      risk youth: Junior
                                      Outreach, College
                                      Preparation &
                                      Personal Development,
                                      Out of School, and
                                      Tennis Camp.
Rodney Street Tennis Association,    To implement two Aces       $13,750
 Wilmington, Delaware.                for Kids components:
                                      nutrition and
                                      citizenship. A part-
                                      time nutritionist
                                      will be hired to
                                      improve the nutrition
                                      of at-risk minority
                                      youth during a 10-
                                      week summer tennis
                                      program. The
                                      citizenship component
                                      will support student
                                      trips to their
                                      representatives at
                                      the city, Sate and
                                      Federal Government
                                      levels.
Southern Alabama Tennis              To improve the lives        $11,400
 Association, Mobile, Alabama.        of the youth in
                                      Mobile and Baldwin
                                      Counties. Tutoring is
                                      already done on a
                                      small scale with many
                                      staff members
                                      volunteering, and
                                      this grant will allow
                                      the program to reach
                                      25 children, 2 days
                                      per week.
Sportsmen's Tennis Club,             General support for         $25,000
 Dorchester, Massachusetts.           their programs which
                                      serve approximately
                                      300 disadvantaged
                                      children from low-
                                      income, working
                                      families.
Washington Tennis & Education        For their Arthur Ashe       $25,000
 Foundation, Washington, DC.          Children's Program
                                      and WTEF Academy.
                                      Combined the programs
                                      serve over 500
                                      students, ages 8-18,
                                      with tennis, academic
                                      and life-skills
                                      instruction. The
                                      programs are
                                      intensive, operating
                                      2-to-3 hours a day, 4
                                      days each week,
                                      nearly year-round for
                                      a total of
                                      approximately 6,500
                                      hours of programming
                                      each year.
Youth & Tennis, Inc., Jamaica, New   To help them increase       $25,000
 York.                                the number of
                                      students in the
                                      program by 10 percent
                                      in addition to
                                      expanding their
                                      academic and social
                                      support services.
                                      They currently serve
                                      1,000 children.
------------------------------------------------------------------------

    The USTA/USTA Tennis & Education Foundation is grateful for your 
support and is confident that our ``Aces for Kids'' model is a positive 
step in preventing crime and delinquency and encouraging healthy 
lifestyles and academic achievement for underserved children. In fiscal 
year 2007, we hope the subcommittee will support our request for $1.5 
million in funding, so that we can continue to be successful in our 
efforts.
                                 ______
                                 

 Prepared Statement of the National Association of State Universities 
                   and Land-Grant Colleges (NASULGC)

    On behalf of the National Association of State Universities and 
Land-Grant Colleges (NASULGC), thank you for the opportunity to provide 
recommendations for the fiscal year 2007 budgets for the National 
Oceanic and Atmospheric Administration (NOAA), the National Aeronautic 
and Space Administration (NASA) and the National Science Foundation 
(NSF). We thank you for the support you have continually demonstrated 
for these agencies over the past several years, and know that the 
Senate recognizes the unique roles that NOAA, NASA and NSF each play in 
a number of high-priority U.S. and international initiatives. All three 
agencies also support research at our member institutions that provides 
critical information to policymakers and communities across the 
country. That is why we strongly recommend $4.5 billion for NOAA; 
restoration of the President's proposed cuts to NASA's Earth Science 
R&A Account; and the President's budget request for NSF.
NOAA
    In order to maintain our country's homeland security, scientific 
leadership, and economic competitive edge we must have a diverse 
portfolio of federally supported science research and programs. 
Consequently, we are concerned about the significant cuts made to NOAA 
in fiscal year 2006. The science-based work of NOAA protects and 
impacts every American citizen, everyday. NOAA is the third largest 
source of funds for academic marine research in the Federal Government.
    In 2004, the U.S. Commission on Ocean Policy (USCOP) report ``An 
Ocean Blueprint'' recommended an integrated national ocean policy be 
developed, incorporating ecosystem-based management and end-to-end 
watershed monitoring. USCOP also recommended doubling the federal ocean 
research budget and a significant enhancement and expansion of NOAA's 
coastal, oceanic and atmospheric real-time observing network that will 
lead to better forecasts of weather events, climate conditions and 
impending natural hazards. Yet, even following a year with the most 
devastating ocean and climate-based natural disaster in recent memory, 
Hurricane Katrina, and in which the importance of science to American's 
competitiveness was noted in a number of reports such as the National 
Academies' ``Rising Above the Gathering Storm,'' NOAA is still 
significantly under-funded. As a member of the Friends of NOAA 
Coalition, NASULGC strongly recommends $4.5 billion for NOAA in fiscal 
year 2007.
    We thank the Senate for appropriating this same amount last year, 
and believe it is a reasonable recommendation when one considers that 
the coastal watershed counties contribute $4.5 trillion to the U.S. 
economy--half of the Nation's Gross Domestic Product--and over 60 
million jobs. For that relatively small amount, each American receives 
weather forecasting, hurricane tracking, tornado warnings, tsunami 
warnings, navigational information, land and building boundary 
specifications, fisheries management, hazard mitigation, scientific 
research, and local community assistance. On behalf of all of us, NOAA 
oversees the Nation's environmental observing networks and satellites, 
and provides science-based management of many valuable marine 
resources. The bottom line is that NOAA affects and provides important 
services to all Americans, so it is time for Congress to demonstrate 
its commitment to the NOAA programs that are vital to our economy and 
to the health and well being.
    As members of the oceanic and atmospheric academic community we 
further recommend that a portion of the additional funding, that $4.5 
billion would provide, be used to support the following programs and 
activities:
  --$471 million for Oceanic and Atmospheric Research (OAR), a $100 
        million increase over fiscal year 2006 enacted levels, and the 
        same amount approved by the Senate in fiscal year 2006. The 
        basic research conducted through the OAR line office and its 
        partnerships with universities helps us understand climate 
        variability, provide better protection for coastal resources, 
        contributes to our Nation's commerce, and supports our 
        transportation systems. OAR supports such important programs as 
        the National Sea Grant College Program, Ocean Exploration, the 
        National Undersea Research Program, the U.S. Weather Research 
        Program, and Climate Operations. Despite this, the President's 
        budget request for OAR represents a $65.8 million decrease 
        since fiscal year 2005. Within the OAR line office, NASULGC 
        specifically recommends:
  --$72 million for the National Sea Grant College Program, $17.3 
        million increase over fiscal year 2006 enacted levels, and the 
        same amount approved by the Senate in fiscal year 2006. Last 
        year, Sea Grant was surprisingly cut by $7.1 million, or 11 
        percent, from fiscal year 2005 enacted levels. The fiscal year 
        2006 enacted level of $54.7 million was also significantly 
        below the President's request, the House passed level, and the 
        Senate passed level for the same year. While our fiscal year 
        2007 request represents a modest increase, it restores the 
        significant reductions taken in fiscal year 2006 and is still 
        $28 million below the authorization for the Sea Grant program. 
        Sea Grant is the flagship program between NOAA and the academic 
        community that supports the work of 31 colleges located in 
        coastal and Great Lakes States and serves as the core of a 
        national network of more than 300 participating institutions 
        involving more than 3,000 scientists, engineers, educators, 
        students, and outreach experts.
  --$29.5 million in fiscal year 2007 for the extramural portions of 
        both the NOS Ocean and Coastal Research program and the Oceans 
        and Human Health Initiative (OHHI). Within the National Ocean 
        Service (NOS), NASULGC supports restoration of last year's 
        drastic cuts in competitive extramural research, bringing 
        funding back to the more sustainable and effective level 
        provided in fiscal year 2005. In addition, we support the 
        appropriation of sufficient funds for full NOAA participation 
        in collaborative NOS science programs, particularly OHHI. NOS 
        support for extramural research conducted in cooperation with 
        NOAA scientists is leading to improved knowledge and forecasts 
        to address complex problems such as harmful algal blooms, 
        hypoxia, coastal stressors and ecosystem-based management of 
        fisheries. We ask that a minimum of $20.5 million be provided 
        in fiscal year 2007 to provide support for academic 
        participation in such efforts. In addition, OHHI offers real 
        promise for understanding the role of the oceans in human 
        health. The initiative was funded at $18 million in fiscal year 
        2005 of which $9 million was made available to academic 
        partners, and we ask that this support be restored.
    As recipients of many of NOAA's extramural research grants, we 
would also appreciate bill language that asks NOAA to provide greater 
transparency in their budget justification of available funding for 
extramural research purposes. Extramural research is available 
throughout various programs within OAR and NOS, but the current system 
makes it difficult to track where the money is going.
NASA
    Another area of great concern is the future prospect for Earth 
science activities at NASA, which now falls under the agency's Science 
Mission Directorate. We feel that Earth science activities are being 
cut because of space exploration missions. While we appreciate the 
President's ambitious space exploration agenda, we agree with Science 
Committee Chairman Boehlert's statement that ``There simply is no 
planet more important to human beings than our own, and we're 
remarkably ignorant about it. NASA's Earth science mission is 
essential.'' NASA's traditional robust research and development funding 
has been very important for our member universities and NASULGC 
supports a balance between NASA's science and the human space programs 
at NASA.
    NASA's investments in the Earth sciences fund university research 
that has resulted in valuable advances in weather forecasting, improved 
climate projections, and understanding of Earth ecosystems. Without the 
tools provided by NASA, oceanographers and the Nation would have a much 
less complete picture of the planet's oceans and coasts.
    There are suggestions that NASA's Earth Science R&A funding will be 
cut by almost 20 percent this year, and estimated to cut $350-$400 
million over the next 5 years. The Research and Analysis program at 
NASA is the primary mechanism for funding to the academic community. 
Through its support for young scientists and graduate students, the R&A 
program supports innovation in Earth science and technology using 
NASA's satellite missions. New sensor concepts, new data processing 
algorithms, and new approaches to global-scale Earth science are the 
legacy of the research funded by the R&A program. It is essential that 
NASA maintain a balance between R&A funding and its space missions in 
order to derive maximum benefit from today's missions as well as to 
support the innovation needed to drive the missions of tomorrow. 
NASULGC is opposed to proposed cuts to the NASA Earth Science R&A 
Program.
NSF
    The Nation's state universities and land-grant colleges that we 
represent welcome, and are excited by, the renewed national focus on 
scientific research and education as illustrated in the President's 
proposed American Competitiveness Initiative (ACI). We are extremely 
pleased with his proposal to double funding in the physical sciences at 
NSF over the next 10 years. NASULGC supports the President's NSF fiscal 
year 2007 budget request of $6 billion, and specifically his proposed 
increases in the Geoscience Directorate.
    Thank you for taking time to review our recommendations. We look 
forward to continue working with you towards promoting and sustaining 
the important NOAA, NASA, and NSF programs that enable the United 
States to maintain a leadership position in marine and climate science.
About NASULGC
    NASULGC is the Nation's oldest higher education association. 
Currently the association has over 200 member institutions--including 
the historically black land-grant institutions--located in all 50 
States. The association's overriding mission is to support high quality 
public education through efforts that enhance the capacity of member 
institutions to perform their traditional teaching, research, and 
public service roles.
About the Board on Oceans and Atmosphere
    The Board on Oceans and Atmosphere's primary responsibility is to 
develop a federal relations program to advance research and education 
in the marine and atmospheric sciences. The board currently has 
approximately 200 regionally distributed members, including some of the 
Nation's most eminent research scientists, chief executive officers of 
universities, marine and atmospheric scientists, academic deans, and 
directors of Sea Grant programs.
                                 ______
                                 

             Prepared Statement of the Surfrider Foundation

    On behalf of the Surfrider Foundation, I appreciate the opportunity 
to present this testimony in support of an appropriation of $3 million 
from NOAA's Coastal and Estuarine Land Conservation program for the San 
Miguel project in Puerto Rico.
    The Surfrider Foundation is a non-profit environmental organization 
dedicated to the protection and enjoyment of the world's oceans, waves 
and beaches for all people, through conservation, activism, research 
and education. The Surfrider Foundation, is a grassroots organization 
with 64 chapters and over 50,000 members. We have a local chapter in 
Rincon, Puerto Rico and have been actively involved in coastal and 
ocean protection in Puerto Rico for over a decade, including the 
preservation of the NEC.
    The Northeastern Ecological Corridor (NEC), comprising 
approximately 3,200 acres, is one of the Caribbean's last, great, 
unprotected areas. Located on the eastern corner of the main island of 
Puerto Rico within the municipalities of Luquillo and Fajardo, the NEC 
contains an extraordinary array of tropical habitats seldom found in 
other parts of the world. In addition to coral communities, mangroves, 
and pre-Columbian forests, all the different varieties of coastal 
wetlands found throughout Puerto Rico are represented within the NEC. 
The wetlands in this area are essential to the existence of a seasonal 
bioluminescent lagoon known as Laguna Aguas Prietas, an extremely rare 
biological phenomenon. The NEC is also home to several world-class 
surfing areas that represent some of the best surfing in the Carribean.
    The NEC's location within the foothills of the El Yunque Caribbean 
National Rain Forest adds to its great natural value and uniqueness. 
Originally set aside in 1876 by the Spanish Crown, the forest 
represents one of the oldest reserves in the Western Hemisphere and is 
the only tropical forest in the United States national forest system. 
The forest contains rare wildlife and is home to over 50 species of 
birds, including the Puerto Rican parrot--one of the ten most 
endangered species of birds in the world. The ecological diversity 
observed within these two related sites, varying from a coastal dry 
forest to a rain forest, lies within a corridor just 13 miles in 
length. Such diversity can only be enhanced by the conservation of NEC 
lands.
    Available for acquisition in fiscal year 2007 is the 1,277-acre San 
Miguel property, consisting of three parcels within the NEC. These 
parcels contain extensive wetland areas contiguous to the Pitahaya, 
Juan Martin and Sabana rivers, and harbor an array of unique upland and 
wetland ecosystems. The project site includes some of the last 
remaining virgin forests on the island, as well as one of the last 
remaining unspoiled dune systems and a significant coral community 
immediately off shore. The property falls within the range of over 40 
rare species of flora and fauna, including 16 federally threatened or 
endangered listed species, such as the hawksbill sea turtle, Virgin 
Island boa, Puerto Rican boa, brown pelican, Puerto Rican plain pigeon, 
West Indian manatee, and Cobana negra (a flowering plant). The area is 
best known, however, as one of the most important nesting grounds for 
leatherback sea turtles in the Unites States and the Caribbean. The 
project site also contains a variety of archeological resources, such 
as historical tools and structures.
    At the present time, several multinational lodging corporations 
have proposed various mega luxury tourist-residential resorts within 
the NEC. One of the largest proposed developments would be built on the 
San Miguel tracts at the boundary of the municipalities of Luquillo and 
Fajardo. The San Miguel Resort would include 1,025 residential units, a 
250-room resort/casino, a 175-unit hotel/casino, and two golf courses. 
The development would involve the filling of wetlands, channelization 
of rivers, and clearance of coastal vegetation, thus destroying the 
natural integrity of the NEC. If the San Miguel resort were to be 
constructed as planned, it would further deplete the limited water 
supplies needed by local communities, resulting in a deficit of over 
4,000,000 gallons of water per day, a deficit which accounts for the 
water requirements of nearly 25,000 people. There is widespread concern 
as well about other negative impacts the development would have on this 
sensitive area, including destruction of wetlands and the degradation 
of key endangered species habitats.
    Given the ongoing controversy over development of the property, 
including years of lawsuits, strong public opposition, and permitting 
difficulties, the owners have decided to make the land available for 
conservation. Federal agencies, the Commonwealth of Puerto Rico, and 
private parties have come together in an effort to preserve this 
remarkable coastal property. Public ownership will preserve the coastal 
resources, protect the rivers and wetlands, buffer El Yunque National 
Forest, and provide public beach access and recreational opportunities.
    Approximately $25 million will eventually be needed to complete the 
San Miguel acquisition. If this effort should fail, some form of 
development would likely occur on this highly sensitive property. A 
fiscal year 2007 appropriation of $3 million from NOAA's Coastal and 
Estuarine Land Conservation program is needed to further the protection 
of the San Miguel tracts. These funds will be matched by $2.27 million 
in settlement funds from the Barge Berman Oil Spill (specifically for 
land acquisition), up to $5.7 million of other oil spill settlement 
funds (for restoration categories), $3 million committed by the 
Conservation Trust of Puerto Rico, and additional funds being raised by 
a local land trust and other interested private parties. I urge you to 
include this project in the fiscal year 2007 Commerce, Justice, and 
Science appropriations bill.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony and for your consideration of this important request.
                                 ______
                                 

          Prepared Statement of the Pacific Salmon Commission

    Mr. Chairman, my name is Roland Rousseau and I serve as an 
alternate commissioner on the Pacific Salmon Commission (PSC) and the 
chair of the Budget Committee for the U.S. Section of the Commission. 
The Pacific Salmon Treaty (Treaty) between the United States and Canada 
was entered into in 1985. A subsequent agreement was concluded in June 
of 1999 (1999 Agreement) that established new abundance-based fishing 
regimes under the treaty and made other improvements in the treaty's 
structure. During fiscal year 2007, the PSC will begin discussions on 
treaty provisions that conclude at the end of 2008. The U.S. Section 
recommends:
  --Funding the Pacific Salmon Treaty Line Item of the National Marine 
        Fisheries Service at $8,000,000 for fiscal year 2007, restoring 
        $1,000,000 previously provided by Congress. This funding 
        provides the technical support for the States of Alaska, 
        Washington, Oregon and Idaho and the National Marine Fisheries 
        Service to implement the salmon stock assessment and fishery 
        management programs required to implement the treaty fishing 
        regimes. Included within the total amount of $8,000,000 is 
        $400,000 to continue a joint Transboundary River Enhancement 
        program required by the treaty.
  --Funding the Pacific Salmon Treaty Chinook Salmon Agreement account 
        at $1,844,000, level funding from that was provided by Congress 
        for fiscal year 2006. This funding continues to be necessary to 
        acquire the technical information to implement abundance based 
        Chinook salmon management provided for under the 1999 
        Agreement.
    The base treaty implementation projects include a wide range of 
stock assessment, fishery monitoring, and technical support activities 
for all five species of Pacific salmon in the fisheries and rivers from 
Southeast Alaska to those of Washington, Oregon, and Idaho. The States 
of Alaska, Washington, Oregon, and Idaho, and the National Marine 
Fisheries Service (NMFS), are charged with carrying out a major portion 
of the salmon fishery stock assessment and harvest management actions 
required under the treaty. Federal funding for these activities is 
provided through NMFS on an annual basis. The agency projects carried 
out under PSC funding are directed toward acquiring, analyzing, and 
sharing the information required to implement the salmon conservation 
and sharing principles of the treaty. A wide range of programs for 
salmon stock size assessments, escapement enumeration, stock 
distribution, and catch and effort information from fisheries, are 
represented. The information from many of these programs is used 
directly to establish fishing seasons and harvest levels. Congress 
increased this funding by $2,000,000 in fiscal year 2005 to a total of 
$8,000,000 to provide for programs needed to implement the new 
abundance based fishing regimes established under the 1999 Agreement. 
The 1999 Agreement updated provisions of the Pacific Salmon Treaty 
including fishing arrangements and abundance based management 
approaches for Chinook, southern Coho, Northern Boundary and 
Transboundary River fisheries. The $400,000 that has been provided 
since 1988 for a joint Transboundary River enhancement program with 
Canada is included in this amount.
    In 1996, the United States adopted an abundance-based approach to 
managing Chinook salmon fisheries in Southeast Alaska. Under this 
approach, Chinook harvest levels are based on annual estimates of 
Chinook abundance. This system replaced fixed harvest ceilings agreed 
to in 1985, which did not respond to annual fluctuations in Chinook 
salmon populations. Under the 1999 Agreement, this abundance based 
management approach was expanded to all Chinook fisheries subject to 
the treaty. Beginning in 1998, Congress provided $1,844,000 to allow 
for the collection of necessary stock assessment and fishery management 
information to implement the new approach. Through a rigorous 
competitive technical review process, the States of Alaska, Washington, 
Oregon, and Idaho, and the 24 treaty tribes are using the funding to 
implement abundance-based Chinook salmon management coast-wide under 
the new agreement. The U.S. Section recommends level funding of 
$1,844,000 for fiscal year 2007 to support the implementation of 
abundance-based Chinook salmon management.
    The United States and Canada agreed to a joint salmon enhancement 
program on the Transboundary Rivers flowing between Canada and 
Southeast Alaska in 1988. Since 1989, Congress has provided $400,000 
annually for this effort through the National Marine Fisheries Service 
International Fisheries Commission line item under the Conservation and 
Management Operations activity. Canada provides an equal amount of 
funding and support for this bilateral program. This funding is 
included in the $8,000,000 the U.S. Section is recommending for the 
fiscal year 2007 Pacific Salmon Treaty line item.
    This concludes the statement of the U.S. Section of the PSC 
submitted for consideration by your committee. We wish to thank the 
committee for the support that it has given us in the past.
                                 ______
                                 

    Prepared Statement of the Washington State Department of Ecology

    On behalf of the Washington State Department of Ecology, I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $2 million from NOAA's Coastal and Estuarine Land 
Conservation program for the Turner's Bay project in Washington State.
    The mission of the Washington State Department of Ecology is to 
protect, preserve, and enhance Washington's environment, and promote 
wise management of our air, land, and water for the benefit of current 
and future generations. The Washington State Department of Ecology 
manages a wide variety of programs, including the Coastal and Estuarine 
Land Conservation program.
    Made up of a series of underwater valleys and ridges, Washington's 
Puget Sound is an estuary where salt water from the ocean mixes with 
fresh water from the many rivers and streams of the surrounding land. 
The 2,500-mile of shoreline is a mosaic of beaches, bluffs, deltas, 
mudflats, and wetlands. While much of the sound is healthy, recent 
growth and development in the region are stressing its ecosystem. Water 
pollution and sediments laden with toxic pollutants threaten the water 
quality of Puget Sound, which has seen sharp declines in populations of 
salmon, orcas, marine birds and rockfish. Nearly 85 percent of the 
basin's annual surface water runoff comes from 10 rivers, one of which 
is the Skagit River. The Skagit River delta is a biologically rich and 
complex area characterized by tidal marshes and flats, shrub/scrub 
wetlands, and prolific agricultural areas. The delta's river system 
sustains viable runs of all five species of Pacific salmon. In all, the 
delta provides habitat for more than 300 species of fish and wildlife, 
including eight federally endangered or threatened species.
    Available for acquisition in fiscal year 2007 is the 456-acre 
Turner's Bay project, which lies within the Skagit delta. This property 
includes approximately 38 acres of tidelands and estuarine wetlands, 27 
acres of tidal influenced shorelands (including a 4.2-acre spit) and an 
adjacent 391 acres of mixed deciduous/conifer forested uplands and 
wetlands, all located at the northern boundary of the Swinomish 
Reservation. Small forested wetlands border the southern end of the 
subject property. The length of shoreline to be acquired, including the 
spit, is approximately 7,180 feet.
    Turner's Bay provides critical habitat for waterfowl, blue herons, 
juvenile salmon, shellfish and other aquatic life. Bald eagles are 
commonly seen foraging in the bay. The property contains the largest 
stretch of undeveloped estuarine habitat on the reservation and one of 
the largest of such areas remaining in the Skagit Bay system.
    The Skagit delta is a popular recreation area for kayakers, 
shellfish harvesters, beachcombers, and birdwatchers. The public access 
provided by the Turner's Bay project would increase the availability of 
coast-dependent and nature-based recreation. The spit and undeveloped 
shoreline along the bay provide a unique natural environment--sandy 
shores, prolific tidelands, and rich wetlands--for the public to 
explore and enjoy. Turner's Bay is located along the Cascadia Marine 
Trail, a water trail that stretches from Olympia in south Puget Sound 
to Canada. The Cascadia Trail is a well-traveled route of many boaters 
exploring Puget Sound or heading farther north to the San Juan Islands.
    The project area is also located just south of Highway 20, a State-
designated scenic byway that runs the length of Whidbey Island to the 
west and provides a scenic east-west route across the Skagit Valley. 
The Washington State Department of Ecology manages the nearby 11,000-
acre Padilla Bay National Estuarine Research Reserve which is funded by 
the National Oceanic and Atmospheric Administration. The area 
surrounding Turner's Bay and the greater Skagit Valley is under 
increasing development pressure as population in the Puget Sound basin 
continues to grow and spread from urban centers. Undeveloped, 
undisturbed waterfront property is an increasingly threatened commodity 
in Puget Sound, as retirees and owners of vacation homes discover the 
beauty of the Puget Sound shoreline. Acquisition of this parcel is a 
unique opportunity to preserve an enclave of pleasing and natural views 
amid a growing sea of suburban development.
    Turner's Bay is of significant cultural importance to the Swinomish 
Tribe. Three archaeological sites have been identified along the 
shoreline in previous surveys. More significantly, Turner's Bay is a 
traditional subsistence shellfish harvest area for tribal members. The 
harvest and consumption of shellfish from tribal homelands is also an 
important cultural practice of tribal members and is central to 
Swinomish cultural identity. For this reason, the tribe would like to 
work with the State to acquire these tidelands, shorelands, and 
forested uplands that shelter and protect the quality of Turner's Bay. 
The tribe wishes to ensure appropriate stewardship of the abundant 
resources in the subject area. Additionally, some historians consider 
the spit in Turner's Bay to be a possible landing site of Captain 
George Vancouver's Puget Sound exploration party, as it fits the 
description and approximate location of one of their reported survey 
sites as they explored the area.
    A fiscal year 2007 appropriation of $2 million from the Coastal and 
Estuarine Land Conservation program will ensure the protection of this 
ecologically and culturally significant site on Turner's Bay, and I 
respectfully request that you to include this project in the Fiscal 
Year 2007 Commerce, Justice, and Science appropriations bill.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony and for your consideration of this important request.
                                 ______
                                 

 Prepared Statement of the California Industry and Government Central 
                California Ozone Study (CCOS) Coalition

    Mr. Chairman and members of the subcommittee: On behalf of the 
California Industry and Government Central California Ozone Study 
(CCOS) Coalition, we are pleased to submit this statement for the 
record in support of our fiscal year 2007 funding request of $150,000 
from the Department of Commerce/NOAA account for CCOS. These funds are 
necessary for the State of California to address the very significant 
challenges it faces to comply with new national ambient air quality 
standards for ozone and fine particulate matter. The study design 
incorporates recent technical recommendations from the National Academy 
of Sciences (NAS) on how to most effectively comply with Federal Clean 
Air Act requirements.
    First, we want to thank you for your past assistance in obtaining 
federal funding for the Central California Ozone Study (CCOS) and 
California Regional PM<INF>10</INF>/PM<INF>2.5</INF> Air Quality Study 
(CRPAQS). Your support of these studies has been instrumental in 
improving the scientific understanding of the nature and cause of ozone 
and particulate matter air pollution in Central California and the 
Nation. Information gained from these two studies is forming the basis 
for the 8-hour ozone, PM<INF>2.5</INF>, and regional haze State 
Implementation Plans (SIPs) that are due in 2007 (ozone) and 2008 
(particulate matter/haze). As with California's previous SIPs, the 
2007-2008 SIPs will need to be updated and refined due to the 
scientific complexity of our air pollution problem. Our request this 
year would fund the completion of CCOS to address important questions 
that won't be answered with results from previously funded research 
projects.
    To date, our understanding of air pollution and the technical basis 
for SIPs has largely been founded on pollutant-specific studies, like 
CCOS. These studies are conducted over a single season or single year 
and have relied on modeling and analysis of selected days with high 
concentrations. Future SIPs will be more complex than they were in the 
past. The National Academy of Sciences (NAS) is now recommending a 
weight-of-evidence approach that will involve utilizing more broad-
based, integrated methods, such as data analysis in combination with 
seasonal and annual photochemical modeling, to assess compliance with 
Federal Clean Air Act requirements. This will involve the analysis of a 
larger number of days and possibly an entire season. In addition, 
because ozone and particulate matter are formed from some of the same 
emissions precursors, there is a need to address both pollutants in 
combination, which CCOS will do.
    Consistent with the new NAS recommendations, the CCOS study 
includes corroborative analyses with the extensive data provided by 
past studies, advances the state-of-science in air quality modeling, 
and addresses the integration of ozone and particulate pollution 
studies. In addition, the study will incorporate further refinements to 
emission inventories, address the development of observation-based 
analyses with sound theoretical bases, and includes the following four 
general components:
  --Performing SIP modeling analyses, 2005-2011
  --Conducting weight-of-evidence data analyses, 2006-2008
  --Making emission inventory improvements, 2006-2010
  --Performing seasonal and annual modeling, 2008-2011
    CCOS is directed by Policy and Technical Committees consisting of 
representatives from Federal, State, and local governments, as well as 
private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and are currently managing the California Regional 
Particulate Air Quality Study, are landmark examples of collaborative 
environmental management. The proven methods and established teamwork 
provide a solid foundation for CCOS.
    For fiscal year 2007, our coalition is seeking funding of $150,000 
from the Department of Commerce/NOAA account in support of CCOS. 
California has a very complex terrain that includes mountain ranges, 
flat valleys, and long coastal regions. Some meteorological models are 
known to have difficulty in simulating high-resolution airflow over 
such complex terrain. NOAA has a vast amount of experience in applying 
meteorology models in several different areas of the country and their 
scientific know-how is a valuable asset to CCOS. This request will be 
used to continue NOAA's involvement in developing meteorological 
simulations for Central California, specifically longer-term 
simulations of seasonal and annual meteorology. The long-term record of 
meteorological data in the CCOS database can be used to improve NOAA's 
meteorological forecasting abilities and in the evaluation of U.S. 
western boundary conditions for weather forecasting models.
    As you know, NOAA is at the scientific forefront of the development 
of meteorological models including the Weather Research and Forecasting 
(WRF) model that is viewed as a replacement for the Mesoscale 
Meteorology Model, Version 5 (MM5). Thus, NOAA's involvement would 
facilitate the use of CCOS measurements in the development and 
refinement of WRF. In addition, NOAA has conducted prior research in 
the CCOS region on atmospheric airflows, sea breeze circulation 
patterns, nocturnal jets and eddies, airflow bifurcation, convergence 
and divergence zones, up-slope and down-slope flows, and up-valley and 
down-valley airflow. Thus, CCOS provides the opportunity to draw from 
or extend this research for a longer, multi-year time period. This 
research provides fundamental data needed to understand airflow over 
complex terrain, and has national applicability.
    Thank you very much for your consideration of our request.
                                 ______
                                 

        Prepared Statement of the American Geological Institute

    To the chairman and members of the subcommittee: The American 
Geological Institute (AGI) supports fundamental Earth science research 
sustained by the National Science Foundation (NSF), the National 
Oceanic and Atmospheric Administration (NOAA), the National Institute 
of Standards and Technology (NIST) and the National Aeronautics and 
Space Administration (NASA). This frontier research has fueled economic 
growth, mitigated losses and sustained our quality of life. The 
subcommittee's leadership in expanding the federal investment in basic 
research is even more critical as our Nation competes with rapidly 
developing countries, such as China and India, for energy, mineral, air 
and water resources. Our Nation needs skilled geoscientists to help 
explore, assess and develop Earth's resources in a strategic, 
sustainable and environmentally-sound manner and to help understand, 
assess and reduce our risks to natural hazards. AGI supports full 
funding as authorized for NSF's EarthScope project and Research and 
Related Activities; full funding for NOAA's and NASA's Earth observing 
campaigns; and authorized support for NIST's and NSF's responsibilities 
in the National Earthquake Hazards Reduction Program (NEHRP).
    The President's American Competitiveness Initiative calls for a 
doubling of physical science research funding in key federal agencies, 
while Bush's Advanced Energy Initiative calls for significant increases 
in energy research support. Both initiatives also include much needed 
support for education in the physical sciences and some specific 
incentives for education in the energy resources sector. Such 
initiatives are strongly supported by AGI.
    AGI is a nonprofit federation of 44 geoscientific and professional 
societies representing more than 100,000 geologists, geophysicists, and 
other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources and interaction with 
the environment.
    NSF.--We applaud the President's request for an 8 percent increase 
in the overall budget for NSF and a 6 percent increase for the 
Geosciences Directorate. We hope that the subcommittee shares this 
commitment and can continue to strengthen our physical science research 
and education foundation through annual budget increases. Congress 
wisely authorized increased funding for NSF in Public Law 107-368, such 
that the total NSF budget would increase to $9.84 billion in fiscal 
year 2007, however, NSF only received about $5.6 billion in fiscal year 
2006 and remains well short of this effective science policy objective. 
Although NSF remains under funded, Congress and the administration are 
proposing annual increases to NSF's budget over the next 7 to 10 years.
    AGI believes that such a forward-looking investment in tight fiscal 
times will pay important dividends in future development and innovation 
that drives economic growth, especially in critical areas of 
sustainable and economic natural resources and reduced risks from 
natural hazards.
    NSF Geosciences Directorate.--The Geosciences Directorate is the 
principal source of federal support for academic Earth scientists and 
their students who are seeking to understand the processes that 
ultimately sustain and transform life on this planet. The President's 
budget proposal requests an increase of 6 percent ($42 million) for a 
total budget of about $745 million, which AGI strongly supports. We 
would encourage increases in funding to allow NSF to strengthen core 
research by increasing the number and duration of grants. Now is the 
time to boost Earth science research and education to fill the draining 
pipeline of skilled geoscientists and geo-engineers working in the 
energy industry; the construction industry, particularly on levees and 
dams; the environmental industry; the academic community, particularly 
on understanding natural hazards and the sustainability of our natural 
resources; the primary federal Earth science agencies, such as the 
United States Geological Survey; and in all areas of education.
    NSF Major Research Equipment Account.--AGI urges the subcommittee 
to support the Major Research Equipment, Facilities and Construction 
budget request of $27.4 million for EarthScope. We also support funding 
of $42.88 million to complete construction of the Scientific Ocean 
Drilling Vessel, $13.5 million to begin construction of the Ocean 
Observatories Initiative (OOI) and $56 million to begin construction of 
the Alaska Region Research Vessel.
    EarthScope--begun thanks to the previous subcommittee's support in 
fiscal year 2003--will systematically survey the structure of Earth's 
crust beneath North America, imaging faults at depth, hidden faults and 
other structures that range from hazardous to economically-valuable. 
The fiscal year 2007 request includes continued support for deployment 
of three components: a dense array of digital seismometers across the 
country; a 4-km deep borehole through the San Andreas Fault, housing a 
variety of instruments that can continuously monitor the conditions 
within the fault zone; and a network of state-of-the-art Global 
Positioning System (GPS) stations and sensitive strain meters to 
measure the deformation of the constantly shifting boundary between the 
Pacific and North American tectonic plates in an area susceptible to 
large earthquakes and tsunamis.
    EarthScope has very broad support from the Earth science community 
and received a very favorable review from the National Research 
Council's 2001 report entitled ``Review of EarthScope Integrated 
Science''. All data from this project will be available in real time to 
scientists, students and the public, providing a tremendous opportunity 
for research and learning about Earth. Involving the public in Earth 
science research will increase appreciation of how such research can 
lead to improvements in understanding the environment, utilizing 
natural resources and mitigating natural hazards. EarthScope can also 
provide a mechanism to integrate a broad array of Earth science 
research data in a unified system to promote cross-disciplinary 
research and avoid duplication of effort.
    NSF Support for Earth Science Education.--Congress can improve the 
Nation's scientific literacy by supporting the full integration of 
Earth science information into mainstream science education at the K-12 
and college levels. AGI strongly supports a new grant program in the 
Geosciences Directorate called GEO-TEACH, which will support projects 
to improve the quality of geosciences instruction, primarily at middle 
to high school levels. We also support the Math and Science Partnership 
(MSP) program, a competitive peer-reviewed grant program that funds 
only the highest quality proposals at NSF. The NSF's MSP program 
focuses on modeling, testing and identification of high-quality math 
and science activities whereas the Department of Education MSP program 
does not. The NSF and Department of Education MSP programs are 
complementary and are both necessary to continue to reach the common 
goal of providing world-class science and mathematics education to 
elementary and secondary school students. AGI opposes the transfer of 
the MSP from NSF to the Department of Education.
    Improving geoscience education to levels of recognition similar to 
other scientific disciplines is important because:
  --Geoscience offers students subject matter that has direct 
        application to their lives and the world around them, including 
        energy, minerals, water and environmental stewardship.
  --Geoscience exposes students to a diverse range of interrelated 
        scientific disciplines. It is an excellent vehicle for 
        integrating the theories and methods of chemistry, physics, 
        biology, and mathematics.
  --Geoscience awareness is a key element in reducing the impact of 
        natural hazards on citizens--hazards that include earthquakes, 
        volcanic eruptions, hurricanes, tornadoes, and floods. For 
        example, lives were saved in the tragic Indian Ocean tsunami by 
        a 12-year-old girl who understood the warning signs of an 
        approaching tsunami and warned others to seek higher ground 
        after completing an Earth science class.
  --Geoscience provides the foundation for tomorrow's leaders in 
        research, education, utilization and policy making for Earth's 
        resources and our Nation's strategic, economic, sustainable and 
        environmentally-sound natural resources development.
    NOAA.--AGI applauds the President's request for increased funding 
for the National Weather Service and the National Environmental 
Satellite, Data and Information Service (NESDI) within NOAA. The 
National Weather Service budget includes support for weather data 
buoys, strengthening the U.S. tsunami warning program, support of the 
Air Quality Forecasting Program, support for the Space Environment 
Center, support for the U.S. Weather Research Program, and continued 
implementation of the Advanced Hydrological Prediction Services. AGI 
also supports the proposed increased funding for NESDI for the 
development of the geostationary operational environmental satellite 
(GOES-R) and the National Polar-Orbiting Operational Environmental 
Satellite System (NPOESS). Both satellite systems will maintain a 
global view of the planet to continuously watch for atmospheric 
triggers of severe weather conditions such as tornadoes, flash floods, 
hailstorms, and hurricanes. The Office of Oceanic and Atmospheric 
Research and the Office of National Ocean Service have large proposed 
budget cuts to their overall budgets that would decimate vital programs 
related to the health and sustainability of the ocean, protecting 
coastlines and atmospheric research. AGI asks that these large 
reductions be minimized through congressional consideration of oceanic 
and coastal priorities in this post-Katrina fiscal year.
    NIST.--For fiscal year 2007, the President's request calls for $2 
million for earthquakes, wind hazards, wildfires at the urban interface 
and complex systems-multihazards analysis at NIST. About 70 percent of 
these funds will be directed toward the National Earthquake Hazards 
Reduction Program (NEHRP) and wind hazards. AGI strongly supports 
funding for NEHRP within NIST. NIST is the lead agency for NEHRP 
(authorized to receive $6 to $13 million over 5 years), but has never 
received any funding in the past. AGI strongly supports NEHRP funds for 
NIST and we further support the proposed increases in funding for core 
laboratory functions at NIST to ensure that NEHRP funds are protected.
    NASA.--AGI supports the vital Earth observing programs within NASA. 
Currently the topography of Mars has been measured at a more 
comprehensive and higher resolution than Earth's surface. While AGI is 
excited about space exploration and the President's Vision for 
Exploration, we firmly believe that NASA's Earth observing program is 
effective and vital to solving global to regional puzzles about Earth 
systems, such as how much and at what rate is the climate changing. The 
Earth-Sun System within the Science Mission Directorate funds the 
agency's Earth science programs. AGI strongly supports the requested 
increase in funding for the Landsat Data Continuity Mission, which will 
ensure support for the launch of a new Landsat satellite and the 
transfer of the data to the United States Geological Survey. 
Unfortunately other vital Earth science programs will be cut and 
missions will be delayed because of proposed budget reductions within 
the Earth-Sun System. AGI hopes these small reductions can be restored 
to ensure NASA's unique Earth observations.
    I appreciate this opportunity to provide testimony to the 
subcommittee and would be pleased to answer any questions or to provide 
additional information for the record. I can be reached at 703-379-2480 
ext. 228 (voice), 703-379-7563 (fax), <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="62100d15030c2203050b1507004c0d1005">[email&#160;protected]</a>, or 4220 King 
Street, Alexandria VA 22302-1502.
                                 ______
                                 

     Prepared Statement of the American Society of Plant Biologists

    Thank you, Mr. Chairman, for the opportunity for the American 
Society of Plant Biologists (ASPB) to present this testimony in support 
of the President's fiscal year 2007 budget request for the National 
Science Foundation. We urge the committee to support the President's 
American Competitiveness Initiative and its request for an increase of 
$439 million for the National Science Foundation. The proposed budget 
for NSF represents a 7.9 percent increase to $6 billion. The 
President's proposed increase for the Biological Sciences Directorate 
is $31 million, or 5.4 percent.
    This level of funding will enable NSF to continue to play its key 
role in establishing a leadership position for the United States in 
science and technology. U.S. leadership in a wide range of science 
disciplines is needed to compete and survive in the increasingly 
challenging global market.
    The ACI will double investment in research over 10 years sponsored 
by the National Science Foundation, Department of Energy Office of 
Science and National Institute of Standards and Technology (NIST).
    The ACI provides increased investment in research needed for 
continued growth of the Nation's economy. The Nation's ability to 
generate job-creating industries, remain competitive in the global 
market and improve the quality of life of consumers would be enhanced 
through committee approval of The President's fiscal year 2007 budget 
request implementing ACI.
    Shifts are occurring in the world with regard to ability to attract 
science talent and in relation to government and private investment in 
research. Indicators such as number of scientists entering the 
workforce and increased success in publishing research findings in 
peer-reviewed science journals show that the United States may 
encounter increased difficulties in competing with what are now 
considered developing nations.
    China, India, South Korea and other developing nations are 
following national policies that are increasing their capacity and 
strength in science and technology.
    China is an excellent example for further consideration of what 
world neighbors/global competitors are doing in science and science-
related industries. A huge workforce of qualified and inexpensive 
talent in science, combined with a market of 1.3 billion consumers is 
making China particularly attractive to multinational companies.
    Four years ago, there were 200 foreign-invested research and 
development centers in China. Today there are some 750. As the Wall 
Street Journal reported March 13, 2006, Procter & Gamble Co. opened a 
research arm in China in 1988 with just two dozen employees. Back in 
1988, P&G employees in China mainly studied Chinese consumer laundry 
habits and oral hygiene. Today, P&G runs five R&D facilities in China 
with approximately 300 researchers. They work ``on everything from 
Crest toothpaste to Oil of Olay face cream.'' New formulations of Tide 
laundry detergent developed in the China-based facilities now sell in 
markets beyond China, including other parts of Asia, Eastern Europe and 
Latin America.
    ``We are developing capabilities in China that we can use 
globally,'' P&G Technology Director in Beijing Dick Carpenter 
explained.
    In addition to a huge talent pool, including about 1 million 
university graduates each year in science or engineering, China is 
offering its students in the United States and other nations incentives 
to return once they graduate. These incentives include generous 
research grants and chances to run their own R&D projects. Science 
graduates returning to China can secure enough backing to build up 
their own lab and even extend their research in one direction for about 
10 years, the Wall Street Journal article noted.
    In the United States, that same science graduate would face 
extraordinary competition to win a federally sponsored research grant 
award. In some areas of study in the United States, the chances of a 
scientist succeeding with a competitive grant application is no better 
than one in ten. Failure to win research grant awards translates into 
an abbreviated science career in academic research.
    China's central government plans to increase spending on science 
and technology by nearly 20 percent this year. ``China has entered a 
stage in its history where it must increase its reliance on scientific 
and technological advances and innovation to drive social and economic 
development,'' commented Chinese Premier Wen Jiabao.
    The United States continues to rely heavily on science students 
from China and other nations to remain in the United States after 
graduation to build their careers and new job-creating technologies. 
However, more graduates are expected to return home to China and other 
countries where opportunities in science careers are now perceived to 
be brighter. With the United States already conceding far lower labor, 
land and building costs to global competitors such as China and other 
nations, how long will our Nation be able to compete if we also concede 
preeminence in science and technology?
    If science and technology research and development follow textile, 
steel, U.S. company-based auto production, and other manufacturing 
industries moving beyond our borders, the United States, already 
laboring under record trade deficits, will be weaker on a relative 
scale to the new ``producer nations.''
    More record trade deficits and higher interest rates for our 
increasingly debtor Nation could be expected to result--significantly 
driving up the costs to the federal budget for debt service. It is 
possible that the cost of the total federal science budget in future 
years would be just a fraction of the cost of the increase in federal 
debt service if the United States loses science and technology 
preeminence.
    NSF is the leading supporter of university-based research in many 
key areas, including plant science. Contributions by universities 
conducting NSF-supported research to the local economy also contribute 
to a stronger national economy. With the higher labor, housing, 
transportation, commercial and industrial property and related costs 
found in the United States compared to a number of world nation 
competitors, federal investment in science and education through 
support of NSF is desperately needed to help keep the Nation's 
businesses capable of competing.
    NSF support for basic plant research contributes to the local 
economies nationwide, including rural areas, while helping to secure 
the food supply of all Americans. As the first step of every food 
chain, plants and research on plants plays an essential role in meeting 
the nutritional needs of people here and abroad. The NSF Directorate 
for Biological Sciences sponsors examination of basic research 
questions on plants and other organisms. A number of plant research 
discoveries were cited by NSF among its most significant advances in 
science over the first 50 years of the agency's existence.
    NSF supports world leading plant genomic research as part of the 
Plant Genome Research Program. The National Plant Genome Initiative 
Progress Report was published January 2005 by the National Science and 
Technology Council Committee on Science Interagency Working Group on 
Plant Genomes. The report noted, ``Plant genome research holds enormous 
promise for solving global problems in agriculture, health, energy and 
environmental protection. Much still remains to realize this potential 
and the U.S. scientific community is clearly working toward that 
goal.''
    The report cited the importance of research on economically 
important crops and on the model plant, Arabidopsis thaliana--a plant 
with a small and simple genome. Knowledge gained from the Arabidopsis 
genome facilitates understanding of other economically important plants 
through use of comparative genomics. The Arabidopsis 2010 Project 
within NSF will provide scientists with knowledge of the function of 
each gene in Arabidopsis. This will lead to similar discoveries in 
crops grown by America's farmers. This knowledge will help scientists 
to develop superior crops that are domestic sources of food, fuel, 
industrial chemicals, fiber and pharmaceutical products. These advances 
will significantly benefit America's farmers and consumers.
    Again, we urge you to support The President's American 
Competitiveness Initiative, including the NSF Budget Request for 2007.
    ASPB is a non-profit society representing nearly 6,000 scientists 
conducting research primarily at universities. ASPB's membership also 
includes scientists in federal service and in private commerce. We 
publish the two most widely cited journals in plant science, The Plant 
Cell and Plant Physiology. Please let us know if we could provide any 
additional information.
    Thank you for your continued strong support of science research and 
education.
                                 ______
                                 

    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

    Agency involved: Department of Justice.
    Program involved: COPS Tribal Resources Grant Program (TRGP).
Summary of GLIFWC's Fiscal Year 2007 Testimony
    GLIFWC requests that Congress: (1) specifically authorize 
eligibility for tribes' special law enforcement agencies, including 
fish and wildlife departments and game wardens, to participate in the 
COPS Tribal Resources Grant Program,\1\ and (2) support the 
administration's proposal to fund this program at $31,650,000 in fiscal 
year 2007, an increase of $16,650,000 above last year's congressional 
appropriation.
---------------------------------------------------------------------------
    \1\ Unlike previous years and without notice or explanation, the 
Fiscal Year 2006 Application Guide for the TRGP provides: Special law 
enforcement agencies such as fish and wildlife departments, game 
wardens, park and recreation departments, and environmental protection 
agencies are not eligible to apply under this program at this time.
---------------------------------------------------------------------------
Disclosure of DOJ Grants Contracted
    GLIFWC is an intertribal organization which, under the direction of 
its member tribes, implements federal court orders governing tribal 
harvests of off-reservation natural resources and the formation of 
conservation partnerships to protect and enhance natural resources 
within the 1836, 1837, and 1842 ceded territories. Under COPS Tribal 
Resources Grant Program, GLIFWC contracted:
  --$108,034 in fiscal year 2004 for the purpose of purchasing patrol 
        vehicles (three patrol trucks, an ATV and a snowmobile), 
        digital cameras, and providing instructor development and basic 
        recruit training; and
  --$98,444 in fiscal year 2005 for the purpose of purchasing thermal 
        imaging and digital cameras, continuing instructor 
        certification and providing basic recruit re-certification 
        training, and supplying standard issue items.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Ceded Territory Treaty Rights and GLIFWC'S Role
    GLIFWC was established in 1984 as a ``tribal organization'' within 
the meaning of the Indian Self-Determination Act (P.L. 93-638). It 
exercises authority delegated by its member tribes to implement federal 
court orders and various interjurisdictional agreements related to 
their treaty rights. GLIFWC assists its member tribes in:
  --securing and implementing treaty guaranteed rights to hunt, fish, 
        and gather in Chippewa treaty ceded territories; and
  --cooperatively managing and protecting ceded territory natural 
        resources and their habitats.
    For the past 22 years, Congress and administrations have funded 
GLIFWC through the BIA, Department of Justice and other agencies to 
meet specific federal obligations under: (a) a number of US/Chippewa 
treaties; (b) the federal trust responsibility; (c) the Indian Self-
Determination Act, the Clean Water Act, and other legislation; and (d) 
various court decisions, including a 1999 United States Supreme Court 
case, affirming the treaty rights of GLIFWC's member tribes. GLIFWC 
serves as a cost efficient agency to conserve natural resources, to 
effectively regulate harvests of natural resources shared among treaty 
signatory tribes, to develop cooperative partnerships with other 
government agencies, educational institutions, and non-governmental 
organizations, and to work with its member tribes to protect and 
conserve ceded territory natural resources.
    Under the direction of its member tribes, GLIFWC operates a ceded 
territory hunting, fishing, and gathering rights protection/
implementation program through its staff of biologists, scientists, 
technicians, conservation enforcement officers, and public information 
specialists.
Community-Based Policing
    GLIFWC's officers carry out their duties through a community-based 
policing program. The underlying premise is that effective detection 
and deterrence of illegal activities, as well as education of the 
regulated constituents, are best accomplished if the officers live and 
work within tribal communities that they primarily serve. The officers 
are based in 10 satellite offices located on the reservations of the 
following member tribes: In Wisconsin--Bad River, Lac Courte Oreilles, 
Lac du Flambeau, Red Cliff, Sokaogon Chippewa (Mole Lake) and St. 
Croix; in Minnesota--Mille Lacs; and in Michigan--Bay Mills, Keweenaw 
Bay and Lac Vieux Desert.
Interaction With Law Enforcement Agencies
    GLIFWC's officers are integral members of regional emergency 
services networks in Minnesota, Michigan and Wisconsin. They not only 
enforce the tribes' conservation codes, but are fully certified 
officers who work cooperatively with surrounding authorities when they 
detect violations of State or federal criminal and conservation laws. 
These partnerships evolved from the inter-governmental cooperation 
required to combat the violence experienced during the early 
implementation of treaty rights in Wisconsin. As time passed, GLIFWC's 
professional officers continued to provide a bridge between local law 
enforcement and many rural Indian communities. GLIFWC remains at this 
forefront, using DOJ funding to develop inter-jurisdictional legal 
training attended by GLIFWC officers, tribal police and conservation 
officers, tribal judges, tribal and county prosecutors, and State and 
federal agency law enforcement staff. DOJ funding has also enabled 
GLIFWC to certify its officers as medical emergency first responders 
trained in the use of defibrillators, and to train them in search and 
rescue, particularly in cold water rescue techniques. When a crime is 
in progress or emergencies occur, local, State, and federal law 
enforcement agencies look to GLIFWC's officers as part of the mutual 
assistance networks of the ceded territories. These networks include 
the Wisconsin Department of Natural Resources, Minnesota Department of 
Natural Resources, Michigan Department of Natural Resources, U.S. Coast 
Guard, USDA-Forest Service, State Patrol and Police, county sheriffs 
departments, municipal police forces, fire departments and emergency 
medical services.
GLIFWC Programs Funded By DOJ
    GLIFWC recognizes that adequate communications, training, and 
equipment are essential both for the safety of its officers and for the 
role that GLIFWC's officers play in the proper functioning of 
interjurisdictional emergency mutual assistance networks in the ceded 
territories. GLIFWC's COPS grants for the past 6 years have provided a 
critical foundation for achieving these goals. Significant 
accomplishments with Tribal Resources Grant Program funds include:
    Improved Radio Communications and Increased Officer Safety.--GLIFWC 
replaced obsolete radio equipment to improve the capacity of officers 
to provide emergency services throughout the Chippewa ceded 
territories. GLIFWC also used COPS funding to provide each officer a 
bullet-proof vest, night vision equipment, and in-car video cameras to 
increase officer safety.
    Emergency Response Equipment and Training.--Each GLIFWC officer has 
completed and maintains certification as a first responder and in the 
use of life saving portable defibrillators. Since 2003, GLIFWC officers 
carried first responder kits and portable defibrillators during their 
patrol of 275,257 miles throughout the ceded territories. In remote, 
rural areas the ability of GLIFWC officers to respond to emergencies 
provides critical support of mutual aid agreements with Federal, State, 
and local law enforcement agencies.
    Ice Rescue Capabilities.--Each GLIFWC officer maintains 
certification in ice rescue techniques and was provided a Coast Guard 
approved ice rescue suit. In addition, each of GLIFWC's 10 reservation 
satellite offices was provided a snowmobile and an ice rescue sled to 
participate in interagency ice rescue operations with county sheriffs 
departments and local fire departments.
    Wilderness Search and Rescue Capabilities.--Each GLIFWC officer 
completed wilderness search and rescue training. The COPS Tribal 
Resources Grant Program also enabled GLIFWC to replace a number of 
vehicles that were purchased over a decade ago, including 10 ATV's and 
16 patrol boats and the GPS navigation system on its 31 foot Lake 
Superior patrol boat. These vehicles are used for field patrol, 
cooperative law enforcement activities, and emergency response in the 
1837 and 1842 ceded territories. GLIFWC officers also utilize these 
vehicles for boater, ATV, and snowmobile safety classes taught on 
Reservations as part of the Commission's Community Policing Strategy.
    Hire, Train and Equip Three Additional Officers.--Funding has been 
contracted to provide three additional officers to ensure tribes are 
able to meet obligations to both enforce off-reservation conservation 
codes and effectively participate in the myriad of mutual assistance 
networks located throughout a vast region covering 60,000 square miles.
    Consistent with numerous other federal court rulings on the 
Chippewa treaties, the United States Supreme Court re-affirmed the 
existence of the Chippewa's treaty-guaranteed usufructuary rights in 
Minnesota v. Mille Lacs Band, 526 U.S. 172 (1999). As tribes have re-
affirmed rights to harvest resources in the 1837 ceded territory of 
Minnesota, workloads have increased. But for GLIFWC's COPS grants, this 
expanded workload, combined with staff shortages would have limited 
GLIFWC's effective participation in regional emergency services 
networks in Minnesota, Michigan and Wisconsin. The effectiveness of 
these mutual assistance networks is more critical than ever given: (1) 
national homeland security concerns, (2) State and local governmental 
fiscal shortfalls, (3) staffing shortages experienced by local police, 
fire, and ambulance departments due to the call up of National Guard 
and military reserve units, and (4) the need to cooperatively combat 
the spread of methamphetamine production in rural areas patrolled by 
GLIFWC conservation officers.
    Examples of the types of assistance provided by GLIFWC officers are 
provided below:
  --As trained first responders, GLIFWC officers routinely respond to, 
        and often are the first to arrive at, snowmobile accidents, 
        heart attacks, hunting accidents, and automobile accidents 
        (throughout the ceded territories) and provide sheriffs 
        departments valuable assistance with natural disasters (e.g. 
        floods in Ashland County and a tornado in Siren, Wisconsin).
  --Search and rescue for lost hunters, fishermen, hikers, children, 
        and the elderly (Sawyer, Ashland, Bayfield, Burnett, and Forest 
        Counties in Wisconsin and Baraga, Chippewa, and Gogebic 
        Counties in Michigan).
  --Being among the first to arrive on the scene where officers from 
        other agencies have been shot (Bayfield, Burnett, and Polk 
        Counties in Wisconsin) and responding to weapons incidents 
        (Ashland, Bayfield, Burnett, Sawyer, and Vilas Counties in 
        Wisconsin).
  --Use of a thermal imaging camera (purchased through the COPS 
        program) to track an individual fleeing the scene of an 
        accident (Sawyer County, Wisconsin).
  --Organize and participate in search and rescues of ice fishermen on 
        Lake Superior (Ashland and Bayfield Counties in Wisconsin), 
        Lake Superior boats (Baraga County in Michigan and with the 
        U.S. Coast Guard in other parts of western Lake Superior), and 
        kayakers (Bayfield County in Wisconsin).
    GLIFWC is proposing to utilize DOJ TRGP funding for training and 
equipment to: (1) recognize, secure and respond appropriately to 
potential methamphetamine production sites, (2) identify addicts while 
on patrol, and (3) improve community awareness through hunter safety 
classes. Simply put, supporting GLIFWC's officers will not only assist 
GLIFWC in meeting its obligations to enforce tribal off-reservation 
codes, but it will enhance intergovernmental efforts to protect public 
safety and welfare throughout the region in the States of Wisconsin, 
Minnesota, and Michigan. The COPS Tribal Resources Grant Program 
provides essential funding for equipment and training to support 
GLIFWC's cooperative conservation, law enforcement, and emergency 
response activities. We ask Congress to support increased funding for 
this program.
                                 ______
                                 

             Prepared Statement of Florida State University

    Mr. Chairman, I would like to thank you and the members of the 
subcommittee for this opportunity to present testimony before this 
committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, Florida State University 
is a comprehensive Research I university with a rapidly growing 
research base. The university serves as a center for advanced graduate 
and professional studies, exemplary research, and top-quality 
undergraduate programs. Faculty members at FSU maintain a strong 
commitment to quality in teaching, to performance of research and 
creative activities, and have a strong commitment to public service. 
Among the current or former faculty are numerous recipients of national 
and international honors including Nobel laureates, Pulitzer Prize 
winners, and several members of the National Academy of Sciences. Our 
scientists and engineers do excellent research, have strong 
interdisciplinary interests, and often work closely with industrial 
partners in the commercialization of the results of their research. 
Florida State University had over $182 million this past year in 
research awards.
    Florida State University attracts students from every State in the 
Nation and more than 100 foreign countries. The university is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, as well as students with superior creative talent. We 
consistently rank in the top 25 among U.S. colleges and universities in 
attracting National Merit Scholars to our campus.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the Nation's top public 
research universities.
    Mr. Chairman, let me summarize our primary interests today.
    In 2004, Congress funded a project for Florida to share its 
exemplary juvenile justice education program model with other States in 
order to assist them in their respective implementation of No Child 
Left Behind (NCLB). In fiscal year 2005, Phase I, the project's staff 
initiated a series of activities to establish collaborative working 
partnerships with each State. The activities included: conducting a 
national survey of each State's juvenile justice education practices; 
holding a national meeting involving key constituents from each State 
to review the project's purposes, discussing the national survey 
findings; reviewing the NCLB requirements and Florida's program 
components and practices; and agreeing upon a grouping of States with 
similar systems and NCLB challenges. From this agreed upon grouping of 
States, preliminary plans for each State's implementation of the NCLB 
requirements for juvenile justice education systems were drafted for 
follow-up review by each State.
    In fiscal year 2007, Phase II, the project will extend this effort 
by holding a series of meetings with different State groups to review, 
discuss and reach consensus upon each State's final plan for 
implementation of the NCLB requirements. The final implementation plans 
will be informed by the implementation experiences and impediments that 
Florida confronted and overcame. Additionally, the thoughts, concerns 
and potential solutions that the key State constituents provide will be 
incorporated into each State's implementation plan to ensure consensus 
between individual States and the project staff. Following these 
meetings and the development of each State's final NCLB juvenile 
justice education implementation plan, the project staff will make 
periodic follow-up State visits to assess their implementation efforts 
and effectively deal with any encountered problems by providing 
training and technical assistance. Further, the project staff, in 
collaboration with key State constituents, will develop and implement a 
national evaluation design to report each State's NCLB implementation 
progress and student learning outcomes. A quarterly report will be sent 
to each State, the U.S. Department of Justice, and the U.S. Department 
of Education describing the project's activities and progress, and 
individual State outcomes. Additionally, the project will design a 
national longitudinal study on how improved quality in juvenile justice 
education impacts the incidence of delinquency nationwide. The study 
will provide data on the role of NCLB implementation in successfully 
reducing delinquency in individual States as well as across the Nation.
    Mr. Chairman, we believe this research is vitally important to our 
country and would appreciate your support.
                                 ______
                                 

     Prepared Statement of the American Society of Civil Engineers

    The American Society of Civil Engineers (ASCE) is pleased to offer 
this testimony on the proposed budgets for the National Science 
Foundation (NSF) and the National Institutes of Standards and 
Technology (NIST) for fiscal year 2007. The President's American 
Competitive Initiative (ACI) with its focus on research and development 
at NIST and NSF will pay dividends for the country in many areas. ASCE 
is encouraged by and supports ACI and with it, the administration's 
request for $6.02 billion request for NSF and $581.3 million for NIST.
    ASCE believes that technological innovation has been the engine 
that drove the Nation's economy expansion of the last 50 years. ASCE 
firmly believes that by maintaining strong continuing and steadily 
increasing support for the research and education we will continue to 
enjoy the rewards of economic expansion. If we do not continue to 
invest in research and technology, we will loose our position in an 
ever more integrated and competitive world. The basic research funded 
by NSF, in engineering and all other areas of science, is the 
foundation of that investment in the future. Global competition 
increasingly requires the United States to make the necessary 
investments in science and engineering research and education.
    ASCE, founded in 1852, is the country's oldest national civil 
engineering organization representing 139,000 civil engineers in 
private practice, government, industry and academia dedicated to the 
advancement of the science and profession of civil engineering. ASCE is 
a 501(c)(3) non-profit educational and professional society.
                   national science foundation (nsf)
    ASCE supports the administration's fiscal year 2007 budget request 
of $6.02 billion for the National Science Foundation (NSF).
    Math and Science Partnerships.--We encourage you to continue the 
federal commitment to math and science education by maintaining the 
peer-reviewed Math and Science Partnerships (MSP's) at the NSF and 
supporting robust funding for both the U.S. Department of Education 
(ED) and the NSF Math and Science Partnership programs. We urge you to 
oppose the administration's budget proposal that would phase-out the 
NSF MSP program in favor of the new federal grant administered by the 
Secretary of Education that would, in effect, limit individual States 
discretion to target much-needed funds for local science and 
mathematics education reforms.
    National Earthquake Hazards Reduction Program.--For the past 25 
years NEHRP has provided the resources and leadership that have led to 
significant advances in understanding the risk earthquakes pose and the 
best ways to counter them. Under NEHRP, there has been a constant 
source of funding for seismic monitoring, mapping, research, testing, 
code development, mitigation and emergency preparedness. A recent study 
and report by the Multihazard Mitigation Council entitled ``Natural 
Hazard Mitigation Saves: An Independent Study to Assess the Future 
Savings from Mitigation Activities,'' has concluded the money spent on 
reducing the risk of natural hazards is a sound investment. On average, 
a dollar spent by FEMA on hazard mitigation provides the Nation about 
$4 in future benefits. The type of research to be conducted under this 
program has the potential to greatly increase the benefit.
    The NSF strives to advance fundamental knowledge in earthquake 
engineering, Earth science processes, and societal preparedness and 
response to earthquakes. Additionally, the George E. Brown, Jr. Network 
for Earthquake Engineering Simulation (NEES), operated by NSF, will 
expand knowledge through new methods for experimental and computational 
simulation.
    ASCE requests that Congress direct NSF to acknowledge the $40.3 
million funding level for NEHRP responsibilities at NSF and to urge NSF 
to fulfill that obligation. We further support the administration 
request of $21.27 million for the operation of the Network for 
Earthquake Engineering Simulation at NSF and ask that Congress urge NSF 
to maximize the potential of Network Earthquake Engineering Simulation 
(NEES) through research grants.
             national institute of standards and technology
    ASCE supports the President's requested budget for NIST of $581.3 
million for fiscal year 2007 and would strongly urge Congress to fully 
appropriate the request as presented. ASCE is concerned that money 
requested for NIST's core laboratory and standards activities may moved 
to fund other programs, as has happened in the past.
    Scientific and Technical Research and Services (STRS).--These are 
NIST's core programs that provide the measurements and standards on 
which the Nation's industry stands and grows. The NIST laboratories 
provide industry and the science and engineering community with the 
measurement capabilities, standards, evaluated reference data, and test 
methods that provide a common language needed at every stage of 
technical activity. U.S. scientists rely on NIST's evaluated data 
services and measurement expertise for a host of basic and applied 
research activities.
    ASCE supports the administration's request of $467 million to fund 
the core programs at NIST. If fully appropriated, the funding would 
permit NIST to carryout its core responsibilities and greatly enhance 
U.S. competitiveness.
    Building and Fire Research Laboratory.--ASCE believes that the 
services provided by the Building and Fire Research Laboratory (BFRL) 
are invaluable to the building industry. BFRL works to improve the 
productivity of U.S. construction industries and serves as the premier 
fire research laboratory in the United States. It develops technologies 
to predict measure and test the performance of construction materials, 
components and practices. BFRL is the Nation's central laboratory for 
providing the tools (i.e. research and measurements) needed to rebuild 
the Nation's infrastructure.
    Laboratory activities include: fire science and fire safety 
engineering; building materials; computer-integrated construction 
practices; structural, mechanical and environmental engineering; and 
building economics. The laboratory conducts investigations at the scene 
of major fires and structural failures due to earthquake, hurricanes or 
other causes. The knowledge gained from these investigations guides 
research and is applied to recommendations for design and construction 
practices to reduce future hazards.
    Construction is one of the Nation's largest industries, comparable 
in size to the health care and agricultural industries. Like those 
vital areas of the Nation's economy, the construction industry needs 
research and development to enhance international competitiveness and 
increase public health and safety. Funding for construction related 
research, from all sources, is a fraction of that available to the 
healthcare and agricultural industries. Due to the fragmented nature of 
the construction industry, the private sector does not have the 
resources to conduct the needed research and development on its own.
    National Construction Safety Team Act.--Public Law 107-231 created 
the National Construction Safety Team at NIST with the mandate to 
investigate major building failures within the United States. The 
investigations are to establish the technical causes of building 
failures and evaluate the technical aspects of emergency response. The 
goal is to recommend improvements to the way in which buildings are 
designed, constructed, maintained and used. ASCE supported this act; 
however ASCE believes that NIST must be provided with the necessary 
resources. The National Construction Safety Team (NCST) Advisory 
Committee, established by the act, recently released it first annual 
report to Congress which included a number of recommendations including 
the creation of a NCST office and funding.
    ASCE supports these recommendations and urges Congress to 
appropriate an additional $2 million in fiscal year 2006 to create a 
NCST office within the Building and Fire Research Laboratory at NIST.
    National Earthquake Hazards Reduction Program (NEHRP).--The 2004 
reauthorization of NEHRP has given the National Institute of Standards 
and Technology (NIST) new responsibility as the lead agency for NEHRP 
and an expanded role in problem-focused research and development in 
earthquake engineering. However, in order for NIST to fully carry out 
its responsibilities, the NEHRP Coalition supports the full funding 
levels contained in the reauthorization for fiscal year 2007 of $12.1 
million for NEHRP responsibilities at NIST.
    In addition to its leadership role, NIST is now specifically tasked 
to carry out problem-focused research and development in earthquake 
engineering aimed at improving building codes and standards for both 
new and existing construction and advancing seismic practices for 
structures and lifelines.
    ASCE applauds NIST's commitment to NEHRP by making money available 
and moving ahead with its responsibilities as the NEHPR lead agency in 
fiscal year 2006. The President's commitment for fiscal year 2007 by 
adding $2 million for structural safety in hurricanes, fires and 
earthquake in fiscal year 2007 will enable NIST to increase and expand 
its efforts.
    The NEHRP supports the President's request for $2 million for 
structural safety at NIST. In order for NIST to fully realize the 
potential benefits of NEHRP, the NEHRP Coalition urges Congress to 
build on the proposal of the administration by appropriating the full 
funding levels contained in the reauthorization for fiscal year 2007 of 
$12.1 million for NEHRP responsibilities at NIST.
      national windstorm impact reduction program at nist and nsf
    In October 2004 the President signed Public Law 108-360 authorizing 
the creation of the National Windstorm Impact Reduction Program. As 
recent events on the Nation's Gulf coast have so vividly illustrated, 
the Nation remains highly vulnerable to major windstorms. We have not 
yet fully calculated the full the damage inflected by Hurricanes 
Katrina, Rita and Wilma, but it will well exceed $150 billion.
    This vulnerability was recognized by Congress in 2004 when it 
created the National Windstorm Impact Reduction Program. However, while 
the program has been authorized for fiscal year 2006 through fiscal 
year 2008, there has been no appropriation of funds or specific budget 
request.
    ASCE urges full funding for the National Windstorm Impact Reduction 
Program. For fiscal year 2007 the law authorizes $25 million in 
spending, spread between federal four agencies. The Coalition urges the 
Congress to support full funding levels. Specifically, for the agencies 
under the jurisdiction of this subcommittee, the law authorizes:
  --$9.4 million for the National Science Foundation (NSF);
  --$4 million for the National Institute of Standards and Technology 
        (NIST); and
  --$2.2 million for the National Oceanic and Atmospheric 
        Administration (NOAA).
    Once again, thank you for the opportunity for ASCE to express its 
views. If you need more information, contact Martin Hight, ASCE Senior 
Manager of Government Relations at (202) 326-5125 or by e-mail at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cba6a3a2aca3bf8baab8a8aee5a4b9ace5">[email&#160;protected]</a>
                                 ______
                                 

          Prepared Statement of the Gaviota Coast Conservancy

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $1 million from NOAA's Coastal and Estuarine Land 
Conservation Program for Gaviota State Park.
    Gaviota State Park is located 125 miles north of Los Angeles, on a 
remote section of Santa Barbara County's Gaviota Coast, a 76 mile 
stretch of California's coastline straddling two distinct bioregions in 
the transition between Southern and Central California. The Gaviota 
Coast is situated between the Channel Islands National Marine Sanctuary 
and the Los Padres National Forest where there is a wide variety of 
biological, recreational and agricultural resources.
    As the largest portion (50 percent) of Southern California's 
remaining undeveloped coastline, the Gaviota Coast is a high priority 
area for conservation. According to the Nature Conservancy, coastal 
Southern California has the highest density of imperiled species of 
anywhere in the United States. As part of the only coastal 
Mediterranean biome in America, the Gaviota Coast is the last, best, 
safe-harbor for the numerous imperiled species displaced by human 
settlement further south. Expansion of Gaviota State Park offers an 
excellent opportunity for the conservation of several habitat types.
    The Santa Ynez Mountains crowd in close to the coastline at 
Gaviota, producing a complex topography. Rocky, narrow beaches with 
sandy coves are backed by high sea cliffs. Coastal marine terraces, 
incised by stream carved canyons, lie below chaparral covered mountain 
slopes. This produces a diverse assemblage of habitat types in close 
proximity to one another. Perhaps most important are the many riparian 
corridors joining the mountains to the sea, which harbor the highest 
degree of biodiversity. Gaviota Creek watershed, one of the two largest 
watersheds on the south-facing Gaviota Coast, flows through Gaviota 
State Park. In addition there is a variety of shrub-land, and woodland 
habitat, with scattered vernal pool communities, estuaries, and native 
grasslands.
    With this array of habitat, and a linkage to vast interior 
wildlands, the Gaviota Coast is home to a full assemblage of wildlife, 
both terrestrial and marine. Marine animals found along the coast 
include dolphin, a variety of whales, northern elephant seals, and 
numerous bird species. Terrestrial wildlife includes mountain lions, 
mule deer, badgers, black bears and golden eagles, to name a few. 
Resident endangered species include the southern sea otter, southern 
steelhead trout, the tide-water goby, brown pelican, and an occasional 
California condor.
    Immediately adjacent to Highway 101, this property is zoned for 
commercial use. Commercial land uses in these coastal foothills are 
incompatible with county and State efforts to prevent inappropriate 
development and protect critical natural, scenic, and recreational 
resources. Acquiring lands adjacent to the park will protect its 
streams from the degradation that would result from development-related 
pollution.
    Because of its location among other protected properties and 
agricultural lands, this project is part of a larger effort to piece 
together up to 10,000 contiguous acres of protected coastal wildlands 
and open space from the mountains to the sea, including the Los Padres 
National Forest and lands owned and managed by the local land trust for 
Santa Barbara County. The subject property is the linchpin for this 
larger assemblage, as it is the only property with commercial zoning on 
a 35-mile stretch of the Gaviota Coast. The total cost of the project 
is $2.5 million, with State and local sources providing the matching 
funds.
    Available for acquisition in fiscal year 2007, the Gaviota State 
Park Addition project is a 43-acre site adjoining Gaviota State Park. 
The park serves 86,000 visitors annually and the addition of the 
subject property would enable California State Parks to expand the 
existing trail system, and provide new trailhead facilities. For all 
the reasons stated above, the expansion of Gaviota State Park is a top 
priority for State Parks and for Santa Barbara County.
    An appropriation of $1 million from NOAA's Coastal and Estuarine 
Land Conservation Program for fiscal year 2007 is needed to acquire and 
protect this 43-acre property. If added to Gaviota State Park, it will 
expand recreational opportunities, provide much needed visitor 
facilities, protect scenic viewshed and conserve important wildlife 
habitat.
    Thank you, Mr. Chairman for the opportunity to present this 
testimony and for your consideration of the request for an 
appropriation of $1 million for Gaviota State Park.
                                 ______
                                 

        Letter From the Simi Batra of the Trust for Public Land

                                                    April 27, 2006.
The Honorable Richard Shelby, Chairman,
Commerce, Justice and Science Subcommittee, Committee on 
        Appropriations, S-146A Capitol, Washington, DC 20510.
The Honorable Barbara Mikulski, Ranking Member,
Commerce, Justice and Science Subcommittee, Committee on 
        Appropriations, 144 Dirksen Senate Office Building, Washington, 
        DC 20510.
    Dear Chairman Shelby/Ranking Member Mikulski: On behalf of the 
organizations listed below, we would like to thank you for your long-
standing support of coastal zone management and coastal land 
conservation. We are writing today in support of the Coastal and 
Estuarine Land Conservation Program. This subcommittee created CELCP in 
fiscal year 2002 in order to ``protect those coastal and estuarine 
areas with significant conservation, recreation, ecological, historical 
or aesthetic values, or that are threatened by conversion from their 
natural or recreational states to other uses.'' Thus far, this program 
has invested over $177 million towards 119 conservation projects in 25 
of the Nation's 35 coastal States. All federal funding has been 
leveraged by at least an equal amount by State, local and private 
funds. We hope to continue this Federal-State partnership and encourage 
you to fund CELCP at $60 million for fiscal year 2007.
    Our Nation's coastal zone is under significant pressures from 
unplanned development. In fact, it is estimated that by 2025, nearly 75 
percent of the Nation's population will live within 50 miles of the 
coast, in addition to millions more who enjoy America's storied 
coastlines. From Maine to Washington State, beaches and waterfronts 
have always been the destination of choice for Americans. Billions of 
dollars of the Nation's GDP are generated by coast-based economic 
activities, inexorably linking our coastal zone with the economic 
health of the Nation.
    As a result of this economic boom, rapid, unplanned development has 
marred the once-pristine viewsheds and substantially reduced public 
access to the coast. The resulting increase in impervious surfaces has 
correspondingly increased non-point source pollution and seriously 
degraded coastal and estuarine waters. The loss of coastal wetlands has 
drastically impaired estuaries, some of the most productive habitat on 
earth. The U.S. Commission on Ocean Policy has also stressed the 
importance of land conservation as part of its broader recommendations 
to Congress and the Nation.
    From our work at the local level, we know from first-hand 
experience that this program will significantly leverage ongoing 
community-based conservation, and will provide a much needed boost to 
local efforts. Given the importance of healthy, productive and 
accessible coastal areas, a federal commitment to State and local 
coastal protection is a sound investment.
    We urge you to fund the Coastal and Estuarine Land Conservation 
Program at $60 million in fiscal year 2007. We look forward to working 
with you as this program continues to grow, and stand ready to assist 
you.
            Sincerely,
                                   Alan Front,
                  Senior Vice President, The Trust for Public Land.
                                   Katherine ``Kacky'' Andrews,
                   Executive Director, Coastal States Organization.
                                   David Hoskins,
Vice President of Government Affairs and General Counsel, The Ocean 
                                                       Conservancy.
                                   Gary J. Taylor,
       Legislative Director, International Association of Fish and 
                                                 Wildlife Agencies.
                                   Angela Corridore,
           Executive Director, National Estuarine Research Reserve 
                                                       Association.
                                   Russ Shay,
                    Director of Public Policy, Land Trust Alliance.
                                   Jimmie Powell,
          Director of Government Relations, The Nature Conservancy.
                                   Rich Innes,
      Executive Director, Association of National Estuary Programs.
                                    Lawrence A. Selzer,
                                  President, The Conservation Fund.
                                    Gordon C. Robertson,
                 Vice President, American Sportfishing Association.
                                   Mark Wolf-Armstrong,
                    President and CEO, Restore America's Estuaries.
                                 ______
                                 

 Prepared Statement of the Columbia River Inter-Tribal Fish Commission

    Mr. Chairman and honorable members of the subcommittee, on behalf 
of the Columbia River Inter-Tribal Fish Commission (CRITFC), I want to 
thank you for the opportunity to present our views on the fiscal year 
2007 budget for NOAA Fisheries. We encourage this subcommittee to note 
the on-going collaborative effort ordered by the federal judge within 
the region concerning the biological opinion on the Federal Columbia 
River Power System and to also please note the administration's call 
for hatchery reform efforts. CRITFC supports funding the following 
programs as part of a coordinated, comprehensive effort to restore the 
shared salmon resource of the Columbia and Snake River Basins to 
healthy sustainable populations:
  --$200,000 to support the States and tribes in dispersing sea lions 
        from areas where severe salmon depredation is occurring on the 
        Columbia River;
  --$36 million for the Columbia River (Mitchell Act) hatchery program 
        in order to implement reforms called for in the ``Conservation 
        of Columbia Basin Fish'' (Federal Caucus ``All H'' Paper) and 
        the Federal Columbia River Power System Biological Opinion, of 
        which $9 million (or 25 percent of the actual enacted amount) 
        directed to the tribes for new or expanded supplementation 
        programs;
  --No additional funding for the implementation of mass-marking 
        programs of hatchery fish at federally funded hatcheries for 
        the purpose of implementing a selective fisheries program;
  --$20.6 million for Columbia River facilities screening and passage 
        program;
  --$110 million for the Pacific Coastal Salmon Recovery Fund to 
        support on-the-ground salmon restoration activities, of which 
        $5 million should be provided to the intertribal commission of 
        the Columbia River treaty tribes in the form of a direct grant;
  --$9,844,000 for the Pacific Salmon Treaty program, of which 
        $8,000,000 is or the implementation of the 1999 Agreement and 
        previous base programs, and $1,844,000 is for the Chinook 
        Salmon Agreement.
    Background.--In 1977, the Columbia River Treaty Tribes (Nez Perce, 
Umatilla, Warm Springs and Yakama Tribes) formed the Commission to 
provide coordination and technical assistance to the member tribes.
    In 1855, the United States entered into treaties with the four 
tribes to ensure the mutual peace and security of our peoples. In the 
treaties the U.S. promised to protect and honor the rights and 
resources the tribes reserved to themselves. Our rights and our 
religious beliefs are tied to the salmon whose populations have 
dramatically declined to levels that are even causing alarm to non-
Indian commercial fishing-dependent communities. We must vigorously 
pursue the necessary recovery and restoration actions consistent with 
the Endangered Species Act and federal trust obligations.
    CRITFC's principles for fisheries protection and restoration are 
outlined in a restoration plan titled Wy-Kan-Ush-Mi Wa-Kish-Wit (Spirit 
of the Salmon) that can be viewed at www.critfc.org. The plan's 
objectives are to halt the decline of salmon, lamprey and sturgeon 
populations and rebuild salmon runs to levels that support tribal 
ceremonial, subsistence and commercial harvests. The plan emphasizes 
strategies and principles that relies on natural production and healthy 
river systems and utilizes a collaborative conservation approach that 
the White House has encouraged parties to use to address natural 
resource issues. The tribes can point to several successes in 
watershed-based restoration of salmon working with State, Federal and 
private entities.
    Endangered Species Act (ESA)--Pacific Salmon Recovery.--NOAA 
Fisheries is making an ambitious effort to complete salmon recovery 
plans in the Pacific Northwest. Not all of the measures outlined in the 
recovery plans will be funded by the Bonneville Power Administration 
(BPA) which means that additional funding is needed to meet statutory 
and trust obligations to the salmon resource and tribes. For example, 
in coordination with Federal, State and tribal managers, NOAA Fisheries 
has developed necessary monitoring and evaluation programs to measure 
salmon recovery efforts, but funding for these critical efforts are in 
doubt due to the expected fish and wildlife funding levels set by BPA 
for fiscal year 2007-09.
    Sea Lions.--For the second consecutive year sea lion depredation is 
occurring below Bonneville Dam on the Columbia River during a 
drastically low adult spring Chinook salmon return. The States and 
tribes have collaborated to disperse sea lions below Bonneville Dam. 
Sea lion control efforts are subject to a lengthy process in the Marine 
Mammals Protection Act (MMPA). Therefore, $200,000 is requested to 
support State and tribal efforts to disperse problem animals until a 
long term solution is developed under the MMPA.
    Columbia River (Mitchell Act) Hatchery Program.--Restoring Pacific 
salmon and providing for sustainable fisheries requires using the 
Columbia River (Mitchell Act) hatchery program to supplement naturally 
spawning stocks and populations. To accomplish this goal, $36 million 
is requested for the tribal and State co-managers to jointly reform the 
Mitchell Act hatchery program. Of this amount, $9 million, or 25 
percent of enacted funding, will be made available to the tribes for 
supplementation projects.
    Since 1982, CRITFC has called for hatchery reform to meet recovery 
needs and meet mitigation obligations. We welcome the administration's 
objective calling for transforming hatchery systems to aid in salmon 
recovery (Chairman James Connaughton, Council on Environmental Quality, 
Salmon 2100 Conference, January 25, 2006, Portland, Oregon). The tribes 
are leaders in designing and managing supplementation hatchery 
facilities at Yakama, Umatilla and Nez Perce. We believe similar 
practices need to be implemented throughout the basin to reform current 
hatchery production efforts. The tribe's facilities are biologically 
credible and can be used to supplement rather than supplant natural 
spawning salmon populations.
    Mitchell Act hatchery production should be used to assist the 
rebuilding of naturally spawning salmon, the stocks which have 
constrained both Indian and non-Indian fisheries on the West Coast. 
With the adoption of abundance based management for all ocean fisheries 
under the U.S.-Canada Pacific Salmon Treaty in 1999, an aggressive 
effort needs to be undertaken to reform hatchery production to be 
consistent with that new management approach and to aid in the de-
listing of several salmon populations listed under the ESA. The tribes 
can provide leadership for this necessary reform, while still 
mitigating for the damage caused to the salmon resource by the Federal 
Columbia River Power System.
    Mass marking and Selective Fisheries.--No additional Federal 
funding should be provided for the mass marking of hatchery-reared fish 
and the implementation of selective fisheries unless and until the 
tribes and States have agreed upon such programs. The true total 
financial, management, and technical costs of pursuing an aggressive 
mass marking and selective fisheries program have never been 
identified. In addition, there is no technical basis yet in place to 
ensure that this program does not undermine the ability of the U.S. and 
Canada to monitor and evaluate harvest management actions recently 
adopted under the Pacific Salmon Treaty.
    Columbia River Facilities.--To carry out activities identified as 
necessary in the Federal Caucus All-H Paper and the BiOp, $20.6 million 
is requested for the Columbia River facilities screens and fish passage 
programs.
    Pacific Coastal Salmon Recovery Program (PCSRF)/Watershed 
Restoration.--Beginning in 1996, additional funding has been sought by 
the State of Alaska, the Pacific Northwest States, and the treaty 
tribes to serve critical unmet needs for the conservation and 
restoration of salmon stocks shared in these tribal, State, and 
international fisheries (See Record of Discussion, May 20, 1996). The 
PCSRF program provides a significant role in accomplishing the goals of 
this shared effort. For fiscal year 2007, we recommend restoring the 
funding to the fiscal year 2002 appropriated level of $110 million. Of 
this amount, $5 million should be directed to the intertribal 
commission of the Columbia River treaty tribes to support ongoing 
efforts.
    CRITFC acknowledges the economic hardships of western salmon-
dependent communities caused by the current low salmon returns. While 
financial disaster relief meets a short-term economic need for these 
communities, we encourage this committee to not redirect any PCSRF 
funds to offset immediate economic hardship. Long-term economic 
benefits can be achieved by making PCSRF investments on the ground to 
rebuild sustainable, harvestable salmon populations into the future.
    The State and tribal co-managers have responded to concerns raised 
by Congress regarding accountability and performance standards to 
evaluate and monitor the success of this coastwide program. In an 
effort coordinated and facilitated by NOAA Fisheries, the co-managers 
have developed an extensive matrix of performance standards to address 
these concerns. We will continue to ensure that tribally sponsored 
watershed projects are based on the best science, are competently 
implemented and adequately monitored, and address the limiting factors 
affecting salmon restoration. This will include the use of monitoring 
protocols to systematically track current and future projects basin-
wide. Projects undertaken by the tribes last year are consistent with 
Wy-Kan-Ush-Mi Wa-Kish-Wit and the programmatic areas identified by 
Congress.
    Pacific Salmon Treaty Program.--CRITFC supports the U.S. section 
recommendation of $9,844,000 for the Pacific Salmon Treaty. Of this 
amount, $8,000,000 is for the Pacific Salmon Treaty base program with 
Alaska, Oregon, Idaho, Washington, and NOAA to share as described in 
the U.S. section of the Pacific Salmon Commission's Budget 
Justification for fiscal year 2007. In addition, we support $1,884,000 
as first provided in 1997 to implement the abundance based management 
approach (adopted by the U.S. section in 1996) of the Chinook Salmon 
Agreement to carry out necessary research and management activities. 
The overall total amount includes restoration of $2 million for the 
Pacific Salmon Treaty program for the States to implement the 
provisions and management and technical changes adopted by the United 
States and Canada in 1999, particularly to implement the abundance 
based approach for coho management. These funds are subjected annually 
to a strict technical review process.
    In summary, Mr. Chairman, the CRITFC and its four member tribes 
have developed the capacity and infrastructure to be models of 
leadership and stewardship in rebuilding the fisheries in the Columbia 
Basin. Our collective efforts protect our treaty reserved fishing 
rights and we also partner with the non-Indian community to provide 
healthy, harvestable salmon populations for all citizens to enjoy. This 
is a time when increased effort and participation are demanded of all 
of us and we ask for your continued support of our efforts. We will be 
pleased to provide any additional information that this subcommittee 
may require.
                                 ______
                                 

      Prepared Statement of the American Museum of Natural History

About the American Museum of Natural History
    The American Museum of Natural History (AMNH) is one of the 
Nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its joint 
mission of science and public education. It is renowned for its 
exhibitions and collections of more than 32 million natural specimens 
and cultural artifacts. With approximately 4 million annual visitors--
approximately half of them children--it is one of the largest, fastest 
growing, and most diverse museums in the country. Museum scientists 
conduct groundbreaking research in fields ranging from all branches of 
zoology, comparative genomics, and informatics to earth sciences, 
biodiversity conservation, and astrophysics. Their work forms the basis 
for all the Museum's activities that seek to explain complex issues and 
help people to understand the events and processes that created and 
continue to shape the Earth, life and civilization on this planet, and 
the universe beyond.
The American Museum--NASA Partnership
    In December 1997, NASA and AMNH embarked on a unique partnership, 
founded on a joint commitment to cutting-edge research and to 
integrating that research into educational vehicles that will improve 
science literacy and inspire the next generation. Over this time, we 
have worked with the agency to develop innovative technologies and 
resources that provide an unparalleled platform for interpreting, 
displaying, and distributing NASA content to audiences nationwide. 
Since 2004 the Museum has been incorporated by NASA into its longer-
term science education and public outreach base, with the Museum and 
NASA now in an unprecedented position to leverage our shared 
investments, maximize our accomplishments, and harness our unique 
resources, capacity, and platform to help NASA achieve its goals.
  --The Museum has built a set of singular national resources that 
        bring cutting-edge science and integrated NASA content to total 
        audiences of more than 10 million in New York City, across the 
        country, and around the world. In the New York area alone, the 
        Museum reaches nearly four million annual visitors, including 
        more than 450,000 children in school groups and more than 5,000 
        teachers, with millions visiting online.
  --We have launched a successful program to disseminate project 
        resources to informal learning venues nationally and 
        internationally, with science bulletins already on view in 26 
        locations and space shows at 14, with more being added.
  --We have created science bulletins--technologically innovative, 
        immersive multimedia science encounters, presenting space, 
        Earth, and life science news and discoveries in visually 
        stunning feature documentaries, data visualizations, and weekly 
        updates.
  --The Museum has made numerous technological breakthroughs--it has 
        established leadership in science visualization and high 
        resolution renderings of massive data sets; it has converted 
        its space shows to digital format, making the AMNH the only 
        full planetarium dome content provider that crosses all major 
        platforms; it has pioneered a unique online distribution 
        network that each week streams new science content in HD MPEG2 
        encodes to partners across North America.
  --AMNH routinely hosts major events celebrating NASA's mission 
        highlights and milestones. Recent events have included public 
        interaction with AMNH scientists and NASA astronauts during the 
        Mars MER, Cassini-Huygens, and Return to Flight launches and 
        landings.
  --The Museum's educational mission is fueled by and reflects cutting-
        edge science, including the work of our scientists in 
        collaboration with NASA centers and researchers.
    Building on this remarkable foundation, the Museum seeks to 
continue its institutional collaboration with NASA in fiscal year 2007 
so as to contribute its unique science, education, and exhibition 
capacity, its expertise in innovative and emerging technologies, and 
its national reach to helping the agency meet its goals. The Museum 
proposes activities over a 1-year period to include: R&D on new 
techniques for visualizing massive space and earth science data sets, 
creating visualization tools for presenting NASA missions and other 
dynamic science stories, and for advancing innovative solutions to 
technical challenges in presenting digital planetarium shows; and 
developing current NASA science education resources and continuing to 
scale up their national distribution for presentation in public spaces 
and for classroom use.
    Throughout the course of its NASA partnership, the Museum has very 
successfully leveraged the NASA investment with funds from other 
government and private sources, and it will continue, with renewed 
partnership funding, to support the project with funds from nonfederal 
as well as federal sources.
    Recognizing its potential to support NASA in its goals to pioneer 
the future in space exploration, scientific discovery, and aeronautics 
research; to develop a balanced overall program of science, 
exploration, and aeronautics; and to establish new and innovative 
programs to enhance understanding of our Earth, other planets, 
asteroids, and comets in our solar system, as well as the search for 
life around other stars, the Museum looks forward to continuing its 
institutionalized collaboration with NASA and to contributing its 
unique science, education, and technological capacity to helping the 
agency to meet these goals.
                                 ______
                                 

      Prepared Statement of the American Museum of Natural History

About the American Museum of Natural History
    The American Museum of Natural History (AMNH) is one of the 
Nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its 
mission to ``discover, interpret, and disseminate--through scientific 
research and education--knowledge about human cultures, the natural 
world, and the universe.'' It is renowned for its exhibitions and 
collections of more than 32 million natural specimens and cultural 
artifacts. With nearly 4 million annual visitors, its audience is one 
of the largest, fastest growing, and most diverse of any museum in the 
country. Museum scientists conduct groundbreaking research in fields 
ranging from zoology, comparative genomics, and informatics to Earth, 
space, and environmental sciences and biodiversity conservation. Their 
work forms the basis for all the Museum's activities that seek to 
explain complex issues and help people to understand the events and 
processes that created and continue to shape the Earth, life and 
civilization on this planet, and the universe beyond.
    The Museum's Center for Biodiversity and Conservation, founded in 
1993, is dedicated to enhancing the use of scientific data to mitigate 
threats to global biodiversity, and integrating this information into 
the conservation process and to disseminate it widely. It conducts 
conservation-related field projects around the world, trains 
scientists, organizes scientific symposia, presents public programs, 
and produces publications geared toward scientists, policy makers, and 
the lay public. Each spring, the CBC hosts symposia that focus on 
conservation issues. The 2005 symposium, New Currents in Conserving 
Freshwater Ecosystems will highlight initiatives from around the world 
that inform our ability to understand and protect the biota, processes, 
and habitats of aquatic ecosystems. The 2006 symposium, Conserving 
Birds in Human-Dominated Landscapes, will focus on unique challenges to 
and key opportunities for invigorating bird diversity in the areas most 
heavily impacted by human activities.
    The Museum's renovated Hall of Ocean Life, reopened in Spring 2003, 
is a major focal point for public education on marine science issues. 
Drawing on the Museum's world-renowned expertise in Ichthyology as well 
as other areas of vertebrate as well as invertebrate zoology, the Hall 
is pivotal in educating visitors about the oceans' key role in 
sustaining life on our planet. The renovated Hall of Ocean Life, 
together with the new Halls of Biodiversity, Planet Earth, and the 
Universe and the rebuilt Hayden Planetarium (part of the new Rose 
Center for Earth and Space) provide visitors a seamless educational 
journey from the universe's beginnings to the formation and processes 
of Earth to the extraordinary diversity of life on our planet.
Common Goals of NOAA and AMNH
    The National Oceanic and Atmospheric Administration (NOAA) is 
committed to understanding and predicting changes in the Earth's 
environment and to conserving and managing coastal and marine resources 
to meet the Nation's economic, social, and environmental needs. NOAA's 
education plan outlines a broad vision for reaching various audiences 
to build awareness and knowledge of issues related to the world's 
atmosphere, climate, oceans, and coastal ecosystems. Addressing the 
needs of teachers, students, and policy makers as well as the general 
public, the agency's goals include enhancing environmental literacy and 
knowledge, application of NOAA science, and development of a capable 
and diverse workforce for environmental science. The American Museum of 
Natural History, one of the Nation's premier research and public 
education institutions, shares NOAA's commitment to these environmental 
goals and to the scientific research and public education that support 
them.
    Since its founding in 1869, the American Museum has pursued its 
mission of scientific investigation and public education. Its 
exhibitions and collections serve as a field guide to the entire planet 
and present a panorama of the world's cultures. Museum collections of 
some 32 million specimens and cultural artifacts provide an 
irreplaceable record of life. More than 200 museum scientists conduct 
groundbreaking research in fields as diverse as systematic and 
conservation biology and astrophysics, Earth and biodiversity sciences. 
The work of scientific staff fuels exhibitions and educational 
programming that reach annually an onsite audience of nearly 4 million 
visitors--nearly half of them children.
Marine Sciences Initiative
    In fiscal year 2004, as a result of congressional leadership, the 
Museum entered into a partnership with NOAA that launched a multi-year 
marine education and research initiative. Support for this initiative, 
which encompasses a broad range of education, outreach, training, and 
research activities closely aligned with NOAA goals and purposes, was 
continued in fiscal year 2005 and further leveraged by museum 
scientists who successfully secured competitive NOAA funding. Building 
upon this successful foundation, and in concert with the strategic 
priorities of NOAA and the Museum, we seek in fiscal year 2007 to join 
with NOAA in aquatic research and education activities that promote 
ocean literacy. Activities will include: ecosystem based research, 
training, and research tools development concerning oceans and aquatic 
environments; special programs on New York waterways for New York City 
schoolchildren; professional development for teachers; and public 
education that will build understanding of the importance of healthy 
oceans and atmosphere.
    The Museum seeks in fiscal year 2007 to partner with NOAA to build 
this marine sciences education and outreach initiative. Support will be 
used, over a 1-year period, for marine research projects, the remote 
sensing/GIS laboratory, and public education and outreach. Together 
with NOAA, and leveraging its participatory share with funds from 
nonfederal as well as other federal sources, the Museum will be 
positioned to advance the environmental education, outreach, and 
research so pivotal to the health of our Nation and our planet.
    Recognizing its potential to support NOAA in its goals to 
understand and predict changes in the Earth's environment; conserve and 
manage coastal and marine resources; and to protect, restore, and 
manage the use of coastal and ocean resources to meet our Nation's 
economic, social, and environmental needs, the Museum looks forward to 
advancing a partnership with the agency in an education, outreach, and 
research initiative to promote public understanding and stewardship of 
marine environments.
                                 ______
                                 

                 Prepared Statement of American Rivers

    American Rivers, on behalf of more than 500 national, regional and 
local organizations representing more than 5 million constituents 
concerned with river conservation,\1\ urges the Committee to provide 
the National Oceanic and Atmospheric Administration with an overall 
appropriation of $4.5 billion in the Commerce, Justice, Science 
Appropriations bill for fiscal year 2007. Within that amount 
$252,000,000 should be allocated for the following priority programs in 
fiscal year 2007. I request that this testimony be included in the 
official record.
---------------------------------------------------------------------------
    \1\ These groups and individuals have endorsed the Citizen's Agenda 
for Rivers which includes the ``River Budget'' for fiscal year 2007, a 
report of national funding priorities for local river conservation. For 
more information on the Citizen's Agenda for Rivers go to 
www.healthyrivers.org.
---------------------------------------------------------------------------
                  pacific coastal salmon recovery fund
    Pacific salmon are a national treasure with enormous economic, 
cultural, and environmental significance in the States of Washington, 
Oregon, California, Idaho, and Alaska. A century ago, salmon were an 
anchor of the region's economy. Unfortunately, past and present 
mismanagement of our rivers, lands, and salmon fisheries have caused 
populations of salmon to decline dramatically over the past century, 
and 26 runs of Pacific salmon and steelhead are now listed under the 
Endangered Species Act.
    One important program aimed at restoring imperiled runs of chinook, 
coho, sockeye, and chum salmon, as well as steelhead trout, is the 
Pacific Coastal Salmon Recovery Fund, funded through the National 
Oceanic and Atmospheric Administration. For the past several years, 
this program has provided much-needed assistance to State, local, and 
tribal governments in Washington, Oregon, California, Alaska and Idaho 
for salmon recovery projects.
    By increasing funding for the Pacific Coastal Salmon Recovery Fund 
in fiscal year 2007, Congress can help restore this economically, 
culturally, and ecologically valuable resource and help the Northwest 
States and local communities to adopt and embrace the measures needed 
to restore Pacific salmon and steelhead. Restoring salmon will also 
allow the United States to satisfy treaty obligations with Northwest 
Indian tribes and Canada.
    American Rivers appreciates the Committee's past support for this 
program and urges the funding be increased to $200 million in fiscal 
year 2007.
   fisheries habitat restoration center (community-base restoration 
                                program)
    Estuaries and coastal wetlands serve many essential functions for 
communities across the Nation. Coastal industries supply 28 million 
jobs and generate billions of dollars annually. Eighty to 90 percent of 
all recreational fish catch and 75 percent of all commercial harvest 
depends upon healthy coastal and estuarine habitats. More than half of 
the coastal wetlands in the lower 48 States have been lost, and almost 
40 percent of estuarine habitat is impaired.
    The Fisheries Habitat Restoration Center and the Community-based 
Restoration Program, reaches out to local constituencies to accomplish 
on-the-ground, community-based projects to restore estuaries and 
coastal habitats. Partnerships and local involvement are fundamental to 
the success of this program. Partners typically match federal dollars 
1:1 and leverage those dollars up to 10 times more through State and 
local participation. To date, the program has funded more than 900 
projects in 25 States, promoting fishery habitat restoration in coastal 
areas with a grassroots, bottom-up approach.
    American Rivers urges the Committee to provide the Fisheries 
Habitat Restoration Program with $24 million in fiscal year 2007 to 
help more communities restore and protect and restore the health of 
their estuaries and coastal habitats.
                the penobscot river restoration project
    The Penobscot River Restoration Project is an unprecedented 
approach to river restoration that will reconfigure hydropower 
facilities and maintain energy production while opening up more than 
500 miles of habitat to 10 native species of anadromous fish, improve 
water quality, boost wildlife and create new opportunities in 
communities along New England's second largest river. The two lowermost 
Penobscot dams, Veazie and Great Works, will be removed and a state-of-
the-art fish bypass will be installed at Howland Dam. This restoration 
project will reestablish the river's historic connection to the ocean, 
and help feed fisheries and wildlife in the river and the Gulf of 
Maine. The project's reconfiguration of dams will have a wide range of 
benefits to fish and wildlife populations, water quality and 
communities along the river. The restoration of the Penobscot River is 
the best last chance for the dwindling Atlantic Salmon populations in 
the country.
    American Rivers urges the Committee to provide $15 million to the 
Penobscot River Restoration Project in fiscal year 2007 to assist in 
the purchase of the three dams on the Penobscot River.
                         open rivers initiative
    Our Nation's rivers are plugged with millions of dams, most still 
functional and benefiting society. Many others are either dilapidated 
having outlived their 50 year life expectancy or are no longer 
providing the benefits for which they were built. These dams are 
unnecessarily degrading the riverine ecosystem and holding up economic 
development. The Open Rivers Initiative (ORI), a new Presidential 
initiative announced by the Secretary of Commerce in 2005, will provide 
grants to communities and local dam owners to remove their dams that no 
longer make sense. These restoration projects provide significant 
environmental improvements and offer noteworthy economic and societal 
benefits. They create new opportunities for recreational fishing, river 
rafting, and kayaking; provide cost savings by eliminating the need for 
dam repairs; and remove safety and liability risks associated with 
outdated structures.
    American Rivers urges the Committee to provide $10 million to the 
Open Rivers Initiative in fiscal year 2007.
                         hydropower relicensing
    The National Marine Fisheries Service (NMFS) would greatly benefit 
from additional funding to address the growing number of hydropower 
dams that need renewal of their operating licenses from the Federal 
Energy Regulatory Commission (FERC). Under the Federal Power Act, the 
NMFS has a responsibility to set license conditions for hydropower dams 
that protect and conserve anadromous (sea-run) fisheries such as 
Pacific and Atlantic salmon, steelhead and sea-run cutthroat trout, and 
shad. FERC approved licenses are nearing expiration at hundreds of dams 
around the country, and workloads are increasing for NMFS and other 
resource agencies. Increasing NMFS's limited hydropower relicensing 
budget is essential to ensure a more efficient licensing process and 
that NMFS can carry out its responsibilities to protect and restore our 
Nation's anadromous fisheries.
    American Rivers urges the Committee to provide the National Marine 
Fisheries Service with $3 million to specifically fund the agencies 
work on hydropower relicensing in fiscal year 2007.
                                 ______
                                 

  Prepared Statement of Claflin University, Orangeburg, South Carolina

    Mr. Chairman, and members of the subcommittee, I thank you for the 
opportunity to submit testimony to the hearing record regarding the 
forensic science laboratory at Claflin University in Orangeburg, South 
Carolina. Claflin University is the oldest historically black college 
or university in the State of South Carolina and has a solid reputation 
for producing science students who are an asset to the Nation's 
scientific workforce.
    In the past fiscal year, as I am sure you are aware, funds with 
which to initiate the establishment of a certified forensics laboratory 
at Claflin University were included in the conference report on the 
Science, State Justice and Commerce Appropriations bill. We wish to 
thank the subcommittee for its support and report on the use to which 
we have put the provided funds. In collaboration with local law 
enforcement agencies, we have used those funds to identify and secure a 
site for the DNA forensic portion of the laboratory, initiated 
renovations to the site as needed, and completed the purchase of some 
of the needed equipment. We are also finalizing the recruitment of the 
initial supervising scientist for the facility. In addition, we have 
developed an initial course in forensics that we will beta test this 
summer with students in our biotechnology degree program.
    The purpose of the forensics laboratory is to allow Claflin 
University to create research and service capacity in DNA, drug and 
ballistics forensic technologies for the Orangeburg community, the 
First Judicial District and other agencies in South Carolina and the 
Nation. A Memorandum of Understanding has been developed with the 
Orangeburg Department of Public Safety, and others are being finalized 
with the Orangeburg County Sheriff's Department and other law 
enforcement agencies within the First Judicial District. The faculty 
within the forensics laboratory will offer courses to students from 
Orangeburg Calhoun Technical College, undergraduates and graduate 
biotechnology students from Claflin and will offer short-course 
continuing education courses approved by the State's Law Enforcement 
Training Academy to local and State law enforcement officials. The 
resulting benefits will include but are not limited to:
  --Reduction in the case evidence backlog;
  --workforce training (for both forensic scientists and law 
        enforcement personnel);
  --crime rate reduction through timely processing of evidence;
  --increased research capacity in DNA forensics technique development; 
        and
  --increased capacity to process back-logged samples for the 
        Department of Justice and the Department of Defense.
    Claflin University will staff a forensics laboratory that will be 
certified for DNA fingerprinting. The laboratory will also provide 
staff and equipment for drug analysis. In addition, the institution 
will collaborate with the Orangeburg Department of Public Safety to 
apply to the National Integrated Ballistic Information Network (NIBIN) 
program at the Department of Justice's Bureau of Alcohol, Tobacco, 
Firearms and Explosives to become a participant in that network in 
order to provide ballistics analysis capacity for the forensics 
laboratory.
    All law enforcement agencies within the First Judicial Circuit 
could greatly benefit in having a regional forensic laboratory with 
these capabilities. This would also reduce the number of cases 
submitted to SLED and other specialized laboratories alleviating some 
of the current backlog seen in these labs and speed time to trial for 
alleged offenders.
    I would also like to point out that this year Claflin University, 
in partnership with Orangeburg Calhoun Technical College received a 
grant from the Department of Labor to establish a joint program in 
biotechnology with a forensics emphasis. This would allow a student to 
earn an associates degree, a bachelor's degree or a master's degree in 
biotechnology, with a forensics specialization, or to stop at any point 
of their choosing in that training continuum. We are certain that the 
collaboration with the local law enforcement agencies to operate a 
forensics laboratory will be a valuable additional asset for our 
overall programmatic goals and will increase the number of qualified 
individuals entering the workforce with expertise in forensic analyses.
    In fiscal year 2007 we are again requesting support of $2.2 million 
to complete the work that we have begun in establishing the forensics 
laboratory. These funds will be used to hire additional personnel for 
the laboratory; purchase the remaining major laboratory 
instrumentation; acquire and restructure space for the ballistics 
facility; purchase consumables and reagents for analytical processes; 
and offer the forensics short course to local law enforcement 
personnel.
    Mr. Chairman, we are sure that the forensics laboratory that we are 
establishing will provide for infrastructure for crime reduction in our 
State as well as allowing us to produce forensic scientists for the 
State and Nation. We hope that the subcommittee will provide the $2.2 
million necessary to continue the progress toward full establishment of 
this vital service asset. Your support will reduce crime, save lives, 
and strengthen the Nation's scientific workforce.
                                 ______
                                 

         Prepared Statement of the National Wildlife Federation

    On behalf on the National Wildlife Federation (NWF) I appreciate 
the opportunity to present this testimony in support of an 
appropriation of $3 million from NOAA's Coastal and Estuarine Land 
Conservation Program for the San Miguel Project in the Commonwealth of 
Puerto Rico.
    NWF is the U.S. largest member-supported conservation education and 
advocacy group. It unites people from all walks of life to protect 
nature, wildlife, and the world we all share. NWF's mission is to 
educate, inspire and assist individuals and organizations of diverse 
cultures to conserve wildlife and other natural resources and to 
protect the Earth's environment in order to achieve a peaceful, 
equitable and sustainable future.
    The Northeastern Ecological Corridor (NEC) comprising approximately 
3,200 acres, is one of the Caribbean's last, great, unprotected areas. 
Located on the eastern corner of the main island of Puerto Rico within 
the municipalities of Luquillo and Fajardo, the NEC contains an 
extraordinary array of tropical habitats seldom found in other parts of 
the world. In addition to coral communities, mangroves, and pre-
Columbian forests, all the different varieties of coastal wetlands 
found throughout Puerto Rico are represented within the NEC. The 
wetlands in this area are essential to the existence of a seasonal 
bioluminiscent lagoon known as Laguna Aguas Prietas, an extremely rare 
biological phenomenon.
    The NEC's location within the foothills of the El Yunque Caribbean 
National Forest adds to its great natural value and uniqueness. 
Originally set aside in 1876 by the Spanish Crown, this United Nations 
Biosphere Reserve is one of the oldest forest protected areas in the 
Western Hemisphere, and is the only tropical rain forest in the United 
States national forest system. The forest contains rare wildlife and is 
home to over 50 species of birds, including the Puerto Rican parrot--
one of the ten most endangered species of birds in the world. The 
ecological diversity observed within the NEC and the Caribbean National 
Rain Forest, varying from a coastal dry forest to a rain forest, lies 
within a corridor just 13 miles in length. Such an occurrence, in an 
amazing limited area, is extremely rare in any location around the 
world and, can only be enhanced or protected by the conservation of the 
NEC.
    In recognition of the NEC's extraordinary natural value, the NWF 
has supported its protection since 1999. During NWF's annual meeting 
held on March 2006 at New Orleans, a resolution presented by two of our 
affiliates, the Puerto Rican Ornithological Society and the Virgin 
Islands Conservation Society, was approved, supporting the protection 
of coastal and wetland habitats of concern such as those found on the 
Corridor. Furthermore, NWF endorsed the Commonwealth of Puerto Rico 
House of Representatives Bill 2105, designating the NEC as a nature 
reserve, as well as its sustainable development based on ecotourism and 
nature tourism activities.
    Available for acquisition in fiscal year 2007 is the 1,277-acre San 
Miguel property, consisting of three parcels within the NEC. These 
parcels contain extensive wetland areas contiguous to the Pitahaya, 
Juan Martin and Sabana rivers, and harbor an array of unique upland and 
wetland ecosystems. The project site includes some of the last 
remaining unspoiled dune systems and a significant coral community 
immediately off shore. Its bird fauna is remarkable and according to 
the Puerto Rico Department of Natural and Environmental Resources 
(DNER), it has the one of the highest diversity of birds of any natural 
protected area in the north region of the Island. The property falls 
within the range of over 40 rare species of flora and fauna, some even 
unique to Puerto Rico, including 16 federally threatened or endangered 
listed species, such as the hawksbill sea turtle, Virgin Island boa, 
Puerto Rican boa, brown pelican, Puerto Rican plain pigeon, West Indian 
manatee, and Cobana negra (a flowering tree). The area is best known, 
however, as one of the most important nesting grounds for leatherback 
sea turtles in the Unites States and the Caribbean. Over 420 
leatherback sea turtle nests were recorded during the 2005 nesting 
season. Due to its ecological value, the NEC has been identified by the 
DNER, the USDA Forest Service's International Institute of Tropical 
Forestry and the U.S. Fish and Wildlife Service, as a critical wildlife 
area of primary importance in Puerto Rico. The NEC also contains a 
variety of archeological resources, such as historical tools and 
structures.
    At the present time, several multinational lodging corporations 
have proposed various mega luxury residential-tourist resorts within 
the NEC. One of the largest proposed developments would be built on the 
San Miguel tracts at the boundary of the municipalities of Luquillo and 
Fajardo. The San Miguel Resort would include 1,025 residential units, a 
250-room hotel/casino, 175 timeshare units, and two golf courses. The 
development would involve the filling of wetlands, channelization of 
rivers, and clearance of coastal vegetation, thus destroying the 
natural integrity of the NEC. If the San Miguel resort were to be 
constructed as planned, it would further deplete the limited water 
supplies needed by local communities, resulting in a deficit of over 
4,000,000 gallons of water per day, a deficit which accounts for the 
water requirements of nearly 25,000 people. There is widespread concern 
as well about other negative impacts the development would have on this 
sensitive area, including limited public access to beaches and other 
coastal resources, and unnecessary exposure of life and property on 
lands affected by floods and other natural hazards present at the NEC.
    Given the ongoing controversy over development of the property, 
including years of lawsuits, strong public opposition, and permitting 
difficulties, the owners have decided to make the land available for 
conservation. Federal agencies, the Commonwealth of Puerto Rico, and 
private parties have come together in an effort to preserve this 
remarkable coastal property. Public ownership will preserve the coastal 
resources, protect the rivers and wetlands, buffer El Yunque Caribbean 
National Forest, and provide public beach access and recreational 
opportunities.
    Approximately $25 million will eventually be needed to complete the 
San Miguel acquisition. If this effort should fail, some form of 
development would likely occur on this highly sensitive property. The 
construction of the proposed resort would undermine past and current 
conservation efforts in an area that has been widely recognized by the 
Federal and Commonwealth agencies, and private conservation 
organizations for its unique expression of biological diversity.
    A fiscal year 2007 appropriation of $3 million from NOAA's Coastal 
and Estuarine Land Conservation Program is needed to further the 
protection of the San Miguel tracts. These funds will be matched by 
$2.27 million in settlement funds from the Barge Berman Oil Spill 
(specifically for land acquisition), up to $5.7 million of other oil 
spill settlement funds (for restoration categories), $3 million 
committed by the Conservation Trust of Puerto Rico, and additional 
funds being raised by a local land trust and other interested private 
parties. I urge you to include this project in the fiscal year 2007 
Commerce, Justice, and Science Appropriations bill.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony and for your consideration of this important request.
                                 ______
                                 

              Prepared Statement of The Nature Conservancy

    Mr. Chairman, thank you for the opportunity to offer the 
recommendations of The Nature Conservancy on the fiscal year 2007 
budget for the National Oceanic and Atmospheric Administration (NOAA).
    The Nature Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. Our on-the-ground and in-the-water conservation work 
is carried out in all 50 States and in 27 foreign countries and is 
supported by approximately 1 million individual members. We have helped 
conserve nearly 15 million acres of land in the United States and 
Canada and more than 102 million acres with local partner organizations 
globally.
    The conservancy owns and manages approximately 1,400 preserves 
throughout the United States--the largest private system of nature 
sanctuaries in the world. We recognize, however, that our mission 
cannot be achieved by core protected areas alone. Therefore, our 
projects increasingly seek to accommodate compatible human uses to 
address sustained human well-being.
    The conservancy works to identify priorities for coastal and marine 
conservation through marine ecoregional plans. We identify present and 
likely future threats to marine biological diversity before attempting 
to identify appropriate strategies for conservation. At more than 100 
marine sites around the world, the Nature Conservancy has used a 
variety of strategies for marine conservation including habitat 
restoration of important nursery and spawning areas, removal of 
invasive species, coastal land acquisition, private conservation of 
submerged lands, elimination of destructive practices, establishment of 
protected areas, management of extractive marine resources activities, 
and reduction of nutrient and toxic inputs to coastal systems. No 
single strategy works everywhere and at every site, multiple 
conservation approaches are needed. The selection of appropriate 
approaches depends on the biological, socioeconomic, and political 
circumstances at each site.
    The National Oceanic and Atmospheric Administration (NOAA) is an 
important partner to the conservancy in many aspects of our 
conservation work:
  --We rely upon NOAA's data, research, and monitoring of coastal and 
        marine systems, and have several shared priorities on which we 
        collaborate. For example, NOAA's Coastal Services Center 
        maintains a strong customer-service, partnership-oriented 
        approach to providing needed information and technical 
        assistance to States, local governments, other federal 
        agencies, and the private sector to inform decision-making.
  --We rely on NOAA's programs that support site-based conservation--
        those that fund conservation and restoration activities, and 
        those that provide for management of coastal and marine 
        systems. NOAA's ability to meet its requirements under various 
        resource management statutes could be significantly improved by 
        enhancing the agency's ability to fund on-the-ground 
        conservation needs. Programs such as Coastal and Estuarine Land 
        Conservation, Community-based Restoration, Open Rivers 
        Initiative are excellent examples of NOAA taking a practical, 
        community-oriented approach to conservation and management of 
        coastal and marine resources. These programs should be 
        expanded.
  --NOAA's contributions to State and local implementation and 
        educational programs help to ensure that the human capacity 
        exists to address environmental management issues at the 
        necessary scale. We are concerned that NOAA's support for human 
        capacity to implement programs within the agency and at the 
        State and local levels is often the first to go in tight budget 
        environments. The committee should provide funding for staff 
        capacity to provide technical assistance, efficiently manage 
        grants and programs, and help to measure effectiveness. For 
        example, funding for Cooperation with the States in NMFS Office 
        of Protected Resources is an opportunity to better engage 
        States in addressing the needs of federally-listed species. A 
        similar program in the U.S. Fish and Wildlife Service has been 
        very successful in helping to solve problems and improve the 
        status of declining species.
    Additionally, we are concerned that funding for oceans in general 
and NOAA specifically is declining. The conservancy urges the committee 
to provide appropriations for NOAA at or approaching $4.5 billion. This 
funding level for NOAA would allow enhancements in the development of 
an integrated ocean and atmospheric observing system; increased 
research and education activities, expanded ocean conservation and 
management programs; and provide critical improvements in 
infrastructure (satellites, ships, high performance computers, 
facilities), and data management. Such an increase would represent 
significant progress toward addressing recommendations contained in the 
reports of the U.S. Commission on Ocean Policy and the Pew Oceans 
Commission.
    Finally, we would like to work with the committee on guidance to 
NOAA regarding implementation of a number of key programs.
    Coastal and Estuarine Land Conservation Program (CELCP).--The 
Nature Conservancy supports funding CELCP at $60 million for fiscal 
year 2007 and looks forward to working with the committee to guide 
selection of high priority projects. We appreciate the committee's 
inclusion of report language in the fiscal year 2006 conference report 
directing NOAA to develop a list of eligible CELCP projects for fiscal 
year 2007. We look forward to delivery of that list, and hope that it 
will be useful to the committee as you make decisions regarding this 
important program.
    We hope that the committee will once again include this language in 
your report for fiscal year 2008 project selection. The project review 
process for fiscal year 2007 has been illuminating in showing what is 
working and what is less successful. Our review of this process draws 
attention to three additional issues.
  --First, we have found that, while some States engaged in a truly 
        outstanding collaborative and public process to select 
        projects, others took a more narrow approach to outreach. One 
        of the key elements of success of the Forest Legacy program is 
        the emphasis the Forest Services places on public and partner 
        involvement. NOAA should be directed to provide similar 
        involvement.
  --Second, a $3 million project cap was included in the guidance for 
        the call for proposals. We are concerned that this cap may be 
        either unnecessarily constraining or may lead to inflated 
        project proposals. States should be encouraged to request what 
        is needed to complete a given project within an appropriate 
        timeframe, and should work with NOAA and the Congress to ensure 
        funding is available within budget constraints.
  --Finally, we are increasingly concerned about the lack of dedicated 
        staff capacity for CELCP at NOAA. Current practice is to assess 
        a percentage of the project appropriation to cover NOAA staff 
        costs. However, our practice is to request funding only for 
        direct project costs, and we are very concerned about the 
        impact such a tax is going to have on the ground. NOAA needs a 
        dedicated line of funding to support program administration and 
        management, and should be prohibited from assessing a 
        percentage of project allocations to cover administrative 
        costs.
    NOAA Habitat Restoration.--The Nature Conservancy requests 
increased funding for habitat conservation and restoration to support 
fisheries management objectives, protected species recovery, and other 
coastal and marine management requirements. NOAA needs to invest more 
in constructive, on-the-ground and in-the-water habitat conservation. 
Habitat losses have a substantial impact on the health and productivity 
of marine ecosystems, yet NOAA's ability to work closely with 
communities around the country to stem or reverse these losses is 
limited. We are encouraged by the creation of the new Open Rivers 
Initiative and continued investment in the successful Community-based 
Restoration Program, but these great programs fall far short of what is 
needed to address the threats. The conservancy and NOAA are now 
struggling to find financing for a number of projects that we started 
with grants from the Community-based Program.
    The conservancy recommends $20 million for Community-based 
Restoration, $7.2 million more than the President's budget, and more in 
line with the House and Senate recommendations going into the fiscal 
year 2006 conference. We request $10 million for the new Open Rivers 
Initiative, $4 million more than the President's budget. We urge you to 
ensure that this new program is additive to NOAA's habitat restoration 
capacity, and doesn't reduce funding available for existing programs.
    Coral Reef Conservation Program and Coral Reef Watch.--The 
conservancy has developed a strong partnership with NOAA's Coral Reef 
program, and we are delighted with their enthusiastic desire to work 
together on improving resilience of coral reefs, developing approaches 
for sustainable financing for coral conservation activities at the 
local level, and other creative approaches to reducing threats to 
corals.
    However, we are concerned with the decision made the fiscal year 
2006 conference to cut funding for NESDIS coral monitoring in fiscal 
year 2006. The President requested $737,000 for this modest but 
effective program known as ``Coral Reef Watch.'' In 2005, not only did 
NESDIS scientists in this program predict a major coral bleaching event 
in the Caribbean, but these scientists were able to reach out to NMFS, 
NOS and partners in the region to use the attention generated by the 
event to help local managers take action to help reefs recover from the 
devastating effects of bleaching.
    Finally, we urge you to include an additional $1.5 million for 
``Local Action Strategies,'' a unique partnership between NOAA and 
States and territories to address threats to coral reefs at the local 
level.
    Pacific Coast Salmon Recovery Fund.--The Pacific Coast Salmon 
Recovery Fund (PCSRF) has funded hundreds of successful on the ground 
salmon conservation efforts, and we are pleased that NOAA and the 
States receiving these funds have greatly improved tracking the process 
of restoration and management under this important program.
    This program is a critical complement to federal salmon recovery 
and management efforts. It enables the State to initiate restoration of 
salmon habitat and manage fisheries in areas beyond the reach of the 
Federal Government, e.g. on private lands. The PCSRF enables the States 
to leverage significant amounts of State funding to address the needs 
of private landowners in complying with the Endangered Species Act, 
maintaining the economic viability of these lands, while greatly 
contributing to economic recovery. In Alaska, where the vast majority 
of salmon populations and habitats are healthy, these funds help 
maintain the economic viability of the salmon industry, Alaska's 
largest employer, by providing and maintaining fisheries that don't 
conflict with protection of ESA listed stocks that spend part of their 
life history in the Gulf of Alaska.
    We are concerned about the decline in funding for the program, from 
$89 million in fiscal year 2004 and fiscal year 2005 to $67 million in 
fiscal year 2006, and $66 million in the President's fiscal year 2007 
request. The conservancy strongly supports $90 million for this 
program. We are also concerned how the funds are allocated across the 
five States involved in the program. We feel that the conservation 
activities oriented towards recovery and protection of salmon should be 
the primary purpose of this program, and therefore urge the committee 
to consider including report language in this year's appropriation that 
more explicitly links expenditures of PCSRF funds to recovery actions 
identified in federal and State salmon recovery and management plans, 
where applicable.
    Thank you for this opportunity to share with the committee the 
conservancy's priorities in NOAA's fiscal year 2007 budget. We would be 
pleased to provide the committee with additional information on any of 
the conservancy's activities described here or elsewhere. You may 
contact Erika Feller at 703-841-5374, if you have questions on which we 
might be of assistance.
                                 ______
                                 

     Prepared Statement of Liga Conciencia Ambiental del Este, Inc.

    On behalf of the (LIGA) ``Liga Conciencia Ambiental del Este'', I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $3 million from NOAA's Coastal and Estuarine Land 
Conservation Program for the San Miguel project in Puerto Rico.
    The LIGA is a non-profit organization of citizens which volunteer 
at schools, participate in local conservation efforts and aim to 
preserve and protect the Northeast Ecological Corridor (NEC) from the 
reckless impactful surge of construction already quite evident. This 
exotic coastline area between Fajardo and Luquillo in Puerto Rico is 
unbelievably unique and pristine with an array of habitats seldom found 
in other parts of the world. It is home to about 40 rare or 
``critically endangered'' species. Please note that the NEC coastal 
area is considered the third most important endangered Leatherback 
Turtle nesting are in the U.S. jurisdiction. The Fish and Wildlife 
Supervisor James Oland has stated that ``this beach area is the only 
pristine habitat extensive enough to allow for its (Leatherback Turtle) 
future recovery in Puerto Rico''. Beautiful corals still exist and 
various Pre-Columbine Forest types. Various wetlands remain here, 
essential to the existence of the biodiversity present, like for 
example a rare biological phenomenon of not one but two ``thriving 
bioluminescent lagoons''. There may also exist Taino and historical 
archeological finds yet to be correctly researched. The ``accumulative 
effects'' of the proposed Dos Mares and San Miguel Resorts ``mega 
constructions'' would ultimately negatively effect further the water 
shortage problems of this area, due to the more than 3,000 residential 
and touristic units, casinos and gold courses etc., resulting in a 
deficit of over 4 million gallons of water per day.
    Of further need is the concern to have public access to our 
beaches, and a proper buffer zone for our ``El Yunque National Forest'' 
which should extend from the top of the mountain down to the coast. 
This forest contains the only U.S. tropic wilderness area and is also 
the only tropical forest in the United States. We of the LIGA are 
totally against high intensive (5 star) development and truly wish that 
with your help, a natural reserve with the alternative of real 
ecotoursitic recreational opportunities, could be made available in the 
future.
    We have in our hands the chance to save and prepare for future 
generations, a treasure of rare land, ocean and animal species; not 
only for our local citizens and children but also to share with the 
rest of the world. We urge you to please include this project in the 
fiscal year 2007 Commerce, Justice and Science Appropriations bill. We 
thank you for your attention and remain hopeful that you will truly 
consider this proposal-which could only serve to benefit mankind.
                                 ______
                                 

            Prepared Statement of the Nisqually Indian Tribe

    Mr. Chairman, my name is Dorian Sanchez and I am the chairman of 
the Nisqually Indian Tribe. On behalf of the tribe, I would like to 
submit the following written testimony on the fiscal year 2007 budget 
for the Office of Justice Programs.
    The Nisqually Reservation is located in Washington State. We 
currently employ nine land patrol law enforcement officers to patrol 
5,000 acres of reservation and near reservation lands. In addition, 
Nisqually Tribe Police has extensive marine water enforcement duties 
and employs two water patrol officers to patrol over 100 square miles 
of Puget Sound for both the treaty salmon fishery and treaty shellfish 
harvesting. Tribal law enforcement also provides hunting enforcement 
for over 50,000 acres of land in the tribe's usual and accustomed area 
within the Nisqually River watershed.
    We also employ ten detention officers at our 45-bed detention 
facility, which was built with Department of Justice funding in 2002. 
Like many other tribes, we are struggling to cope with escalating 
methamphetamine use and associated increases in gang activity and 
property crime related to drug dealing and manufacturing. The 
methamphetamine crisis has received significant attention recently in 
Congress and in the media, but what is often overlooked is the 
disproportionately devastating impact that meth has had on Indian 
communities across the country. Tribes' resources are stretched beyond 
capacity in order to address this problem.
                           justice assistance
    The administration proposed to consolidate several programs, 
including law enforcement and juvenile justice programs, under the 
Justice Assistance account. Overall funding for these programs would be 
significantly reduced under this proposal, and many programs that 
specifically serve tribes would be cut entirely. The tribe opposes any 
effort by the administration to reorganize the funding structure in 
order to mask program cuts, and we request that the administration 
restore funding to the following programs:
  --Incarceration on tribal lands ($15 million);
  --Tribal courts initiative ($8 million); and
  --Indian country grant program ($5 million).
                    juvenile delinquency prevention
    The tribe also requests that the subcommittee restore full funding 
for title V local juvenile delinquency prevention programs and, in 
particular, that the $10 million earmark for the Tribal Youth Program 
(TYP) be restored. For fiscal year 2007, the administration has 
requested only $32 million for delinquency prevention programs--this is 
half of the fiscal year 2006 enacted amount. In past years, $10 million 
of this funding has been earmarked for tribal juvenile delinquency 
prevention programs under the TYP line item, but in the fiscal year 
2007 budget proposal, no funding is specifically designated for tribal 
youth programs.
    In most tribal communities, juvenile delinquency early intervention 
programs are funded by TYP grants. The Nisqually Indian Tribe received 
TYP funding in 2000 to support the Nisqually Indian Juvenile Justice 
Improvement Project, and these funds were used to hire and train a 
youth counselor for the youth court and to develop detention 
alternatives, such as diversion, community peer review, traditional 
dispute resolution, drug courts and mentoring programs. The tribe 
received funding again in 2003 for the tribe's At-Risk Native Youth 
Intervention project, a program to provide targeted outreach, 
assessment, support and mental health services to children who are at 
risk for academic failure or are already involved in the juvenile 
justice system. If funds are not earmarked for tribal programs, 
competition will intensify for this already-limited source of funding, 
and programs like these may not be funded in the future.
    In addition, the tribe supports restoration of the Juvenile 
Accountability Block Grant program. The administration has again 
proposed to eliminate this important program entirely, calling it 
``unfocused.'' On the contrary, as Congress has recognized in restoring 
this program for the past 3 years, it provides essential funding for 
substance abuse and mental health services and graduated sanctions 
programs. Of particular importance in Indian country is the Tribal 
Juvenile Accountability Discretionary Grant program, a separate JABG 
allocation for Indian tribes to provide delinquency prevention 
services. Successful delinquency prevention programs require 
coordination of multiple systems (substance abuse, mental health, child 
welfare, courts, detention, community-based alternatives to detention, 
etc.). For this wraparound approach to work, all these programs must 
receive funding, and tribes must have the flexibility to allocate 
resources among them as needed. JABG grants are an important source of 
this flexible core funding; if these grants are eliminated, tribal 
juvenile justice systems will be severely crippled.
                              tribal cops
    The tribe supports the administration's proposed $16 million 
increase to the tribal COPS program. We are concerned, however, that 
this increase is being used to justify cuts to all the other tribal 
programs discussed above. It is important that the subcommittee 
understand that funding for justice programs in Indian country still 
falls far short of meeting the severe need for law enforcement and 
tribal justice resources--a need that will be even greater this year in 
light of significant cuts to Indian programs--including the Tribal 
Courts program--proposed by the Bureau of Indian Affairs. Tribes depend 
on law enforcement and tribal justice funding and this year--at the 
height of the meth crisis--this funding should be increased, not simply 
redistributed or reduced overall.
    If we can provide any additional information, please do not 
hesitate to contact our counsel, Mary J. Pavel or Addie C. Rolnick at 
Sonosky, Chambers, Sachse, Endreson & Perry, LLP, 1425 K Street NW, 
Ste. 600, Washington, DC 20005; 202-682-0240 (tel); 202-682-0249 (fax); 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ee3feeff8ebe2cefde1e0e1fde5f7a0ede1e3">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d5b4a7bab9bbbcb6be95a6babbbaa6beacfbb6bab8fb">[email&#160;protected]</a>
                                 ______
                                 

           Prepared Statement of the Skokomish Tribal Nation

    Good morning. My name is Gordon James. I am the chairman of the 
Skokomish Tribe of Washington State. On behalf of the tribe, I would 
like to submit the following written testimony on the fiscal year 2007 
budget for the Office of Justice programs. The tribe respectfully 
requests that the subcommittee support the administration's proposed 
increase to the Tribal COPS program and reject the administration's 
proposed cuts to other tribal justice programs.
    The Skokomish Department of Public Safety has been granted the 
responsibility and authority to enforce laws and regulations as set 
forth by the Skokomish Tribal Council. Enforcement of tribal laws and 
regulations will enhance and strengthen the development of the tribe's 
human resources, encourage the development of the reservation, and 
support community values and goals for the achievement of self-
determination as a nation. The tribe provides the only marine law 
enforcement and rescue services in a 35-mile radius of the southern 
Hood Canal. In addition, the department works closely with non-tribal 
law enforcement agencies and with neighboring tribes to combat the 
scourge of drug trafficking in this rural area.
    As the committee is undoubtedly aware, drug abuse is rampant on 
many Indian reservations, and the recent increase in methamphetamine 
use has had an especially damaging effect on Indian country. The 
Skokomish Reservation saw significant population growth in the 1980s 
and early 1990s, and along with this growth came an alarming increase 
in the extent and severity of drug use and abuse. Our community is 
coping with the far-reaching effects of methamphetamine abuse, placing 
a far greater burden on our law enforcement, health and child welfare 
services, as well on our court system.
    According to data from the tribe's Alcohol Service program, more 
than half of our young adults are affected by drug dependency. We have 
also seen an increase in drug-related crimes, such as armed assaults, 
drug manufacturing and drug dealing. Of the 1,800 calls that tribal 
police have responded to in the last 6 months, more than one-third have 
been drug-related, and many of these calls involved non-Indians. 
Because non-Indians often view reservations as places where they can 
manufacture and sell drugs free from State authority, we have also seen 
an increase in clandestine methamphetamine labs on the reservation. 
Tribal officers play a key role in detecting and busting these labs, 
and it is clear that if the tribe is forced to close its department or 
scale back its law enforcement and justice resources, our rural 
community will indeed become a haven for meth and other drugs.
    The Skokomish Department of Public Safety places strong emphasis on 
Community Oriented Policing for Skokomish tribal members, residents and 
visitors of the Skokomish Indian Reservation. The department consists 
of both patrol and fish and wildlife enforcement divisions, which help 
the department obtain its goals of proactively suppressing criminal 
activity, preventing crime, and protecting the Skokomish Tribe's 
interests, lands, and properties. The two departments were consolidated 
in 2003 to allow for more effective patrol services within the 
reservation. In the last 10 years, the Department of Public Safety 
(DPS) has grown from 1 untrained officer to a force of 13 Washington 
State/BIA-certified officers. There are currently 11 full time officers 
(3 of which are assigned primarily to Fish and Wildlife Enforcement) 
and 2 provisional officers (1 of which is also assigned to Fish and 
Wildlife duties). The department also utilizes the services of 6 
reserve police officers. We also employ a full time civilian that acts 
as court clerk and administrative assistant. All Skokomish Public 
Safety officers are cross-trained to perform patrol duties and fish and 
wildlife enforcement.
    The Patrol Division operates 7 days a week, 24 hours a day. It 
supports the mission of the department by preserving the peace, 
conducting investigations of crimes, providing patrols on tribal lands 
and properties, answering calls for assistance, detecting criminal 
activities, identifying potential disturbances, enforcing traffic 
regulations on reservation lands, investigating and responding to 
accidents, arresting criminal offenders, and providing emergency 
services.
    The Fish and Wildlife Enforcement division works to protect tribal 
treaty fishing, hunting and shellfish rights. Skokomish fish and 
wildlife officers are fully commissioned tribal police officers. They 
enforce fish, wildlife and environmental laws, patrol fishing sites, 
inspect nets, check tribal identification, regulate hunting and fishing 
licenses, monitor fishing, hunting and shellfish locations, and 
investigate violations of Skokomish fish and wildlife, criminal, and 
traffic codes.
    The tribe supports the administration's proposed $16 million 
increase to the tribal COPS program. The COPS program provides a 
flexile source of funding for tribal law enforcement programs like the 
Skokomish Department of Public Safety and many tribes depend on these 
grants.
    However, this increase should not be balanced with cuts elsewhere 
in the budget for tribal programs. Increased funding for the COPS 
program is sorely needed in Indian country, but tribes should not be 
forced to sacrifice funding for tribal courts, juvenile delinquency 
prevention and other justice programs in order to secure adequate law 
enforcement funds. The entire range of law enforcement and justice 
programs (prevention, early intervention, law enforcement, prosecution, 
detention) in Indian country has always been drastically underfunded, 
and the need for this funding has only intensified with the rampant 
methamphetamine production and use on reservations. We ask the 
committee to recognize this need and reject the administration's 
proposed elimination or reduction for the following tribal programs:
  --Incarceration on tribal lands ($15 million);
  --Tribal courts initiative ($8 million);
  --Indian country grant program ($5 million); and
  --Tribal Youth Program, title V local juvenile delinquency prevention 
        ($10 million).
    We cannot overstate the importance of this funding to Indian 
country.
    If we can provide any additional information, please do not 
hesitate to contact our counsel, Mary J. Pavel or Addie C. Rolnick at 
Sonosky, Chambers, Sachse, Endreson & Perry, LLP, 1425 K Street NW, 
Ste. 600, Washington, D.C. 20005; 202-682-0240 (tel); 202-682-0249 
(fax); <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dab7aabbacbfb69aa9b5b4b5a9b1a3f4b9b5b7">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5332213c3f3d3a303813203c3d3c20382a7d303c3e7d">[email&#160;protected]</a>
                                 ______
                                 

      Prepared Statement of the Conservation Trust of Puerto Rico

    The Conservation Trust of Puerto Rico (CTPR) presents this 
testimony in support of an appropriation of $3 million from NOAA's 
Coastal and Estuarine Land Conservation Program for the San Miguel 
Project in the Commonwealth of Puerto Rico.
    CTPR was created in January 23, 1970 by the government of the 
Commonwealth of Puerto Rico and the U.S. Department of Interior as a 
private, nonprofit organization devoted to the protection and 
conservation of the natural resources of the Island of Puerto Rico. Its 
sole beneficiary is the people of Puerto Rico. The trust is 
administered by three trustees jointly designated by the Governor of 
Puerto Rico and the U.S. Secretary of Interior.
    As the foremost non-governmental conservation entity in the island, 
CTPR currently protects more than 17,000 acres of land on 20 nature 
areas across the island, provides interpretive programs to over 106,000 
visitors per year in its three sites open to the public, promotes 
citizen participation in conservation and reforestation activities 
through its education programs, and produces about 65,000 native trees 
a year in its four tree nurseries. The trust has a staff of 95 
employees who work in property management, visitor interpretive 
services, land acquisitions, donations, and conservation easements, 
public education, fundraising, and administration.
    One of the trust's principal mandates is to acquire--through 
purchase, donations, easements, or other mechanisms--land that is vital 
to Puerto Rico's natural and cultural heritage; and to maintain and 
care for the land already under its protection. In selecting properties 
for acquisition, the trust seeks land of extraordinary natural, 
aesthetic, and historic value.
    Since the mid-1980s, the Conservation Trust of Puerto Rico has been 
active in land acquisition, management, and conservation efforts of the 
lands adjacent and within the Northeastern Ecological Corridor (NEC).
    The NEC, comprising approximately 3,200 acres, is one of the 
Caribbean's last, great, unprotected areas. Located on the eastern 
corner of the main island of Puerto Rico within the municipalities of 
Luquillo and Fajardo, the NEC contains an extraordinary diversity of 
tropical habitats seldom found in other parts of the world. In addition 
to coral communities, mangroves, and pre-Columbian forests, all the 
different varieties of coastal wetlands found throughout Puerto Rico 
are represented within the NEC. The wetlands in this area are essential 
to the existence of a seasonal bioluminiscent lagoon known as Laguna 
Aguas Prietas, an extremely rare biological phenomenon.
    The NEC also acts as a natural bridge where all of Puerto Rico's 
six ecological life zones are connected: from a coastal dry forest in 
Las Cabezas de San Juan Nature Reserve to a lower montane rain forest 
in El Yunque Caribbean National Forest. In one end of the Corridor is 
Las Cabezas de San Juan Nature Reserve, a 539 acres coastal protected 
area owned and managed by the trust, considered one of Puerto Rico's 
most important natural areas. This reserve contains a prize-winning 
restoration of an 1882 neoclassic lighthouse (El Faro) built by the 
Spaniards that is open to the public since April 1991. Of the island's 
14 lighthouses, El Faro's is the second oldest and is recorded on the 
Federal Register of Historic Places. A nature center located in the 
lighthouse provides close-up educational views of the reserve's animals 
and plants, and a rooftop observation deck offers spectacular vistas of 
El Yunque, the NEC, St. Thomas and islands as distant as Tortola. Home 
to 96 bird species, the reserve is popularly known for its coastal 
lagoon (Laguna Grande), one of three major bioluminescent water bodies 
in Puerto Rico exhibiting this unique biological phenomenon all 
throughout the year. This nature reserve receives more than 50,000 
visitors annually.
    In the other end of the Corridor is El Yunque Caribbean National 
Forest. Designated as a United Nations Biosphere Reserve, El Yunque is 
composed of more than 25,000 acres of land. This forest was originally 
set aside in 1876 by the Spanish Crown and is one of the oldest 
protected areas in the Western Hemisphere. It is also the only tropical 
rain forest within the United States national forest system. The forest 
contains rare wildlife and is home to over 50 species of birds, 
including the Puerto Rican parrot--one of the ten most endangered 
species of birds in the world. Considered Puerto Rico's most popular 
nature attraction, El Yunque receives more than 800,000 visitors per 
year.
    This incredible ecological diversity, found at a distance of less 
than 13 miles in length, adds to the NEC's great natural value and 
uniqueness. Such an occurrence, in an amazing limited area, is 
extremely rare in any location around the world. This is why the 
Conservation Trust of Puerto Rico has actively engaged in the 
protection and conservation of the NEC and its surrounding areas. In 
1986, CTPR acquired the lands that currently compose Las Cabezas de San 
Juan Nature Reserve. In 1992, the trust, in collaboration with the 
Puerto Rico Department of Natural and Environmental Resources (DNER), 
proposed the designation of the NEC as an extension of Las Cabezas de 
San Juan Nature Reserve under the name of Segmento El Convento. Since 
then, the National Oceanic and Atmospheric Administration (NOAA) has 
requested that the Puerto Rico Coastal Zone Management program, 
administered by the DNER, develop a strategy and a schedule for the 
official designation and establishment of the NEC as a nature reserve.
    Available for acquisition in fiscal year 2007 is the 1,277-acre San 
Miguel property, consisting of three parcels within the NEC. These 
parcels contain extensive wetland areas contiguous to the Pitahaya, 
Juan Martin and Sabana rivers, and harbor an array of unique upland and 
wetland ecosystems. The project site includes some of the last 
remaining unspoiled dune systems and a significant coral community 
immediately off shore. Its bird fauna is remarkable and according to 
the DNER, it has one of the highest diversity of birds of any natural 
protected area in the north region of the island. The property falls 
within the range of over 40 rare species of flora and fauna, some even 
unique to Puerto Rico, including 16 federally threatened or endangered 
listed species, such as the Hawksbill sea turtle, Virgin Island boa, 
Puerto Rican boa, brown pelican, Puerto Rican plain pigeon, West Indian 
manatee, and Cobana negra (a flowering tree). The area is best known, 
however, as one of the most important nesting grounds for Leatherback 
sea turtles in the Unites States and the Caribbean. Over 420 
Leatherback sea turtle nests were recorded during the 2005 nesting 
season. Due to its ecological value, the NEC has been identified by the 
DNER, the USDA Forest Service's International Institute of Tropical 
Forestry and the U.S. Fish and Wildlife Service, as a critical wildlife 
area of primary importance in Puerto Rico. The NEC also contains a 
variety of archeological resources, such as historical tools and 
structures.
    At the present time, several multinational lodging corporations 
have proposed various mega luxury residential-tourist resorts within 
the NEC. Given the ongoing controversy over development of the 
property, the owners are considering to make the land available for 
conservation if funding is secured. Federal agencies, the Commonwealth 
of Puerto Rico, and private parties have come together in an effort to 
preserve this remarkable coastal property. Public ownership will 
preserve the coastal resources, protect the rivers and wetlands, buffer 
El Yunque Caribbean National Forest, and provide public beach access 
and recreational opportunities.
    Approximately $25 million will eventually be needed to complete the 
San Miguel acquisition. If this effort should fail, some form of 
development would likely occur on this highly environmentally sensitive 
property. The construction of the proposed resort would undermine past 
and current conservation efforts in an area that has been widely 
recognized by the Federal and Commonwealth agencies, and private 
conservation organizations, such as the Conservation Trust of Puerto 
Rico, for its unique expression of biological diversity.
    A fiscal year 2007 appropriation of $3 million from NOAA's Coastal 
and Estuarine Land Conservation program is needed to further the 
protection of the San Miguel tracts. These funds will be matched by 
$2.27 million in settlement funds from the Barge Berman oil spill 
(specifically for land acquisition), up to $5.7 million of other oil 
spill settlement funds (for restoration categories) and additional 
funds are being raised by other interested private parties. The 
Conservation Trust will collaborate and provide additional matching 
funds to secure this transaction. I urge you to include this project in 
the fiscal year 2007 Commerce, Justice, and Science Appropriations 
bill.
    With a limited land mass and a growing population, Puerto Rico must 
act quickly to counter the encroachment of urban areas into unique 
wildlife habitats, such as the ones found in the Northeastern 
Ecological Corridor. Maintaining the health and viability of native 
habitats and biodiversity is essential to our ecological, economic, 
cultural and social sustainability. Thank you, Mr. Chairman, for the 
opportunity to present this testimony and for your consideration to 
this important request in favor of one of Puerto Rico's most threatened 
coastal ecosystems.
                                 ______
                                 

     Prepared Statement of the National Center for Victims of Crime

    The National Center for Victims of Crime submits this testimony to 
urge members of the Subcommittee on Commerce, Justice, Science, and 
Related Agencies to once again reject the proposed rescission of the 
Victims of Crime Act (VOCA) fund as part of the Department of Justice 
appropriations legislation. In addition, we urge subcommittee members 
not to allow the creation of additional earmarks from the VOCA fund, 
and to set the cap on distributions from the fund at $685 million for 
fiscal year 2007.
    The National Center for Victims of Crime, the leading national 
resource and advocacy organization for victims of crime, knows the 
considerable and urgent funding needs of those who serve crime victims. 
Since our founding in 1985, we have worked with public and nonprofit 
agencies throughout the country, providing information, support, and 
technical assistance to thousands of victims, victim service providers, 
allied professionals, and advocates. Our toll-free information and 
referral helpline alerts us to the needs of crime victims nationwide. 
Through our training institute and our daily interactions with our 
members and the nearly 10,000 crime victim service providers in our 
referral network, we stay informed of their work and know the impact of 
federal-level funding decisions on their ability to meet the needs of 
victims. In short, we hear from victims and service providers every day 
about the impact and importance of the VOCA fund.
                      understanding the voca fund
    Congress created the VOCA fund over 20 years ago to ensure on-
going, dedicated federal support for State and local crime victim 
programs. The fund receives no taxpayer dollars: it is comprised solely 
of criminal fines and penalties imposed on federal offenders. Most of 
the funds are distributed each year by formula grants to the States to 
fund: (a) crime victim compensation programs, which pay many of crime 
victims' out-of-pocket expenses that directly result from the crime; 
and (b) crime victim assistance programs. VOCA assistance funding 
supports more than 4,400 State and local victim programs, including 
rape crisis centers, domestic violence shelters, victim assistants in 
law enforcement and prosecutor offices, and other direct services for 
victims of crime.
    VOCA funds support services such as:
  --The Prescott House Child Advocacy Center in Birmingham, Alabama;
  --an advocate for elder victims of domestic violence at the Women's 
        Community in Wausau, Wisconsin;
  --the Pro Bono Counseling Project, serving crime victims in 
        Baltimore, Maryland;
  --Our House, a program for homicide survivors in Greenville, 
        Mississippi;
  --the Upper Ohio Valley Sexual Assault Help Center in Wheeling, West 
        Virginia;
  --the State MADD office in Baton Rouge, Louisiana; and
  --the victim/witness unit of the Commonwealth's Attorney's Office in 
        Winchester, Virginia.
    VOCA assistance dollars fund services that help victims in the 
immediate aftermath of crime, including accompaniment to hospitals for 
examination; hotline counseling; emergency food, clothing, and 
transportation; replacing or repairing broken locks; filing restraining 
orders; support groups; and more. VOCA money also funds assistance as 
victims move through the criminal justice system, including 
notification of court proceedings, transportation to court, help 
completing a victim impact statement, notification about the release or 
escape of the offender, and help in seeking restitution.
    Along with funding programs that serve victims, VOCA dollars 
support crime victim compensation, which steps in when victims have no 
insurance, no workman's compensation, and no other assistance to meet 
out-of-pocket expenses related to the crime. The Crime Victim 
Compensation program pays medical bills, counseling costs, crime scene 
cleanup, burial costs, and similar expenses. The VOCA fund reimburses 
States for 60 percent of their compensation costs.
    VOCA assistance grant money is crucial to enable both criminal 
justice system-based and community programs to serve victims of crime. 
Programs report that they have already made significant cuts due to 
recent reductions in State and private funding. They have already taken 
such steps as closing satellite offices, reducing services for family 
members of victims, cutting staff positions, and eliminating staff 
training. The VOCA subgrants have been their remaining stable source of 
funding.
               why the voca fund currently has a balance
    In 1999, Congress acted to ensure the stability of VOCA funding. 
For many years, all money collected in a given year was disbursed in 
the following year. However, the nature of the funding stream--all 
criminal fines on federal offenders--caused the level of available 
funding to vary significantly. In some years, large fines against 
corporate offenders caused a surge in deposits. In 1999, Congress chose 
to reserve a portion of the deposits from such years to offset lower 
collections in leaner years. That year, Congress placed a cap on the 
amount of funding disbursed from the fund. The appropriations 
conference report noted that ``the conferees have taken this action 
(delaying annual fund obligations) to protect against wide fluctuations 
in receipts into the fund, and to ensure that a stable level of funding 
will remain available for these programs in future years'' (fiscal year 
2000; Conf. Rpt. 106-479).
                     reject the proposed rescission
    The administration's proposed budget for fiscal year 2007 would 
rescind the balance of the VOCA fund at the end of fiscal year 2007. 
This rescission, which would include any amounts remaining after the 
fiscal year 2007 appropriation and all moneys collected in fiscal year 
2007, would produce a zero balance in the VOCA fund at the start of 
fiscal year 2008. If enacted, this proposal would cause havoc in the 
victim assistance and compensation arenas, and risk permanently 
destabilizing the web of support for victims of crime that has been 
built during the past 20 years. Congress rejected such a proposal last 
year, and we urge you to do the same for fiscal year 2007.
              impact of rescission on victim compensation
    Crime victim compensation programs must know where they stand 
financially at the outset of the year to make payments predictably and 
on time. When preparing their budgets, State compensation programs 
assume they will receive reimbursements for 60 percent of their 
qualifying payouts to victims, as the Victims of Crime Act provides. 
However, if the VOCA fund has a zero balance at the beginning of fiscal 
year 2008, State compensation programs cannot be sure that they will 
receive that entire reimbursement. It could be an entire year before a 
compensation program knows, for example, whether it can pay a 
physician's bill for an assault victim's emergency surgery. During that 
year, the assault victim may have to endure repeated harassment from 
bill collectors while waiting for a decision on his compensation claim. 
A delay in payment and uncertainty in the amount of the VOCA grants to 
compensation programs is a bureaucratic headache to administrators, but 
an injustice to victims of crime awaiting payments.
                impact of rescission on victim services
    The rescission would undermine the ability of many victim 
assistance agencies to keep their doors open. VOCA assistance dollars 
provide ongoing support to existing programs that help victims through 
the criminal justice process and provide them needed counseling and 
support to recover from the offense. Even as they struggle to diversify 
and expand their funding sources, victim assistance agencies must still 
rely on their VOCA grants to remain open.
    A rape crisis center that loses its VOCA funding, even for several 
months, is likely to lose staff and discontinue services--which hurts 
both victims and the program's longterm viability. When a victim seeks 
the center's help to cope with a traumatic sexual assault, it's no good 
telling her to come back in 6 months when a counselor may be available. 
When the rape crisis center has to end its outreach and services for 
Spanish-speaking victims, it's no good trying to pick up the pieces a 
year later when some funding is restored. The damage has been done, and 
the center's work to build relationships and a reputation with that 
community has been set back years.
    Similarly, if a criminal justice agency loses the funding for its 
victim assistance staff, the loss disrupts the office's efforts to 
maximize the victim's effective participation in the criminal justice 
process. It also undermines the ability of the criminal justice system 
to comply with crime victims' rights laws.
    Moreover, the State granting agencies that direct VOCA funds to 
providers must know at the outset of each year the total amount of VOCA 
victim assistance dollars they will have to disburse before they begin 
making grants. Such information is integral to their ability to 
responsibly and effectively manage such a formula grant.
 fiscal year 2007 voca funding should be set at $685 million, with no 
                          additional earmarks
    Finally, even though our first priority is the rejection of the 
proposed VOCA fund rescission, we also urge you to set the cap on the 
VOCA fund at $685 million for fiscal year 2007 and block additional 
earmarks from the VOCA fund, even for projects that serve crime 
victims. Increasing the cap to $685 million would allow victim services 
to meet growing needs. In Virginia, advocates anticipate a 10 percent 
reduction in victim/witness staff due to the rising costs of benefits. 
They also anticipate a 10 percent decrease in funding for sexual 
assault services. In Wisconsin, advocates report a growing number of 
victims of financial abuse and identity theft, as well as increases in 
violent offenses. Advocates elsewhere speak of the need to expand 
services to elderly victims, to immigrant victims, and to teen victims 
of crime. Additional funding could support services for those victims.
    At the same time, Congress must be vigilant against the creation of 
earmarks out of the VOCA fund. Congress designed the VOCA fund to 
support formula grants that allow each State to fund victim services on 
the basis of the needs and strategic plans of that State. Additional 
earmarks on money from the general VOCA fund would thwart Congress' 
intentions in designing the fund.
    Congress' creation of the VOCA fund in 1984 fundamentally changed 
the way our Nation responds to victims of crime. In establishing the 
fund, Congress acted to provide ongoing support for services and 
compensation programs that help victims rebuild their lives. Congress 
reaffirmed its commitment to victims last year, when it rejected the 
administration's proposal to rescind the VOCA fund. We urge you to 
reject that proposal again this year, preserving the VOCA fund for the 
purposes for which it was created, to appropriate $685 million from the 
fund for fiscal year 2007, and to resist any pressure to further 
earmark the fund.
                                 ______
                                 

           Prepared Statement of the Sierra Club, Puerto Rico

    On behalf on Sierra Club of Puerto Rico and the national Sierra 
Club, I thank the committee for its time and consideration. The 
following testimony is in support of an appropriation of $3 million 
from NOAA's Coastal and Estuarine Land Conservation program for the San 
Miguel project in Puerto Rico.
    The Sierra Club was founded in 1892 to explore, enjoy and protect 
the environment. Our 800,000 members continue more than 100 years later 
in this effort. The Puerto Rico chapter is the newest of the Club's 64, 
and was formalized a little over a year ago after 4 years of work, 
largely on the goal of protecting the Northeast Ecological Corridor. I 
refer you to the attached formal resolution passed by the Sierra Club's 
national board of directors upon the official formation of the chapter 
here in Puerto Rico in February of 2005.
    I will also refer you to the testimony of our fellow environmental 
organizations for a more detailed review of the environmental values of 
the Northeast Ecological Corridor which are numerous: it's 40 rare, at 
risk, endangered and endemic species; the endangered Leatherback turtle 
which nests in the Corridor, one of the three most important nesting 
sites for the turtles in all of U.S. jurisdiction; the Pterocarpus, 
mangrove and pre-Columbian forests, and much more.
    I instead will focus on environmental trends in Puerto Rico and the 
vision our coalition is proposing for the Northeast Ecological Corridor 
and the northeast region of Puerto Rico.
    With 3.9 million people in only 3,500 square miles, Puerto Rico has 
a higher population density than Japan. The island is also among the 
most road-covered places in the world and boasts 2.4 million cars on 
streets and highways which often leave residents trapped in endless 
traffic jams. After decades of rapid development, Puerto Rico is 14 
percent urban, compared with 2.6 percent of the mainland landmass. 
While developed areas are growing three to four times faster than the 
population, urban density is decreasing, leaving huge numbers of 
abandoned buildings. The result is sprawl development which is 
threatening to destroy the very essence of Puerto Rico, commonly known 
as ``la Isla del Encanto'' or the Island of Enchantment''. Three-
fourths of the islands' construction projects are granted zoning 
exemptions.
    Concerned about both the degradation of the quality of life of 
local residents and the diminishing of the island's unique tourism 
potential, an array of organizations formed what is now known as the 
Coalition for the Northeast Ecological Corridor. It is comprised of 20 
local, island-wide, national and international organizations as well as 
over 1000 individuals dedicated to the permanent protection of the 
Corridor.
    We hope to see the Corridor protected as a Nature Reserve but with 
a plethora of eco-tourist amenities including: kayaking, mountain 
biking, camping, access for fishermen, etc. But at the heart of this 
proposal is in the economic development of the two towns adjacent to 
the Corridor, Luquillo and Fajardo. Our hope is that tourists visiting 
the Corridor will have to enter the Reserve through the two towns and 
that the services tourists use will be based in these towns. We hope to 
see development of equipment rental stores, small hotels, restaurants, 
etc.
    The Corridor serves as a natural link between other regional eco-
tourism destinations. El Yunque National Forest, for example, is only a 
15 minute drive from the Northeast Ecological Corridor, is the second 
most visited place in Puerto Rico. But the thousands of the tourists 
that visit the forest have little reason to stay in the region. For 
this reason the coalition is proposing the designation of an Eco-
Tourism region which would be called La Porta de la Naturaleza, 
modeling after the island's western tourism destination, La Porta del 
Sol.
    We are proposing a sort of package. Tourists would leave San Juan 
traveling east. They would spend a day biking and tasting typical Afro-
Puerto Rican food at widely known kiosks in Pinones, Puerto Rico's 
largest mangrove forest. They would spend several days exploring El 
Yunque's trails, waterfalls and hidden swimming holes, staying in one 
of many country inns in the area, before heading to the Northeast 
Ecological Corridor. After several days there the typical tourist would 
take off for one of Puerto Rico's smaller islands, Vieques or Culebra.
    We imagine this eco-tourism region taking life for non-Puerto 
Ricans during the winter months and internal tourists during the summer 
months, preserving some of the encanto for the enjoyment of residents 
and non-residents alike. The northeastern region already has 6,000 
luxury hotel units built, in construction, or in planning in addition 
to 14 golf courses. The Northeast Ecological Corridor is too special to 
sacrifice for more of the same.
    It is with this hope to protect the Northeast Ecological Corridor, 
one of Puerto Rico's only remaining undeveloped coastal areas of 
considerable size that we respectfully request your support of the 
proposed appropriation.
    I thank you, Mr. Chairman, on behalf of the Sierra Club's 800,000 
members, for the opportunity to present this testimony and for your 
consideration of this important request.
                               resolution
designation of puerto rico's northeast ecological corridor as a nature 
                                reserve
    Whereas, the Sierra Club is America's oldest, largest and most 
influential grassroots environmental organization, with over 700,000 
members.
    Whereas, the Sierra Club, through all lawful means, seeks to 
explore, enjoy and protect the wild places of Earth; practice and 
promote the responsible use of Earth's ecosystems and resources; and 
educate and enlist humanity to protect and restore the quality of the 
natural and human environment.
    Whereas, the Northeastern Ecological Corridor (``NEC''), comprising 
approximately 3,200 acres on the eastern corner of the main island of 
Puerto Rico, is one of the Caribbean's last great-unprotected areas, 
containing an extraordinary array of tropical habitats seldom found in 
other parts of the world.
    Whereas, all of the coastal wetlands found in Puerto Rico, such as 
coral communities, mangroves, pre-Columbian forest, and a 
bioluminescent lagoon, are represented within the NEC.
    Whereas, the diversity of habitats within the NEC have made this 
area home of the federally endangered Puerto Rican (``PR'') Plain 
Pigeon, the Snowy Plover, the Brown Pelican, the Puerto Rican Boa, the 
Hawksbill Sea Turtle and the West Indian Manatee, among other 40 
critical species (rare, endemic, threatened and endangered), some even 
designated as critically endangered by the World Conservation Union 
(IUCN).
    Whereas, the NEC is considered one of the most important nesting 
grounds for Leatherback sea turtles (Dermochelys coriacea) in areas 
under U.S. jurisdiction.
    Whereas, the NEC's conservation and location within the foothills 
of the Caribbean National Forest (El Yunque Rain Forest), a United 
Nations Biosphere Reserve and only tropical rain forest managed by the 
U.S. Forest Service, helps guarantee this area great natural value and 
uniqueness.
    Whereas, the NEC is currently threatened by the construction of 
over 1,900 residential and tourist units, two 18-holes golf courses and 
a 9-holes golf course, as well as related facilities from the 
development of the San Miguel Resort and the Dos Mares Resort, to be 
managed by Four Seasons Resorts & Hotels and Marriott International, 
respectively.
    Whereas, the construction of the San Miguel-Four Seasons Resort and 
the Dos Mares-J.W. Marriott Resort would include the filling of 
wetlands, canalization of rivers and the clearance of coastal 
vegetation, significantly impacting the species and other living 
resources that inhabit on the NEC.
    Whereas, the San Miguel-Four Seasons Resort and the Dos Mares-J.W. 
Marriott Resort would further deplete the limited water supplies needed 
by local communities, affecting the quality of life of thousands of 
U.S. citizens in the eastern region of Puerto Rico; in addition to 
severely limiting citizen's access to public beaches and lands within 
the NEC.
    Whereas, the development of the San Miguel-Four Seasons Resort and 
the Dos Mares-J.W. Marriott Resort would be contrary to the goals and 
objectives of the U.S. Clean Water Act, the U.S. Endangered Species 
Act, the U.S. Coastal Zone Management Act and the U.S. Coastal Barriers 
and Improvement Act, including several Commonwealth's statutes.
    Whereas, the destruction of the NEC's ecology and natural 
integrity, and the elimination of its common enjoyment for the sole 
benefit of private interests would be contrary to any principles of 
environmental justice and sustainable development.
    Now, therefore, be it resolved that the Sierra Club's Board of 
Directors endorses the Sierra Club's new Puerto Rico Chapter in its 
efforts to achieve the designation of the NEC as a nature reserve, an 
action proposed since 1978 and supported by the U.S. Fish & Wildlife 
Service, the University of Puerto Rico--Rio Piedras Campus' Department 
of Biology, the Catholic Church's Dioceses of Caguas, the Governor of 
Puerto Rico, Sila M. Calderon's Environmental Council, local community 
and environmental groups and national conservation organizations.
    Be it further resolved that the Sierra Club's Board of Directors 
requests that Four Seasons Resorts & Hotels and Marriott International 
withdraw any further interest in developing the San Miguel Resort and 
Dos Mares Resort on the NEC, respectively.
    Be it further resolved that the Sierra Club Board of Directors 
Chapter requests that the Commonwealth of Puerto Rico designate the NEC 
as a nature reserve, as proposed by the Puerto Rican Department of 
Natural & Environmental Resources in 1992.
    Unanimously passed on Saturday, February 19th, 2005.
                                 ______
                                 

    Prepared Statement of the National Council for Science and the 
                              Environment

                                summary
    The National Council for Science and the Environment (NCSE) urges 
Congress to appropriate at least $6.02 billion for the National Science 
Foundation (NSF) in fiscal year 2007, an increase of $439 million or 
7.9 percent relative to fiscal year 2006. NCSE supports this increase 
in order to put NSF on the doubling track that is proposed in the 
President's American Competitiveness Initiative as well as a series of 
recent bills and reports. NCSE encourages Congress to support a faster 
rate of growth in order to implement previous recommendations of the 
National Science Board regarding the importance of expanding NSF's 
environmental research and education portfolio.
    The United States leads the world in scientific discovery and 
innovation, but we should not take this leadership for granted. The 
long-term prosperity of the Nation, our quality of life, as well as our 
national and homeland security require a strong and steady commitment 
of federal resources to science and technology. Environmental R&D is a 
critical component of the overall federal investment in research and 
development. Federal investments in environmental R&D must keep pace 
with the growing need to improve the scientific basis for environmental 
decisionmaking.
    As a result of the recent reorganization of the Senate 
Appropriations Committee, the Subcommittee on Commerce, Justice, 
Science and Related Agencies now has broader jurisdiction over 
environmental research and education. NCSE commends the subcommittee 
for its past bipartisan leadership in support of science to improve 
environmental decisionmaking. The subcommittee has an historic 
opportunity to address pressing national challenges by appropriating 
strong and growing funding for environmental research and education at 
NSF, NOAA, and other science agencies under the subcommittee's expanded 
jurisdiction.
    The National Council for Science and the Environment is dedicated 
to improving the scientific basis for environmental decisionmaking. We 
are supported by over 500 organizations, including universities, 
scientific societies, government associations, businesses and chambers 
of commerce, and environmental and other civic organizations. NCSE 
promotes science and its essential role in decisionmaking but does not 
take positions on environmental issues themselves.
                           nsf budget request
    The President's budget request would increase funding for the 
National Science Foundation by $439 million or 7.9 percent to $6.02 
billion in fiscal year 2007. Even if Congress approves the President's 
request to increase the NSF budget by 7.9 percent in fiscal year 2007, 
the NSF budget would still be slightly below the fiscal year 2004 
funding level in real dollars (after accounting for inflation). 
However, NSF funding for R&D (excluding education, training, and 
overhead costs) would reach a record level in real dollars after 
falling in fiscal year 2005 and 2006.
    The 7.7 percent increase proposed for NSF's Research and Related 
Activities account would benefit all scientific disciplines. NCSE urges 
Congress to encourage NSF to provide substantial increases in funding 
for all fields of science supported by the agency.
    NSF's priority area in Biocomplexity in the Environment is being 
phased out, and fiscal year 2007 is the final year of this highly 
successful initiative. NSF will continue to support interdisciplinary 
studies of this type within the structure of its regular programs. 
After fiscal year 2007, this research portfolio will be referred to as 
Complexity in Environmental Systems. In fiscal year 2007, funding for 
Biocomplexity in the Environment will decline to $42.6 million, a cut 
of $40.8 million or 48.9 percent compared to fiscal year 2006. Three 
primary areas that will be supported in fiscal year 2007 are Carbon and 
Water in Earth Systems; Dynamics of Coupled Natural and Human Systems; 
and Materials Use: Science, Engineering and Society. It is anticipated 
that these three areas will continue as independent programs in the 
future after the Biocomplexity in the Environment priority area ends in 
fiscal year 2007, and NCSE encourages Congress to support this plan.
    NSF's Major Research Equipment and Facilities Construction (MFEFC) 
account contains several projects that will advance the environmental 
sciences. The fiscal year 2007 budget request contains $12.0 million in 
the MREFC account for initial implementation of the National Ecological 
Observatory Network (NEON) and an additional $11.9 million in other 
accounts for NEON concept and development activities. The budget 
request for NSF's Major Research Equipment and Facilities Construction 
account also contains $27.4 million for EarthScope, $42.9 million for 
the Scientific Ocean Drilling Vessel, and $9.1 million for the South 
Pole Station Modernization project. Two new starts in the MREFC account 
are the Alaska Region Research Vessel ($56.0 million) and the Ocean 
Observatories Initiative ($13.5 million), both of which help fulfill 
the administration's 2004 U.S. Ocean Action Plan, developed in response 
to the U.S. Commission on Ocean Policy. These projects have the 
potential to generate scientific breakthroughs and transform the 
environmental sciences. NCSE urges Congress to provide full funding for 
all of these initiatives.
    Optimism about current proposals to double the NSF budget in 10 
years is tempered by the failure of a recent attempt to double the NSF 
budget in 5 years. The National Science Authorization Act of 2002, 
which was passed by Congress and signed into law by President Bush, 
called for a doubling of the NSF budget from fiscal year 2002 to fiscal 
year 2007. The annual appropriations bills have fallen far short of the 
doubling path specified in the NSF Authorization Act. The fiscal year 
2007 budget request for NSF is nearly $4 billion below the level 
authorized in the last doubling initiative. However, the current 
doubling initiative has been given a high priority in the President's 
budget request. NCSE urges Congress to appropriate the funds necessary 
to achieve this goal.
     expanding nsf's environmental research and education portfolio
    The National Science Foundation plays a crucial role in supporting 
environmental R&D. Environmental research often requires knowledge and 
discoveries that reach across disciplinary and institutional 
boundaries. NSF recognizes this and encourages multidisciplinary 
environmental activities across the entire agency, as well as with 
other federal agencies. NSF has established a ``virtual directorate'' 
for Environmental Research and Education (ERE). Through this virtual 
directorate, NSF coordinates the environmental research and education 
activities supported by all the directorates and programs.
    Although the National Science Board said environmental research and 
education should be one of NSF's ``highest priorities'' (see below), 
the growth of the ERE budget has lagged behind the growth of the 
overall NSF budget in recent years. Given that the National Science 
Board has identified environmental research and education as one of the 
agency's highest priorities, funding for the ERE portfolio should grow 
at least as rapidly as the total NSF budget. In order to achieve the 
$1.6 billion funding level recommended by the National Science Board, 
NCSE supports rapid growth in NSF's Environmental Research and 
Education portfolio over the next several years.
 national science board report on environmental science and engineering
    The National Council for Science and the Environment encourages 
Congress to support full and effective implementation of the 2000 
National Science Board (NSB) report, Environmental Science and 
Engineering for the 21st Century: The Role of the National Science 
Foundation, within the context of doubling the NSF budget.
    The National Science Board report sets out an ambitious set of 
recommendations that could dramatically improve the scientific basis 
for environmental decisionmaking. The first keystone recommendation is 
as follows:
  --Environmental research, education, and scientific assessment should 
        be one of NSF's highest priorities. The current environmental 
        portfolio represents an expenditure of approximately $600 
        million per year. In view of the overwhelming importance of, 
        and exciting opportunities for, progress in the environmental 
        arena, and because existing resources are fully and 
        appropriately utilized, new funding will be required. We 
        recommend that support for environmental research, education, 
        and scientific assessment at NSF be increased by an additional 
        $1 billion, phased in over the next 5 years, to reach an annual 
        expenditure of approximately $1.6 billion.
    The report says that the National Science Board expects NSF to 
develop budget requests that are consistent with this recommendation. 
At first, growth in the Environmental Research and Education budget 
reflected its priority status: from fiscal year 1999 to 2001, the ERE 
account grew more rapidly than the overall NSF budget. However, the ERE 
growth rate has trailed the total NSF growth rate since that time. From 
fiscal year 2002 to fiscal year 2005, the ERE budget grew by 
approximately 13 percent while the total NSF budget grew by 20 percent. 
The lagging growth of the Environmental Research and Education budget 
relative to the total NSF budget in recent years raises serious 
concerns about its status as one of NSF's ``highest priorities.''
    The National Science Board envisioned a 167 percent increase in 
funding for the ERE portfolio, from approximately $600 million to $1.6 
billion, within the context of a doubling of the total NSF budget over 
5 years. The doubling did not materialized over the past 5 years, but 
we urge Congress to support implementation of the NSB recommendation as 
the NSF begins a new doubling initiative. If the Environmental Research 
and Education portfolio is one of NSF's highest priorities, then the 
growth rate of the ERE budget should not lag behind the growth rate of 
the total NSF budget.
    The National Science Foundation has taken many steps to implement 
the recommendations of the NSB. Full implementation of the NSB report 
will require strong support from Congress and a significant increase in 
funding for NSF's portfolio of environmental science, engineering and 
education.
                                 ______
                                 

     Prepared Statement of the National Center for Victims of Crime

    The National Center for Victims of Crime submits this testimony to 
urge members of the subcommittee to fully fund the Sexual Assault 
Services Program (SASP) as part of the Department of Justice 
appropriations legislation. The SASP, created by the Violence Against 
Women Act of 2005 (VAWA 2005) and authorized at $50 million, will 
provide crucial funding for our Nation's rape crisis centers and other 
organizations serving victims of sexual assault, which are currently 
seriously underfunded and understaffed. This shortage of funds has left 
many victims of sexual violence--women and men, girls and boys--with no 
place to turn for help. Funding the SASP will ensure that all victims 
will receive the counseling and support they need to recover from the 
trauma of sexual violence.
    The incidence of sexual assault in America remains unconscionably 
high. Every two-and-a-half minutes a person is sexually assaulted in 
our country.\1\ Sexual violence is a crime that affects people of all 
backgrounds and ages--children and adults, males and females. 
Approximately 1 in 6 women and 1 in 33 men in America have experienced 
an attempted or completed rape as a child or adult.\2\ Nearly 5 percent 
of college women are sexually assaulted during any given calendar 
year.\3\
---------------------------------------------------------------------------
    \1\ Bureau of Justice Statistics. (2005). Criminal Victimization in 
the United States, 2004: Statistical Tables. Table 1. Washington, DC: 
Bureau of Justice Statistics, U.S. Department of Justice.
    \2\ National Violence Against Women Survey, ``Prevalence, 
Incidence, and Consequences of Violence Against Women,'' November 1998.
    \3\ Fisher et al. (2000). The Sexual Victimization of College 
Women. Washington, DC: National Institute of Justice/Bureau of Justice 
Statistics, U.S. Department of Justice.
---------------------------------------------------------------------------
    Sexual assault exacts a heavy cost on individuals, families, and 
communities. Victims of sexual violence experience higher rates of 
depression, anxiety disorders, mental illness, addiction, eating 
disorders, and self-esteem problems than non-victims. Sexual assault 
victims are also at increased risk for committing suicide or abusing 
substances. The emotional well-being of the victims' friends and family 
are also negatively impacted.\4\
---------------------------------------------------------------------------
    \4\ Seymour, Anne, Kilpatrick, Dean, & Edmunds, Christine. (1992). 
Rape In America: A Report to the Nation. Arlington, VA: National Center 
for Victims of Crime.
---------------------------------------------------------------------------
    Workplaces and communities are also affected when victims suffer. 
Sexual assault victims face loss of economic productivity through 
unemployment, underemployment, and absence from work. According to the 
Centers for Disease Control, 21 percent of victims who have been raped 
by an intimate partner report losing time from work as a result of 
their victimization.\5\
---------------------------------------------------------------------------
    \5\ National Center for Injury Prevention and Control (2003). Costs 
of Intimate Partner Violence Against Women in the United States. 
Atlanta, Georgia. Centers for Disease Control and Prevention.
---------------------------------------------------------------------------
    The National Center, the leading national resource and advocacy 
organization for victims of crime, understands well the state of 
services for victims of sexual violence. Our helpline staff speaks to 
sexual assault victims every day, and works to connect them to local 
services. We also hear from rape crisis centers and State sexual 
assault coalitions across the country who have told us that they are 
desperately struggling to meet the needs of victims. Many of our 
members are also system-based service providers, such as victim-witness 
coordinators in prosecutors' offices and police departments. These 
agencies rely on rape crisis center staff to support victims through 
the medical and criminal justice system. They, too, can testify to the 
impact the shortage of funds has on the ability of rape crisis centers 
to provide services for every victim that needs them.
                   the services available for victims
    Approximately 1,315 rape crisis centers across the country help 
victims of rape, sexual assault, sexual abuse, and incest rebuild their 
lives by providing a range of vital services to victims. These centers:
  --operate 24-hour hotlines;
  --provide 24-hour accompaniment to law enforcement departments, 
        hospitals, and legal proceedings;
  --offer short- and long-term individual therapy and support groups 
        for victims and their families;
  --perform legal advocacy; and
  --assist victims with obtaining compensation and restitution.
    Rape crisis centers serve all victims of sexual violence, including 
women who have been raped, child sexual assault and incest survivors, 
adult survivors of childhood sexual abuse, male victims, persons with 
disabilities, and victims who experience abuse in later life. They also 
provide necessary aid to family members and others affected by sexual 
violence.
    Rape crisis centers often play a vital role in a victim's recovery 
after the crime. Studies have found that services such as those 
provided by rape crisis centers can shorten the amount of time a person 
exhibits symptoms of rape-related posttraumatic stress disorder.\6\ 
Victims who have the support of an advocate in the emergency room post-
assault are more likely to file a police report and less likely to be 
treated negatively by law enforcement. Victims also reported less 
distress after contact with the legal system when they had worked with 
a victim advocate.\7\
---------------------------------------------------------------------------
    \6\ Zorza, J. Ed. (1997). Study finds rape crisis programs do work. 
Sexual Assault Report, 1 (2), 17, 30-31.
    \7\ Campbell, R.C. (2006). Rape Survivor's Experience with the 
Legal and Medical Systems. Violence Against Women. Vol. 12, No. 1, 31-
45.
---------------------------------------------------------------------------
              significant gaps in sexual assault services
    While sexual assault programs have made tremendous progress toward 
assuring that victims of sexual assault receive the services they need, 
a 2004 survey of the field conducted by the National Center and our 
colleagues revealed significant gaps in the national response to 
victims of sexual assault. Our survey found overwhelmingly that sexual 
assault programs are desperately short of funds to meet the needs of 
rape victims. Rape crisis centers are suffering in many States where 
governments facing tight budgets have been forced to cut support to 
local rape crisis centers. A lack of federal support compounds the 
problem.
    Victim service professionals we interviewed told us about waiting 
lists for counseling in Illinois, Massachusetts, Pennsylvania, 
Wisconsin, and other States. At one Utah rape crisis center, victims 
can be on a waiting list for long-term counseling for 10-12 weeks. One 
program in Louisiana told us that the waiting period for counseling for 
a ``level one'' victim--a recent rape victim who is suicidal--is 5 
working days.
    In some places, victims are being placed in group counseling to 
provide them with some form of support while they are waiting for 
individual counseling. Rape crisis centers report that they have cut 
the frequency of counseling sessions with victims and hours of hotline 
operations, two of the most crucial services rape crisis centers 
provide.
    Rape crisis centers are struggling to meet the needs of child 
victims and their families. An Ohio rape crisis center reported that 
they provide an advocate to work with families of child victims of 
sexual violence at the local Child Advocacy Center (CAC). Currently, 
the rape crisis center can only afford to share her with the CAC 20 
hours a week. This means that 10 to 15 families a week will not get any 
time with the victim advocate. While some needs may be met by the 
medical and investigative staff, these families are not able to get 
counseling or advocacy from a person dedicated to their emotional and 
mental well-being. The rape crisis center director states that the CAC 
is ``begging us for more time but the money is just not there.''
    Sexual assault service providers in rural areas across the country 
are also struggling to serve multiple counties with very little staff. 
Many States report that rural areas often have no services at all. For 
example, West Virginia has 9 rape crisis centers that have to cover all 
55 counties in the State. Texas has 254 counties: 50 of those counties 
have no rape crisis services at all. Victims must travel long distances 
to meet with a counselor or get other assistance. In many places, 
victims simply cannot make the trip, so they suffer alone. Programs in 
rural areas need increased funding to help bring victims to programs, 
send advocates to victims, develop satellite offices in rural areas, or 
make other innovations to improve access to services.
    Rape crisis centers also reported that while their communities 
include many underserved populations--including racial and ethnic 
minorities and victims with disabilities--they have no funds to extend 
their outreach or develop specialized services. In many places, service 
providers stated that although there are large ethnic and racial 
populations within their communities, few victims from those 
populations are accessing services. More funding is required to help 
programs meet such needs for targeted services.
funding the sexual assault service program in fiscal year 2007 must be 
                        a congressional priority
    The SASP was enacted as part of VAWA 2005, the reauthorization of 
the Violence Against Women Act, signed into law on January 6, 2005. 
SASP created a much-needed funding stream for direct services for 
sexual assault victims. The act will provide funding for States, 
territories, and tribes to support their efforts to provide services to 
adult and minor sexual assault victims and their family and household 
members. The funds can be used for general intervention, counseling, 
and advocacy, including accompaniment though medical, criminal justice, 
and social support systems; support services; and related assistance.
    State, territorial, and tribal sexual assault coalitions are also 
eligible for SASP funding under a specific set-aside. State coalitions 
provide critical support for rape crisis centers, allowing rape crisis 
centers to focus on providing direct services to victims. Coalitions 
develop statewide policies and procedures for all their member rape 
crisis centers. Coalition staff develop and disseminate public 
awareness and prevention materials for statewide distribution. SASP 
funds can also be used by coalitions to provide training to various 
organizations, including governments, law enforcement, courts, 
nonprofit organizations, faith-based organizations, and professionals 
working in legal services, social services, and health care.
    SASP would also address the gap in services to racial and ethnic 
minorities. Through a funding set-aside, SASP would ensure that 
culturally-specific community-based organizations are able to craft 
services for victims that are relevant to their cultural needs. 
Partnerships with existing organizations will allow for the most 
effective use of funds.
    When Congress authorized SASP, it made a commitment to ensure that 
supportive counseling and services would be available for victims of 
sexual assault across the country. By enacting SASP, Congress 
acknowledged that sexual assault crisis centers and other organizations 
cannot meet the needs of sexual assault victims without additional 
resources. The National Center strongly urges the subcommittee to fully 
fund the SASP so our Nation's rape crisis centers can help all victims 
rebuild their lives after sexual assault.
                                 ______
                                 

      Prepared Statement of the Sustainable Development Initiative

    On behalf on Sustainable Development Initiative (IDS, by its 
Spanish acronym) I appreciate the opportunity to present this testimony 
in support of an appropriation of $3 million from NOAA's Coastal and 
Estuarine Land Conservation program for the San Miguel Project in the 
Commonwealth of Puerto Rico.
    IDS is a non-profit organization dedicated to promoting the 
sustainable development of Puerto Rico's natural resources, especially 
those within public lands. Our organization is composed of 
professionals who work as engineers, economists, biologists, lawyers 
and planners for government agencies and private institutions. IDS 
members provide assistance to community groups through volunteer 
consulting services.
    Over the past 7 years, IDS has focused its work on the conservation 
and sustainable development of the Northeastern Ecological Corridor 
(NEC).
    The NEC, comprising approximately 3,200 acres, is one of the 
Caribbean's last, great, unprotected areas. Located on the eastern 
corner of the main island of Puerto Rico within the municipalities of 
Luquillo and Fajardo, the NEC contains an extraordinary array of 
tropical habitats seldom found in other parts of the world. In addition 
to coral communities, mangroves, and pre-Columbian forests, all the 
different varieties of coastal wetlands found throughout Puerto Rico 
are represented within the NEC. The wetlands in this area are essential 
to the existence of a seasonal bioluminiscent lagoon known as Laguna 
Aguas Prietas, an extremely rare biological phenomenon.
    The NEC's location within the foothills of the El Yunque Caribbean 
National Forest adds to its great natural value and uniqueness. 
Originally set aside in 1876 by the Spanish Crown, this United Nations 
Biosphere Reserve is one of the oldest forest protected areas in the 
Western Hemisphere, and is the only tropical rain forest in the United 
States national forest system. The forest contains rare wildlife and is 
home to over 50 species of birds, including the Puerto Rican parrot--
one of the 10 most endangered species of birds in the world. The 
ecological diversity observed within the NEC and the Caribbean National 
Rain Forest, varying from a coastal dry forest to a rain forest, lies 
within a corridor just 13 miles in length. Such an occurrence, in an 
amazing limited area, is extremely rare in any location around the 
world and can only be enhanced or protected by the conservation of the 
NEC.
    Available for acquisition in fiscal year 2007 is the 1,277-acre San 
Miguel property, consisting of three parcels within the NEC. These 
parcels contain extensive wetland areas contiguous to the Pitahaya, 
Juan Martin and Sabana rivers, and harbor an array of unique upland and 
wetland ecosystems. The project site includes some of the last 
remaining unspoiled dune systems and a significant coral community 
immediately off shore. Its bird fauna is remarkable and according to 
the Puerto Rico Department of Natural and Environmental Resources 
(DNER), it has the one of the highest diversity of birds of any natural 
protected area in the north region of the island. The property falls 
within the range of over 40 rare species of flora and fauna, some even 
unique to Puerto Rico, including 16 federally threatened or endangered 
listed species, such as the Hawksbill sea turtle, Virgin Island boa, 
Puerto Rican boa, brown pelican, Puerto Rican plain pigeon, West Indian 
manatee, and Cobana Negra (a flowering tree). The area is best known, 
however, as one of the most important nesting grounds for Leatherback 
sea turtles in the Unites States and the Caribbean. Over 420 
Leatherback sea turtle nests were recorded during the 2005 nesting 
season. Due to its ecological value, the NEC has been identified by the 
DNER, the USDA Forest Service's International Institute of Tropical 
Forestry and the U.S. Fish and Wildlife Service, as a critical wildlife 
area of primary importance in Puerto Rico. The NEC also contains a 
variety of archeological resources, such as historical tools and 
structures.
    At the present time, several multinational lodging corporations 
have proposed various mega luxury residential-tourist resorts within 
the NEC. One of the largest proposed developments would be built on the 
San Miguel tracts at the boundary of the municipalities of Luquillo and 
Fajardo. The San Miguel Resort would include 1,025 residential units, a 
250-room hotel/casino, 175 timeshare units, and two golf courses. The 
development would involve the filling of wetlands, channelization of 
rivers, and clearance of coastal vegetation, thus destroying the 
natural integrity of the NEC. If the San Miguel resort were to be 
constructed as planned, it would further deplete the limited water 
supplies needed by local communities, resulting in a deficit of over 
4,000,000 gallons of water per day, a deficit which accounts for the 
water requirements of nearly 25,000 people. There is widespread concern 
as well about other negative impacts the development would have on this 
sensitive area, including limited public access to beaches and other 
coastal resources, and unnecessary exposure of life and property on 
lands affected by floods and other natural hazards present at the NEC.
    Given the ongoing controversy over development of the property, 
including years of lawsuits, strong public opposition, and permitting 
difficulties, the owners have decided to make the land available for 
conservation. Federal agencies, the Commonwealth of Puerto Rico, and 
private parties have come together in an effort to preserve this 
remarkable coastal property. Public ownership will preserve the coastal 
resources, protect the rivers and wetlands, buffer El Yunque Caribbean 
National Forest, and provide public beach access and recreational 
opportunities.
    Approximately $25 million will eventually be needed to complete the 
San Miguel acquisition. If this effort should fail, some form of 
development would likely occur on this highly sensitive property. The 
construction of the proposed resort would undermine past and current 
conservation efforts in an area that has been widely recognized by the 
Federal and Commonwealth agencies, and private conservation 
organizations for its unique expression of biological diversity.
    A fiscal year 2007 appropriation of $3 million from NOAA's Coastal 
and Estuarine Land Conservation Program is needed to further the 
protection of the San Miguel tracts. These funds will be matched by 
$2.27 million in settlement funds from the Barge Berman Oil Spill 
(specifically for land acquisition), up to $5.7 million of other oil 
spill settlement funds (for restoration categories), $3 million 
committed by the Conservation Trust of Puerto Rico, and additional 
funds being raised by a local land trust and other interested private 
parties. I urge you to include this project in the fiscal year 2007 
Commerce, Justice, and Science appropriations bill.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony and for your consideration of this important request.
                                 ______
                                 

    Prepared Statement of the National Fish and Wildlife Foundation

    Mr. Chairman and members of the subcommittee: I appreciate the 
opportunity to submit testimony regarding the fiscal year 2007 funding 
request for the National Fish and Wildlife Foundation. Included in this 
testimony is a summary of our history and fiscal year 2005 
accomplishments, as well as the new and innovative programs we hope to 
accomplish with the funding provided by this committee.
    Congress established the foundation 22 years ago, and since that 
time the foundation's vision for more healthy and abundant populations 
of fish, wildlife and plants has flourished through the creation of 
numerous valuable partnerships. The breadth of our partnerships is 
highlighted through our active agreements with 14 federal agencies, as 
well as various corporations, foundations and individual grantees. 
Through these unique arrangements, we are able to leverage federal 
funds, bring agencies and industry together and produce tangible, 
measurable results. Our history of collaboration has given way to 
programs and initiatives such as the Coral Reef Conservation Fund, the 
Cook Inlet Beluga Whale Fund, the Chesapeake Bay Small Watershed Grants 
Program and the Shell Marine Habitat Initiative. With the support of 
the committee in fiscal year 2007, we can continue to uphold our 
mission of enriching fish, wildlife and the habitat on which they 
depend.
    In 1999, Congress expanded the foundation's mandate to expressly 
include the National Oceanic and Atmospheric Administration (NOAA) and 
its mission. For nearly a decade, NOAA and the foundation have jointly 
supported projects in marine conservation through public-private 
partnerships. The foundation respectfully requests that this Committee 
fund these efforts at $4 million through the National Oceanic and 
Atmospheric Administration.
    This request lies well within the authorized levels and will allow 
the foundation to better meet the demand for new or expanded strategic 
conservation programs. The appropriations provided by the committee are 
also used by the foundation to attract additional funding for 
conservation projects through mitigation, settlements and direct gifts.
    Since our inception in 1984 through fiscal year 2005, the 
foundation has supported over 8,190 grants and leveraged over $339 
million in federal funds for more than $1 billion in on-the-ground 
conservation. This has resulted in more than 18 million acres of 
restored and managed wildlife habitat; new hope for countless species 
under stress; new models of private land stewardship; and stronger 
education programs in schools and local communities.
    In fiscal year 2005, we were appropriated $1.7 million (less 
rescissions) for our general NOAA programs which we were able to 
leverage with NOAA interest dollars and over $7.8 million in additional 
foundation and partner dollars for a total of $9.8 million in marine 
conservation. We achieved this leveraging of the federal dollar by 
cultivating partnerships. In fiscal year 2005, the foundation partnered 
funds entrusted by this committee with seven other foundations and 
several private sector corporations including Shell Oil, Southern 
Company, Bass Pro Co., BP Oil Co. and ConocoPhillips. In a similar 
manner, the foundation was able to leverage the $1 million in funds 
(less rescissions) targeted by this Committee to Tampa Bay habitat 
restoration through the Pinellas County Environmental Fund by bringing 
an additional $1.8 million in funds for an overall fiscal year 2005 
conservation value of $3 million.
    Through the fiscal year 2006 Omnibus Bill, we will receive between 
$0.7 million--$1.7 million of our historical $2.5 million mark for our 
NOAA partnership and $1 million of our historical $1.5 million 
allocation for the Pinellas County Environmental Fund. Our mark in the 
NOAA Fisheries line for our overall partnership is still being 
negotiated. This will be the foundation's second year of drastically 
reduced funding which is having large impacts on the programs we are 
able to support.
    Although we have not yet received our fiscal year 2006 funds, we 
have already received over $4 million in proposals requests through two 
of the seven competing programs for these dollars. The potential 50 
percent reduction in funding, will all but zero out funding for our 
NOAA General Matching Grants Program, one of NOAA's largest leveraging 
vehicles and broadest brush for general marine and coastal conservation 
projects with the foundation. The fiscal year 2006 budget cuts will 
also result in dramatic cuts to our National Whale Conservation Fund 
and the International Sea Turtle Conservation Fund, both programs which 
are making significant impacts to endangered species recovery.
    In these times of tightened budgets, we have focused our limited 
dollars on four of the historical seven Special Grant Programs: the 
Coral Reef Conservation Fund, the Long Island Sound Futures Fund, the 
Delaware Estuary Grants Program and the Great Lakes Watershed 
Restoration Program. Many of these programs were created at the request 
of NOAA to help focus more funds and attention to key priorities within 
the agency. The fiscal year 2005 and fiscal year 2006 cuts will 
obviously impact these programs in the number of projects they can 
support, and may have additional impacts if NOAA is the main or only 
partner. For example, the pilot year of the Great Lakes Watershed 
Restoration Program was so successful that the other agency partners 
are looking to increase their funding levels; NOAA will not have the 
ability to increase their contribution and will therefore reduce their 
role at the table. An even bigger concern may be in the need to have 
federal monies to leverage the private funds that NOAA has asked us to 
raise, to grow these special programs. Our fiscal year 2007 
appropriations request will put us back on track to continue leveraging 
scarce federal resources and allow us to achieve increased conservation 
benefits.
    If fully funded in fiscal year 2007, there are a number of new 
opportunities to continue NOAA's mission in the areas of estuarine and 
coastal habitat, coral reef conservation and marine species management 
and recovery:
    Restoring Estuarine and Coastal Habitats.--The steady rate of 
coastal development and damaging up-stream activities are causing our 
estuarine and coastal habitats to be lost at an alarming rate. The 
foundation has had tremendous success in countering these problems by 
partnering NOAA funds with other agencies, like the Environmental 
Protection Agency, to address these issues from a whole watershed 
perspective. This is demonstrated in our Chesapeake Bay, Long Island 
Sound and Delaware Estuary grants programs and has proven so successful 
that in fiscal year 2005, we expanded our coastal habitat portfolio 
with a new program in the Great Lakes. After an extremely successful 
pilot year, NOAA is interested in continuing to grow this initiative 
with the other agencies involved, especially since it reaches an 
underserved portion of their mission. A new program is also being 
researched for the San Francisco Bay Estuary that should be ready to 
launch in the coming year, if funds are available. New programs are 
also uniting around the Upper Mississippi River Basin. This creates an 
opportunity to partner existing programs like the Foundation's North 
Gulf Coast Initiative targeting the shores of Mississippi, Alabama, 
Louisiana and Texas and the Shell Marine Habitat Program along broad-
sweeping watershed goals, if funds are provided to expand the marine 
focus in the overall watershed.
    Protecting Coral Reefs.--The foundation was successful in fiscal 
year 2005 at bringing in new partners in the U.S. Fish and Wildlife 
Service, the Natural Resources Conservation Service and the Harold K.L. 
Castle Foundation. We continue to set our sights high, and are building 
in new evaluation protocols for individual projects and outlining an 
evaluation of the overall program. The foundation is also actively 
working with other funders in coral conservation to collaborate on 
funding priorities to address hot spots and key threats. With increased 
funding in fiscal year 2007, the foundation would like to expand 
current partnerships between NOAA and the NRCS to reduce nutrient run-
off and sedimentation to coastal reefs and the U.S. FWS to improve the 
management and effectiveness of existing marine protected areas. Funds 
are also needed to enhance the foundation's partnership with the White 
Water to Blue Water Initiative--Anchors Away!--to establish mooring 
buoy systems for reducing damage to reefs from anchors.
    Threatened and Endangered Species Solutions.--Our Special Grant 
Programs that target endangered species conservation have been the 
hardest hit by recent budget cuts. With our fiscal year 2007 request 
the foundation would be able to restore funding to these vital programs 
in species management, like our work in the southern States to restore 
sea turtle nesting habitat and our work in New England, Washington and 
Alaska to research declining right whale, orca and beluga whale 
populations.
    The foundation continues to cultivate partnerships in the private 
sector to try and offset some of these cuts in our species programs. 
One of the partnerships that we will be investigating in fiscal year 
2006 is a new program with global energy industries to study the 
impacts of marine noise, particularly in relation to marine mammals. 
The requested funding levels will allow NOAA, the management agency for 
this issue, to sit at the table as a funder and provide them with a 
greater role in determining what research should be funded.
    Evaluation.--The foundation has become a leader in evaluation and 
adaptive management amongst its peers. The foundation's goal is to 
build the capacity of both itself and its partners to undertake more 
effective evaluation, to assist in both measuring performance and to 
adapt methods and funding strategies for more impactful conservation. 
To address these goals, the foundation is implementing several 
evaluation strategies simultaneously. First, the foundation has 
instituted new protocols within its application process to provide the 
measurable indicators needed to evaluate the impacts of our programs. 
Second, the foundation has convened discussions amongst our agencies 
partners to identify and coordinate potential opportunities for 
collaboration within evaluation. One of the initial results of these 
meetings has been an interest in piloting new evaluation indicators, to 
better articulate the federal investment for GPRA and PART 
requirements.
    Third, the foundation has commissioned several third-party 
evaluations targeting widely-used conservation activities like culvert 
removal to full program evaluations to learn where we have been 
successful and where past methods have not provided the desired impact. 
As an example, in fiscal year 2006, the Foundation's Chesapeake Bay 
Small Watershed Grants Program will be evaluated for the first 5 years 
of grant-making. The evaluation will include 355 projects associated 
with about $10.6 million in federal funds. The federal legislation 
accompanying this program included 10-year goals, and this evaluation 
presents an opportunity to assess the mid-way mark in helping the 
foundation and its partners better focus their resources over the next 
5 years. To capture these evaluations and lessons learned, the 
foundation is taking a fourth key step by developing a new searchable 
project website where users will be able to query information and learn 
more about funded projects, including how to adapt projects for higher 
rates of success.
    Accountability and Grantsmanship.--The foundation constantly 
strives to improve the grant making process while maintaining a healthy 
level of oversight. To improve ease of use for potential applicants, 
foundation applications are now completed and reviewed electronically. 
In early fiscal year 2006, to further improve efficiency, the 
foundation released a revised application, grant contract template and 
reporting form. Even with these efficiencies, the foundation still 
requires strict financial reporting by grantees and has once again 
received an unqualified audit in fiscal year 2005.
    In addition to the evaluation requirements described earlier, all 
potential grants are subject to a peer review process. This involves 
five external reviews representing State agencies, federal agencies, 
affected industry, environmental non-profits and academics. Before 
being recommended to the foundation's board of directors, grants are 
also reviewed internally by staff, including our conservation 
scientists. The internal review process examines the project's 
conservation need, technical merit, the support of the local community, 
the variety of partners and the amount of proposed non-federal cost 
share. The foundation also provides a 30-day notification to the 
members of Congress for the congressional district and State in which a 
grant will be funded, prior to making a funding decision.
    Basic Facts About the Foundation.--The foundation is governed by a 
25-member board of directors, appointed by the Secretary of the 
Interior and in consultation with the Secretary of Commerce. At the 
direction of Congress, the board operates on a nonpartisan basis. 
Directors do not receive any financial compensation for service on the 
board; in fact, all of our directors make financial contributions to 
the foundation. It is a diverse board, representing the corporate, 
philanthropic and conservation communities; all with a tenacious 
commitment to fish and wildlife conservation. I took over the 
chairmanship in January, after serving on the board for 10 years. It is 
an honor to lead such a prestigious board.
    The National Fish and Wildlife Foundation continues to be one of, 
if not the most, cost-effective conservation programs funded in part by 
the Federal Government. None of our federally appropriated funds are 
used for lobbying, litigation or the foundation's administrative 
expenses. By implementing real-world solutions with the private sector 
while avoiding regulatory or advocacy activity, our approach is more 
consistent with this Congress' philosophy than ever before. We are 
confident that the money you appropriate to the foundation will 
continue to make a difference.

   NATIONAL FISH AND WILDLIFE FOUNDATION'S FEDERAL APPROPRIATIONS FOR
                            FISCAL YEAR 2006
                        [In millions of dollars]
------------------------------------------------------------------------
                  Agency Funding Source                   Funding Amount
------------------------------------------------------------------------
Natural Resources Conservation Service..................           2.970
Fish and Wildlife Service...............................           7.656
    Washington Salmon...................................           1.971
    Atlantic Salmon.....................................           0.985
Bureau of Land Management...............................           2.955
Forest Service..........................................           2.637
National Oceanic and Atmospheric Administration.........           1.400
    Pinellas County Environmental Fund..................           0.937
------------------------------------------------------------------------

                                 ______
                                 

                Prepared Statement of Save Barnegat Bay

    On behalf on Save Barnegat Bay, I appreciate the opportunity to 
present this testimony in support of an appropriation of $1 million 
from NOAA's Coastal and Estuarine Land Conservation Program for the 
Potter Creek project in New Jersey.
    Save Barnegat Bay is a not-for-profit environmental group working 
to conserve undeveloped natural land and clean water throughout the 
Barnegat Bay watershed. We were founded in 1971 as a local chapter of 
the Izaak Walton League of America, a leading national environmental 
organization.
    Barnegat Bay is a shallow, lagoon-type estuary, characteristic of 
the back bay system of a barrier island coastline. The 550-square mile 
Barnegat Bay watershed is located along the central New Jersey 
coastline and encompasses nearly all of Ocean County and a small 
portion of Monmouth County. The watershed supports more than 450,000 
residents year-round, and many hundred thousands more during the summer 
tourist season. The Barnegat Bay estuary covers over 42 miles of 
shoreline from the Point Pleasant Canal to Little Egg Harbor Inlet, and 
supports a thriving tourist industry. The bay's fisheries represent an 
invaluable recreational and commercial resource to the region. Although 
long recognized for its great aesthetic, economic, and recreational 
value, this back bay system is now threatened by an array of human 
activities that could damage its ecological integrity. More than 70 
percent of the area along Barnegat Bay's estuarine shoreline has been 
developed or altered, leaving less than 30 percent of the area in its 
natural state. At the request of the State, Barnegat Bay was recognized 
as an estuary of national significance threatened by pollution, 
development, and overuse. It was accepted into the Environmental 
Protection Agency's National Estuary Program in July 1995, one of 28 
such sites nationwide.
    Ocean County has been the State's fastest growing county since 
1950. While run-off and discharge from power boats contribute to the 
degradation of Barnegat Bay, the primary threat to the water quality is 
upland development and associated nonpoint source pollution. Local 
agencies, civic groups, and nonprofit organizations have long been 
committed to the protection of the Barnegat Bay watershed. In 1995, The 
Trust for Public Land published a comprehensive study identifying high-
priority conservation and public access sites in the Barnegat Bay. This 
study, called the Century Plan, has become the ``greenprint'' for the 
protection of the watershed for all those committed to a healthy bay 
ecosystem. Funding from Federal, State, local, and private sources has 
supported the protection of critical acreage within the Barnegat Bay 
watershed, but despite these funding commitments, many of these sites 
still remain unprotected.
    Available for acquisition in the Barnegat Bay watershed in fiscal 
year 2007 is the 100-acre Potters Creek property located in Berkeley 
Township. Comprised largely of forested wetland and marshland, the 
tract also possesses 30 acres of developable uplands.
    These woodlands contain various species of pine and oak, American 
holly, and mountain laurel, while the wetlands are comprised of 
spartina, glasswort, perennial salt marsh aster, and sea pink. These 
wetlands are believed to support upwards of 82 species of birds, half 
of which are thought to breed on or near the Potters Creek tract. Some 
of these species include red-shouldered hawk, northern harrier, and 
peregrine falcon, all State-listed endangered species. The marbled 
salamander and four-toed salamander, both State species of special 
concern, are believed to inhabit the property as well. A total of $5 
million is needed to protect this property. In fiscal year 2006, 
Congress directed $500,000 in Coastal and Estuarine Land Conservation 
Program funds towards this purchase. Berkeley Township has already 
committed $1.5 million towards its portion of the purchase.
    An appropriation of $1 million in fiscal year 2007 from NOAA's 
CELCP program directed to Ocean County will complete the federal 
commitment to this conservation purchase. The total non-federal match 
will amount to $3.5 million. Acquisition of this parcel will preserve 
open space in a rapidly developing area, further the protection efforts 
of the Barnegat Bay watershed, and provide an important buffer to 
already conserved lands. I urge you to include this project in the 
fiscal year 2007 Commerce, Justice, and Science appropriations bill.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony and for your consideration of this important request.
                                 ______
                                 

                 Prepared Statement of Break the Cycle

    The Violence Against Women Act 2005 (Public Law 109-162), recently 
unanimously reauthorized by the U.S. Congress, provides funding for 
proven effective programs and creates new programs to fill gaps in the 
original legislation. Because the President's budget was completed 
before VAWA 2005 was passed and signed into law on January 5, 2006, all 
of the new programs and many of the reauthorized programs which were 
given an increase in funding are not fully funded in the President's 
budget.
    Break the Cycle is a national non-profit with a mission to engage, 
educate, and empower youth to build lives and communities free from 
domestic and dating violence. Founded in 1996 in Los Angeles, 
California, Break the Cycle has worked to raise awareness among youth 
and youth service providers about domestic and dating violence. Break 
the Cycle provides law-based preventative education and free legal 
services to youth ages 12 to 24. Break the Cycle opened its Washington, 
DC office in 2004, and has worked with both youth and policy makers to 
ensure that youth have the necessary resources available to develop 
healthy relationships and build communities free from violence. Break 
the Cycle is the only organization of its kind in the country.
    Break the Cycle respectfully requests full funding for all VAWA 
2005 programs in the fiscal year 2007 budget. Additionally, because of 
the mission of our organization; to engage, educate and empower youth 
to end domestic and dating violence, we are especially concerned with 
the programs directly affecting youth and will address the vital need 
to fully fund these programs in this testimony.
                 youth and domestic and dating violence
    ``At the age of 13, I began dating my first boyfriend. It was a 
time in my life when I was plagued by all the typical insecurities of 
entering adolescence, being acutely self-conscious and wanting simply 
to feel connected to the world . . . It was the closeness of our 
relationship that allowed me to overlook the times when he would punch 
me and push me around, the threats to commit suicide if I ever left 
him, the emotional strain that I felt being with him . . . As more and 
more time passes, I am learning again to trust myself, to trust others, 
and to take care of myself. It is at these points in life when I 
recognize the need for more young girls to be able to have the type of 
support that I feel I received too late in life . . . girls need to be 
taught to trust, to be able to confront their abuse, to be able to 
learn to live without it.'' Break the Cycle supporter.
    The youth of this country are facing a grave situation that is 
largely ignored by the people who are responsible for helping them grow 
into healthy adults. Sexual and dating violence occur among youth at 
rates disproportionate to the rest of the Nation; teens and young 
women, aged 16 to 24, experience the highest rate of intimate partner 
violence, almost three times the average for women as a whole.\1\ 
Additionally, the age at which a female is at greatest risk for rape or 
sexual assault is 14,\2\ and in one study, one quarter of teen girls 
who have been in a romantic relationship admitted that they had been 
pressured to perform oral sex or engage in intercourse when they did 
not want to.\3\ Yet, domestic violence resources are usually focused on 
adult women or young children who are victims of abuse.
---------------------------------------------------------------------------
    \1\ Department of Justice, Bureau of Justice Statistics, ``Intimate 
Partner Violence and Age of Victim, 1993-1999.'' NCJ 187635: October 
2001, 3.
    \2\ Snyder, H.N. (2000). Sexual assault of young children as 
reported to law enforcement. U.S. Department of Justice, Bureau of 
Justice Statistics (NCJ 182990). Washington, DC.: U.S. Government 
Printing Office.
    \3\ Liz Claiborne Inc. Omnibuzz Topline Findings: Teen Relationship 
Abuse Research. February 2005.
---------------------------------------------------------------------------
    For youth, who face a unique set of circumstances when dealing with 
abuse, these resources do not meet their needs. They are in a stage of 
their lives where they are just learning to navigate the adult world, 
developing positive and healthy relationships is essential to their 
success as adults. Victims of teen dating violence are more likely to: 
use alcohol, tobacco, and cocaine; drive after drinking; engage in 
unhealthy weight control behaviors; commit sexually risky behaviors 
including first intercourse before age 15, multiple partnering, and 
lack of condom use; become pregnant; and commit suicide.\4\ 
Additionally, youth that witness domestic or dating violence also have 
higher probabilities of truancy, poor school performance, and trouble 
concentrating.\5\ These behaviors limit youths' ability to become 
healthy adults. Young people must be educated and empowered to end the 
violence in their lives. VAWA 2005 can help stop this cycle of violence 
where it starts. Congress has taken the first step in recognizing and 
correcting this problem by unanimously passing VAWA 2005, and including 
vital new programs for youth. It is critical, for the healthy 
development of young people, that full funding be provided for all 
programs unanimously passed by Congress. By educating youth and 
empowering them to live lives free from violence, we not only improve 
their current situation, but teach them how to live healthy adult 
lives. The cost of these programs is a small price to pay for the 
safety of our youth, and in the long term will cut down on the huge 
costs of domestic violence that plagues the nation.\6\ It is time to 
teach young people to confront their abuse, and to learn the skills 
that will help them create a future without it.
---------------------------------------------------------------------------
    \4\ Jay Silverman, et. al., Dating Violence Against Adolescent 
Girls and Associated Substance Use, Unhealthy Weight Control, Sexual 
Risk Behavior, Pregnancy, and Suicidality, 286 JAMA, 2001.
    \5\ Lee, Catherine. Witness of Domestic Violence: The Vulnerable 
and the Voiceless. http://www.jrn.columbia.edu/studentwork/children/
downlow/domvio.shtml.
    \6\ Intimate partner violence costs the Nation $5.8 billion 
annually, including $4.1 billion in direct health care expenses. 
Centers for Disease Control and Prevention, National Center for Injury 
Prevention and Control, ``Cost of Intimate Partner Violence Against 
Women in the United States.'' (2003).
---------------------------------------------------------------------------
                              the programs
Services to Advocate for and Respond to Youth (42 USC 14043c; 119 STAT. 
        3004)
    STARY will provide much needed funding to stop the cycle of 
violence where it is most likely to occur, with youth ages 16 to 24.\7\ 
Youth face unique challenges when dealing with domestic and dating 
violence and often do not have access to services to help them. 
Adolescence is a trying time, often filled with the insecurity and 
frustration of learning to navigate the adult world, while not quite 
being an adult. Youth are often untrusting of authority, uninformed on 
the law, dependent on others for their financial well being, without 
transportation, and ignorant of the services available to them. Special 
services and service providers with the skills to deal with these 
unique challenges are vital to early intervention with youth dating and 
domestic violence. Because most domestic violence services are targeted 
at adults, youth are often left without important services and end up 
falling through the cracks, leaving them to carry these same patterns 
of violence into adult relationships. These grants focus specifically 
on services and service providers who can address the needs of youth, 
filling a gap in current services, and helping youth to build lives 
free from abuse.
---------------------------------------------------------------------------
    \7\ Department of Justice, Bureau of Justice Statistics, ``Intimate 
Partner Violence and Age of Victim, 1993-1999.'' October 2001.
---------------------------------------------------------------------------
    STARY is a new program which we urge Congress to fully fund at it's 
authorized level of $15 million in fiscal year 2007.
Access to Justice for Youth (42 USC 14043c-1; 119 STAT. 3005)
    The violence perpetrated by youth against youth is a serious 
problem. However, the legal system in many States does not allow youth 
victims the same access to justice and safety as it does adults. Youth 
often slip through the cracks of the justice system because neither 
adult nor juvenile courts know how to deal with youth perpetrators and 
victims of domestic and dating violence. This problem must be 
addressed. Currently, there is only one juvenile domestic violence 
court in the country. Access to Justice for Youth would provide 
demonstration grants to allow courts, domestic violence and sexual 
assault service providers, youth organizations, and law enforcement 
agencies to work together to create a model system which addresses the 
needs of youth. Both perpetrators and victims must be treated by the 
law in a way that allows for safety, dignity, and justice. This funding 
will give communities the opportunity to work together to create a 
system that truly meets their needs and provides victims and 
perpetrators the justice and protection they deserve.
    Access to Justice for Youth is a new program which we urge Congress 
to fully fund at the authorized level of $5 million for fiscal year 
2007.
Supporting Teens Through Education and Protection (STEP Act; 42 USC 
        14043c-3; 119 STAT. 3010)
    Schools have always been envisioned as a safe haven where youth 
learn and grow into productive citizens. However, violence in schools 
has shattered this idea, and left many young people afraid of the very 
place they are sent to grow and mature. Four thousand incidents of rape 
and sexual assault were reported in public schools across the country 
in a single year.\8\ This number only includes the number reported, and 
not the countless cases of rape and sexual assault that go unreported. 
Additionally, when youth are faced with abusive relationships, most (73 
percent) say they would talk about it with a friend.\9\ Unfortunately, 
the friends in whom they would confide are often uninformed about the 
rights of youth in abusive relationships, and thus unable to help a 
friend in need. Young people cannot be expected to mature into 
productive citizens with this type of violence occurring in the place 
where they are to be nurtured and taught about healthy adulthood. 
Schools need effective polices and procedures to address this problem 
when it occurs among their students and school staff must be taught the 
warning signs of and resources available for students dealing with 
domestic and dating violence. The STEP Act allocates funds to educate 
faculty, develop effective school policies about domestic and dating 
violence, and provide resources to teach students about the issue and 
provide appropriate referrals. Fully funding this program will allow 
schools to work in collaboration with sexual assault and domestic 
violence providers, police, courts, and other organizations to ensure 
that schools are the safe and healthy environments necessary to help 
youth become healthy adults.
---------------------------------------------------------------------------
    \8\ U.S. Department of Education, 1997 (The Department of Education 
no longer reports rapes and sexual assaults in schools as a separate 
category, but rather includes them with other violent crimes.)
    \9\ Liz Claiborne Inc. Omnibuzz Topline Findings: Teen Relationship 
Abuse Research. February 2005.
---------------------------------------------------------------------------
    The STEP Act is a new program which we urge Congress to fully fund 
at the authorized level of $5 million for fiscal year 2007.
Grants to Reduce Violent Crimes on Campus (42 USC 14045b; 119 STAT. 
        3013)
    One quarter of female college students are sexually assaulted 
during their college careers,\10\ and 70 percent of sexual assaults 
reported by college-aged girls are date rapes.\11\ This pervasive 
violence must stop, and fully funding Grants to Reduce Violent Crimes 
on Campus is one way that Congress can help to stop it. Often away from 
home for the first time and adjusting to new freedoms, college students 
face unique challenges, especially when it comes to dealing with 
domestic and sexual violence. Providing this program with full funding 
allows for prevention, services and training essential to end this type 
of violence. In the federal fiscal year 2005, 146 applications were 
submitted to the Office on Violence Against Women, requesting $32 
million for campus programs. The need is great, and Congress can help 
by providing the full $12 million authorized by VAWA 2005.
---------------------------------------------------------------------------
    \10\ Robin Warshaw, I Never Called it Rape: The Ms. Report on 
Recognizing, Righting, and Surviving Date and Acquaintance Rape, New 
York: Harper Perennial, 1994.
    \11\ B. Levy, Dating Violence, (Seattle: Seal Press, 1991), 9.
---------------------------------------------------------------------------
    The President's budget requests $9 million for Campus Grants. We 
urge Congress to fully fund Campus Grants at the authorized level of 
$12 million in fiscal year 2007.
                               conclusion
    Sexual assault and domestic violence are problems that pervade our 
society. The effects of these problems are far reaching, and especially 
detrimental to young people navigating the transition from childhood to 
healthy adulthood. Young people must be taught that domestic violence 
and sexual assault are unacceptable. Services must be tailored to their 
needs and they must be educated about the resources available to them. 
They must be empowered to stop the violence that affects them so 
profoundly. They deserve the building blocks to create healthy 
relationships in the future.
    Today's teen and young adult victims and perpetrators of domestic 
violence and sexual assault will be those we deal with the in the adult 
criminal, civil and family justice systems, healthcare system and 
social services systems tomorrow. We have the opportunity today to 
invest in our youth to protect them from this violence now and save 
countless federal dollars later.
    Across the Nation, young people are taking a stand against domestic 
violence and sexual assault. However, the funds to allow for education 
and services are lacking. Congress has unanimously recognized the 
importance of this issue by passing VAWA 2005. Now it is time for 
Congress to act. By fully funding VAWA 2005, and especially STARY, STEP 
Act, Access to Justice for Youth, and Grants to Reduce Violent Crimes 
against Women on Campus, Congress can do its part to combat the 
pervasiveness of domestic and sexual violence. By fully funding these 
programs, Congress will allow young people the resources necessary to 
mature into healthy and productive citizens. It is time to protect 
young people from abuse, and to teach them to build prosperous, 
healthy, violence-free futures.
                                 ______
                                 

     Prepared Statement of the Natural Science Collections Alliance

    The Natural Science Collections Alliance (NSC Alliance) encourages 
Congress to support the President's fiscal year 2007 budget request of 
$6.02 billion for the National Science Foundation.
    The administration's budget request reflects the recognition of the 
important role that fundamental, peer-reviewed scientific research 
plays in driving innovation, creating new economic opportunities, and 
addressing important societal challenges.
    The National Science Foundation plays an important role in science 
education, in both formal and informal environments, such as natural 
history museums, botanical gardens and other science centers. Moreover, 
through programs such as Research Experience for Undergraduates, GK-12 
fellowships, or fellowships for graduate students and post-doctoral 
researchers, the National Science Foundation provides the resources 
needed to educate, recruit, and retain our next generation of 
scientists. National Science Foundation programs provide the support 
that makes it possible for practicing research scientists and college 
faculty to mentor and train budding researchers. National Science 
Foundation science education initiatives are unique and stimulate 
innovation in teaching and learning about science. The lessons learned 
and models developed through this research inform Department of 
Education and local school system programs.
    Informal science and technology programs supported by the Education 
and Human Resources Directorate warrant increased funding. Economic 
growth in the 21st century demands a scientifically aware and 
technically skilled workforce.
    The National Science Foundation Biological Sciences Directorate 
(BIO) is particularly important to basic biological research, the 
fields of study concerned with understanding how the natural world 
works. These research disciplines include botany, zoology, 
microbiology, ecology, basic molecular and cellular biology, 
systematics and taxonomy. Indeed, according to National Science 
Foundation data, more than 65 percent of fundamental biological 
research is funded by the foundation. Additionally, the National 
Science Foundation provides essential support for the development of 
research infrastructure (for example, natural science collections, 
cyber-infrastructure, field and marine stations, and the National 
Ecological Observatory Network) that is required to advance our 
understanding of biological and ecological systems.
    The President's fiscal year 2007 budget request would provide the 
BIO directorate with roughly $607.8 million (a 5.4 percent increase). 
This funding would support important new research efforts in the areas 
of Molecular and Cellular Biosciences ($111.2 million), Integrative 
Organismal Biology ($100.7 million), Environmental Biology ($109.6 
million), Biological Infrastructure ($85.9 million), and Plant Genome 
Research ($101.2 million). The budget also reflects the need for 
synthesizing biological information from different fields. Thus, $99.2 
million is allocated for the cross discipline Emerging Frontiers 
program area.
    The President's request includes $24 million in funding for the 
National Ecological Observatory Network (NEON). Of the requested 
funding for NEON, $12 million would come from the Major Research 
Equipment and Facilities Construction account and $12 million would 
come from the BIO directorate. NEON will be the first national 
ecological measurement and observation system designed both to answer 
regional to continental scale scientific questions and to have the 
interdisciplinary participation necessary to achieve credible 
ecological forecasting and prediction. NEON is expected to transform 
the way we conduct science by enabling the integration of research and 
education from natural to human systems, and from genomes to the 
biosphere. Social scientists and educators have worked with ecologists 
and physical scientists to plan and design NEON. These research 
communities will all be able to participate in research only possible 
because of the construction of NEON.
    Thank you for your past efforts on behalf of the National Science 
Foundation and for your thoughtful consideration of this request. If 
you require additional information, please contact Robert Gropp at 202-
628-1500.
                                 ______
                                 

           Prepared Statement of James City County, Virginia

    Dear Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to submit testimony in support of an 
appropriation of $1.2 million from the Coastal and Estuarine Land 
Conservation program in fiscal year 2007 for acquisition of two 
properties at Jamestown totaling 198 acres.
    Since English colonists disembarked from their ship on May 14, 
1607, naming the river and town for the reigning monarch, James I, the 
Virginia peninsula has become one of the most historic regions in the 
United States. It has played a role in many eras of American history 
including colonial, Revolutionary, and Civil War periods. Today 
Jamestown is protected by a variety of public and private organizations 
including the National Park Service, The Association for the 
Preservation of Virginia Antiquities, and James City County.
    In one year's time, America will celebrate the quadricentennial of 
the landing at Jamestown. A number of events, commemorations, 
improvements, and enhancements are planned in order to make this 
celebration a one-of-a-kind event that visitors will not forget.
    In order to preserve the site around Jamestown for future events 
and visitors and protect the important natural and coastal resources 
that mark the shores of the wide James River, it is critical to protect 
lands adjacent to the historic sites from development and inconsistent 
conversion. There is a limited opportunity to acquire two properties 
adjacent to protected lands at Jamestown, the 112-acre Jamestown 
Campsites and the 85.5-acre Jamestown Marina.
    There are numerous historical and ecological resources on both 
properties. The campsites property includes 4,600 feet of James River 
frontage, and the site was part of the Revolutionary War battle of 
Green Spring. It is also a piece of the Capitol City Bike Trail linking 
Williamsburg to Richmond. The marina includes over 3,000 feet of 
shoreline on Powhatan Creek, contains 65 acres of high quality tidal 
wetlands, and is adjacent to the Colonial Parkway.
    In fiscal year 2006, Congress appropriated $2 million for this 
project. An additional appropriation of $1.2 million in fiscal year 
2007 will be used to acquire these properties in time for the Jamestown 
2007 celebration next year. Federal funding will be matched by over $9 
million from James City County, the Commonwealth of Virginia and 
private sources.
    Thank you, Mr. Chairman, for your consideration of this request and 
for the opportunity to present this testimony.
                                 ______
                                 

Prepared Statement of the ASME Technical Communities' National Science 
                         Foundation Task Force

    The ASME Technical Communities' National Science Foundation (NSF) 
Task Force is pleased to provide comments on the NSF fiscal year 2007 
budget request, and supports this year's proposed funding level of 
$6.02 billion for the National Science Foundation.
    Founded in 1880 as the American Society of Mechanical Engineers, 
ASME is a worldwide engineering society of over 120,000 members focused 
on technical, educational and research issues. It conducts one of the 
world's largest technical publishing operations, holds approximately 30 
technical conferences and 200 professional development courses each 
year, and sets many industry and manufacturing standards.
              nsf fiscal year 2007 budget request overview
    The National Science Foundation plays the critical leadership role 
in directing the Nation's non-defense related scientific and 
engineering research and education. Now more than ever, the Nation's 
future in the global economy relies on the quality of the new ideas, 
the competitive strength of the science and engineering workforce, and 
the innovative use of new knowledge generated through the research and 
education enterprise. As such, ASME shares NSF's broad-based, cross-
cutting vision for basic engineering and scientific research and 
education, and strongly endorses NSF and its efforts to promote the 
crucial fundamental research that engenders new knowledge to meet vital 
national needs and to improve the quality of life for all Americans.
    The total fiscal year 2007 NSF budget request is $6.02 billion 
representing a $439 million or 7.9 percent increase over the current 
fiscal year 2006 estimate, making the outlook for the NSF budget appear 
more positive than it has in the last few years. NSF had received a 3.0 
percent ($171 million) cut in fiscal year 2005, so that despite a small 
increase in fiscal year 2006, i.e. 1.8 percent ($100 million), the 
current estimate for fiscal year 2006 is actually 1.25 percent below 
the fiscal year 2004 budget. The fiscal year 2007 increase benefits 
from the administration's recent American Competitiveness Initiative 
(ACI), which calls for a 10-year budget-doubling effort for NSF.
    Within this request, the research directorates will receive 
increases between 5.4 percent and 8.2 percent, after several years of 
``flat'' funding. Funding for the Engineering Directorate (ENG) would 
increase by 8.2 percent over the current year estimate to $628.55 
million, $108.88 million of which is requested for the NSF Small 
Business Innovation Research (SBIR) and Small Business Technology 
Transfer (STTR) programs that ENG administers.
    For fiscal year 2007, ENG will complete a comprehensive 
reorganization intended to reflect the multidisciplinary nature of 
engineering and the complex integration of the sub-disciplines 
comprising ENG. The new disciplinary-area divisions are: Chemical, 
Bioengineering, Environmental, and Transport Systems (CBET), $124.4 
million, Civil, Mechanical and Manufacturing Innovation (CMMI), $152.2 
million, and Electrical, Communications and Cyber Systems (ECCS), $80.9 
million. The new crosscutting-area divisions are: Industrial Innovation 
and Partnerships (IIP), $120.1 million, Engineering Education and 
Centers (EEC), $126.0 million, and Emerging Frontiers in Research and 
Innovation (EFRI), $25.0 million. This last division is being created 
to provide mechanisms to rapidly respond to breakthrough innovations at 
the interface between divisions and directorates. The other five 
divisions will compete with each other to receive EFRI funds.
    A portion of the ENG budget (allocated from the divisions) will 
continue to support research and education efforts related to broad, 
foundation-wide and interagency priority areas. Networking and 
Information Technology R&D ($11.2 million), Human and Social Dynamics 
($2 million), and Climate Change Science program ($1 million) are 
budgeted at the same levels as the fiscal year 2006 estimate. 
Biocomplexity in the Environment ($4 million) and Mathematical Sciences 
($1.46 million) are significantly reduced, i.e. by -32.7 percent and -
49.3 percent, respectively, under fiscal year 2006, continuing their 
phase-downs and transferring into core programs. On the other hand, 
National Nanotechnology Initiative ($137 million) and 
Cyberinfrastructure ($54 million) investments from ENG increase by 7.2 
percent and 3.8 percent, respectively. Additionally, ENG will lead a 
new $20 million NSF-wide, interagency effort to support research on 
sensors, focusing on prediction and detection of explosive materials 
and related threats. This $20 million effort represents 42 percent of 
the proposed 8.2 percent increase for ENG, and is divided evenly 
between the four ENG divisions of CBET, CMMI, ECCS, and EEC.
                    the asme nsf task force position
Affirmation and Endorsement
    The ASME NSF Task Force continues its strong endorsement of NSF's 
leadership role in guiding the Nation's basic research and development 
activities. NSF has an outstanding record of supporting a broad 
spectrum of research of the highest quality, from ``curiosity-driven'' 
science to focused initiatives. This achievement has been made possible 
only through strict adherence to the independent peer review process 
for merit-based awards. ASME recognizes the importance and timeliness 
of NSF's priority areas that address major national needs for the 21st 
century.
    The fiscal year 2007 budget request and its 7.9 percent increase 
over the appropriation enacted last year represent an encouraging step 
forward in the country's commitment to NSF's vital role in fostering 
the fundamental research that delivers the ideas, knowledge, and 
innovation to sustain a robust, competitive, and productive Nation. 
Over three-quarters of the total $439 million increase for NSF is in 
the Research and Related Activities Account, which increases by $334.5 
million (7.7 percent) to a total of $4.67 billion. This investment 
involves both established and emerging areas that are the wellspring 
for discoveries that lead to products, process, and services that 
improve health, wealth, living conditions, environmental quality, and 
national security.
    In this request, NSF continues to emphasize programs aimed at 
tapping the potential of those underrepresented in the science and 
engineering workforce--especially minorities, women, and persons with 
disabilities. Support for these programs will total over $640 million. 
Broadening participation in NSF activities also applies to 
institutions, which ensures that the U.S. reflects a strong capability 
in science and engineering across all its regions. The fiscal year 2007 
request will fund the Experimental Program to Stimulate Competitive 
Research (EPSCoR) at $100 million.
    In general, the Task Force also supports and commends activities 
within ENG. NSF's vision of advancing the frontier--by generating 
ideas, marking out creative paths, and solving fundamental research 
questions--is epitomized within ENG. It is important to emphasize that 
it is through such fundamental science and engineering investment by 
which next generation technologies are spawned. Examples of successes 
emerging from ENG include the development of a new method to precisely 
carve arrays of tiny holes only 10 nanometers wide into sheets of gold 
by applying electric current through a thin film of oil molecules. The 
process may yield miniscule molecular detection devices, semiconducting 
connectors, molecular sieves for protein sorting, and nanojets for fuel 
or drug delivery. ENG has also funded pioneering work to develop a 
device that enables previously blind individuals to perceive light and 
patterns. A retinal implant uses an external camera and image-
processing unit to send signals through the optic nerve to the brain. 
ENG's university-based research itself has developed buoys that can 
harness the motion of the ocean to produce electricity. Each buoy could 
potentially produce 250kW of power, and the technology can be scaled up 
or down to suit a variety of energy needs.
    NSF leads the U.S. nanotechnology research effort, and ENG is the 
focal point within NSF for this critical national research endeavor. 
ASME has strongly supported the National Nanotechnology Initiative 
(NNI) since its inception as an NSF priority area in fiscal year 2000. 
By advancing fundamental research and catalyzing synergistic science 
and engineering research and education in emerging areas of nanoscale 
science and technology, we push the frontiers of knowledge and 
innovation, fueling our national economic enterprise. Within the total 
investment for NNI, ENG will fund approximately 30 new awards on 
Nanoscale Interdisciplinary Research Teams (NIRT) or NIRT-like projects 
($65 million across NSF).
    Finally, ASME continues to endorse NSF's bolstering of K-12 
education. In partnership with the Department of Education, NSF will 
invest $104 million to strengthen K-12 science, technology, 
engineering, and mathematics education. Additionally, funding for 
Graduate Teaching Fellowships in K-12 Education will increase by nearly 
10 percent to $56 million. By pairing graduate students and K-12 
teachers in the classroom, effective partnerships between institutions 
of higher education and local school districts are established.
Questions and Concerns
    Continuing with central themes raised in previous years, ASME's key 
questions and concerns arising from the fiscal year 2007 budget request 
center on matters of balance. In particular, ASME is concerned with:
  --gross funding imbalance in the federal R&D portfolio,
  --inadequate funding levels for existing grants, and
  --insufficient funding for core disciplinary research in the ENG 
        portfolio.
    Despite the encouraging increase for NSF in fiscal year 2007 as the 
first installment of the new ACI NSF 10-year budget-doubling effort, 
the present overall budget request of $6.02 billion is still far below 
the $9.8 billion originally authorized for 2007 as part of the National 
Science Foundation Authorization Act of 2002 (H.R. 4664). NSF is the 
only federal agency with a mandate to strengthen the health and 
vitality of U.S. science and engineering and support fundamental 
research and education in all scientific and engineering disciplines. 
Although NSF investments account for only 4 percent of total federal 
funding for R&D, NSF provides 22 percent of federal support to academic 
institutions for basic research, which is crucial in non-medical fields 
and disciplines. Moreover, while NSF does not directly support medical 
research, its investments directly benefit the medical sciences and 
related industries, providing the needed advances in diagnosis, 
regenerative medicine, drug delivery, and the design and manufacturing 
of pharmaceuticals. Given NSF's essential contribution to the immediate 
and future welfare, growth, and vitality of our Nation, the ASME NSF 
Task Force believes strongly that NSF is still severely under funded.
    NSF has had considerable success to date in stretching its funds. 
NSF is one of three agencies that have been recognized as models of 
excellence in Grants Management. However, this efficiency comes at the 
expense of quality research. The funding success rate for NSF has 
dropped dramatically, from 30 percent in the late 1990s to an estimated 
20 percent for fiscal year 2006 agency wide. This funding success rate 
is estimated to be 21 percent for fiscal year 2007--a very modest 
increase. The number of outstanding, meritorious proposals far exceeds 
the available funding for new programs. Nevertheless, even maintaining 
current grant size and duration is not enough. An extended period of 
constant grant sizes has eroded buying power and the ability to 
adequately support professional development. The projected average 
annualized award size for research grants for NSF fiscal year 2007 is 
$148,300, for a project duration of 3 years. Moreover, ENG has the 
lowest estimated funding success rate for research grants of the 
directorates at 14 percent for fiscal year 2006. ENG has the second 
lowest average annualized award size and project duration for research 
grants of the directorates at $118,000 for a project duration of 2.9 
years, as compared to the overall NSF average of $143,000 for a project 
duration of 3 years, for estimated fiscal year 2006.
    In the current budget, ENG receives the largest percent increase of 
the Directorates at 8.2 percent (corresponding to the second largest 
total amount increase at $47.6 million). However, funding available for 
core programs comes into question. As noted earlier, the new Sensor 
initiative constitutes 42 percent of the increase for ENG. In fact, 
investments in the priority areas and the IIP division, which houses 
the SBIR/STTR program, constitute 54 percent of the budget request for 
ENG. The limited funding for unsolicited fundamental research proposals 
is of great concern, considering that new priority areas and even new 
disciplines are engendered from such sources. The Task Force does not 
advocate for the redistribution of monies from priority areas into core 
areas, but rather significant increases for ``unfenced'' funds in order 
to develop creative and novel ideas that feed the comprehensive 
fundamental Science, Engineering, and Technology knowledge base, which 
has been a cornerstone of this Nation's greatness.
                                closure
    ASME supports the administration's request of $6.02 billion for 
fiscal year 2007, and enthusiastically applauds the National Science 
Foundation's leadership in articulating the Nation's basic research and 
development vision. Because NSF is the only federal agency that 
supports all fields of science and engineering research, ASME still 
feels that NSF is severely underfunded. A substantial and steady 
increase in NSF's budget, by increasing both the number and size of its 
awards, especially in core disciplinary research and education, will 
enable NSF to better position itself to fulfill its leadership 
responsibility in directing the Nation's research and development 
activities. Thank you for the opportunity to comment on the NSF fiscal 
year 2007 budget request.
                                 ______
                                 

 Prepared Statement of the Shoshone-Bannock Tribes Fort Hall Business 
                                Council

    As chairman of the Shoshone-Bannock Tribes of the Fort Hall 
Reservation, I am pleased to submit written testimony to the 
subcommittee regarding President Bush's fiscal year 2007 budget for the 
Department of Justice and its Office of Tribal Justice. The tribes 
recognize the considerable financial burden which the war in Iraq and 
Hurricane Katrina relief effort has placed on the Federal Government. 
We are disheartened and concerned, however, to witness the resulting 
negative impact those funding priorities have caused to programs 
enacted for the benefit of federally recognized Indian tribes, 
especially funding for construction of correctional facilities, police 
departments, and Tribal courts.
    Our physical structures for housing these essential governmental 
programs and personnel are unsafe, inadequate and are not up to code 
requirements. They require replacement. With more than one-half million 
acres of land to patrol and safeguard, we must operate our public 
safety programs wisely. Congress has documented the deplorable 
conditions of detention facilities in Indian country. We ask that you 
act and assist us and other Indian tribes to finance the construction 
of vital infrastructure for our reservations.
    Congress can shore up the Federal Government's on-going trust 
responsibility by restoring and increasing proposed cuts to successful 
programs of the Department of Justice, including the Correctional 
Facilities on Tribal Lands Program, the Tribal Court Assistance Program 
(TCAP), the Tribal Resources Grant Program, and the Tribal Youth 
Program. Proposed reorganization of Justice Programs mask program cuts 
to these and other important Justice Department grant programs.
    As Regina Schofield, Assistant Attorney General, Office of Justice 
Programs, has stated, the needs of Indian Tribal governments to combat 
crime and violence in Indian country continue to be great. The Justice 
Department's Office of Justice programs offer a variety of grants to 
Indian tribes to assist us in our efforts to curb criminal activities, 
assist victims of crime, and deter future criminals by educating our 
younger members. But without the physical structures to house our law 
enforcement personnel, corrections officers and detainees, and Tribal 
Court personnel in, or the funds required to carry out much-needed 
programs to assist our adult and juvenile detainees, our capabilities 
are unnecessarily constrained.
    As always, we are appreciative of the work of this subcommittee for 
your many efforts to improve the quality of life for American Indians. 
We count on the subcommittee to counter overbroad and harmful budget 
cuts to programs of the Department of Justice which contribute to the 
safety of American Indians, who are often the victims of crime.
    We request that this subcommittee significantly increase funding 
for Justice Department programs that assist Indian tribes construct 
police departments, detention facilities and Tribal Courts. Funding for 
the Office of Justice programs' Correctional Facilities on Tribal Lands 
program has dropped off significantly in the last few years. In 2006, 
we understand that the program will fund new construction for only one 
structure in Indian country, with the balance of the program's funding 
(less than $2.0 million) going to assist only existing correctional 
facilities located in Indian country bring their structures up to code. 
The administration has not included funds for this program in fiscal 
year 2007.
    The Fort Hall Business Council of the Shoshone-Bannock Tribes has 
made infrastructure its priority funding request for the fiscal year 
2007 appropriations cycle. Building Phase II of the tribes' Justice 
Center is among the tribes' top priorities. The tribes' have committed 
$4.8 million toward construction of the 67,000 square foot Justice 
Center. Our Justice Center facility has been designed by Lombard Conrad 
Architects of Boise, Idaho. It will house the tribes' police 
department, Tribal Courts, and a 100-bed detention center which will 
have space for 20 juvenile detainees, with ``sight and sound'' 
separation. The Tribes require $6.2 million in Federal grants and loans 
to finance the second phase of the project, construction of the 
detention center and the shell for the police department and Tribal 
Courts.
    For too many years, a crisis has persisted regarding the lack of 
basic infrastructure in Indian country. In good economic times and bad, 
Indian country lacks adequate roads, safe drinking water, sewers, gas 
and electric lines, as well as law enforcement officers, Tribal Court 
personnel, and detention facilities to house our members and generally 
protect the health and safety of our members, non-Indian reservation 
residents, and the visiting public. As Tribal governments have grown 
stronger and more stable over the years, we have witnessed a decrease 
in federal appropriations just when our needs are greatest and tribal 
capabilities are at their highest.
    Just as the administration and Congress recognize that stable and 
peaceful governments and nations can only take root when a population's 
basic human needs are met, the Congress must do the same for Indian 
country here in the United States.
    We ask the Congress--which has the power of the purse and which, 
together with the Executive Branch, holds a position of trustee as to 
the Indian nations and Indian people--to restore budget cuts to already 
under-funded tribal programs of the Department of Justice. The 
administration's proposed fiscal year 2007 budget does not eliminate 
government excess. It cuts vital sources of revenue which the Federal 
Government pays directly to Tribal governments to improve our 
infrastructure.
    Pursuant to the landmark Indian Self-Determination Act, the 
Shoshone-Bannock Tribes have stepped into the shoes of the Secretary of 
the Interior to assume her duties and obligations to the tribes and our 
members. We have contracted law enforcement, Tribal Courts, and 
detention facility operations. The Fort Hall Police Department is 
comprised of 34 employees with six divisions (administration, patrol, 
detention, communications/dispatch, criminal investigations and gang 
investigations). In recent years our tribal police have been helped by 
grants from the Department of Justice's COPS program. While we are 
encouraged by the administration's proposed $16 million increase to the 
Tribal COPS program, the administration has cut other important Office 
of Justice programs which benefit Indian country. If we do not receive 
adequate funding, we will lose well-trained and qualified personnel. 
The remaining officers will work in unsuitable conditions.
    Our existing structures hamper our ability to promote law and order 
on the Fort Hall Reservation and curtail violence from spreading off 
the Reservation. In 2005, the tribes entered into Memoranda of 
Understanding with city and county governments to facilitate the 
investigation and response to illegal drug activities in their 
respective jurisdictions. The tribes are pleased to see Congress taking 
affirmative measures to curb violence against Indian women. We want to 
do our part to curtail violence in southeastern Idaho. Our physical 
plant limitations make it more difficult for us to be strong partners 
with local law enforcement agencies at a time of growing gang and drug 
(methamphetamine) violence.
    The Tribal Court system handles roughly 4,000 civil and criminal 
cases each year, in addition to 1,500 juvenile cases. With just a 
single working courtroom, the tribes face a severe backlog of cases. 
The courts must delay or dismiss cases that should be tried. The Tribal 
Police Department needs more space for evidence storage. Detectives and 
investigators share common workspace, there is no space for 
interviewing witnesses or informants, and the Patrol Division lacks 
space to write up reports. With a new structure, our law enforcement 
capabilities will increase tremendously.
    The corrections facility space was not designed as a jail and is 
not up to code requirements. Just this month a detainee escaped because 
of the crumbling detention facility. There is no space for medical 
treatment or education of our tribal detainees. We would like to offer 
these detainees programs for continuing education (GED) as well as 
spiritual and culturally-appropriate programs so that they may 
integrate into society with improved skills. There are no visitor 
facilities. The layout makes it difficult to prevent visual contact 
between male and female detainees. There is no ``sight and sound'' 
separation of juvenile detainees. Thousands of dollars are expended 
each year by the tribes to house juvenile detainees in other 
jurisdiction's detention centers, removing them from family and 
community and thus increasing the risk that they will become repeat 
offenders.
    We also are required to provide health services to American Indian 
detainees from other jurisdictions who avail themselves of the Indian 
Health Service clinic located at Fort Hall. The clinic does not receive 
reimbursement for the provision of health services to these 
individuals. If we had a state-of-the-art Tribal Justice Center, with a 
100-bed detention center, we could house these American Indian 
detainees and provide them with the services they require and receive 
adequate compensation from other jurisdictions.
    The Fort Hall Business Council decided in 2006 to divide 
construction of the fully designed Justice Center into phased 
construction to spread out the estimated $17.9 million construction 
costs. The tribes are also exploring the feasibility of accessing 
private, low-interest loans to build the Justice Center.
    The 100-bed detention center will have 80 adult beds and 20 
juvenile beds. Excess space will be leased out to accommodate 
surrounding jurisdictions' American Indian adult and juvenile 
detainees. Leasing available bed space will provide the tribes with 
additional revenues to fund the operation and maintenance costs, as 
well as the salaries of the Justice Center detention program, thus 
lowering the annual operating cost of maintaining a state-of-the-art 
facility. BIA Office of Law Enforcement Services officials have also 
stated that the U.S. Bureau of Prisons needs detention space which 
comply with Federal standards for its American Indian detainees.
    The tribes subsidized their Indian Self-Determination Act Law 
Enforcement and Tribal Courts contracts with the BIA in 2004 in the 
amount of $1.6 million. The tribes subsidized Indian Health Service 
operations with a $3.9 million annual health insurance program for 
Tribal employees, permitting the IHS to bill third-party health 
insurers to fund their operations, as well as providing tribal revenues 
to shore up health programs vital to the reservation community. These 
funds could have been used for construction of our Justice Center. The 
tribes require Federal assistance to build the Justice Center so that 
its criminal justice programs may operate at their full potential.
    The budgets of the Justice Department's Correctional Facilities on 
Indian Lands program, and similar programs funding construction of 
infrastructure in Indian country must be increased in fiscal year 2007 
if we are to access the capital required to complete Phase II. State 
and local government officials support our Justice Center.
    The Shoshone-Bannock Tribes' Police Department, corrections 
officers, and Tribal Court personnel keep us safe. They protect our 
families and communities. They save lives. In the wake of 9/11, 
Americans truly appreciated the sacrifice of the Nation's first 
responders; they put their lives on the line every day. Congress has 
recognized how important it is to build infrastructure on Indian 
reservations--law enforcement, Tribal courts, schools, health centers, 
roads, water and sewer systems, and utilities--if tribal communities 
are to attract and retain business, promote economic development, and 
maintain law and order in predominantly rural Indian communities. 
Reservations boundaries are porous and are becoming more so every day.
    Thank you for affording the Shoshone-Bannock Tribes the opportunity 
to make known our comments regarding the President's budget proposal 
for the Justice Department and our needs for fiscal year 2007.
                                 ______
                                 

          Prepared Statement of the Puyallup Tribe of Indians

    Mr. Chairman, my name is Herman Dillon, Sr., Puyallup Tribal 
Chairman. We thank the committee for past support of many tribal issues 
and in your interest today. We share our concerns and request 
assistance in reaching objectives of significance to the Congress, the 
Tribe, and to 32,000+ Indians (constituents) in our Urban Service Area.
    U.S. Department of Justice--Office of Tribal Justice--The Puyallup 
Tribe has analyzed the President's fiscal year 2007 budget and submit 
the following detailed written testimony to the Senate Subcommittee on 
the Commerce, Justice, State, the Judiciary and Related Agencies. In 
the fiscal year 2006 budget process, the Puyallup Tribe supported 
actions of Congress to restore the base level funding for various law 
enforcement and public safety programs. We look forward to working with 
the 109th Congress to insure that funding levels for programs necessary 
for the Puyallup Tribe to carry-out our sovereign responsibility of 
self-determination and self-governance for the benefit of Puyallup 
Tribal members and the members from approximately 435 federally 
recognized tribes who utilize our services are included in the fiscal 
year 2007 budget. The following provides a brief review of the Puyallup 
Tribe's priorities and special appropriation requests for fiscal year 
2007;
    Puyallup Nation Law Enforcement.--The Puyallup Reservation is 
located in the urbanized Seattle-Tacoma area of the State of 
Washington. The 18,061 acre reservation and related urban service area 
contains 17,000+ Native Americans from over 435 tribes and Alaskan 
villages. The Puyallup Nation Law Enforcement Division currently has 26 
commissioned officers to cover 40 square miles of reservation in 
addition to the usual and accustomed areas. The officers are charged 
with the service and protection of the Puyallup Reservation 7 days a 
week, 24 hours a day. We currently operate with limited equipment, 
patrol vehicles requiring constant repair and insufficient staff 
levels. With the continuing increase in population, increase in gang 
related activities on the Puyallup Reservation and the impact of the 
increase in manufacturing of meth amphetamines in the region, the 
services of the Puyallup Nation Law Enforcement Division are exceeding 
maximum levels.
    A major area of concern is the status of the Tribes Regional 
Detention Facility. Due to damages from the February 2001 Nisqually 
earthquake, we have had to relocate to modular/temporary facilities. As 
a regional detention facility, the relocation to the modular facility 
not only impacts the tribe's ability to house detainee's but also the 
approximately 173 native inmates that were incarcerated at the Puyallup 
Incarceration facility during the period of 2001-2002. Relocation to 
the modular facility has also impacted the tribes ability to house 
juvenile detainees. With no juvenile facilities, Native American youth 
are sent to non-native facilities The President's budget request 
provides zero funding for the construction of tribal detention 
facilities in fiscal year 2007. Indian country will be negatively 
impacted by the proposed elimination of funding for tribal detention 
facilities. The total estimated backlog is approximately $400 million. 
In fiscal year 2006, $5 million was provided to construct tribal 
detention facilities. We respectfully request congressional support:
  --Fund the Department of Justice--Detention Facilities Construction 
        program for fiscal year 2007 at a minimum of $30 million for 
        new construction.
  --Support from the subcommittee on the tribes request for funding to 
        design and construct an Adult & Juvenile Detention Facility on 
        the Puyallup Reservation, in the amount of $6.5 million.
    Tribal Court System.--The Tribal Court system is an independent 
branch of the Puyallup Tribal Government having jurisdiction over 
17,000+ Indians within our service area. Jurisdiction extends 
throughout our 18,061 acre reservation and our U&A Grounds for Hunting 
and Fishing. Partial court funding is provided via a Public Law 93-638 
Contract; the funding level has varied little during the past 5 years 
covering only costs of supplies, expenses and partial funding of the 
Court Administrator's salary. Compensation costs for the Judge, 
Prosecutor, Public Defender, Children's Court Counselor and Clerical 
are at best, intermittent. Current levels of federal support are 
grossly inadequate thereby effectively denying access to equal justice.
    Operations of a Tribal Court system with jurisdiction over the 
3,200+ tribal members and the 17,000+ Indians is extremely costly. 
Sufficient funding is needed for the salaries of the Court 
Administrator, Judge, Prosecutor, Public Defender, Children's Court 
Counselor and Clerical. Our needs to provide juvenile services and 
multi disciplinary investigations of child abuse and domestic violence 
abuse is critical. The Tribal Court System lacks the basic resources 
most court systems take for granted, such as; the Federal Digest, the 
Federal Rules decisions, Washington State Reporters and access to the 
Lexus Data Base. A frame work is in place for an adequate court system, 
however we lack sufficient finding due to competing demands/priorities 
we cannot provide funding to other departments--some of which attempt 
timely intervention strategies to lessen court involvement. We have 
provided supplementary support to the court system for the past 8 
years. With the projected increase demand on the court system services, 
it is anticipated that this shortfall will increase over the next 5 
years. We seek congressional support and endorsement in:
  --Request subcommittee support to fund the Office of Tribal Justice--
        Tribal Court System at no less than $8 million for fiscal year 
        2007.
    Community Oriented Policing Services (COPS).--The President's 
budget request proposes to fund the COPS for Indian Country at $31 
million for fiscal year 2007. This represents an overall reduction in 
funding of 33 percent from the fiscal year 2006 enacted level. This 
takes into consideration the administration proposal to eliminate the 
Tribal Court Assistance, Indian Alcohol and Substance Abuse, and Tribal 
Youth programs, and have those programs funded instead through the COPS 
program. As stated in the in U.S. Senate Committee on Indian Affairs 
letter to Committee on the Budget, this action could ``subject these 
important programs to the COPS program's 3-year non-reoccurring funding 
scheme.'' This program provides an essential service to the public 
safety and welfare in Indian County and assist tribal efforts to 
increase the number of law enforcement officers. Today, there are 1.3 
law enforcement officers per 1,000 citizens in Indian county, compared 
to 2.9 law enforcement officers per 1,000 citizens in non-Indian 
communities.
    The demand on law enforcement services will increase as Tribal 
governments continue to enhance civil and criminal justice 
administration and as Tribal governments play an integral role in 
securing America's borders, citizens and physical infrastructure. This 
demand is further impacted by the existing and growing ``gang problem'' 
within the boundaries of the Puyallup Reservation. These gangs are 
different than other reservations due to our urban setting (Puget Sound 
region of the State of Washington), five other city boundaries next to 
our exterior boundaries, six separate local jurisdictions and 
Interstate 5 traversing through the reservation. In an effort to combat 
these gang activities, the Puyallup Tribal council created a Gang Task 
Force from the Tribal Police Department, representatives from various 
tribal services divisions and community members. The Gang Task Force 
developed a gang policy that includes a four prong approach to gang 
related activities. They are: enforcement; intelligence; education; and 
physical-mental health. These programs are currently being implemented 
or being designed for use with supplies and staff being provided by the 
tribe. What is needed to move forward is funding in each pronged 
approach. Enforcement with additional officers, continued training, 
equipment and adequate detention facilities for adults and juveniles. 
Intelligence with equipment, computer software programs and staffing. 
Education with computer software programs, equipment and staffing. 
Physical-mental assistance with funding, equipment and staffing for 
support of family services and Tribal Health Authority. We seek 
congressional support and endorsement:
  --Request subcommittee support to fund the Office of Tribal Justice--
        COPS at $31 million for fiscal year 2007.
  --Request subcommittee support in funding the Indian alcohol and 
        Substance Abuse Demonstration program at no less than $5 
        million for fiscal year 2007.
  --Request subcommittee support in funding the Tribal Youth Program at 
        no less than $10 million for fiscal year 2007.
  --Request subcommittee support in funding the ``Meth Hot Spots'' 
        program to fund cleanup of meth labs at no less than $40 
        million for fiscal year 2007 and request that the subcommittee 
        issue directive language to the Department of Justice to 
        include this amount in their fiscal year 2008 budget.
  --Request subcommittee support in funding programs authorized under 
        the Violence Against Women Act (VAWA), restore funding for 
        these programs at $387 million for fiscal year 2007 and request 
        the subcommittee to issue directive language to the Department 
        of Justice to include this amount in their fiscal year 2008 
        budget.
                                 ______
                                 

            Prepared Statement of the City of Webster, Texas

    Mr. Chairman and honorable members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $1.54 million from the Coastal and Estuarine Land 
Conservation Program for the Clear Creek Park project in Webster, 
Texas.
    Five miles south of NASA's mission control center at the Johnson 
Space Center, Clear Creek meanders by the City of Webster in Harris 
County. Flowing eastward from its source near Missouri City, Clear 
Creek is a tributary of the Galveston Bay estuary. As the creek nears 
the shores of Galveston Bay, a rich coastal ecosystem develops 
featuring coastal prairie, marshes, wetlands, migratory bird habitat, 
and riparian forests. Several parks along the corridor in both Harris 
and Galveston counties provide residents and visitors with 
opportunities for recreation, outdoor education, and other open space 
activities.
    Webster lies at the lower end of the Clear Creek watershed and is 
home to diverse communities of ecologically important coastal habitats 
and systems. Riparian forests of willow oaks, water oaks, and cedar 
elms provide habitat for amphibians, owls, hawks, neotropical migrant 
birds, and the reddish egret, a State listed threatened bird species. 
Along the creek banks are several areas of coastal prairie. As less 
than 1 percent of North American grassland prairie remains, it is 
critical to protect and restore remaining native prairie lands. Near 
Clear Lake and the entrance to Galveston Bay, marshes, wetlands, and 
embayments support fish, waterfowl, and migrant birds. The bay was 
recognized in 1988 as an estuary of national importance in the National 
Estuary Program, and it is one of 28 such monitored estuaries in the 
Nation. The comprehensive management plan of the Galveston Bay Estuary 
program identified wetlands habitat loss and degradation as a priority 
problem in the estuarine system.
    The Clear Creek corridor offers the potential for significant 
recreational opportunities for residents and visitors. Several parks 
operated by local governments extend along the creek, including Harris 
County's Challenger Seven Memorial Park, Galveston County's Walker Hall 
Park, and League City's Erikson Tract and Clear Creek Nature Park. In 
order to enlarge and further link this important corridor of parks and 
reserves, the City of Webster has proposed the acquisition of 
approximately 270 acres along the northern banks of the creek for a new 
Clear Creek Park.
    Within the planned park area, the City of Webster envisions 
building a trail along Clear Creek for hiking and biking. The trail 
will also feature access to launch sites on the creek for canoeing and 
kayaking, small piers for fishing, observation points and decks for 
bird watching, and picnic areas for families. The multiple 
opportunities along the trail are expected to accommodate and 
contribute to outdoors and environmental education. The opening of a 
trail would also advance the Galveston Bay Estuary Program's goal of 
increasing public access to Galveston Bay and its tributaries.
    Identified for acquisition with fiscal year 2007 funds are 
approximately 175 acres within the proposed Clear Creek Park 
boundaries, nearly 65 percent of the total planned park acreage. Once 
acquired, the City of Webster will own and maintain the property as a 
public park and conservation area. Purchase of this property is 
critical to the protection of habitat and recreational open space along 
Clear Creek, one of the few remaining unchannelized stream and river 
corridors in the Houston metropolitan area. Development is currently 
the largest threat to habitat in the Galveston Bay estuary, and some 
parcels within the park area have already been sold. If additional 
tracts in the proposed Clear Creek Park area are developed, the creek's 
floodway would be degraded by loss of wetlands and increase in runoff 
pollutants.
    The total value of this property is $3.08 million. In order to 
complete its purchase, an appropriation of $1.54 million from the 
Coastal and Estuarine Land Conservation program is needed in fiscal 
year 2007. Clear Creek Park will protect critical coastal land and 
provide multiple recreational possibilities to residents of Webster and 
other nearby communities.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony in support of the appropriation for Clear Creek Park and for 
your consideration of the request.
                                 ______
                                 

         Prepared Statement of Santa Barbara County, California

    Mr. Chairman and Honorable Members of the subcommittee: I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $1 million from NOAA's Coastal and Estuarine Land 
Conservation program for Gaviota State Park.
    Located in western Santa Barbara County between Coal Oil Point and 
Point Sal, approximately 100 miles north of Los Angeles, the Gaviota 
Coast lies between the Channel Islands National Marine Sanctuary and 
the Los Padres National Forest. Offering a wide variety of natural, 
recreational and agricultural resources, it is a high priority area for 
conservation and is southern California's largest remaining stretch of 
pristine coastline. This remarkable 80-mile landscape represents only 
15 percent of the Southern California coast, but it contains about 50 
percent of its remaining undeveloped land.
    With the constant threat of urban sprawl and development, many 
Californians have taken an active part in preserving Gaviota's 
agricultural heritage and natural resources. The area is one of only 
five places in the world with a Mediterranean climate and associated 
vegetation, and it has a history of agricultural use. The topography of 
the area varies from rocky and narrow beaches to chaparral covered 
mountain slopes. There is also a variety of grassland, shrubland, and 
woodland habitat, with scattered vernal pool communities, estuaries, 
and native grasslands.
    With a vast array of habitat, the Gaviota Coast is home to many 
species of marine and terrestrial wildlife. Marine animals found along 
the coast include dolphin, gray whale, the endangered Guadalupe fur 
seal, and steelhead trout. Terrestrial wildlife includes mountain lion, 
mule deer, golden eagle, and endangered species such as the California 
condor, brown pelican, and marbled murrelet.
    Available for acquisition in fiscal year 2007, the Gaviota State 
Park Addition project is a 43-acre site adjacent to Gaviota State Park. 
This popular park unit serves 86,000 visitors annually and the addition 
of the subject property would enable California State Parks to expand 
the existing trail system, develop new trailheads, provide trailhead 
serving facilities for the park's many visitors and develop much-needed 
campgrounds. The expansion of Gaviota State Park is a top priority for 
State Parks and for Santa Barbara County.
    Immediately adjacent to Highway 101, this 43-acre property is zoned 
for commercial use. Commercial land uses in these coastal foothills are 
incompatible with county and State efforts to prevent inappropriate 
development and protect critical natural, scenic, and recreational 
resources. Acquiring lands adjacent to the park will protect these 
streams from the degradation that would occur from development-related 
pollution.
    Because of its location among other protected properties and 
agricultural lands, this project is part of a larger effort to piece 
together up to 10,000 contiguous acres of protected coastal wildlands 
and open space from the mountains to the sea, including the Los Padres 
National Forest and lands owned and managed by the local Land Trust for 
Santa Barbara County. The subject property is the linchpin for this 
larger assemblage, as it is the only property with commercial zoning on 
a 35-mile stretch of the Gaviota Coast. The total cost of the project 
is $2.5 million, with State and local sources providing the matching 
funds.
    An fiscal year 2007 appropriation of $1 million from NOAA's Coastal 
and Estuarine Land Conservation program is needed to acquire and 
protect this 43-acre property. If added to Gaviota State Park, it will 
expand recreational opportunities, provide much needed visitor 
facilities, protect scenic viewshed and conserve important wildlife 
habitat.
    Thank you, Mr. Chairman for the opportunity to present this 
testimony and for your consideration of the request for an 
appropriation of $1 million for Gaviota State Park.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
